<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-740]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-740

        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4850/S. 2826

  AN ACT MAKING APPROPRIATIONS FOR THE GOVERNMENT OF THE DISTRICT OF 
 COLUMBIA AND OTHER ACTIVITIES CHARGEABLE IN WHOLE OR IN PART AGAINST 
THE REVENUES OF SAID DISTRICT FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 
                      2005, AND FOR OTHER PURPOSES

                               __________

                          District of Columbia

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
92-140                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                      MIKE DeWINE, Ohio, Chairman
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska (ex officio)     ROBERT C. BYRD, West Virginia (ex 
                                         officio)
                           Professional Staff

                             Mary Dietrich
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              

                      Wednesday, February 25, 2004

                                                                   Page
District of Columbia: Courts.....................................     1

                        Wednesday, March 3, 2004

District of Columbia:
    Court Services and Offender Supervision Agency...............    39
    Public Defender Service......................................    85

                        Wednesday, May 19, 2004

District of Columbia.............................................   103

 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.
    Also present: Ms. Norton and Senator Strauss.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF ANNICE M. WAGNER, CHIEF JUDGE, DISTRICT OF 
            COLUMBIA COURT OF APPEALS; CHAIR, JOINT 
            COMMITTEE ON JUDICIAL ADMINISTRATION
ACCOMPANIED BY RUFUS G. KING, III, CHIEF JUDGE, SUPERIOR COURT OF THE 
            DISTRICT OF COLUMBIA


               opening statement of senator mike de wine


    Senator DeWine. Welcome, everyone. We have with us this 
morning two members of the Kiev City Council. Let me see if I 
can do the pronunciation, Yurly Zumko and Andre Radrewski. If 
you could stand, in the back. Thank you very much for joining 
us. I am glad to have you with us.
    I hope you enjoy your stay with us today; I hope we do not 
bore you too much with our hearing today.
    This hearing today will come to order. We will convene the 
first fiscal year 2005 budget hearing for the District of 
Columbia.
    I want to take this opportunity to, again, thank Senator 
Landrieu, our subcommittee's Ranking Member and to recognize 
her continued commitment to improving life for the residents of 
this Nation. It is good to be with you again.
    Over the years, Senator Landrieu and I have worked together 
on a number of important issues for our Nation's Capital, and I 
am sure that we will continue to work together this year as we 
work on the fiscal year 2005 D.C. Appropriations Bill.
    Today, we are considering the fiscal year 2005 budget 
request for the District of Columbia Courts. Under the National 
Capital Revitalization and Self-Government Improvement Act of 
1997, the Federal Government is required to finance the 
District of Columbia Courts.
    The President has requested $228 million for the Courts in 
fiscal year 2005. This is $60.2 million more than the fiscal 
year 2004 enacted level. I understand that the lion's share of 
this increase is to be used to restore the now vacant Old 
Courthouse, so that it can house the Court of Appeals, which in 
turn, will free up more space in the Moultrie Courthouse for a 
safe, family-friendly Family Court.
    The renovation of the Old Courthouse also will be an 
important historical preservation achievement. This building, 
the fourth oldest in the District of Columbia, has great 
historic significance. It is where President Lincoln's first 
inaugural ball was held, and where his assassination 
conspirators were tried and convicted.
    For a time, the building served as a hospital for the 
wounded soldiers of the Union Army. It is here where Frederick 
Douglass had his offices and where Daniel Webster practiced 
law.
    The fiscal year 2005 funding request will allow this very 
historic building to be restored to its former majesty, while 
also configuring it to be used to serve the people of the 
District as a working courthouse.
    I am pleased that Judge Wagner, Judge King followed the 
advice of this subcommittee and made a compelling case to OMB 
to support these construction efforts. I congratulate them for 
it. It is to their credit that the President has included 
adequate funding for these important Capital projects in his 
budget request.
    I must say, however, that I am concerned to know that court 
officials and representatives of the National Law Enforcement 
Museum Fund have, unfortunately, been unable to reach an 
agreement on the design of their shared space in Judiciary 
Square.
    On the one hand, Congress has mandated that the Courts 
reorganize and improve their services and facilities, which the 
Courts are beginning with the renovation of the Old Courthouse. 
On the other hand, Congress authorized the National Law 
Enforcement Memorial Fund to build an underground Law 
Enforcement Museum on Federal land that partially abuts the Old 
Courthouse. It is my firm belief that the Courts and the Law 
Enforcement Memorial Fund should reach an agreement that 
complies with both mandates. I am sure that they will be able 
to do this.
    I understand that the Courts and the Memorial Fund 
fundamentally disagree on the level of construction and the 
design of the plaza area, which will provide the entryway to 
both buildings. This disagreement has apparently been going on 
for almost a year, with no resolution in sight.
    I am concerned that this apparent impasse will result in 
delays to the construction schedule and, in turn, increased 
construction costs.
    As chairman of this subcommittee, which appropriates 100 
percent of the funding for the D.C. Courts, I want to work to 
ensure that there are no construction cost overruns involving 
Federal funds.
    As our hearing begins, Judge Wagner and Judge King will 
present the Courts' overall budget request, and then I will ask 
our witnesses from the National Law Enforcement Memorial Fund, 
the National Capital Planning Commission, and the Commission of 
Fine Arts to join the panel to discuss the design disagreement, 
which I have just mentioned.


                           PREPARED STATEMENT


    Witnesses will be, of course, be limited to 5 minutes for 
their oral remarks. Copies of all written statements will be 
placed in the record in their entirety.
    [The statement follows]:

               Prepared Statement of Senator Mike DeWine

    Good morning. This hearing will come to order. Today I am convening 
the first fiscal year 2005 budget hearing for the District of Columbia. 
I want to take this opportunity to thank Senator Landrieu, our 
subcommittee's Ranking Member, and to recognize her continued 
commitment to improving life for the residents of the District of 
Columbia. Over the years, Senator Landrieu and I have worked together 
on a number of important issues for our Nation's capital, and I am sure 
that we will continue to reach across the aisle as we begin work on the 
fiscal year 2005 District of Columbia appropriations bill.
    Today, we are considering the fiscal year 2005 budget request for 
the District of Columbia Courts. Under the National Capital 
Revitalization and Self-government Improvement Act of 1997, the Federal 
Government is required to finance the District of Columbia Courts.
    The President has requested $228 million for the Courts in fiscal 
year 2005. This is $60.2 million more than the fiscal year 2004 enacted 
level. I understand that the lion's share of this increase will be used 
to restore the now-vacant Old Courthouse so that it can house the Court 
of Appeals, which, in turn, will free up more space in the Moultrie 
Courthouse for a safe, family-friendly Family Court. The renovation of 
the Old Courthouse also will be an important historic preservation 
achievement. This building--the 4th oldest in the District of 
Columbia--has great historic significance. It is where President 
Lincoln's first inaugural ball was held and where his assassination 
conspirators were tried and convicted. For a time, the building served 
as a hospital for wounded soldiers of the Union Army. It is here where 
Frederick Douglass had his offices and where Daniel Webster practiced 
law.
    The fiscal year 2005 funding request will allow this very historic 
building to be restored to its former majesty, while also configuring 
it to be used to serve the people of the District as a working 
courthouse.
    I am pleased that Judge Wagner and Judge King followed the advice 
of this subcommittee and made a compelling case to OMB to support these 
construction efforts. It is to their credit that the President has 
included adequate funding for these important capital projects in his 
budget request. I am concerned, however, to know that Court officials 
and representatives of the National Law Enforcement Museum Fund have 
been unable to reach an agreement on the design of their shared space 
in Judiciary Square. On the one hand, Congress has mandated that the 
Courts reorganize and improve their services and facilities, which the 
Courts are beginning with the renovation of the Old Courthouse. On the 
other hand, Congress authorized the National Law Enforcement Memorial 
Fund to build an underground Law Enforcement Museum on Federal land 
that partially abuts the Old Courthouse. It is my firm belief that the 
Courts and the Law Enforcement Memorial Fund should reach an agreement 
that complies with both mandates.
    I understand that the Courts and the Memorial Fund fundamentally 
disagree on the level of construction and the design of the plaza area, 
which will provide the entryway to both buildings. This disagreement 
has apparently been going on for almost a year, with no resolution in 
sight. I am concerned that this apparent impasse will result in delays 
to the construction schedule and, in turn, increased construction 
costs. As Chairman of this subcommittee, which appropriates 100 percent 
of the funding for the D.C. Courts, I want to work to ensure that there 
are no construction cost overruns involving Federal funds.
    As our hearing begins, Judge Wagner and Judge King will present the 
Courts' overall budget request, then I will ask our witnesses from the 
National Law Enforcement Memorial Fund, the National Capital Planning 
Commission, and the Commission of Fine Arts to join the panel to 
discuss the design disagreement which I have mentioned.
    Witnesses will be limited to 5 minutes for their oral remarks. 
Copies of all written statements will be placed in the Record in their 
entirety.

    Senator DeWine. Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you. Thank you, Mr. Chairman. And 
welcome to our distinguished panelists this morning, and 
welcome to all of our guests.
    I want to just reiterate again how much of a pleasure it is 
for me to work with Senator DeWine. We have worked as a 
partnership now for several years and we can see such progress, 
particularly in the area that we are going to be discussing 
this morning, the renovation and development of Judiciary 
Square, the establishment of a very family-friendly or child-
centered Family Court that will service not only the District, 
but serve as a model for the Nation.
    We commend you all for the work that is ongoing, and we 
look forward to continuing the partnership in that regard.
    I also express, again, the importance, at least from our 
perspective, Mr. Chairman, of the focus on establishing the new 
Family Court, because not only are we establishing a new 
building that is operational and conducive to good judgments 
and outcomes, but through the partnership of this committee, it 
can help to build a new initiative in the City that strengthens 
families, protects children from harm and expedites life 
changing and sometimes threatening decisions, to make sure that 
families and the well-being of children are of paramount 
importance for us, for this committee.

                           PREPARED STATEMENT

    So with that, I will just put the rest of my statement in 
the record. And thank you, Mr. Chairman, for the focus this 
morning.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    As the first hearing of year I wanted to join my Chairman, Mr. 
DeWine in welcoming the witnesses and sharing a brief philosophy on our 
leadership of this committee and our goals. The D.C. Appropriations 
bill, under my chairmanship and continuing with Mr. DeWine, has charted 
a course to support targeted investments in the District. Congress is 
partnering with the District by enhancing security and emergency 
preparedness; strengthening schools and education standards; supporting 
the Family Court and child welfare. These three areas support the 
District's Mayor Anthony Williams' goal to revitalize neighborhoods and 
increase the population of the city by 100,000 people in the next 10 
years. People want good schools and dynamic, safe neighborhoods. This 
committee will continue this partnership, following on our investments 
in the Family Court and child services and development of excellent 
charter schools.
    Today's hearing is focused on one of our Federal agencies, the D.C. 
Courts to discuss their fiscal year 2005 budget request. In addition, 
we have asked the National Capital Planning Commission, Commission on 
Fine Arts, and the National Law Enforcement Museum to join us to 
discuss the Judiciary Square Master Plan and we appreciate their 
attendance. The Courts are really the core of the D.C. Appropriations 
bill and the center of our attention. This subcommittee exercises the 
``State'' oversight function for the District, similar to how other 
cities and States interact.
    As one of the central functions transferred to the Federal 
Government in the 1997 Revitalization Act, the Courts serve a unique 
role to serve the public and be accountable to the Congress. I believe 
this Court, lead by Chief Judge King and Chief Judge Wagner has met 
this responsibility aptly. The fiscal year 2005 budget reflects a 
commitment to improved management of the Courts and justification for 
increased budget authority.
    The focus of this year's budget is infrastructure, and I commend 
the Courts for making this a priority. In addition, I am pleased to see 
over the 3 years that I have been on this committee that the Courts 
have undertaken facilities Master Planning process in close 
consultation with the Federal oversight panels. I look forward to a 
presentation on the Master Plan for Judiciary Square and supporting the 
Courts' needs for implementing this plan. Major renovation and 
expansion of the Courts' facilities is important to this committee; 
however we want to examine the process undertaken to prioritize these 
projects and decisions made to focus on construction/renovation rather 
than rehabilitation of existing buildings. I understand that there are 
serious maintenance issues in the current facilities, such as 
inadequate heating and air conditioning, poor lavatories, and an 
unfriendly public space.
    This committee has invested in regular maintenance at levels much 
higher than our predecessors. I think much progress has been made; 
however I understand the need for the focus to shift now to long term 
capital projects, such as constructing a new Family Court and 
completing the restoration of the Old Courthouse. These are ``marquee'' 
projects which receive a great deal of attention from Congress and the 
community, but they are also much more costly and therefore take a 
greater bite out of the budget. I recognize their importance but there 
is also a balance with ongoing maintenance and making improvements to 
public space while rehabilitation projects are underway. I would be 
interested to hear your thoughts on balancing these capital 
infrastructure needs.
    The committee is also joined by witnesses from the National Capital 
Planning Commission, Commission on Fine Arts, and the National Law 
Enforcement Museum to discuss judiciary square master planning. The 
committee is particularly concerned with lack of coordination and 
cooperation with the Museum. Federal dollars and oversight is directing 
the development of Judiciary Square. It is critical that we can 
appropriately direct resources to the moving priorities that also 
reflect the needs of the District. The committee has been actively 
engaged in creation of the family court and need for a dedicated space 
for children and families. Progress of the family court construction is 
dependent on agreement of the law enforcement museum and Old 
Courthouse, freeing up space in the main Courthouse. I look forward to 
hearing progress of the various projects and options for moving forward 
with restoration of the square to the original historic design.
    I appreciate your attendance today and look forward to working to 
improve the appearance and utility of Judiciary Square.

               PREPARED STATEMENT OF SENATOR PAUL STRAUSS

    Senator DeWine. Senator Landrieu, thank you very much. 
Senator Strauss has provided a statement to be included for the 
record as well.
    [The statement follows:]

               Prepared Statement of Senator Paul Strauss

    Chairman DeWine, Ranking Member Landrieu, and others on the 
subcommittee, as the elected United States Senator for the District of 
Columbia, and an attorney who practices in our local courts, I would 
like to thank you for holding this hearing this morning, and for 
considering the needs of the people in the District of Columbia.
    I fully support the fiscal year 2005 Budget Request for the 
District of Columbia Courts. It is vital that the District of Columbia 
Court System be fully funded in the amount proposed by the courts. As 
the District of Columbia Senator, I myself cannot vote on this 
appropriation. I am limited to merely asking you to support their 
requests.
    As in the past, it appears that the President's request is 
significantly less than the amount requested by our judicial 
institutions. I find this unfortunate. Unlike citizens of any other 
jurisdiction, we lack the legal rights to make these funding decisions 
on our own. As I have stated before, unless the local courts are fully 
funded by this subcommittee and the Congress, they will not be fully 
funded. This is not just an issue of simply allocating appropriations, 
but for the residents of our Nation's Capital, an issue of fundamental 
justice.
    There is a compelling argument to be made that District of Columbia 
should not have to look to Congress for the sole financial support of 
its courts. I for one agree with that position. This is again a case 
where the many limits on the District of Columbia's ability to have 
self-government adversely impact the taxpayers of your own States. For 
the record, if Congress would simply grant the District of Columbia's 
petition for Statehood, the restrictions on our revenue-raising ability 
would be lifted and we could fund our court system ourselves and over 
$260 million can be returned to the Federal treasury. I have made this 
argument case many times before many committees of this body. I do not 
intend to discuss D.C. Statehood here today because the unfortunate 
truth is that while this status quo is maintained, it is absolutely 
essential that Congress fully fund the D.C. Court System, and I am 
obligated to support that appropriation.
    The President is requesting $225 million for the District of 
Columbia Courts for the fiscal year 2005 budget and $41.5 million to 
the Defender Services. The Courts themselves are requesting $272.08 
million for the fiscal year 2005 budget and $50.5 million for Defender 
Services. The fiscal year 2005 budget request for the District of 
Columbia Courts furthers the Courts developments by building upon prior 
achievements, and supports the Courts' commitment to serve the citizens 
of the District of Columbia. The D.C. Courts will be more empowered to 
fulfill this commitment by having the necessary funds to do so, and 
will be extremely limited in their abilities if they do not.
    In order for the District of Columbia Courts to continue to provide 
the highest level of justice to the citizens of the District of 
Columbia, it is crucial that they receive additional resources in the 
fiscal year 2005. The Court's requests command considerable capital 
investments in facilities, infrastructure, security, and technology, as 
well as operational investments to enhance the administration of 
justice and service to the public. If the courts are unable to obtain 
additional capital resources, The Moultrie Courthouse and the 
District's historic Old Courthouse, along with Buildings A and B, will 
continue to deteriorate; the Courts' information technology will fail; 
and needed security measures and equipment will not be installed, 
putting the Courts' buildings and the public at risk.
    I recognize that it can be tempting to refer to the increase of 
funds allotted to the District of Columbia Courts by the President in 
his request between 2004 and 2005 and conclude that the Court's needs 
have been met. I urge you to look past this deceiving increase. The 
Office of Management and Budget generated marks are inadequate to meet 
the needs of the District of Columbia Courts, and need to be considered 
a floor and not a ceiling for purposes of the fiscal year 2005 budget. 
I realize the President has other priorities, but the District of 
Columbia Courts are in dire need of revenue for program enhancements 
and physical improvements. The budget requests they have submitted are 
reasonable.
    The current and future needs that will be met by the budget 
proposal submitted by the District of Columbia Courts are diverse. They 
include investing in human resources, broadening access to justice and 
service to the public, promoting competence, professionalism and 
civility, improving court facilities and technology, enhancing public 
security, and strengthening services to families. In this hearing, the 
witnesses have presented the fiscal marks that they request regarding 
the aforementioned capital improvements for the fiscal year 2005. With 
the cooperation of and significant input from General Services 
Administration, the District of Columbia Courts previously proposed a 
Master Plan for Facilities. The fiscal year 2005 capital request 
reflects the significant research and planning included in this Master 
Plan. It is essential that the Courts receive the funds needed to 
complete this three-part plan in order to ensure the health, safety, 
and quality of court facilities and begin to address court space needs.
    Let me briefly address whatever conflicting design issues which may 
or may not exist between the D.C. Courts and the National Law 
Enforcement Fund. I am pleased that the D.C. Courts recently submitted 
a viable design that will simultaneously comply with Federal law and 
address the concerns of the Memorial Fund. The NCPC has encouraged the 
Memorial Fund to accept this resolution as a sound starting point for 
development, so that this project does not exceed budget restrictions, 
thereby costing taxpayers more money in order to complete it. Judiciary 
Square is the historic home of the D.C. Courts, and an original element 
of the L'Enfant plan. I am not convinced that any significant conflict 
between the plans of the two institutions exists. To the extent that 
one does however, any competing needs must be resolved in favor of our 
judicial branch. While the planned museum will no doubt enhance the 
culture and aesthetics of our community, the Court System is a 
necessary government function. While the Court System is ready now with 
capital funding, the museum continues to solicit private contributions. 
Any restriction of the Courts' mandatory operations would be a 
disservice to the people of D.C., no matter how noble the symbolism of 
the planned museum.
    Notwithstanding the importance of fully funding the District of 
Columbia Court System operating budget, I would like to ask the 
subcommittee to focus your attention on the Defender Services line 
item. I cannot emphasize enough the need to fully fund the Defender 
Services line item, at the Court's mark. Presently, there is a mere $9 
million difference in the two requests.\1\ In order to provide adequate 
representation to families in crisis, we need to fully fund Defender 
Services. I said it last year, and it remains true for fiscal year 
2005, all of this Committee's accomplished work on restructuring the 
Family Court is in jeopardy unless it has the resources to sustain it.
---------------------------------------------------------------------------
    \1\ The President allotted $134 million for Court Operations while 
the Courts requested $151.15 million, a difference of $17.15 million, 
and the President allotted $93.4 million for Capital whereas the Courts 
requested $120.93 million, a difference of $27.53 million.
---------------------------------------------------------------------------
    Please note that it is not the lawyers but the D.C. Court System 
itself who is asking for an increase in the hourly rate paid to 
attorneys that provide legal services to the indigent. Their request 
includes those attorneys that work hard to represent abused and 
neglected children in Family Court. The first fee increase in nearly a 
decade was implemented in March of 2002 when it was adjusted to the 
present rate of $65 per hour. In the fiscal year 2004 request, the 
Courts recommend an incremental increase from the current $65 an hour 
to $75 per hour and eventually to $90 per hour. They are again 
requesting the new rate this year.
    This adjustment is important because the Federal Court's appointed 
lawyers, literally across the street, already get paid $90 an hour to 
do very similar work. Therefore, the disparity in pay between the two 
systems creates a disincentive amongst the ``experienced'' attorneys to 
work for Defender Services in the D.C. Court. I call on this 
subcommittee to once again eliminate this disincentive by fully funding 
the requested increase in the Defender Services line item in the bill 
for fiscal year 2005, and then fight vigorously to defend that mark 
against adverse House action if a conference committee fight becomes 
necessary.
    The Family Court is an institution that must protect the District's 
most vulnerable citizens--its children. Although the budget provides 
training for new attorneys, it is the experienced advocates who best 
serve these special clients. We are in danger of losing our most 
experienced child advocates due to budget cuts. A deficiency in funds 
to Defender Services will compromise the safety of children in the 
District of Columbia, so I am compelled to ask you to secure children's 
safety in the District of Columbia by fully funding Defender Services.
    In closing, I wish to sincerely thank the subcommittee for holding 
this hearing. I know that this subcommittee has been firmly committed 
to meeting its fiduciary obligations regarding appropriations for the 
D.C. Courts. On behalf of my constituents, I thank you for all your 
hard work and dedication and I look forward to your continued 
cooperation. There has been strong bipartisan support in this 
subcommittee for our Court system. In particular, I commend Senators 
DeWine and Landrieu for all the great work that they have done on the 
important issue. Both of you have generally treated the D.C. Courts 
with the same consideration as if they were courts in your own States. 
Finally, let me thank Kendra Canape, Marco Berte and Brian Rauer of my 
staff, for their assistance in the preparation of this testimony.

    Senator DeWine. Judge King and Judge Wagner, thank you very 
much for joining us. And we welcome your opening statements.
    Let me just announce to everyone: We have a vote on the 
Senate floor at 10:30. This committee will finish by 10:30 
today one way or the other--so we will be able to do that. I am 
sure there is plenty of time for us to do our business here 
today.
    Judge King.
    Judge King. If Judge Wagner would start?
    Senator DeWine. Oh, Judge Wagner, if you wish to start.
    Judge Wagner. Yes. Thank you.

                  STATEMENT OF JUDGE ANNICE M. WAGNER

    Judge Wagner. Good morning, Mr. Chairman and Senator 
Landrieu, subcommittee members.
    Senator DeWine. Good morning.
    Judge Wagner. I want to thank you for this opportunity to 
discuss the fiscal year 2005 budget request for the District of 
Columbia Courts. I am Annice Wagner, and I am appearing in my 
capacity as the Chair of the Joint Committee on Judicial 
Administration in the District of Columbia. Of course, Chief 
Judge Rufus King, III, of the Superior Court of the District of 
Columbia, is present and joins in this statement and will make 
a statement of his own.
    My remarks this morning will summarize only and highlight 
our most critical priority, our capital budget request. I want 
to thank you for including in the record the detailed written 
statement we have submitted. I plan to focus my remarks on this 
critical capital requirement.
    The District of Columbia Courts, as you know, serve 
approximately 10,000 members of the public each day. They 
handle more than 200,000 cases each year, and employ a staff of 
1,200 who directly serve the public, process cases, and provide 
administrative support.
    The D.C. Courts' capital funding requirements are 
significant because they include funding for projects critical 
to maintaining, preserving, and building safe and functional 
courthouse facilities essential to meeting the heavy demands of 
the administration of justice in our Nation's Capital. Of 
course, included in that is our Family Court, in which you both 
have been so interested in the past.
    Just under a year ago, we appeared before the subcommittee 
to discuss our capital budget. We appreciate the support for 
our Master Plan for Facilities that you, Mr. Chairman, in 
particular, expressed at that time.
    And we have taken your advice to heart, working very 
closely with the administration during its review of the 
Courts' capital budget request.
    We are very gratified that the President has included in 
his budget recommendations the major components of our 
facilities renovation plans, particularly the restoration of 
the Old Courthouse for use by the Court of Appeals, which is 
the highest court in this jurisdiction. The restoration of this 
architectural jewel, the centerpiece of the historic Judiciary 
Square, will not only serve to address the Courts' space 
requirements, but it will also help to revitalize this 
important public area in our Nation's Capital.
    Since the most recent study for the restoration of the Old 
Courthouse was completed in 1999, with the support of this 
subcommittee, we have been successful in mothballing the 
building, so to speak; that is, securing its roof and making it 
watertight, to prevent further deterioration.
    Last year, we procured a nationally renowned architectural 
and engineering firm, Beyer Blinder Belle, to design the 
restoration. Representatives of that firm are with us today, 
Mr. John Belle and Mr. Hany Hassan. They are recognized as 
bringing sensitive solutions to complex urban problems 
requiring a delicate mix of appropriate historic restoration 
and bold inventive design, and have received as a result 
Presidential Design awards, this country's highest award for 
public architecture. They have worked on such things as the 
Grand Central Station and the Ellis Island restorations.
    The design for the restoration of the Old Courthouse itself 
is now at the 50 percent complete stage. We will be ready to 
submit this design to the regulatory agencies next month, with 
the final design to be completed in August of this year.
    We are scheduled to begin construction in January 2005 and 
plan to relocate the District of Columbia Court of Appeals to 
the Old Courthouse when it is restored, and we expect that to 
occur in January 2007.
    This relocation is a critical path of interdependent 
actions, which must occur in a complex sequence. That is, one 
thing must occur so that other parts of the Court can be 
accommodated, including the finalization of our Family Court 
with its own separate entrance on C Street.
    Formal review and approval by the regulatory agencies of 
the Old Courthouse project must proceed expeditiously, as any 
delay will increase cost, contribute to further deterioration 
and delay implementation of the Courts' Master Plan for 
Facilities, including the Family Court.
    As you may know, both the Commission of Fine Arts and the 
National Capital Planning Commission called for a coordinated 
design agreement between the Courts and the National Law 
Enforcement Museum, which is authorized to build an underground 
museum with above-ground entrance pavilions on part of the 
site.
    At that time, it appeared that both projects were on 
similar construction schedules. Subsequently, however, we have 
learned that the museum construction may not commence until 
sometime between 2009 and 2012, up to 5 years after the 
completed Old Courthouse is scheduled to become the seat of the 
District of Columbia Court of Appeals.
    But we are confident that our respective architects will 
eventually reach a design for the plaza entranceway which is 
agreeable to all parties. However, to address the area in the 
interim between construction projects, our architects have 
prepared a phase one design that completes the Old Courthouse 
restoration without infringing on the area authorized for the 
museum. Therefore, an agreement on plaza entranceway design 
should not delay the restoration and use of this important 
public building.
    We recognize that coordination must continue with the 
museum and that some modifications to the site may be 
necessary.
    Senator DeWine. Judge, if you could conclude, please, if 
you could finish it.
    Judge King. Sir, I do not know if it's appropriate, but I 
would be happy to yield most of my time to Judge Wagner.
    Senator DeWine. That would be fine.
    Judge Wagner. Well, I have only a couple more statements to 
make.
    Senator DeWine. Sure.
    Judge Wagner. The principles of aesthetics, urban design, 
planning, and the enhancement of historical, cultural and 
natural resources will be best served by permitting the 
restoration of the historically and architecturally significant 
Old Courthouse.

                           PREPARED STATEMENT

    Again, I thank you for your support of our facilities and 
plans and for this opportunity to discuss this very important 
issue in our capital budget.
    And Chief Judge King and I, we will be happy to answer any 
questions.
    [The statement follows:]

                 Prepared Statement of Annice M. Wagner

    Mister Chairman, Senator Landrieu, Subcommittee members, thank you 
for this opportunity to discuss the fiscal year 2005 budget request of 
the District of Columbia Courts. I am Annice Wagner, and I am appearing 
in my capacity as the Chair of the Joint Committee on Judicial 
Administration in the District of Columbia. I also serve as Chief Judge 
of the District of Columbia Court of Appeals. Chief Judge Rufus G. 
King, III, of the Superior Court of the District of Columbia is also 
present today and joins in this statement.
    As you know, the Joint Committee is the policy-making body for the 
District of Columbia Courts. By statute, its responsibilities include, 
among others, general personnel policies, accounts and auditing, 
procurement and disbursement, management of information systems and 
reports, and submission of the Courts' annual budget request to the 
President and Congress. This jurisdiction has a two-tier system 
comprised of the D.C. Court of Appeals, our court of last resort, and 
the Superior Court of the District of Columbia, a trial court of 
general jurisdiction, which includes our Family Court. Administrative 
support functions for our Courts are provided by what has come to be 
known as the Court System.
    My remarks this morning will summarize the request and highlight 
our most critical priority, our capital budget. With me this morning, 
along with Chief Judge King, are Ms. Anne Wicks, the Executive Officer 
for the Courts and Secretary to the Joint Committee and Mr. Joseph 
Sanchez, our Administrative Officer. We are prepared to answer 
questions you may wish to pose concerning the budget request for the 
Courts.

                              INTRODUCTION

    Unquestionably, we live in a changing environment, facing new 
challenges to our Nation, our Nation's capital, and our court system. 
Whatever challenges we face, the fair and effective administration of 
justice remains crucial to our way of life. The District of Columbia 
Courts are committed to meeting these new challenges. We have been 
steadfast in our mission, which is to protect rights and liberties, 
uphold and interpret the law, and resolve disputes peacefully, fairly 
and effectively in the Nation's Capital. Through our Strategic Plan, 
finalized in fiscal year 2003, the Courts strive to enhance the 
administration of justice; broaden access to justice and service to the 
public; promote competence, professionalism, and civility; improve 
court facilities and technology; and build trust and confidence. We 
appreciate the support that this Subcommittee has given us that makes 
possible the achievement of these goals for our community.
    The Courts are committed to fiscal prudence and sound financial 
management. We are undergoing significant changes to meet the 
challenges of new technologies and are working to ensure that the 
courts of this jurisdiction have a sound infrastructure. Although we 
have requested funds for several important operating initiatives, the 
critical focus of our fiscal year 2005 budget request is our 
infrastructure.
    To support our mission and strategic goals in fiscal year 2005, the 
D.C. Courts are requesting $272,084,000 for Court operations and 
capital improvements and $50,500,000 for the Defender Services account. 
The Federal Payment request includes: $9,109,000 for the Court of 
Appeals; $88,714,000 for the Superior Court; $53,331,000 for the Court 
System; and $120,930,000 for capital improvements for courthouse 
facilities.
    The demands on the D.C. Courts require additional resources in 
fiscal year 2005. To build on past accomplishments and to support 
essential services to the public in the Nation's capital, investment in 
infrastructure, technology, and security are essential priorities. Only 
by investing in these areas will the Courts be in a position to ensure 
that our facilities are in a safe and healthy condition and reasonably 
up-to-date, that our information technology is capable of meeting 
today's demands; and that the type of security necessary to protect our 
citizens and our institution is in place. Focus on these capital areas 
is particularly critical now to meet each of these needs and to ensure 
that the quality of justice is not compromised.
    The Courts' fiscal year 2005 request is a fiscally responsible 
budget that continues to build on our achievements. We are particularly 
proud of our progress with a number of recent initiatives. These 
include:
  --completion of the D.C. Courts' first Master Plan for Facilities 
        that evaluates the Courts' space needs and provides a blueprint 
        for space utilization, both short-term and long-term;
  --submission of a draft Master Plan for Judiciary Square to the 
        National Capital Planning Commission, providing a plan for 
        revitalization and urban renewal of this historic area where 
        the Courts are located that dates to the original L'Enfant Plan 
        for the Nation's Capital;
  --implementation of the District of Columbia Family Court Act of 
        Fiscal Year 2001; to date, the Courts have implemented the one 
        family one judge principle and transferred all required 
        children's cases to Family Court judges, created attorney 
        panels and practice standards for neglect and juvenile cases, 
        established a Family Treatment Court, piloted a Self-Help 
        Center for litigants with assistance from the bar, increased 
        resources devoted to family matters with the addition of nine 
        magistrate judges and three Family Court Judges, and opened the 
        Mayor's Services Liaison Center in the courthouse;
  --completion and initial implementation of the Courts' 5-year 
        strategic plan, ``Committed to Justice in the Nation's 
        Capital,'' following 9 months of extensive input from the 
        public, practicing attorneys and other stakeholders, detailed 
        analysis of community trends, and significant work by the 
        Courts' Strategic Planning Leadership Council;
  --implementation of the Integrated Justice Information System (IJIS) 
        in Family Court substantially completed in 2003;
  --creation of community-based courts, such as the criminal Community 
        Court and prostitution calendar, that seek to improve the 
        quality of community life by reducing nuisance crimes through 
        community-based sanctions and treatment and social services to 
        solve the underlying problems leading to the unlawful behavior; 
        and
  --opening the Domestic Violence Satellite Center in Southeast, in 
        cooperation with community-based advocacy groups and District 
        agencies, to facilitate protection orders and services for 
        large number of domestic violence victims who reside east of 
        the Anacostia river.

           CRITICAL FISCAL YEAR 2005 PRIORITY--INFRASTRUCTURE

    The District of Columbia Courts serve approximately 10,000 
courthouse visitors each day, handle more than 200,000 cases each year, 
and employ a staff of 1,200 who directly serve the public, process the 
cases, and provide administrative support. The District of Columbia 
Courts are among the busiest and most productive court systems in the 
United States.\1\ For example, the Superior Court of the District of 
Columbia has the second highest number of cases filed per judge, and 
the highest number of civil and criminal case filings per capita of all 
unified State courts in the Nation. Our Court of Appeals has the 
highest number of appeals filed per capita among all States with a 
similar court structure.
---------------------------------------------------------------------------
    \1\ See ``Examining the Work of State Courts 2002: A National 
Perspective from the Court Statistics Project'', by B. Ostrom, N. 
Kauder, & R. LaFountain (National Center for State Courts 2003).
---------------------------------------------------------------------------
    The D.C. Courts' capital funding requirements are significant 
because they include funding for projects critical to maintaining, 
preserving, and building safe and functional courthouse facilities 
essential to meeting the heavy demands of the administration of justice 
in our Nation's Capital. To effectively meet these demands, the Courts' 
facilities must be both functional and symbolic of their public 
significance and character. In the 2005 capital budget, the Courts 
highest budgetary priority seeks to comprehensively address these 
issues.
    In preparing the fiscal year 2005 capital budget request, the 
Courts carefully assessed the capital requirements essential to 
performing our statutory and constitutionally mandated functions. The 
Courts' request for capital funding is particularly critical in fiscal 
year 2005 because of the need to (1) address essential public health 
and safety conditions in our extremely busy court buildings; (2) meet 
the courts' space shortage requirements for conducting business, which 
includes our new Family Court, recently established by Congress; and 
(3) avoid interruption of ongoing projects, as that typically results 
in substantially increased costs.\2\ Significantly increased space 
needs for court operations and inadequate capital funding in prior 
years that necessitated maintenance deferral compel the Courts' 
significant capital request for fiscal year 2005.
---------------------------------------------------------------------------
    \2\ For example, in the last decade, the estimated cost for 
restoring the Old Courthouse has more than tripled.
---------------------------------------------------------------------------
    The Courts presently maintain 1.1 million gross square feet of 
space in Judiciary Square. The Courts are responsible for four 
buildings in the square: the Old Courthouse at 451 Indiana Avenue, the 
Moultrie Courthouse at 500 Indiana Avenue, N.W., and Buildings A and B, 
which are located between 4th and 5th Streets and E and F Streets, N.W. 
In addition, when the District government's payroll office vacates 
Building C, the old Juvenile Court, we anticipate that it will be 
returned to the Courts' inventory. Recent studies by the General 
Services Administration (GSA) have documented both the D.C. Courts' 
severe space shortage \3\ and the inadequacy of the physical condition 
of the Courts' facilities.\4\
---------------------------------------------------------------------------
    \3\ Master Plan for D.C. Courts Facilities, 2002.
    \4\ Building Evaluation Report, 2001.
---------------------------------------------------------------------------
    The recently completed Master Plan for D.C. Courts Facilities, 
secured by the General Services Administration (GSA), defined a present 
shortfall of 48,000 square feet of space, with a shortfall of 134,000 
square feet projected in the next decade. GSA proposed to meet the 
Courts' space needs through three mechanisms: (1) renovation of the Old 
Courthouse for use by this jurisdiction's court of last resort, the 
District of Columbia Court of Appeals, which will free critically 
needed space in the Moultrie Courthouse for trial court operations; (2) 
construction of an addition to the Moultrie Courthouse, a major portion 
of which will be developed as a separately accessible Family Court 
facility; and (3) the future occupation of Building C, adjacent to the 
Old Courthouse.
    The restoration of the Old Courthouse for use by the District of 
Columbia Court of Appeals is pivotal to meeting the space needs of the 
entire court system. We are very pleased that the President has 
recognized the importance of this project by supporting it in his 
budget recommendation. Investment in the restoration of the Old 
Courthouse not only will improve efficiencies by co-locating the Court 
of Appeals with all related support offices, but also will provide 
37,000 square feet of space critically needed in the Moultrie 
Courthouse for Superior Court and Family Court functions. The Moultrie 
Courthouse is uniquely designed to meet the needs of a busy trial 
court. It has three separate and secure circulation systems--for 
judges, the public, and the large number of prisoners present in the 
courthouse each day. The Moultrie Courthouse was completed in 1978 for 
the District of Columbia Court of Appeals and a 44 judge trial court, 
the Superior Court. Today it is strained beyond capacity to accommodate 
62 associate judges and 24 magistrate judges in the trial court, as 
well as senior judges and support staff for the two courts. Essential 
criminal justice and social service agencies also occupy office space 
in the Moultrie Courthouse. The Courts have clearly outgrown the space 
available in the Moultrie Courthouse. The space is inadequate for this 
high volume court system to serve the public in the heavily populated 
metropolitan area in and around our Nation's Capital. The Courts 
require well-planned and adequate space to ensure efficient operations 
in a safe and healthy environment.

                       HISTORIC JUDICIARY SQUARE

    The historical and architectural significance of Judiciary Square 
lend dignity to the important business conducted by the Courts and, at 
the same time, complicate somewhat efforts to upgrade or alter the 
structures within the square. As one of the original and remaining 
historic green spaces identified in Pierre L'Enfant's plan for the 
capital of a new nation, Judiciary Square is of keen interest to the 
Nation's Capital.
    The Old Courthouse, the centerpiece of the historic Judiciary 
Square, built from 1821 to 1881, is one of the oldest buildings in the 
District of Columbia. Inside the Old Courthouse, Daniel Webster and 
Francis Scott Key practiced law, and John Surratt was tried for his 
part in the assassination of President Abraham Lincoln. The 
architectural and historical significance of the Old Courthouse led to 
its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
unique character of the building, together with its compact size, makes 
it ideal for occupancy by the highest court of the District of 
Columbia. At the same time, the structure is uninhabitable in its 
current condition and requires extensive work to meet health and safety 
building codes and to readapt it for use as a courthouse. Since it has 
been vacated, and with the support of Congress, the Courts have been 
able to take steps to prevent its further deterioration. The 
restoration of the Old Courthouse for use as a functioning court 
building will not only provide much needed space for the Courts, but it 
will also impart new life to one of the most significant historic 
buildings and precincts in Washington, DC. It will meet the needs of 
the Courts and benefit the community through an approach that 
strengthens a public institution, restores a historic landmark, and 
stimulates neighborhood economic activity.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. These 
buildings have been used primarily as office space in recent years, 
with a number of courtrooms in operation in Building A. The Superior 
Court's two highest volume courtrooms, Small Claims and Landlord and 
Tenant, moved into Building B in November 2003. This move has freed 
space in the Moultrie Building needed immediately for the Family Court, 
permitting the construction, scheduled to be complete in July of this 
year, of three new courtrooms, three new hearing rooms, a centralized 
case intake facility, a family-friendly waiting area, a separate 
courthouse entrance, and District government liaison offices for family 
matters.
    The H. Carl Moultrie I Courthouse, built in the 1970's, while not 
historic, is also located along the view corridor and reinforces the 
symmetry of Judiciary Square through its similar form and material to 
the municipal building located across the John Marshall Plaza. 
Currently the Moultrie Courthouse provides space for most Court of 
Appeals, Superior Court, and Family Court operations and clerk's 
offices, as previously described.

                      JUDICIARY SQUARE MASTER PLAN

    The National Capital Planning Commission (NCPC) required that the 
D.C. Courts develop a Master Plan for Judiciary Square--essentially an 
urban design plan--before any construction could be commenced in the 
area. The D.C. Courts have worked with all stakeholders on the Plan, 
including the United States Court of Appeals for the Armed Forces, the 
National Law Enforcement Officers Memorial Fund (Memorial Fund), the 
Newseum, and the Metropolitan Police Department. A draft Judiciary 
Square Master Plan was submitted to the NCPC in June 2003 and 
subsequently approved in August 2003. We plan to submit the finalized 
Judiciary Square Master Plan next month, in March 2004.
    The Judiciary Square Master Plan integrates the facilities 
development program of the Courts into a rapidly changing and publicly 
oriented area of the District. The Plan resolves important technical 
issues related to access, service, circulation, and security while re-
establishing the importance of this historic setting in the ``City of 
Washington.'' It provides a comprehensive framework for project 
implementation and lays the groundwork for the regulatory approval 
process with the National Capital Planning Commission, the U.S. 
Commission of Fine Arts, the District of Columbia Office of Historic 
Preservation, the District of Columbia Office of Planning, and the 
District of Columbia Department of Transportation, among others.
    The Judiciary Square Master Plan recommends (1) re-introduction of 
landscaped green space around court buildings and the construction of 
secure underground parking garages for the Courts' vehicles now parked 
in surface lots; (2) integration of a new service area, security 
features and landscape concept; and (3) coordination of the Courts' 
development with development of the National Law Enforcement Officers 
Museum by the Memorial Fund.
    The Judiciary Square Master Plan will ensure the preservation of 
one of the last original green spaces in the District of Columbia 
awaiting revitalization, incorporating areas where the public can 
gather and creating a campus-like environment where citizens can feel 
safe and secure. The Judiciary Square Master Plan will be of great 
benefit to the City of Washington.

                       MASTER PLAN FOR FACILITIES

    The Courts have been working with GSA on a number of our capital 
projects since fiscal year 1999, when the Courts assumed responsibility 
for our capital budget from the District's Department of Public Works. 
In 1999, GSA produced a pre-design study for the renovation of the Old 
Courthouse to house the D.C. Court of Appeals. In 2001, GSA prepared 
Building Evaluation Reports that assessed the condition of the D.C. 
Courts' facilities, which have been adversely affected by maintenance 
deferrals necessitated by severely limited capital funds in prior 
years. These projects culminated in the development of the first Master 
Plan for D.C. Court Facilities, which delineates the Courts' space 
requirements and provides a blueprint for optimal space utilization, 
both in the near and long term.
    The Master Plan for D.C. Court Facilities, completed in December 
2002, incorporates significant research, analysis, and planning by 
experts in architecture, urban design, and planning. During this study, 
GSA analyzed the Courts' current and future space requirements, 
particularly in light of the significantly increased space needs of the 
Family Court. The Master Plan examined such issues as alignment of 
court components to meet evolving operational needs and enhance 
efficiency; the impact of the D.C. Family Court Act of 2001 (Public Law 
Number 107-114); accommodation of space requirements through 2012; and 
planning to upgrade facilities, including, for example, security, 
telecommunications, and mechanical systems. The Plan identified a space 
shortfall for the Courts over the next decade of 134,000 occupiable 
square feet, and, as noted above, proposed to meet that need through 
renovation of the Old Courthouse for use by the D.C. Court of Appeals; 
construction of an addition to the Moultrie Courthouse; and 
reoccupation of Building C, adjacent to the Old Courthouse. In 
addition, the Plan determined that other court facilities must be 
modernized and upgraded to meet health and safety standards and to 
function with greater efficiency.

                    FAMILY COURT IN THE MASTER PLAN

Interim Family Court Space Plan
    The Master Plan concluded that the Family Court would be most 
effectively and efficiently located in the Moultrie Courthouse. The 
Master Plan incorporates an interim space plan that provides the 
facilities necessary to fully implement the Family Court Act, as well 
as a long term plan that optimizes space and programmatic enhancements 
for family matters. The interim space plan for Family Court will be 
complete in the summer of 2004, and fully consolidates public functions 
on the JM level of the Moultrie Courthouse. As this interim space plan 
proceeds towards completion, procedural changes have been implemented 
within the Family Court that meet the requirements of the Family Court 
Act. Essential capital components of the plan are straightforward:
  --During fiscal year 2002, the Courts constructed and reconfigured 
        space in the Moultrie Courthouse to accommodate nine new Family 
        Court magistrate judges and their support staff. The Courts 
        also constructed four new hearing rooms in Building B for 
        Family Court magistrate judges hearing child abuse and neglect 
        cases and renovated short-term space for the Mayor's Services 
        Liaison Office.
  --Two Superior Court operations formerly located on the JM level of 
        the Moultrie Courthouse, Small Claims and Landlord and Tenant, 
        were relocated in November 2003 to Building B to free space for 
        the Family Court.
  --Construction on the JM Level of the Moultrie Courthouse began in 
        December 2003 and will provide three new courtrooms, three new 
        hearing rooms, the Mayor's Services Liaison Office, a 
        Centralized Family Court Case Filing and Intake Center, a 
        family-friendly child waiting area, and a new Family Court 
        entrance from the John Marshall Plaza into the Moultrie 
        Courthouse. In addition, the corridors and hallways along the 
        courthouse's JM-level will be redesigned to create family-
        friendly seating and waiting areas. This work will be complete 
        during the summer of 2004.

Long Term Family Court Space Plan
    The long-term plan to optimize space and provide programmatic 
enhancements for the Family Court includes expansion of the Moultrie 
Courthouse. The Courts are pleased that the President's 2005 budget 
provides funding for the design work for the Moultrie Courthouse 
expansion. Once complete, it will provide a state-of-the-art, family-
friendly facility for Family Court operations, with its own identity 
and separate entrance, which will be a model for the Nation. The plan 
envisions a safe facility that will be inviting and welcoming to 
families with children of all ages and that will incorporate a ``one-
stop'' concept by locating all related court units in one place and 
making it easier for families to access needed social services from 
D.C. government agencies. The interim Family Court plan was designed to 
transition smoothly into this long-term plan and to maximize the 
efficient use of time and money.
    The Master Plan studied the cost and feasibility of expanding the 
Moultrie Courthouse in the Feasibility Study for the H. Carl Moultrie I 
Courthouse--May 2003. This approach has been developed with the 
overarching objectives of keeping the court system continually 
operating efficiently, while carefully complying with the Family Court 
Act. Independent projects related to the Family Court Act include the 
renovation and expansion of the Old Courthouse to free space in the 
Moultrie Courthouse, system upgrades and renovation of Buildings A & B, 
occupation and renovation of Building C, leasing of space for functions 
not directly related to the public and court proceedings, and 
renovation and expansion of the Moultrie Courthouse. These projects 
will shift operations currently located in existing Court facilities 
(1) to create ``swing space'' that permits the required construction to 
take place in an operating courthouse that receives 10,000 members of 
the public daily and (2) to make contiguous space available for all 
related Family Court functions.

                       THE COURTS' STRATEGIC PLAN

    The capital projects included in this request are an integral part 
of the Courts' Strategic Plan, completed in 2002. The Strategic Plan of 
the D.C. Courts, entitled ``Committed to Justice in the Nation's 
Capital'', articulates the mission, vision, and values of the Courts in 
light of current initiatives, recent trends, and future challenges. It 
addresses issues such as implementation of a Family Court, increasing 
cultural diversity, economic disparity, complex social problems of 
court-involved individuals, the increasing presence of litigants 
without legal representation, rapidly evolving technology, the 
competitive funding environment, emphasis of public accountability, 
competition for skilled personnel, and increased security risks.
    Improved facilities were a need identified as a high priority among 
all constituency groups surveyed by the Courts as the Strategic Plan 
was developed. ``Improving Court Facilities and Technology'' is the 
Plan's Strategic Issue 4. The Strategic Plan states:

    ``The effective administration of justice requires an appropriate 
physical and technical environment. Court personnel and the public 
deserve facilities that are safe, comfortable, secure, and functional, 
and that meet the needs of those who use them. Technology must support 
the achievement of the Courts' mission.''

    Two strategic goals relate to the facilities and technology 
enhancements in this capital budget:

    ``Goal 4.1: The Courts will provide personnel and court 
participants with a safe, secure, functional and habitable physical 
environment.
    ``Goal 4.2: The Courts will provide technology that supports 
efficient and effective case processing, court management, and judicial 
decision-making.''

    The fiscal year 2005 capital budget request will help the D.C. 
Courts attain these goals.

                  CAPITAL FUNDING IN FISCAL YEAR 2005

    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue we face today is 
sufficient capital funding to address the Courts' severe space shortage 
and aging infrastructure. Investment in these areas is critical to 
enable the Courts to provide to the public and our employees facilities 
that are safe, healthy, and reasonably up-to-date and to provide the 
type of security necessary to protect our citizens and our institution. 
Unless infrastructure needs are addressed, the functional capability of 
the Courts will decline and the quality of justice in the District of 
Columbia will be compromised.
    The first part of the Capital Budget request identifies projects to 
renovate, improve, and expand court facilities, as specified in the 
Master Plan for Facilities. The request is a comprehensive, 5-year 
plan, with projects divided into phases to the extent practicable: $63 
million is requested for the construction phase of the Old Courthouse 
renovation, which will begin in fiscal year 2005; $13.9 million is 
requested for the design phase of the Juvenile Holding area renovation, 
C Street Expansion, and Renovation and Reorganization portions of the 
Moultrie Courthouse Renovation and Expansion project in fiscal year 
2005. For design and pre-design work to renovate Buildings A and C and 
for phase 1 construction in Building A, $4.9 million is requested. We 
are very pleased that the President has supported these essential 
elements of our Master Plan in his fiscal year 2005 budget 
recommendations. In addition, to design and prepare signage and 
security lighting to guide the public through the court complex, which 
will become increasingly important as court operations move out of the 
Moultrie Courthouse, $2 million is requested.
    The second part of the Capital Budget request addresses the 
condition of the Courts' existing infrastructure, including projects 
necessary for the health and safety of the public in the courthouse and 
including the Integrated Justice Information System (IJIS). To meet 
these needs, the Courts make the following requests: $6 million for 
fire and security systems, as recommended by GSA and U.S. Marshal 
Service studies; $15 million for HVAC, Electrical and Plumbing Upgrades 
to remediate lead-contaminated drinking fountains, provide adequate 
ventilation, and meet electrical load needs, among other things; $1.1 
million to renovate dilapidated restrooms used by the public and court 
staff; $2.6 million for, among other things, ADA accessibility, safety 
repairs, and refurbishment of run-down areas in courtrooms and secure 
areas. To replace prisoner elevators, alleviating trial delays because 
of inability to transport incarcerated persons, $0.2 million is 
requested. To improve safety and ADA accessibility in public areas, to 
clean the exterior of the Courts' buildings, to replace doors and 
windows in historic Buildings A and B, and to make other general 
repairs, $9 million is requested. Finally, $2.83 million is requested 
for continued implementation of IJIS. While we are pleased that some of 
these projects, such as IJIS, elevators and escalators, and general 
repairs, have been supported, we remain concerned that continued 
deferral of needed maintenance projects will increase costs by delaying 
major work and by forcing inefficient repairs of equipment that has 
reached its expected life and requires major overhaul.
    The capital projects identified are critical to the Courts' ability 
to meet the current and future needs of the District of Columbia 
Courts. Approval of the requested capital funding in fiscal year 2005 
offers important advantages including: (1) addressing urgent public 
health and safety conditions in the Court's busy buildings; (2) 
allowing ongoing projects to continue without interruption, thereby 
avoiding increased costs occasioned by delays; (2) and meeting the 
Courts' critical space requirements, including our new Family Court.

                     STATUS OF KEY CAPITAL PROJECTS

Old Courthouse Restoration
    The D.C. Courts' numerous facilities renovation projects have 
converging critical scheduling paths. The Old Courthouse project is the 
first step in a series of interdependent moves that must progress in 
sequence to provide space and make way for the next step in the Courts' 
Master Plan. Since the pre-design study for the restoration was 
completed in 1999, the Courts have, with the support of Congress, taken 
steps to preserve the building, including making watertight the roof, 
and mothballing the building. Design of the Old Courthouse restoration 
began April 30, 2003 with the selection, from among nearly 30 bids in 
the General Services Administration procurement process, of Beyer 
Blinder Belle Architects and Planners LLP (BBB). BBB is a nationally 
renowned architectural and engineering firm whose historic preservation 
and renovation projects have included Grand Central Station, Ellis 
Island, and the U.S. Capitol. BBB has nearly completed the design for 
the first phase of the restoration, the parking garage to be shared by 
the U.S. Court of Appeals for the Armed Forces, and its construction is 
scheduled to commence later this year.
    The Commission of Fine Arts reviewed the preliminary concept design 
for the Old Courthouse on October 16, 2003. The Commission's 
recommendations were incorporated in the design, which is currently 50 
percent complete. Upon completion of this milestone, formal review by 
regulatory agencies (e.g., the Commission of Fine Arts (CFA) and the 
National Capital Planning Commission (NCPC)) is required for the 
project to proceed. The Courts are prepared to present the 50 percent 
complete design to the NCPC in March 2004. Formal review and approval 
of the Old Courthouse project must proceed expeditiously, as any delay 
will increase cost, contribute to further deterioration, and delay 
implementation of the Courts' Master Plan for Facilities, including 
enhancement to and the full consolidation of all Family Court related 
elements.
    Both the CFA and the NCPC called for a coordinated design or 
agreement between the Courts and the National Law Enforcement Museum 
(NLEM), which is authorized to build an underground museum with 
aboveground entrance pavilions on part of the site. At that time, it 
appeared that both projects were on similar construction schedules. 
Subsequently, we have learned that the NLEM construction may not 
commence until sometime between 2009 and 2012. The Old Courthouse 
construction is scheduled to commence in January 2005 with occupancy 
scheduled for January 2007.
    Our architects have prepared a ``Phase 1'' design that completes 
the Old Courthouse restoration without infringing on the area 
authorized by legislation for the museum. Therefore, an agreement on 
plaza entranceway design should not delay the restoration and use of 
this important public building. We recognize that coordination with the 
NLEM must continue, and that some modifications to the site may be 
necessary. However, the principles of aesthetics, urban design, 
planning, and the enhancement of historical, cultural and natural 
resources, which the CFA and NCPC must foster, will best be served by 
permitting the restoration of the historically and architecturally 
significant Old Courthouse to proceed.

Moultrie Courthouse Expansion
    The expansion of the Moultrie Courthouse is a key element in the 
long-term plan for Family Court. The expansion builds on the interim 
plan for the Family Court, scheduled to be complete the summer, that 
will consolidate the public face of the Family Court through a 
centralized intake center and space for the Mayor's Services Liaison 
Office and provide a separate entrance as well as new courtrooms, 
hearing rooms, and a family-friendly child waiting area. The expansion 
will complete the facilities enhancements for the Family Court 
providing, for example, additional space for child protection 
mediation, increased Child Care Center space, and safe and comfortable 
family waiting areas. It will also fully consolidate all administrative 
operations of the Family Court including relocation of juvenile 
probation (the Social Services Division) from Building B to the 
Moultrie Courthouse. A portion of the addition will meet critical space 
needs for other Superior Court operations. The Courts have requested, 
and the President supports, funds in fiscal year 2005 to design the 
addition. The addition is scheduled to be completed in 2009.

                    COMPLETE BUDGET REQUEST SUMMARY

    To provide the highest level of justice to the public in the 
Nation's Capital and build on recent accomplishments, it is essential 
that the D.C. Courts receive additional resources in fiscal year 2005. 
The demands on the Courts require significant capital investments in 
facility infrastructure, security, and technology as well as 
operational investments to enhance the administration of justice and 
service to the public. Without additional capital resources, the 
Moultrie Courthouse and the District's historic Old Courthouse and 
Buildings A and B will continue to deteriorate, placing public health 
and safety at risk and undermining public trust and confidence in the 
judicial branch; the Courts' information technology will fail, 
threatening judicial decision-making and community safety; and needed 
security measures and equipment will not be installed, placing the 
Courts' buildings and the public at risk. Investments in operational 
enhancements will support strategic management; self-representation 
services; complete and accurate trial records; financial, materiel, and 
facilities management; and human resource development. Targeted 
investments in these critical areas are essential to ensuring that the 
Courts can fulfill their mission of providing quality justice in the 
District of Columbia. The Court's fiscal year 2005 budget request 
addresses these requirements by:
  --Investing in Infrastructure.--The fiscal year 2005 capital request 
        reflects significant study and planning detailed in the D.C. 
        Courts' Master Plan for Facilities. As noted above, today the 
        Courts have a space shortfall of nearly 45,000 occupiable 
        square feet, which is projected to rise to a 134,000 square 
        feet shortfall over the next 10 years. To begin to address the 
        Courts' space needs and ensure the health, safety, and quality 
        of court facilities, the fiscal year 2005 capital request 
        includes $120,930,000.
      Included in the capital budget request is $63,000,000 for the 
        construction phase of the Old Courthouse restoration project, 
        which will adapt it for reuse by the Court of Appeals. The Old 
        Courthouse is an architectural jewel located in one of the 
        significant green areas of the District original to the 
        L'Enfant Plan for the capital city. Construction of the 
        accompanying garage, which will be shared with the U.S. Court 
        of Appeals for the Armed Forces, and remove surface parking, 
        will begin during 2004. Restoring this historic landmark to 
        meet the urgent space needs of the Courts and preserving it for 
        future generations are critical priorities for the District of 
        Columbia Courts.
      Also included in the capital budget request is $13,900,000 to 
        begin work on the Moultrie Courthouse expansion, as delineated 
        in the Master Plan. This amount includes $6,000,000 for the 
        design phase of the C Street Expansion, which, as noted above, 
        will complete the facilities enhancements for the Family Court 
        and meet critical space needs for Superior Court operations. 
        The total also includes $3,900,000 to renovate and expand space 
        in the Moultrie Courthouse for the juvenile holding area and 
        $4,000,000 for the first phase of the renovation and 
        reorganization of the Moultrie Courthouse, to make optimal use 
        of existing space as envisioned in the Master Plan.
      In addition, the capital budget request includes $34,300,000 to 
        maintain the Courts' existing infrastructure, preserving the 
        health and safety of courthouse facilities for the public and 
        the integrity of historic buildings for the community.
  --Enhancing Public Security.--The Courts are responsible for the 
        protection of 10,000 members of the public who enter the 
        courthouse each day, among them local and international 
        visitors and 1,200 court employees. To meet the increased 
        security threat post-September 11, 2001, the Courts request 
        $6,956,000. Included in this figure are: $956,000 in 
        operational expenditures for additional contractual security 
        officers and $6,000,000 to finance capital security 
        improvements recommended by a U.S. Marshal Service Physical 
        Security Survey and a GSA Preliminary Engineering Report, 
        including design, construction, and installation of a new 
        security system, as well as additional security cameras, duress 
        alarms and upgrades.
  --Investing in Information Technology (IT).--The Courts are mandated 
        to operate an automated, integrated case management system to 
        provide accurate, comprehensive case data across every 
        operating area and appropriate case data to the judiciary, the 
        District's child welfare and criminal justice communities, and 
        the public. To meet this mandate and achieve the Courts' 
        strategic goal of improving court technology, the Courts 
        request $6,729,000 and 6 FTEs in fiscal year 2005. This amount 
        includes $3,899,000 in the operating budget for infrastructure 
        enhancements, upgrade of IT operations and implementation of 
        the disciplined processes the General Accounting Office (GAO) 
        had recommended for the Integrated Justice Information System 
        (IJIS) project. In addition, the Courts' capital budget request 
        includes $2,830,000 to finance fiscal year 2005 procurement of 
        IJIS, which the Court launched in fiscal year 1999. 
        Implementation of IJIS is well underway, with Wave 1 of the 
        Family Court module operational in August 2003 and Wave 2 
        operational in December 2003.
  --Strategic Planning and Management.--To support long-range strategic 
        planning and management, including the development and 
        assessment of organizational performance measures, $571,000 is 
        requested. A comprehensive performance measurement system is a 
        critical element in accountability to the public and would 
        enable the Courts to report performance to the community. In 
        addition, an Office of Strategic Management is essential to 
        make the Courts' strategic plan the dynamic, evolving document 
        that it must be to focus resources, priorities and actions. 
        Specifically, the request would finance performance management 
        software, training, and knowledgeable staff with the expertise 
        to institutionalize a proactive, coordinated approach to 
        management including the establishment, analysis, and use of 
        performance measures for strategic decision-making.
  --Serving the Self-Represented.--To enhance equal access to justice 
        for the more than 50,000 litigants without lawyers who come to 
        the D.C. Courts each year, especially in the Family Court, 
        Civil Division, and Court of Appeals, $2,096,000 and 13 FTEs 
        are requested for staff and facilities to establish a Self-
        Representation Service Center. This amount includes $212,000 
        and 3 FTEs to assume responsibility for the operation, on a 
        full-time basis, of the award-winning Family Court Self-Help 
        Center, which is currently only a part-time operation supported 
        by volunteers from the D.C. Bar. The Courts would adopt best 
        practices in assisting the unrepresented with numerous 
        important legal issues and build on the public information 
        kiosk project being implemented in fiscal year 2003 and the 
        very limited pro bono services currently available.
  --Investing to Ensure Accurate and Complete Trial Records.--The 
        Courts' fiscal year 2005 request includes $1,636,000 and 12 
        FTEs to improve the production of the court record. Maintaining 
        complete and accurate court records are central to the fair 
        administration of justice in a court system. Accurate and 
        complete records of court proceedings are critical to ensuring 
        a fair trial and to preserving a record for appeal. This 
        request includes funds to upgrade the Courts' digital recording 
        system that is installed in 80 courtrooms and has exceeded its 
        useful life, and funds to hire additional court reporters who 
        are essential for certain types of proceedings, such as felony 
        trials.
  --Enhanced and More Timely Public Service.--To enhance and provide 
        more timely services to the public, the Courts' fiscal year 
        2005 request includes $2,198,000 and 15 FTEs to support 
        operating division initiatives in family, landlord and tenant, 
        probate, crime victim's compensation, the juror's office, court 
        interpreting services, and the Superior Court law library. 
        Included in the total is $1,000,000 to restore and preserve 
        Probate Division records that are required, by statute, to be 
        maintained forever and readily available to the public. This 
        funding will build on the Courts' recent accomplishments, 
        discussed above, and ensure that the highest quality services 
        are provided.
  --Financial, Materiel, and Facilities Management.--To enhance 
        financial, materiel, and facilities management, $2,267,000 and 
        17 FTEs are requested. Included in the total are $623,000 and 8 
        FTEs to enhance financial and program management, including a 
        new internal audit team; $898,000 and 1 FTE for materiel 
        management, including warehouse space, equipment, and staff; 
        and $746,000 and 8 FTEs to enhance facilities management, 
        including building engineers and capital project management 
        staff.
  --Investing in Human Resources.--To help the Courts attract, develop, 
        and retain highly qualified employees and address the risks of 
        high retirement eligibility, $1,167,000 is requested for 
        succession planning, leadership development, tuition 
        assistance, enhanced benefits and specialized training for 
        court personnel. Currently, 27 percent of the Courts' non-
        judicial employees, of whom 16 percent are in top management 
        positions, are eligible to retire in the next 5 years, 
        representing a potential for a tremendous loss of experience 
        and talent that the Courts must plan now to address.
  --Strengthening Defender Services.--In recent years, the Courts have 
        devoted particular attention to improving the financial 
        management and reforming the administration of the Defender 
        Services programs. For example, the Courts have significantly 
        revised the Criminal Justice Act (CJA) Plan for representation 
        of indigent defendants and issued Administrative Orders to 
        ensure that CJA claims are accompanied by adequate 
        documentation and that only highly qualified attorneys 
        participate in the program. To enhance the financial management 
        of the CJA program, the Courts assumed responsibility for 
        issuing attorney claim vouchers from the Public Defender 
        Service (PDS). Consolidation of responsibility for all 
        financial management aspects of the Defender Services programs 
        will enable the Courts to estimate more accurately program 
        obligations throughout the voucher processing cycle. To build 
        on these initiatives and more comprehensively exert greater 
        management control over the Defender Services appropriation 
        from a programmatic, rather than a financial perspective, the 
        Courts request $91,000 and 1 FTE in the fiscal year 2005 
        operating budget.
      In the Defender Services account, the fiscal year 2005 budget 
        request represents a net increase of $18,500,000 over the 
        fiscal year 2004 Enacted level of $32,000,000 to fund hourly 
        rate increases. Of the total request, $9,500,000 would provide 
        appropriated funding for the March 2002 rate increase for 
        Defender Services attorneys and investigators. This increase, 
        enacted in the D.C. Appropriations Act, 2002, has been funded 
        to-date through a reserve in the account, which is now 
        depleted. Also included in the total request is $9,000,000 for 
        an increase in the hourly compensation rates for attorneys from 
        $65 to $90, to keep pace with the rate paid court-appointed 
        attorneys at the Federal courthouse across the street from the 
        D.C. Courts.

                               CONCLUSION

    Mister Chairman, Senator Landrieu, Subcommittee members, the 
District of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the Courts' record of administering justice 
in a fair, accessible, and cost-efficient manner. Adequate funding for 
the Courts' fiscal year 2005 priorities is critical to our success, 
both in the next year and as we implement plans to continue to provide 
high quality service to the community in the future. We appreciate the 
President's level of support for the Courts' funding needs in 2005, and 
the support we have received from the Congress. We look forward to 
working with you throughout the appropriations process, and we thank 
you for this opportunity to discuss the fiscal year 2005 budget request 
of the Courts.

    Senator DeWine. Thank you.
    Judge Wagner. Thank you, sir.
    Senator DeWine. Judge King.

                 STATEMENT OF JUDGE RUFUS G. KING, III

    Judge King. Good morning, Mr. Chairman and Senator 
Landrieu. It is a pleasure to be back here and primarily to 
express my gratitude on behalf of the Superior Court, at any 
rate, for your support for our budget in the past and the 
President's support for our budget as we go forward with the 
construction plan.
    We are engaged in the execution of a complex master plan 
that runs over 10 years. We have outlined that in our written 
submission, which I trust will be included in the record.
    Senator DeWine. It will be made a part of the record.
    Judge King. I adopt Chief Judge Wagner's oral statement as 
well, and I will just make a point or two.
    Thus far, the construction in the Moultrie Building to 
round out the first part of the Family Court renovations is on 
time and in budget. My commitment is to try to keep it that 
way. And to that end, my door is always open and my phone lines 
are always open for any discussions that are needed to help 
that process along.
    The one point that I just want to put on the record, 
because I know it is capable of getting lost in the shuffle is: 
The President did not support our request for capital funding 
for the aging infrastructure. Our building is 30 years old, 
essentially. The systems, the HVAC and mechanical systems and 
electrical and so on, are all at the end of their useful life.
    I personally have had an occasion when the temperature in 
my courtroom rose to above 90 degrees, because the air 
conditioning had failed. We just had to adjourn for the day. 
And that is very frustrating when you have a judge ready to go, 
staff ready to go, marshals ready to go, and the lawyers are 
prepared to try the case, and you just cannot try the case. So 
that is an issue that is over the horizon.
    There is a $15 million request for aging infrastructure, 
renovation and maintenance that has not been addressed. And at 
some point, it is going to need to be addressed.
    But I am very grateful for the support for the capital 
budget. And I will be glad to answer questions.
    Senator DeWine. Good.
    Judge King. Thank you.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. Could you all just, Judge, just hit--
would you just hit the highlights again of the--I know you have 
given us the time frame in the documents here. But just review 
for me on this plan that you have, when the Courts move into 
what building, so that I could just get a sense of when the 
Family Court will be in their new facility? What is the general 
time line, if you have it handy? If you do not, I understand.

                      COURT CONSTRUCTION SCHEDULE

    Judge Wagner. I do not have it handy, but I can--let me 
see.
    Judge King. I can give you most of the basic points. The 
Family Court will be moved--all of the public functions of the 
Family Court will be moved into the JM and first floor levels 
of the Moultrie Courthouse as of July of this year, in about 5 
months, 6 or 5 months.
    I believe the move for the Court of Appeals is scheduled 
for 2005. The actual occupancy is a little bit later, but the 
construction starts in 2005. When that move is accomplished in 
2007, we will then round out the relocation of various 
functions to bring all of the office or administrative 
functions of the Family Court into the JM and the first floors.
    Senator Landrieu. So I am understanding that the Family 
Court basically moves first into their renovated space. They 
are moving first into their renovated space.
    Judge King. That is correct.
    Senator Landrieu. Is that correct?
    Judge King. That is correct.
    Senator Landrieu. And then the next piece is the----
    Judge King. The C Street Expansion----
    Senator Landrieu [continuing]. Renovation.
    Judge King [continuing]. Which will begin in 2006.
    The C Street Expansion is finished in 2009. We are running 
with design phases while we are doing the building of the Old 
Courthouse and then----
    Senator Landrieu. You all have--you are in the position to 
have control of this schedule so that--because they are really 
moving pieces. And those pieces have to move in a way that 
really helps us to meet these time lines to get these Courts 
functioning in the new spaces that we are trying to provide. 
And you all know that any barriers to move people or the 
authority to make the contractors even move faster or get out 
of the way or the architects--I mean, do you all feel like you 
have blue skies ahead, or do you need us to do anything that 
helps you to make sure you stay on the schedule?
    Judge King. The one thing that we have almost no control 
over is the funding, and we are looking to you for that, and 
you have been very supportive. But given the funding, we have 
more barriers to----
    Senator Landrieu. But if the funding, you know, is short, 
then it puts a crimp in this particular formula.
    Judge King. That is correct. That is correct.
    Senator Landrieu. Okay.
    Judge King. If the funding is not there, then we have to 
come up with alternatives.
    Senator Landrieu. All right.
    Judge Wagner. And the Courts' plans have to be approved by 
the regulatory agencies during this process. While we do not 
control that, we try to cooperate with them to get all of our 
submissions in so that we cause no delays.
    Senator Landrieu. Thank you.
    Senator DeWine. Let me invite our other panelists to come 
up.
    Craig Floyd is the Chairman and Executive Director of the 
National Law Enforcement Officers Memorial Fund. Patricia 
Gallagher is the Executive Director of the National Capital 
Planning Commission. And Frederick Lindstrom is the Assistant 
Secretary of the Commission of Fine Arts since 2001.
    Ms. Gallagher, let us start with you. If you can--we have 
everyone's written statement, which will become a part of the 
record.
    Ms. Gallagher, if you could make some comments, and then we 
will move to Mr. Lindstrom, and Mr. Floyd.

STATEMENT OF PATRICIA GALLAGHER, EXECUTIVE DIRECTOR, 
            NATIONAL CAPITAL PLANNING COMMISSION
ACCOMPANIED BY CHRISTINE SAUM, SENIOR URBAN DESIGNER, NATIONAL CAPITAL 
            PLANNING COMMISSION

    Ms. Gallagher. Good morning, Senator. Is this on?
    Senator DeWine. Yes, if you push it down, that is--yes.
    Ms. Gallagher. Thank you. Good morning, Mr. Chairman, 
Senator Landrieu, and members of the subcommittee. I am Patti 
Gallagher, Executive Director of the National Capital Planning 
Commission. On behalf of the Commission, I thank you for this 
opportunity to testify.
    We understand from the Conference report language in the 
Omnibus bill that there is concern that NCPC may be delaying 
the District of Columbia Courts' plans to renovate the Old City 
Hall at Judiciary Square, and we are here today to assure you 
and the members of the subcommittee that NCPC has not delayed 
this renovation.
    NCPC began working closely with the Courts and the National 
Law Enforcement Officers Memorial Fund in Spring 2003 during 
the preparation of the draft Judiciary Square Master Plan. In 
May 2003, the Courts gave an informational presentation on the 
master plan to our Commission. And then in August 2003, the 
Commission adopted this draft plan.
    NCPC staff has been working closely with both parties to 
ensure that the redevelopment of Judiciary Square, including 
the Old City Hall renovation, meets the highest standards of 
planning and urban design. This process is complicated in that 
we are working to satisfy the requirements of two legislative 
mandates, the National Law Enforcement Museum Act of 2000, and 
the District of Columbia Family Courts Act of 2001.
    Through the latter, Congress mandated to the D.C. Courts 
that they have to reorganize and improve the Courts' services 
and facilities.
    In the National Law Enforcement Museum Act, Congress 
authorized the Memorial Fund to build its museum on Federal 
land that partially abuts the Old District of Columbia City 
Hall, which is to be expanded and renovated for re-use by the 
District of Columbia Court of Appeals. The Act requires the 
Memorial Fund to construct the majority of its museum 
underground and limit its aboveground construction to two 
10,000-square-foot entrance pavilions.
    In addition, the Act requires a 90-foot setback from the 
renovated Old City Hall and a requirement to maintain a 100-
foot-wide zone, or plaza, on the north-south axis of the Old 
City Hall where no aboveground museum construction is 
permitted. These areas are depicted on the map attached to my 
written testimony.
    Our Commission is faced with the challenge of complying 
with both mandates, while respecting each of the parties' 
separate and distinct visions for the common plaza area. The 
Courts and the Memorial Fund each consider the plaza to be a 
key part of the entrances to their buildings, and they continue 
to fundamentally disagree on the level of construction and 
design control each party is permitted to have within the plaza 
area.
    The Memorial Fund asked NCPC in its March and May 2003 
submissions to review proposed memorial designs and museum 
designs that would have interfered with the entrance to the 
renovated Old City Hall. Since these submissions were clearly 
in conflict with the Act's requirement that the plaza area be 
kept open, the applicant withdrew both submissions.
    Subsequently, in July 2003, the Courts submitted its draft 
Judiciary Square Master Plan. This master plan depicted the 
plaza as an unobstructed open space extending from the 
renovated courthouse's new entrance to E Street, Northwest. The 
Memorial Fund opposed that aspect of the master plan on the 
basis that it, not the Courts, had the authority to design the 
plaza area.
    As Congress has addressed, the renovation of the Old City 
Hall for re-use by the Courts is an important Federal project. 
And delays in its construction could needlessly increase the 
cost to taxpayers.
    Our Commission recognized this urgency and on August 7, 
2003 approved the draft Judiciary Square Master Plan. And in an 
effort to move both projects forward, our Commission departed 
from its normal process of requiring an approved master plan, 
and authorized the Courts and the Memorial Fund to proceed with 
the design submissions for their individual projects.
    A unified integrated plaza design is essential for both 
projects to have unimpeded access to their respective 
entrances. Therefore, our Commission asked the parties to 
mutually agree on a design solution before requesting further 
NCPC approval.
    Although NCPC staff has been working with both sides since 
last spring to facilitate an acceptable solution, we are unable 
to report progress, that an agreement has been reached. 
However, on February 13th, the Courts presented to the NCPC 
staff for the first time an interim design that would maintain 
the plaza as an open area, and one that would provide 
sufficient space for the Memorial Fund to construct its 
entrance pavilions while allowing both projects open access to 
their respective entrances.
    The Courts' proposed design is an uncomplicated landscape 
solution that could be modified when the Memorial Fund 
completes its fund raising and is prepared to proceed with 
construction.
    We understand that the Courts are prepared to move forward 
with this interim design despite the inevitable disruption to 
the plaza area and its entrances once the design of--once the 
museum design construction begins.
    Our staff opinion of the Courts' interim design is that it 
appears to respect the design parameters set out in the 
National Law Enforcement Museum Act. We feel that it is a 
viable solution that should satisfy both parties and allow the 
Courts' construction project to move forward.

                           PREPARED STATEMENT

    We have spoken to both the Courts and the Memorial Fund to 
encourage the use of this interim design as an acceptable 
solution and have informed them that this design, if accepted 
by both parties, would be eligible for immediate review by our 
Commission. Our staff and the Commission will do our utmost to 
accommodate the Courts' timetable and to complete our review as 
expeditiously as possible.
    Mr. Chairman, this concludes my testimony.
    Senator DeWine. Thank you very much.
    [The statement follows:]

                 Prepared Statement of Patti Gallagher

    Good morning Mr. Chairman and members of the Committee. I am Patti 
Gallagher, Executive Director of the National Capital Planning 
Commission (NCPC). I would like to thank you on behalf of the 
Commission for this opportunity to testify. We understand from the 
Conference report language in the Omnibus bill that there is concern 
NCPC may be delaying the District of Columbia Courts' plans to renovate 
the Old City Hall at Judiciary Square. I would like to assure you and 
the members of this Committee that NCPC has not delayed this 
renovation.
    NCPC began working closely with the Courts and the National Law 
Enforcement Officers Memorial Fund (Memorial Fund) in spring 2003 
during the preparation of the draft Judiciary Square Master Plan. In 
May 2003 the Courts gave an information presentation on the master plan 
to our Commission, which adopted the draft plan in August 2003. NCPC 
staff has been working closely with both parties to ensure that the 
redevelopment of Judiciary Square, including the Old City Hall 
renovation, meets the highest standards of planning and urban design.
    This process is complicated in that we are working to satisfy the 
requirements of two legislative mandates--the National Law Enforcement 
Museum Act (Public Law 106-492) and the District of Columbia Family 
Courts Act of 2001. Through the latter, Congress mandated to the D.C. 
Courts that they reorganize and improve the Courts' services and 
facilities. In the National Law Enforcement Museum Act (the Act), 
passed in November 2000, Congress authorized the Memorial Fund to build 
its museum on Federal land that partially abuts the Old District of 
Columbia City Hall, which is to be expanded and renovated for re-use by 
the District of Columbia Court of Appeals. The Act requires the 
Memorial Fund to construct the majority of its museum underground and 
limit its aboveground construction to two 10,000-square-foot entrance 
pavilions. In addition, the Act requires a 90-foot setback from the 
renovated Old City Hall and a requirement to maintain a 100-foot-wide 
zone, or plaza, on the north-south axis of the Old City Hall where no 
aboveground museum construction is permitted. These areas are depicted 
on the attached map.
    Our Commission is faced with the challenge of complying with both 
mandates, while respecting each of the parties' separate and distinct 
visions for the common plaza area. The Courts and the Memorial Fund 
each consider the plaza to be a key part of the entrances to their 
buildings and they continue to fundamentally disagree on the level of 
construction and design control each party is permitted to have within 
the plaza area.
    The Memorial Fund asked NCPC in its March and May 2003 submissions 
to review proposed museum designs that would have interfered with the 
entrance to the renovated Old City Hall. Since these submissions were 
clearly in conflict with the Act's requirement that the plaza area be 
kept open, the applicant withdrew both submissions. Subsequently, in 
July 2003, the Courts submitted its draft Judiciary Square Master Plan. 
This master plan depicted the plaza as an unobstructed open space 
extending from the renovated courthouse's new entrance to E Street NW. 
The Memorial Fund opposed that aspect of the master plan on the basis 
that it, not the Courts, had the authority to design the plaza area.
    As Congress has addressed, the renovation of the Old City Hall for 
re-use by the Courts is an important Federal project and delays in its 
construction could needlessly increase the cost to taxpayers. Our 
Commission recognized this urgency and on August 7, 2003 approved the 
draft Judiciary Square Master Plan. In an additional effort to move 
both projects forward, our Commission departed from its normal process 
of requiring an approved master plan, and authorized the Courts and the 
Memorial Fund to proceed with design submissions for their individual 
projects.
    A unified integrated plaza design is essential for both projects to 
have unimpeded access to their respective entrances. Therefore, our 
Commission also asked the parties to mutually agree on a design 
solution before requesting further NCPC approval. Although NCPC staff 
has been working since August with both sides to facilitate an 
acceptable solution, we are unable to report that an agreement has been 
reached. Very recently however, on February 13, 2004 the Courts 
presented to NCPC for the first time an interim design that would 
maintain the plaza as an open area, and provide sufficient space for 
the Memorial Fund to construct its entrance pavilions while allowing 
both projects open access to their respective entrances. The Courts' 
proposed design is an uncomplicated landscape solution that could be 
modified when the Memorial Fund completes its fundraising and is 
prepared to proceed with construction of the museum. We understand that 
the Courts are prepared to move forward with this interim design 
despite the inevitable disruption to the plaza area and its entrance 
once the museum begins construction.
    Our staff opinion of the Courts' interim design is that it appears 
to respect the design parameters set out in the Act. We feel that it is 
a viable solution that should satisfy both parties and allow the 
Courts' construction project to move forward. We have spoken with both 
the Courts and the Memorial Fund to encourage the use of this interim 
design as an acceptable solution and have informed them that this 
design, if accepted by both parties, would be eligible for immediate 
review by our Commission. Our staff and the Commission will do our 
utmost to accommodate the Courts' timetable and to complete our review 
as expeditiously as possible.
    This concludes my testimony. I would be happy to answer any 
questions you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator DeWine. Mr. Lindstrom.

STATEMENT OF FREDERICK J. LINDSTROM, ASSISTANT 
            SECRETARY, U.S. COMMISSION OF FINE ARTS
    Mr. Lindstrom. Certainly. Good morning, my name is 
Frederick Lindstrom, and I am the Assistant Secretary of the 
Commission of Fine Arts. I am substituting today for our 
Secretary, Charles Atherton, who could not be present today.
    The Commission appreciates the opportunity to join the 
discussion on the status of the renovations to the Old City 
Hall for the D.C. Court of Appeals and the construction of the 
new National Law Enforcement Museum. As you know, discussions 
relating to the renovation of the Old City Hall date back quite 
a few years, and the Commission has been supportive of the 
building's reuse as an operating courthouse.
    The existing configuration of the monumental entrance on 
this important building does not allow for ADA accessibility; 
nor will it allow for the addition of the required visitor 
security screening facility on the south side of the building 
without adversely affecting the structure's historic character. 
Therefore, the Courts have pursued reestablishing a new public 
entrance on the north side of the building, where one existed 
up until the 1917 renovation.
    With the passage of Public Law 106-492, that authorized and 
specified the location of the new museum, it has been our 
expectation that both projects would be able to coexist in 
Judiciary Square and that the sponsors and their architects 
would fully coordinate and cooperate on developing the designs. 
So far, the Commission has been disappointed by the lack of 
coordination and cooperation and the inability to develop 
complementary designs that will enhance the historic setting of 
Judiciary Square.
    The Commission believes that the new museum serves a very 
worthy objective. However, access to the Courts building should 
not be obstructed or physically compromised by another use. The 
dignity of the public entrance to the courthouse must come 
first.
    We believe that other designs should be investigated to see 
if the Courts and the Law Enforcement Museum can achieve the 
openness and accessibility that both projects desire and 
deserve. With passage of Public Law 106-492, that has in a way, 
since that was signed into law, has inhibited that exploration 
of other possibilities, at least for the museum.
    One possible way that we have suggested, the Commission has 
suggested to avoid the inherent conflicts between the museum 
and the Courts, would be to locate the museum's main entrances 
to the other side of E Street, at the southern edge of the 
Memorial Plaza. And this is a realistic possibility considering 
that the major portion of the underground museum has been 
authorized to extend under E Street to its northern curb line. 
And there may be other alternatives worth exploring as well.

  PREPARED STATEMENT OF CHARLES H. ATHERTON, SECRETARY, COMMISSION OF 
                               FINE ARTS

    From the very beginning of the review process, we have 
emphasized the need for coordination of all the projects 
currently slated for Judiciary Square, and there are quite a 
few projects that are slated for the Square at this time. And 
it is essential that all of these projects be fully coordinated 
and work in a cooperative fashion for an acceptable design to 
be achieved.
    This concludes our written testimony, and I would be happy 
to respond to any questions you might have, Mr. Chairman.
    Senator DeWine. Yes. Thank you very much.
    [The statement follows:]

               Prepared Statement of Charles H. Atherton

    Good Morning, my name is Charles Atherton and I am the Secretary of 
the Commission of Fine Arts. The Commission appreciates the opportunity 
to join your discussion on the status of the renovations to the Old 
City Hall for the D.C. Court of Appeals and the construction of the new 
National Law Enforcement Museum. As you may know, discussions related 
to the renovation of the Old City Hall date back quite a few years and 
the Commission has been supportive of the building's reuse as an 
operating courthouse. The existing configuration of the monumental 
entrance on this important building does not allow for ADA 
accessibility, nor will it allow for the addition of the required 
visitor screening facility on this side of the building without 
adversely affecting the structure's historic character. Therefore, the 
Courts have pursued reestablishing a new public entrance to the north 
side of the building, where one existed until the 1917 renovation.
    With the passage of Public Law 106-492, that authorized and 
specified the location of the museum, it has been our expectation that 
both projects would be able to coexist in Judiciary Square and that the 
sponsors and their architects would fully coordinate and cooperate on 
the designs. So far, the Commission of Fine Arts has been disappointed 
by the lack of coordination and cooperation and the inability to 
develop complementary designs that will enhance the historic setting of 
Judiciary Square. The Commission believes that the new museum serves a 
worthy objective, however; access to the court building should not be 
obstructed or physically compromised by another use. The dignity of the 
public entrance to a courthouse must come first.
    We believe that other designs should be investigated to see if the 
Courts and the Law Enforcement Museum can achieve the openness and 
accessibility that both projects desire and deserve. One possible way 
to avoid the inherent conflicts between the museum and the courts would 
be to locate the museum's main entrance(s) to the other side of E 
Street, at the southern edge of the memorial plaza. This is a realistic 
possibility considering that a major portion of this underground museum 
has been authorized to extend under E Street to its northern curb line. 
There maybe other alternatives as well.
    From the beginning of the review process we have emphasized the 
need for coordination of all the projects currently slated for 
Judiciary Square. It is essential if an acceptable design is to be 
achieved.
    This concludes our written testimony. I would be happy to respond 
to any questions you might have.

    Senator DeWine. Mr. Floyd.

STATEMENT OF CRAIG W. FLOYD, CHAIRMAN, NATIONAL LAW 
            ENFORCEMENT OFFICERS MEMORIAL FUND
    Mr. Floyd. Mr. Chairman, our organization is a major 
stakeholder in Judiciary Square. In 1991, at the direction of 
the United States Congress we built and now assist the National 
Park Service in the maintenance and operation of the National 
Law Enforcement Officers Memorial in Judiciary Square.
    In November 2000, the Congress gave us a further 
authorization to build a National Law Enforcement Museum right 
across the street from the National Memorial. The National Law 
Enforcement Museum Act was authored by a distinguished member 
of the Senate Appropriations Committee, U.S. Senator Ben 
Nighthorse Campbell.
    Congress was very specific in terms of our authority to 
build this museum. The site and precise boundaries of the 
museum were spelled out in very clear terms, and a diagram 
showing the museum's boundaries is displayed for your 
convenience. Two above-ground pavilions, totaling approximately 
10,000 square feet, will serve as the entrances to the museum. 
The rest of the museum facility, approximately 80,000 square 
feet, will be located underground.
    And I should point out, Mr. Chairman, that this museum will 
be funded exclusively through private donations. No taxpayer 
dollars are going to be used at all.
    The boundaries of the site laid out in the authorizing law 
were established after much discussion and many meetings with 
the Committee on Administration of the District of Columbia 
Courts, after they informed us of their plans to renovate and 
expand the Old Courthouse building.
    Recognizing that our two projects are linked so closely in 
proximity, the public review agencies have required that we 
consult with the Courts in our design plans for the museum 
plaza area, and mutually agree on an acceptable solution. We 
are working in good faith toward a final resolution. However, 
it must be noted, Mr. Chairman, that we have some serious 
differences with the Courts about the design of the museum 
plaza area.
    First and foremost, we believe it is essential that the 
Memorial Fund and our architects design, build and maintain the 
museum plaza area, just as the Courts should be allowed to 
design, build and maintain the areas within their boundaries. 
The Courts disagree and have included the museum plaza, the 
space between this and surrounding the museum pavilions in 
their design plans.
    Not only is this in conflict with the authority that 
Congress gave the Memorial Fund over that property, but their 
plans have ignored a number of our stated needs and concerns.
    The museum plaza is, in fact, the roof of our $70 million 
museum. There are many technical, aesthetic and practical 
considerations when designing and maintaining the roof and 
plaza area of our museum; air ventilation, visitor staging, 
water leakage, and skylights to let natural light down into the 
museum, to name just a few.
    It should be noted that we are anticipating between 300,000 
and 500,000 visitors annually. On peak days, visits may exceed 
4,500 people. The museum is requiring security screening at the 
pavilion level. The plaza design must take into account this 
queuing requirement. For these important reasons, we cannot 
cede control of the museum plaza area to the Courts or to 
anyone else.
    Further, Senator Campbell addressed this issue in very 
strong terms in a letter to the Chairman of the Commission of 
Fine Arts in October of 2003. He said, in part, ``The public 
law provides full use and control of the museum site, 
aboveground and underground, to the Memorial Fund. Any 
accommodation to others with regard to the use or access of the 
museum site, including the plaza area between the two entrance 
pavilions, is and will be at the sole discretion of the 
Memorial Fund.''
    We are also concerned about the timing of our two projects. 
While the construction and renovation of the Courthouse is 
planned for 2005 to 2006, construction on the museum is not 
expected to commence until at least 2007, and Congress actually 
granted us until 2010 to begin construction.
    This means that no matter what the Courts decide on for the 
final design for the courthouse, and any entry on the north 
side, they must include a long-term interim solution. It would 
be irresponsible and a waste of taxpayer dollars to design and 
build anything on the north side of the courthouse that would 
have to be demolished when we begin construction on the museum.
    Finally, let me state that the Memorial Fund is committed 
to accommodating the future access and usage needs of the 
Courts. Any final solution must work for both the Courts and 
the Memorial Fund. However, we are not prepared to relinquish 
control of the museum plaza area, as defined by the boundaries 
in the Museum Authorization Act. And we are not prepared to 
make concessions that will in any way appear to diminish the 
National Law Enforcement Museum's importance or presence in 
Judiciary Square.
    And let me just make one final comment. This is the first I 
have heard of the Commission of Fine Arts' suggestion that we 
move our entrance to the Memorial side of E Street, the north 
side. We explored that option. Judge Wagner and I together 
looked at that very closely. I responded to the Judge's 
concerns in that area. And two things prevented us from doing 
that. One, the National Park Service strongly opposes the idea. 
They own and control the National Law Enforcement Officer's 
Memorial, and they do not think it should be disrupted in any 
way. And secondly, any major entrance to the museum on that 
site would cause a major disruption and really demolition of a 
major portion of the National Law Enforcement Officer's 
Memorial, including part of the memorial walls that include 
more than 16,000 names of fallen officers.

                           PREPARED STATEMENT

    And for those reasons, I have indicated to Judge Wagner 
that that would not be an acceptable solution, but we did 
explore it carefully.
    Senator DeWine. Thank you.
    [The statement follows:]

                  Prepared Statement of Craig W. Floyd

    Mr. Chairman, I am very pleased to have this opportunity to testify 
on the appropriations request by the District of Columbia Courts to 
renovate and expand the Old Courthouse Building in Judiciary Square. I 
am here today on behalf of our board of directors, which is comprised 
of representatives from 15 national law enforcement organizations (copy 
of board of directors and organizations they represent is attached). 
Collectively, these organizations represent virtually every law 
enforcement officer, family member and police survivor in the United 
States.
    Our organization, the National Law Enforcement Officers Memorial 
Fund, is a major stakeholder in Judiciary Square and has great interest 
in any construction and renovation plans in the area. In 1991, we built 
and now assist the National Park Service in the maintenance and 
operation of the National Law Enforcement Officers Memorial in 
Judiciary Square. Today, that Memorial stands proudly as a richly 
deserved tribute to the more than 16,000 law enforcement officers who 
have been killed in the line of duty and whose names are inscribed on 
the Memorial's marble walls, including 698 from your home State of 
Ohio, Mr. Chairman.
    In November 2000, the Congress gave us a further authorization to 
build a National Law Enforcement Museum in Judiciary Square, right 
across the street from the National Memorial. The ``National Law 
Enforcement Museum Act,'' Public Law 106-492 (copy attached), was 
authored by a distinguished member of the Senate Appropriations 
Committee, U.S. Senator Ben Nighthorse Campbell. As a former deputy 
sheriff, Sen. Campbell has a special understanding and appreciation of 
the extraordinary level of service and sacrifice that our law 
enforcement officers have given our Nation.
    Sen. Campbell also knows that many other Americans lack that 
understanding and appreciation, mainly because they are not familiar 
with the dangers and importance of the job, or the proud history of the 
law enforcement profession. The proposed museum will help to educate 
Americans about the police profession's worth to our country by 
properly commemorating law enforcement's outstanding record of service 
and sacrifice.
    Congress was very specific in terms of our authority to build this 
Museum. The site and precise boundaries of the Museum were spelled out 
in very clear terms. (A diagram showing the Museum's boundaries is 
attached for your convenience.) Two above ground pavilions, totaling 
approximately 10,000 square feet, will serve as the entrances to the 
Museum. The rest of the Museum facility, approximately 80,000 square 
feet in size, will be located underground.
    The authorizing law specifically states that the National Law 
Enforcement Officers Memorial Fund ``shall own, operate, and maintain 
the Museum after completion of construction.'' Congress also required 
that ``The United States shall pay no expense incurred in the 
establishment or construction of the Museum.'' All of the funding for 
this Museum, just as it was for the Memorial, will come from private 
funds. No taxpayer dollars will be used. Finally, Congress stipulated 
that sufficient funds to complete construction of the Museum must be 
available before we are allowed to commence construction. We were given 
until November 2010 to begin construction of the Museum, or our 
authority to build the Museum will terminate.
    The boundaries of the site laid out in the authorizing law were 
established after much discussion and many meetings with the Joint 
Committee on Administration of the District of Columbia Courts, which 
has plans to renovate and expand the Old Courthouse building to the 
south of the Museum site. We have been very sensitive to their needs 
and interests throughout this process. In fact, we fully supported a 
provision that was included in the Museum Act authorizing the Courts to 
construct an underground parking structure to better meet their 
security and parking needs.
    We also agreed to a provision in the Museum authorizing law that 
calls for us to ``consult with and coordinate with the Joint Committee 
on Administration of the District of Columbia courts in the planning, 
design, and construction of the Museum.'' I believe the record is clear 
that the consultation and coordination called for in the legislation 
has occurred, and it will certainly continue to occur until the Museum 
is completed. (A chronology of that consultation and coordination is 
attached.)
    Let me say for the record that the renovation plans of the D.C. 
Courts for the Old Courthouse building are certainly consistent with 
our own efforts to appropriately restore the Judiciary Square precinct 
to a condition equal to its historic significance. The establishment of 
the National Law Enforcement Officers Memorial as the centerpiece of 
the Judiciary Square complex was a major step in this direction. 
Completion of the National Law Enforcement Museum and the renovation of 
the Old Courthouse building will fulfill this important vision.
    Recognizing that our two projects are linked so closely in 
proximity, both the National Capital Planning Commission, and the 
Commission of Fine Arts have required that we collaborate with the 
Courts in the design plans for the Museum plaza area, and mutually 
agree on an acceptable solution. We are working in good faith toward a 
final resolution. However, it must be noted, Mr. Chairman, that we have 
some serious differences with the Courts about the design of the Museum 
plaza area.
    First and foremost, we believe it is essential that the Memorial 
Fund and our architects design, build and maintain the Museum plaza 
area. The Courts disagree and have included the Museum plaza in their 
design plans, which simply do not take into consideration our needs and 
concerns. For example, their plans do not provide the skylights we need 
to allow natural light down into the underground Museum area. Their 
plans call for the elimination of an important outdoor reception plaza 
area, and their proposed water elements pose water leakage hazards that 
would be out of our control and pose serious risks to our $15 million 
worth of exhibits below. We believe that their proposed monumental 
staircase and large glass entranceway would serve to overwhelm the 
Museum pavilions and diminish the Museum's presence and importance.
    The Museum plaza is, in fact, the roof of our $70 million Museum. 
There are many technical, aesthetic and practical considerations when 
designing and maintaining the roof and plaza area of our Museum--air 
ventilation, visitor staging, water leakage, and skylights to let 
natural light down into the Museum, to name just a few. It should be 
noted that we are anticipating between 300,000 and 500,000 visitors 
annually. On peak days, visits may exceed 4,500 people. The Museum is 
requiring security screening at the pavilion level. The plaza design 
must take into account this queuing requirement. For these important 
reasons, we cannot cede control of the Museum plaza area to the Courts 
or anyone else.
    Further, Sen. Campbell addressed this issue in very strong terms in 
a letter to the Chairman of the Commission of Fine Arts dated October 
14, 2003 (copy of letter attached). He said, in part:

    ``It was always my intent, and the authorizing law clearly states, 
that the National Law Enforcement Officers Memorial Fund, Inc. 
(``Memorial Fund'') shall be solely responsible for preparation of the 
design and plans for the Museum, subject to the approval of the 
Secretary of the Interior, the CFA and the National Capital Planning 
Commission. Further, the public law provides full use and control of 
the Museum site (aboveground and underground) to the Memorial Fund. Any 
accommodation to others with regard to the use or access of the Museum 
site, including the plaza area between the two entrance pavilions, is 
and will be at the sole discretion of the Memorial Fund.''

    We believe that our needs and interests in the plaza area, along 
with the stated access needs of the Courts, can be successfully 
addressed. We have been sharing ideas with the Courts on the Museum 
plaza area for several months now, and the next meeting is scheduled 
for this Friday, February 27. Our architects will be providing the 
Courts with our latest design plans and I am confident that we are 
getting close to a final resolution on this important issue.
    We are also concerned about the timing of our two projects. While 
the construction and renovation of the Courthouse is planned for 2005-
2006, construction on the National Law Enforcement Museum is not 
expected to commence until at least 2007, and Congress actually granted 
us until 2010 to begin construction. Under even the most optimistic 
schedule, the Museum would not be completed until at least 2009, and at 
the outside, by 2012. This means that no matter what the Courts decide 
on for the final design for the Courthouse, and any entry on the north 
side, they must include a long-term interim solution. It would be 
irresponsible and a waste of taxpayer dollars to design and build 
anything on the north side of the Courthouse that would have to be 
demolished when we begin construction on the Museum. In fact, our 
construction plans call for closing E Street for approximately 18-24 
months, so access on the north side of the Courthouse will be severely 
limited during that time.
    Finally, let me state that the Memorial Fund is committed to 
accommodating the access and usage needs of the Courts. While our 
earlier plans were not successful in meeting those needs, we are 
working aggressively toward a final resolution. Any final solution must 
work for both the Courts and the Memorial Fund. However, we are not 
prepared to relinquish control of the Museum plaza area, as defined by 
the boundaries in the Museum Authorization Act. And, we are not 
prepared to make concessions that will in any way appear to diminish 
the National Law Enforcement Museum's importance or presence in 
Judiciary Square. As Sen. Campbell said in his October letter to the 
Commission of Fine Arts:

    ``This Museum should never be allowed to become a secondary 
consideration. Our Nation's law enforcement officers, especially the 
thousands of fallen heroes who are honored across the street at the 
National Law Enforcement Officers Memorial, deserve no less.''

    I know, Mr. Chairman, that you and the other Subcommittee members 
share that opinion. We look forward to working with the Courts and with 
this Subcommittee in ensuring that the rightfully grand vision we all 
share for Judiciary Square is fully realized.

    Senator DeWine. Senator Landrieu.

                  LOCATION OF THE MEMORIAL AND MUSEUM

    Senator Landrieu. Mr. Chairman, I really appreciate you 
bringing this group together so that we can perhaps explore 
some options that work well for the Courts and work well for 
the museum.
    And you will have to forgive me, because we are not 
familiar with all of this, many of the details, but maybe a 
little background would be helpful to me, Mr. Floyd, about how 
the memorial got to Judiciary Square in the first place. And as 
you and the organization that we want to be very respectful to 
searched for spaces to put this museum, how did you come across 
or settle on this particular space?
    Mr. Floyd. Well, it was approximately 1988 when we toured 
Washington to find an appropriate location for the National 
Memorial. And with the help of the National Park Service and 
the Commission of Fine Arts and the National Capital Planning 
Commission, we realized that there was strong linkage between 
law enforcement and Judiciary Square. It is the seat of our 
Nation's judicial branch of government and the seat of the 
criminal justice in this Nation of ours.
    And everyone involved felt that that would be the 
appropriate location for a National Memorial honoring law 
enforcement, so that is how we first arrived at Judiciary 
Square in 1988. We built the memorial in 1991.
    And then when we decided to build a museum to complement 
the memorial and further our mission, we felt that it needed to 
be located very close to where the memorial is. There needed to 
be close proximity. We explored the area, and the Federal 
property that now serves as the court parking lot across E 
Street to the south we viewed as the prime location for that.
    Congress agreed with us when we took that proposal to them, 
and they unanimously approved the legislation authorizing that 
site for our museum.
    And I should point out and emphasize that Judge Wagner was 
very helpful in negotiating that site for us. We spent many 
months talking this through and defining the boundaries of our 
museum so that it would not impact negatively on their 
courthouse.
    Senator Landrieu. Because both of these projects are so 
important, and I am just wondering maybe, Ms. Gallagher or Mr. 
Lindstrom, things that Congress does and can undo, things that 
Congress does and can change--you know, it is not--anything is 
not in stone. Even things that are built are torn down and 
redone. So I want to not just--I want to explore all of the 
options.
    And you all have worked with the law enforcement folks. I 
know that area is developed quite a bit and part of the 
challenge is that there is so much being constructed and built 
all along that area in the Mall. But is there any other space 
of land other than this particular plaza that the museum could 
be located near to the memorial, which is important for them, 
or is this just the only spot that they can be in?
    Mr. Lindstrom. Well, I--let me back up. With the--before 
the public wall, I do not believe that they consulted with the 
Commission of Fine Arts on the siting of the museum. And I know 
that was before your time, Ms. Gallagher. So this law was 
passed without a conference with our commissioners of the 
appropriateness of actually locating it under E Street.
    So once the law was passed, all those explorations were 
sort of moot. There are, perhaps not, open spaces in Judiciary 
Square, but there are other structures that could be 
rehabilitated for the museum, just as the Courts is doing for 
the Old City Hall, rehabilitating it for their new court.
    The building that comes to mind is the building that is 
immediately adjacent to the west side of Memorial Plaza.
    Senator Landrieu. Could you explain it out with the map? 
Because, Mr. Floyd, unless, you know, one possible solution--
and I realize the plaza is very important. We respect the law 
enforcement across the country, and we want you all to have 
something that, you know, we are all very proud of, and really 
fulfills our mission.
    But I am wondering if there were--if we could help you, if 
there are other buildings that are very, you know, right on the 
plaza, so, A, we are not going underground. Is there a 
particular reason why you want to go underground as opposed to 
being on top of the ground? And if you can be on top of the 
ground just as easily as you can be under the ground, maybe we 
can help you find a building and help you build it.
    Mr. Floyd. I appreciate that, Senator. I would respond with 
two things. One, there was a public hearing that the Senate 
held on this issue when we were discussing the site for this 
museum.
    The Commission of Fine Arts and other agencies did testify. 
And I believe there was fairly universal support for the 
proposal. The National Park Service also testified. We did 
explore other options, some of the existing buildings, court 
buildings surrounding us, for example, and just found those 
buildings unsuitable for a museum.
    It is important to understand that a museum requires 
certain space requirements and openness and so forth. We did 
not find any of the buildings in the area suitable for that. 
And Congress, after due deliberation I should point out, and 
working with a number of the public review agencies and the 
National Park Service, felt that the Court property, the Court 
parking lot property that ended up being the site for the 
museum was the best and most appropriate location.
    Senator Landrieu. Well, and I realize that, and I know that 
you all have worked a great deal on this, and I am not going to 
reach any conclusion. I am just exploring our options, because 
they are all very good public purposes that are being 
discussed. And there are other buildings and other spaces and, 
you know, there are a lot of demands on this little plot of 
land called the District of Columbia, which is a district. And 
there are lots of--you know, it is the City, it is also the 
Nation's Capital, it is also the Park Service for recreation, 
so we go through this all the time. This is not anything that 
is unusual.
    But I am just thinking for the extent of the renovations 
the Court needs, and you want to do a good job with your--of 
course, with your project. I mean, is it too late to, in your 
opinion, to just explore other options or buildings, even if--
now, I am not sure if there are any buildings that could 
actually be demolished and constructed new for you. I do not 
know if we would be restricted in that, because maybe all of 
these are historic buildings and cannot be.
    Mr. Floyd. Senator, I can only say that we have already 
spent over $3 million to----
    Senator Landrieu. Oh, right.
    Mr. Floyd [continuing]. Develop this site and to develop 
the plans for the museum. The schematic design plans for the 
building have already been completed. I think we have spent 
over $600,000 to accomplish that. I think it would be a great 
misuse of our donors' money to now revisit the idea of moving 
elsewhere. And I will say, I appreciate the concern----
    Senator Landrieu. That is a problem, because you have got 
$3 million in private dollars----
    Mr. Floyd. Yes.
    Senator Landrieu [continuing]. Committed to this site.
    Mr. Floyd. Yes. Well, we are totally committed. And Judge 
Wagner and I, I think, need to get together. We have tried to 
hand this off to our architects most recently, I am afraid 
without great success, although they have another meeting 
scheduled for Friday.
    And I think we are getting closer. They came to us with a 
plan early February that our architects are now going to be 
responding to on Friday. I think once that occurs, Judge Wagner 
and I can sit down and talk.
    We are going to work this out. I really do not think we are 
that far away. So the idea of, you know, can we both live on 
that site? I think the answer is absolutely yes. I do not think 
Judge Wagner would have agreed to the legislative solution that 
we proposed back in 2000 if she did not agree with that.
    Senator DeWine. Let me just say, if I could jump in here, 
we need a deadline. We have got--this subcommittee provides 100 
percent of the funds for the District for the Courts. We have 
got a responsibility to make sure we do not have overruns, that 
we do not waste money.
    Senator Landrieu.
    Senator Landrieu. Mr. Chairman, before we--Eleanor, I just 
wanted to recognize that you were here before you left. I just 
want to recognize the Congresswoman from the District, as well 
as our shadow Senator, Paul Strauss, but thank you all. We have 
received your----
    Ms. Norton. Thank you for holding the hearing. Thank you 
very much.
    Senator DeWine. It is good to see you.
    Senator Landrieu. Thank you.

                               SITE PLANS

    Senator DeWine. We have got--you know, we have got an 
obligation to move on.
    Ms. Gallagher, you were--do you want to describe the 
physical problem here? I saw your model back there. Not that we 
are going to--not that Senator Landrieu and I are going to get 
into this here. We are not. We cannot.
    Ms. Gallagher. Well, there is a--what we interpret as an 
obstruction in the Memorial Fund's design for the plaza. 
Abovegrade construction that--that we perceive in the last----
    Senator DeWine. I cannot see it.
    Ms. Gallagher. I think, if I may with your permission, our 
chief architect is here and she may be able to describe this.
    Senator DeWine. Yes, just briefly.
    Ms. Gallagher. Yes.
    Senator DeWine. Just real briefly.
    Ms. Saum. In a nutshell----
    Senator DeWine. For the record, what is your name, ma'am?
    Ms. Saum. My--I am sorry. My name is Christine Saum. I am a 
senior urban designer at the National Capital Planning 
Commission.
    The last time we received additional plans for this 
facility was last spring. But this model appears to me to be 
pretty much the same, in that the drawings we received last 
spring, the plaza location here on E Street between the museum 
pavilions was approximately 8 feet lower than the plaza shown 
here for the entrance to the courthouse.
    Direct access between the two plazas is obstructed by a 
water feature and a skylight that provides light to the 
underside, to the lower levels of the museum. And access to the 
courthouse would be required to pass behind the two museum 
pavilions by their loading docks and service areas. And we 
thought that was inappropriate for the entrance of the 
courthouse and did not----
    Senator DeWine. Why is it inappropriate?
    Ms. Saum. Because we thought that to have the access to a--
to an important court, the Superior Court, you should not be 
required to go around behind the loading dock, essentially. We 
thought that they needed direct access.
    And it was our interpretation of the Museum Act that when 
it stated that there was a 100-foot-wide area to be maintained 
where no aboveground construction was to be created, that the 
purpose for us to provide direct access to the courthouse and 
not merely to provide open views.
    Senator DeWine. Thank you.
    Judge King, Mr. Floyd said he thinks you all are getting 
close. Of course, that has to satisfy Ms. Gallagher, Mr. 
Lindstrom, and a lot of other folks----
    Judge King. I will just respond briefly, and then I know--
--
    Senator DeWine. Are you closer than not?

                     ENTRANCE TO THE OLD COURTHOUSE

    Judge King [continuing]. Chief Judge Wagner will. The Act 
is plain. It says there is a 100-foot corridor to get to the 
courthouse, so that it is an entrance, a main entrance with the 
security features and everything you need for the courthouse. 
It says that. It is very clear in the Act. I do not think we 
are close on that.
    Since last fall, the Court has revised its effort, its 
plan, to try to meet some of the concerns at CFA and NCPC. The 
Memorial has not.
    And the one other thing I do not want to let pass without 
commenting on is: We are renting space, swing space, while we 
do our renovations. We are depending on all of the buildings in 
the area, most of which are historic court buildings, for the 
ultimate filling out of our 10-year plan, so if we start giving 
those buildings away, then we are going to have to pay for it 
somewhere else. We are going to have to build space or lease 
space or do something, and it will become much more disruptive 
than any plan that we are talking about in terms of the Act as 
it stands now.
    Senator Landrieu. So you would prefer them to stay 
underground where they are, as opposed to having to give up one 
of the other buildings or use some comparable site. But the 
problem is that underground design that they have is not 
conducive to the functioning of the Courts building generally.
    Judge King. Well, no. The law says they are to have an 
underground building with two pavilions not to exceed 25 feet 
in height, and outside a 100-foot corridor that goes from E 
Street to the Courts buildings.
    So, as we say in the courthouse, ``Follow the law.'' That 
is all we need to do.
    Senator DeWine. Judge Wagner.
    Judge Wagner. May I say something? At the time the Act that 
was passed, of course, it was not the first bill. It was 
amended.
    And if you look back at the legislative history, you will 
see that after over 2 months of negotiations, the National Law 
Enforcement Memorial Fund and the Courts reached an agreement 
to clarify that the building of this museum will in no way 
conflict with the Courts' expansion and renovation, which was 
planned at that time. And so that is how the museum went 
underground.
    And if you have ever been down to the Smithsonian castle on 
the Mall, the model was essentially that. There is no blockage 
to the entranceway to the Castle imposed by the two underground 
museums on the Mall. That was how we thought we could coexist 
in this very small space.
    Symbolically, and given the historic character of Judiciary 
Square, we were concerned if the entranceway to the courthouse 
gives the appearance that there is blockage that is imposed by 
law enforcement. The separation is something that is required, 
given our way of life and our system of government in this 
country.
    And so within those parameters, we are working to try to 
accommodate our interests and the interests of the public in 
having this historic building----
    Senator DeWine. Well, let me----
    Judge Wagner [continuing]. You know----
    Senator DeWine. Yes. I do not think anyone is more 
supportive of, you know, the National Law Enforcement Fund than 
Senator Landrieu and I. You know, we want this to move forward 
very, very, very, very much.
    I guess the question is, Mr. Floyd, having heard these 
comments, where do we go from here?
    Mr. Floyd. I think the basic thing that the Courts want and 
need and deserve is access to their courthouse on the northern 
side, which they are planning to build as part of their plan. 
And I am absolutely personally committed to making that happen.
    I agree that the initial design that we developed with 
aboveground skylights precluded that to--in their mind, because 
they did not want to go around. They wanted to go straight up 
the middle. So we are now coming back to them with a design 
approach that gives us skylights, will allow natural light to 
get down below, but will give them direct access to their north 
entry of the courthouse, as their architects proposed to us 
earlier this month.
    It has only been a couple of weeks since we have had a 
chance to look at their plans, and we are now prepared to 
respond on Friday. And I think we are all in agreement that we 
want to give them what they want, and we just want to have 
control over that space so that we can maintain and deal with 
water leakage issues and make sure that we have the staging 
area for our visitors that we need. Those are our main 
concerns.
    And I do not see this as a major impasse. But their 
architects and ours have got to work in cooperation.

                       SUBMISSION TO NCPC AND CFA

    Senator DeWine. I understand. But with all due respect, you 
know, there has been no agreement for a year. And that is what 
this committee has to look at, and we have got a fiscal 
responsibility to make sure something moves here. So, you know, 
I want you to reach an agreement. I think it is imperative, you 
know, that this agreement is reached.
    So, you know, I am going to put everybody on notice that I 
expect you to reach an agreement and submit your plans to the 
National Capital Planning Commission and the Commission on the 
Fine Arts no later than March 3. If the Courts and the National 
Law Enforcement Fund cannot reach an agreement by March 3, then 
the Courts and the Law Enforcement Fund can submit their own 
individual plans to the NCPC and the Commission.
    Finally, I ask the National Capital Planning Commission and 
the Commission on the Fine Arts to review these plans if they 
are able, even though the submission deadline for them is 
viewed as past. This project is time critical and a decision on 
the design simply cannot slip another month. So that is what we 
are going to have to do.
    So, you know, hopefully we can reach this agreement. I hope 
you all can get together and in the next couple of days and get 
this thing ironed out. You know, we want both--you know, we are 
for all of you. I mean, we really are. And we want, you know--
everybody has public policy objectives that I think everyone is 
for. And there has not been anything said up here that we are 
not for.
    But you are the ones that have to mesh them. We cannot mesh 
them for you. We are not architects, and we are not sitting in 
your shoes, but you have got to get it worked out. And if you 
cannot get it worked out, you are just going to have to submit 
the plans, I guess, and let them deal with it. So that is where 
we are.
    Mary, anything else?
    Senator Landrieu. I just--are the architects for Mr. Floyd 
here?
    Mr. Floyd. They are. Davis Buckley is.
    Senator Landrieu. Will you stand please, so I can recognize 
you?
    And you are the representing the firm, representing the 
architects?
    Mr. Floyd. He is the principal, yes.
    Senator Landrieu. All right. Well, we just hope--I want to 
support the chairman. I think those deadlines are tight, but 
there is a real need to work this out. And I am hoping that the 
architects that are present for both of these projects 
understand what is being said, and that these are both two 
beautiful projects, and I am sure with a little bit of 
understanding, it could be worked out. And if not, then it 
could jeopardize them both, and that is just not necessary.
    So I know money has been spent, but there is going to be 
hundreds of millions of dollars spent on the final construction 
of this, so, yes, $3 million has been spent. But if $3 million 
could be spent up front a little bit better, then we can go 
ahead and do this for everybody. If not, it can cause a lot of 
problems.

                          SUBCOMMITTEE RECESS

    Senator DeWine. I mean, you know, we see this Memorial and 
that tribute to law enforcement as something we want to see. We 
want to see the magnificent courthouse restored. And they are 
two good things we want to have, and let us just make sure it 
gets done.
    Anything else?
    Senator Landrieu. No.
    Senator DeWine. All right. Thank you all very much. Good 
luck.
    [Whereupon, at 10:31 a.m., Wednesday, February 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        WEDNESDAY, MARCH 3, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:37 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                          DISTRICT OF COLUMBIA

             Court Services and Offender Supervision Agency

STATEMENT OF PAUL A. QUANDER, JR., DIRECTOR
ACCOMPANIED BY:
        PAUL BRENNAN, COMMUNITY SUPERVISION OFFICER
        REVEREND DONALD ISAAC, EXECUTIVE DIRECTOR, EAST OF THE RIVER 
            CLERGY-POLICE-COMMUNITY PARTNERSHIP

               OPENING STATEMENT OF SENATOR MIKE DE WINE

    Senator DeWine. Good morning. Today we are reviewing the 
fiscal year 2005 budget request for the District of Columbia's 
Court Services and Offender Supervision Agency and the District 
of Columbia's Public Defender Service.
    Under the National Capital Revitalization and Self-
Government Improvement Act of 1997, the Federal Government is 
required to finance both of these independent agencies. First, 
we will hear from Paul Quander, Director of CSOSA. His agency 
is responsible for supervising adults who are on pretrial 
release, probation, and/or parole supervision in the District 
of Columbia.
    The President's fiscal year 2005 Budget request is $187.5 
million for CSOSA, an increase of $19 million or 12 percent 
over the fiscal year 2004 enacted level. We would like to hear 
how these additional resources would be used to further the 
agency's mission and goals. Last year, this subcommittee 
appropriated funds above and beyond the President's request to 
enable CSOSA to reduce its caseload ratio for sex offenders 
from 36 to 1 down to 25 to 1; for domestic violence offenders, 
from 42 to 25 to 1; and for offenders with mental health 
problems from 47 to 1 to 25 to 1.
    Also, this subcommittee provided additional resources to 
allow CSOSA to purchase GPS anklet monitoring equipment to 
ensure that parolees are not going to places like schools, 
libraries, where they are prohibited from frequenting. I am 
concerned, however, that the fiscal year 2005 budget request 
does not include the funds to continue these important efforts, 
and this is something that this subcommittee will have to deal 
with.
    After Mr. Quander testifies, we will then be joined by the 
Reverend Donald Isaac who will discuss the District's faith/
community partnership with CSOSA which aims to reconnect 
offenders with their communities before returning home from 
prison. I am interested to see how CSOSA is using video 
conferences to allow families and mentors here in the District 
to stay in touch with their loved ones who are incarcerated 5 
hours away down in North Carolina.
    Mr. Ronald Sullivan will then testify, during the second 
panel, to present the Public Defender Service budget. PDS is an 
independent Federal agency that provides legal representation 
to indigent adults and children facing criminal charges in the 
District. PDS also provides legal representation for people in 
the mental health system, as well as the children in the 
delinquency system, including those who have special education 
needs due to learning disabilities. The President's budget 
request for PDS is $29.8 million which is an increase of $3.7 
million over fiscal year 2004 enacted level.
    As usual, witnesses will be limited to 5 minutes, 5 minutes 
for their oral remarks in order to leave time for questions and 
answers. Copies of all the written statements will be placed in 
the record in their entirety.
    We would also like to recognize, of course, Eleanor Holmes 
Norton, who is here. Eleanor is back there somewhere.
    There she is. Thank you for joining us, again.
    We always welcome her here.
    Senator Landrieu, for an opening statement or comments.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. I will be brief, 
but I do want to make just a few comments and welcome to our 
panelists that are here with us. And, Mr. Quander, it was very 
nice meeting with you, even just briefly, yesterday.
    But I wanted to just recommit myself to working as a 
partner with Chairman DeWine. We have worked very well chairing 
and serving as ranking member alternately over the years of 
this committee as we work with the Mayor and the leadership to 
strengthen the District of Columbia in any number of ways: 
through improving our schools and education; through supporting 
and revitalizing the family court and child welfare system; and 
through working with leaders, like yourself, to bring more 
public safety into strengthening our public securities system.
    The Mayor, I think, is absolutely correct when he states 
that the goal of this District, as well as many cities 
throughout the Nation, is to stabilize and encourage people to 
stay in the District or to move back to the District, and there 
are many aspects that go into a person's decision or family's 
decision to do that. Public safety is one of them. So we thank 
you for the work and the progress that we are making in that 
area.
    The mission of the agency that you supervise is extremely 
important to maintaining and improving public safety. There are 
over 16,000 offenders and 8,000 defendants at any given time. I 
understand, from your prepared statement, that more inmates are 
transitioning directly from prison to the community with no 
halfway house options, which is a real challenge and something 
I hope we can address and speak about this morning.
    In addition, I want to make note of the great progress made 
during the course of the brief existence of this agency in 
terms of the caseload reductions that our committee has helped 
to work with you to make true. Also, the number of parolees 
rearrested on new drug charges has dropped from 27 percent to 
18 percent, which is, I think, a significant drop and a real 
measure of some success in certain areas.
    Although we do have, Mr. Chairman, some effective drug 
testing programs, I think our resources are still scarce to 
provide the kind of extensive and comprehensive drug treatment 
that is necessary, not just in this District and City, but in 
cities throughout the United States.
    So, I just want to commend CSOSA for reducing the caseload. 
I want to work with you, Mr. Chairman, and make sure we can 
continue to reduce that caseload. To try our very best to work 
on strategies to reduce the turnover rate, which is very 
important, to make sure that these cases are prosecuted and 
processed in a timely manner just for the rights of the victim, 
as well as for the rights of the accused. I have a more lengthy 
statement, but that will suffice for the time being and I look 
forward to the testimony and the questions. Thank you.

               PREPARED STATEMENT OF SENATOR PAUL STRAUSS

    Senator DeWine. Senator Strauss has submitted a statement 
which will also be included in the record.
    [The statement follows:]

                   Statement of Senator Paul Strauss

    Chairman DeWine, Ranking Member Landrieu, and others on this 
subcommittee, as the elected United States Senator for the District of 
Columbia, and an attorney who practices in our local courts, I would 
like to state for the record that I fully support the fiscal year 2005 
Budget Request for the District of Columbia Court Services Offender 
Supervision Agency and the Public Defender Services, I would like to 
thank you for holding this hearing this morning. On behalf of my 
constituents, I appreciate your consideration of the needs of the 
people in the District of Columbia. It is vital that these two agencies 
be fully funded in the amount asked for today. As the elected Senator 
from the District of Columbia, I myself cannot vote on this 
appropriation. Therefore, I am limited to merely asking you to support 
the requests.
    Due to our lack of self-determination, we are unable to provide or 
fund certain government services on a local level. Consequently, the 
Federal Government has sole discretion as to the funding levels for 
these agencies. I do not intend to discuss the issue of self-
sufficiency and budget-autonomy here today. However, as long as 
Congress continues to control these institutions, which should be 
operated by the District, Congress has an obligation to fully fund the 
budget requests of the agencies present.
    The sixth amendment to the Constitution guarantees the accused to 
have ``. . . assistance of counsel for his defense.'' Public Defender 
Services (PDS) satisfies this mandate by playing a vital role in our 
system of due process. In order to uphold the Constitutional rights of 
indigent Defendants, it is crucial that PDS's financial requirements 
are met. The District of Columbia's Public Defender Services have 
demonstrated an outstanding record of performance. In their 30 years of 
existence, PDS has set a national standard of excellence with its 
innovative approaches that are applied by some of the most talented 
lawyers in the country. They are an agency that this Congress, this 
subcommittee, and the citizens of the District of Columbia should be 
proud of.
    The other organization present here today also provides a necessary 
service to the people of Washington, DC. The Court Services and 
Offender Supervision Agency (CSOSA) encompasses multiple stages of the 
legal process. Among them is the Pretrial services Agency (PSA), which 
Supervises defendants pending trial and/or sentencing. Additionally, 
the Community Supervision Program (CSP) manages the cases of offenders 
on probation, parole, or supervised release. Overall, CSOSA has 
developed a pragmatic approach to both administering the cases of the 
accused, and in reintegrating past criminal offenders into society. 
Furthermore, it offers valuable services to victims and provides 
separate services for women, children, and those in need of 
professional treatment. The Assessment and Orientation Center (AOC) 
clinically treats both defendants and offenders who are afflicted with 
drug addictions. With an 80 percent completion rate, and a decreased 
arrest rate among graduates by 75 percent, AOC has an outstanding 
record of success. However, without sufficient funding AOC may have to 
revert to a ``single treatment approach'', which is known to be much 
less effective than a multifaceted intervention. Furthermore CSOSA has 
been in the process of expanding their operation by hiring additional 
supervision officers, and enhancing their global Positioning System, 
which monitors high-risk domestic violence and sex offenders. Moreover, 
all of the programs of CSOSA ensure the safety and well being of the 
citizens of the District of Columbia. It is therefore imperative that 
their budget request is granted so that they can continue to do so.
    In conclusion, I would like to thank the subcommittee for holding 
this important hearing. I ask that you approve the budget proposals 
submitted today. I commend Senators DeWine and Landrieu for their 
continued interest in the fate of our Nation's Capital. Their valuable 
support has sustained the functioning of our vital institutions. I 
would also like to applaud the witnesses from both agencies, who have 
constructed compelling testimony in justifying their budget requests. 
Finally, I would like to thank Regina Szymanska and Brian Rauer for 
their help in preparing this statement. I look forward to further 
hearings on this topic, and I'm happy to respond to any requests for 
additional information.

    Senator DeWine. Well, I think, this is going to be a very 
interesting hearing.
    Our first witness is the Honorable Paul Quander, Jr., who 
is the Director of the Court Services and Offenders Supervision 
Agency, who was nominated by President George Bush on October 
18, 2001 and confirmed by the Senate. Prior to his appointment, 
he served as Assistant United States Attorney in the District 
of Columbia and as Deputy Director for the District of Columbia 
Department of Corrections. We welcome him back.
    And thank you very much, and you can proceed with a 
statement and then we will go to the videotape, then.

                   STATEMENT OF PAUL A. QUANDER, JR.

    Mr. Quander. Thank you, and good morning.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to appear today in support of the Court 
Services and Offender Supervision Agency's fiscal year 2005 
budget request.
    As you know, CSOSA's budget request includes the Pretrial 
Services Agency which, although a component of CSOSA, operates 
independently with a separate budget. The District of Columbia 
Public Defender Service also transmits its budget with CSOSA 
but is not a part of CSOSA.
    CSOSA's fiscal year 2005 budget request totals 
$187,490,000, an increase of 12 percent over fiscal year 2004. 
Of this, $118,343,000 is for the Community Supervision Program; 
$39,314,000 for the Pretrial Services Agency; and $29,833,000 
for the Public Defender Service.
    At any given time, the Community Supervision Program 
supervises approximately 14,000 offenders on probation, parole, 
or supervised release. The Pretrial Services Agency supervises 
approximately 7,000 defendants pending trial and/or sentencing.
    The Community Supervision Program's proposed budget 
represents a 13 percent increase over fiscal year 2004 funding. 
Of the $14 million increase, approximately $8.9 million is 
allocated to one new program initiative. This increase funds 
staffing and operating expenses for the first year of 
operations for our Reentry and Sanctions Center.
    In fiscal year 2002, CSOSA received $13 million in no-year 
funds to renovate Karrick Hall, an eight-story building on the 
grounds of D.C. General Hospital. This facility housed CSOSA's 
21-bed Assessment and Orientation Center since 1996. The 
Assessment and Orientation Center provides 30 days of intensive 
clinical assessment, treatment readiness, and reintegration 
programming to high-risk defendants and offenders with serious 
drug abuse problems. Since its inception, over 80 percent of 
participants have completed the program, and arrest rates among 
program graduates decreased nearly 75 percent. Based on its 
demonstrated effectiveness, CSOSA will expand this program as 
the focal point of a Reentry and Sanctions Center.
    At present, the Assessment and Orientation Center treats 
approximately 250 individuals per year. The 108-bed Reentry and 
Sanctions Center, once completed, will provide approximately 
1,200 program slots annually.
    This expansion will allow us to make the program available 
to women, develop a dedicated mental health unit, and open 
three additional men's units. In addition, the center will 
provide short-term residential interventions as a sanction for 
individuals who relapse.
    CSOSA's program model emphasizes accountability. Our 
flexible system of intermediate sanctions enables us to balance 
our external controls with the offender's developing sense of 
internal self-control. We know, however, that external 
authority alone is not sufficient to increase the offender's 
sense of responsibility to self, family, and community. For 
that, he or she needs to establish permanent, personal 
connections to positive individuals and institutions. These 
connections are essential to long-term change.
    Supervision occupies, at most, a few years of a person's 
life. During that time, the offender must develop the personal 
resources that will permanently support him or her.
    In the District of Columbia, as elsewhere, faith 
institutions are a permanent source of guidance, fellowship, 
inspiration, and assistance. These institutions have long 
histories of helping the less fortunate and encouraging 
personal change. Therefore, faith institutions are a natural 
point at which to connect returning offenders with their 
communities.
    In 2001, CSOSA and the City's clergy forged a partnership 
to develop mechanisms through which faith institutions could 
contribute to successful reentry. We chose mentoring as our 
first initiative to emphasize the value of personal 
relationships in this work. From the initial call to action in 
January 2002, to last month's Reentry Worship events, we have 
raised awareness and involved over 200 volunteers in our 
mentoring program.
    Last year, we expanded the mentoring program to reach 
inmates at the Rivers Correctional Institution in North 
Carolina, which is a Bureau of Prisons contract facility 
housing over 1,000 D.C. offenders. Reverend Donald Isaac, the 
Chairman of the CSOSA Faith/Community Partnership Advisory 
Council will share the clergy's perspective on this initiative 
with the subcommittee.
    As the faith initiative matures, we hope to demonstrate the 
public safety benefits of linking returning offenders with the 
community's natural support systems. We are in the initial 
stages of evaluating the program, but we have already seen the 
difference this intervention can make in individual lives.
    This has been a year of great promise for CSOSA. We have 
continued to refine the tools we use to supervise offenders. 
This spring, we will implement an expanded automated screening 
instrument that combines risk scoring and needs assessment to 
generate a prescriptive supervision plan for each offender. We 
recently expanded our case management system to include 
automated treatment tracking. With the additional fiscal year 
2004 funding supported by the subcommittee, CSP, Community 
Supervision Program, has begun hiring additional supervision 
officers to lower high-risk offender caseloads and expand our 
use of Global Positioning System monitoring on high-risk 
domestic violence and sex offenders.
    The Pretrial Services Agency has made significant progress 
with implementation of a new program funded last year, the 
Mental Health Supervision Unit. This new unit provides 
comprehensive mental health assessments and links defendants 
with a range of mental health services provided by the City's 
Department of Mental Health.
    During fiscal year 2003, Pretrial Services Agency also 
provided strong support to the D.C. Superior Court's 
implementation of its new East of the River Community Court. 
The shift from a traditional case processing orientation to a 
problem-solving system of supervision has been very labor-
intensive for PSA, and the agency continues to explore ways to 
realign existing staff to lower general supervision caseloads.
    Community supervision plays a vital role in keeping our 
city safe. It is the bridge that offenders must cross to move 
from bad choices to a better life. It is our job to make it 
both difficult and undesirable for the offender to reverse 
direction and travel backwards. Our supervision officers have 
an equal responsibility to encourage progress and address non-
compliance and relapse.
    Every time I visit one of our field units, I am reminded 
how difficult their job is. But every time I hear that an 
offender got a promotion at work or completed treatment, I am 
reminded how rewarding it can be. As more partners join us in 
this work, I believe our forward momentum will carry more and 
more offenders to the long-term success of living as 
productive, crime- and drug-free citizens.

                           PREPARED STATEMENT

    We thank the subcommittee for its continued interest in, 
and support of, our initiatives. I will be pleased to answer 
any question you may have at this time.
    [The statement follows:]

               Prepared Statement of Paul A. Quander, Jr.

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to appear today in support of the Court Services and 
Offender Supervision Agency's fiscal year 2005 budget request. As you 
know, CSOSA's budget request includes the Pretrial Services Agency 
(PSA), which, although a component of CSOSA, operates independently 
with a separate budget. The District of Columbia Public Defender 
Service also transmits its budget with CSOSA's but is not part of 
CSOSA.
    CSOSA's fiscal year 2005 budget request totals $187,490,000, an 
increase of 12 percent over fiscal year 2004. Of this, $118,343,000 is 
for the Community Supervision Program (CSP), $39,314,000 for PSA, and 
$29,833,000 for the Public Defender Service.
    At any given time, CSP supervises approximately 14,000 offenders on 
probation, parole, or supervised release. PSA supervises approximately 
7,000 defendants pending trial and/or sentencing.
    CSP's proposed budget represents a 13 percent increase over fiscal 
year 2004 funding. Of the $14 million increase, approximately $8.9 
million is allocated to one new program initiative. The increase funds 
staffing and operating expenses for the first year of operation for our 
Reentry and Sanctions Center.
    In fiscal year 2002, CSOSA received $13 million in no-year funds to 
renovate Karrick Hall, an eight-story building on the grounds of D.C. 
General Hospital. The facility has housed CSOSA's 21-bed Assessment and 
Orientation Center, or AOC, since 1996. The AOC provides 30 days of 
intensive clinical assessment, treatment readiness, and reintegration 
programming to high-risk defendants and offenders with serious drug 
abuse problems. The program has been extremely successful. Since its 
inception, over 80 percent of participants have completed the program, 
and arrest rates among program graduates were found to be nearly 75 
percent lower than among offenders who did not receive this 
programming. Based on its demonstrated effectiveness, CSOSA decided to 
make this program the focal point of a Reentry and Sanctions Center 
that would serve a larger population. At present, the AOC treats 
approximately 250 individuals per year; the 108-bed Reentry and 
Sanctions Center will provide approximately 1,200 program slots 
annually.
    This expansion will allow us to make programming based on the AOC 
model available to women, develop a dedicated unit for individuals with 
serious mental health issues, and open three additional units for male 
defendants and offenders. This type of intensive, structured, 
sanctions-based treatment is clearly effective, and we are very pleased 
that we will soon be able to expand its use.
    We are also pleased that we will not need to interrupt the program 
during the renovations. We have procured an interim facility in 
Northwest Washington and are now completing the transfer of operations. 
The new space also allows us to increase overall capacity to 27 beds 
during the renovation period.
    Developing the Reentry and Sanctions Center demonstrated the value 
and effectiveness of our community partnerships. We worked closely with 
the city during the Reservation 13 master planning process to identify 
the best location for the Center at this site. Once the decision to 
renovate Karrick Hall was finalized, we worked cooperatively with the 
city and neighborhood associations on our short-term occupancy of the 
interim facility. At each stage of the process, we kept our partners 
and neighbors informed of our intentions. The community has continually 
supported our presence and recognized our contribution to public 
safety.
    CSOSA's Reentry and Sanctions Center will expand the range of 
program options available to our supervision officers. Most treatment 
professionals believe that relapse is part of recovery. A single 
treatment experience is rarely sufficient to enable long-term substance 
abusers to overcome their addiction. Most often, the road to recovery 
is fraught with obstacles and detours. The Reentry and Sanctions Center 
will provide not only the initial 30-day preparatory program, which 
increases the likelihood that subsequent treatment will be effective, 
but also short-term residential sanctions for individuals who relapse.
    CSOSA's program model emphasizes accountability. Our flexible 
system of intermediate sanctions enables us to balance our external 
controls with the offender's developing sense of internal 
accountability. We know, however, that external authority alone is not 
sufficient to increase the offender's sense of responsibility to self, 
family, and community. For that, he or she needs to establish 
permanent, personal connections to positive individuals and 
institutions. These connections are essential to long-term change. 
Supervision occupies at most a few years of a person's life. During 
that time, the offender must develop the personal resources that will 
support a changed lifestyle.
    In the District of Columbia, as elsewhere, faith institutions are a 
permanent source of guidance, fellowship, inspiration, and assistance. 
These institutions have long histories of helping the less fortunate 
and encouraging personal change. Therefore, faith institutions are a 
natural point at which to nurture connection between returning 
offenders and their communities.
    In 2001, CSOSA and the city's clergy forged a partnership to raise 
awareness of the offenders' needs and develop mechanisms through which 
faith institutions could help to meet them. We chose mentoring as our 
first initiative to emphasize the value of personal relationships in 
this work. From the initial call to action in January 2002, to this 
year's Reentry Worship events early last month, we have raised 
awareness and involved over 200 volunteers in our mentoring program. 
Rev. Donald Isaac, the Chairman of the CSOSA Faith/Community 
Partnership Advisory Council, will share the clergy's perspective on 
this initiative with the subcommittee.
    Last year, we expanded the mentoring program to reach inmates at 
the Rivers Correctional Institution in North Carolina, which is a 
Bureau of Prisons contract facility housing over 1,000 D.C. offenders. 
We will show a short video about the mentoring program and a clip of 
our video conference mentoring with Rivers at the conclusion of Rev. 
Isaac's statement.
    As the faith initiative matures, we hope to demonstrate the public 
safety benefits of linking returning offenders with the community's 
natural support systems. We are in the initial stages of evaluating the 
program, but we have already seen the difference this intervention can 
make in individual lives. Mentors have helped their mentees get and 
keep jobs, maintain abstinence, find housing, and heal family 
relationships. A mentor cannot and should not replace the community 
supervision officer, but the mentor can help the offender to establish 
relationships that last far beyond the supervision term.
    Beyond mentoring, the faith initiative makes available to offenders 
the support services offered by many churches and mosques. These 
services include job training programs, food and clothing banks, 
counseling and support groups, and family services. Through referral to 
faith-based services, CSOSA expands the range of support available to 
offenders.
    This has been a year of great promise for CSOSA. We have continued 
to refine the tools we use to supervise offenders. This spring, we will 
implement an expanded automated screening instrument that combines risk 
scoring and needs assessment to generate a prescriptive supervision 
plan for each offender. We recently expanded our case management system 
to include automated treatment tracking. With the additional fiscal 
year 2004 funding supported by the subcommittee, CSP has begun hiring 
additional supervision officers to lower high-risk offender caseloads 
and expand our use of Global Positioning System monitoring on high-risk 
domestic violence and sex offenders. CSP and PSA also processed almost 
4,000 treatment placements.
    PSA has made significant progress with implementation of a new 
program funded last year, the mental health supervision unit. This new 
unit provides comprehensive mental health assessments and links 
defendants with a range of mental health services provided by the 
city's Department of Mental Health. We expect that this will greatly 
improve our ability to supervise defendants who manifest significant 
programmatic needs.
    During fiscal year 2003, PSA also provided strong support to the 
D.C. Superior Court's implementation of its new East of the River 
Community Court. The shift from a traditional case processing 
orientation to a problem-solving system of supervision has been very 
labor-intensive for PSA, and the Agency continues to explore ways to 
realign existing staff to lower general supervision caseloads.
    Community supervision plays a vital role in keeping our city safe. 
It is the bridge that offenders must cross to move from bad choices to 
a better life. It is our job to make it both difficult and undesirable 
for the offender to reverse direction and travel backwards. Our 
supervision officers have an equal responsibility to encourage progress 
and address non-compliance and relapse. Every time I visit one of our 
field units, I am reminded how difficult their job is. But every time I 
hear that an offender got a promotion or completed treatment, I am 
reminded how rewarding it can be. As more partners join us in this 
work, I believe our forward momentum will carry more and more offenders 
to the long-term success of living as productive, crime- and drug-free 
citizens.
    We thank the subcommittee for its continued interest in, and 
support of, our initiatives. I will be pleased to answer any questions 
you may have at this time.

    Senator DeWine. Great. Thank you very much.
    You have--why don't we go to your presentation?
    Mr. Quander. Thank you, and with the----
    Senator DeWine. Then we will go to questions. You can, you 
know, bring up Reverend Isaac, now, or----
    Mr. Quander. Actually, if I may----
    Senator DeWine. Or do you want----
    Mr. Quander [continuing]. I would like to invite, with the 
Committee's permission, Paul Brennan, who is a supervisory 
community supervision officer and an individual who is 
intimately responsible for actually implementing and actually 
making sure that the Global Positioning System monitoring 
system is working.

                    DEMONSTRATION OF GPS MONITORING

    Paul supervises one of our sex offender units, and these 
are the individuals who we want to make sure we have constant 
control and monitoring. So Paul has been instrumental in 
getting the system up and running, and he is the individual who 
is most familiar, and I would like to invite him to come 
forward and to just talk for a moment and explain what we have 
done and how we have done it.
    Paul.

                       STATEMENT OF PAUL BRENNAN

    Mr. Brennan. Good morning. First, I would like to make sure 
you have a handout that looks like this, to follow along.
    Senator DeWine. We do not.
    Mr. Brennan. Well, let us look here.
    Senator DeWine. Yes. One. Okay. Very good. Okay.
    Senator Landrieu. We have another one.
    Senator DeWine. We are in business.
    Mr. Brennan. Great. What I am going to show you is just a 
brief clip of an offender--of a sex offender, high-risk sex 
offender released from prison. It is going to show his 
movements to a location that we later had to investigate----
    Senator DeWine. All right.
    Mr. Brennan [continuing]. And I will talk about the 
findings of what we found out. What you will see on the screen 
is the offender at a bus stop that we identified. The green 
represents--the green dots represent the offender. The arrows 
will represent movement of the offender.
    As you can see, the offender is around this bus stop here.
    Senator DeWine. Where does this show up, though, in the 
real world? I mean, it does not show up here in the Capitol on 
the screen. Where is it?
    Mr. Brennan. It shows up on our computer screen that we can 
pull up from our office.
    Senator DeWine. And who monitors that?
    Mr. Brennan. The supervising officers will monitor this on 
a daily basis.
    Senator DeWine. The officer for that particular individual 
or is there just somebody who monitors it in general?
    Mr. Brennan. Each officer will be monitoring their 
offender's movements each day.
    Senator DeWine. Okay.
    Mr. Brennan. They will be most intimately aware of what the 
issues are to look for.
    Senator DeWine. Okay.
    Mr. Brennan. With this particular offender, he's a child 
molester and we want to keep him away from schools. He's not 
allowed to use the internet and so forth.
    You see his movements as he comes into the City. He stops 
at this location. We lose GPS at this location. That typically 
means an offender has gone inside of a building. We know that 
this is G Street. We know that Martin Luther King Library is 
down here.
    We brought the offender in and investigated why he was in 
this particular location, and from that investigation 
determined that he was using the internet at Martin Luther King 
Library which was a condition of his release that prohibited 
him from doing such. So from that, we were able to sanction the 
offender, put tighter restrictions on him.
    I am going to show you another clip of the same offender 
who is at the halfway house. He goes to the same bus stop. Down 
at the bottom of the screen you can--in your handout you can 
see it clearer, the time, the date, and he travels down to 
Anacostia Metro Station. Now, he's on his way--he is permitted 
to leave the halfway house to go to a job program. The job 
program is not in this area.
    So what caused us to be concerned is: Why is he going out 
of his way to go to this particular stop? What we notice are 
the red indicators here of schools. The time of day is between 
7:00 a.m. and 8:00 a.m. So when kids are going to school, they 
may be taking that particular subway station.
    As I play the movements, you can see that the offender is 
there for an extended--almost an hour, which is highly unusual, 
and you can see him loitering around the location. And this, 
right here, and that to us is suspicious. Why is he in that 
location?
    In a minute you'll see him now getting on public 
transportation. We lose GPS. That means he is probably on a 
bus, and then he ends up in this location. He gets off the bus, 
and now he is walking to his program. You see a school here. 
And there is his program, right here. And it sees him stop. 
Now, here is the closest Metro. So, why was he at the Anacostia 
station? We later determined that he had gone there repeatedly. 
That was enough for us to take it back to the parole commission 
and revoke his parole.
    Do we have time for one more clip?
    Mr. Quander. Let me just make a point. We would never have 
known the travel pattern of this individual unless we had the 
monitoring system. What happened was once he went to the 
Anacostia station, the next morning when the supervising CSO 
took a look at his screen, the information automatically was 
there. So he could look at it, analyze it, and indicate--the 
indications were right there, that there were three schools, 
and we also saw that he was standing there for 1 hour.
    And why does a sex offender get off at a subway stop which 
is not the closest one to where he is going and which is in 
close proximity to three schools? We were able to use this 
information to confront him with it and get him to acknowledge, 
No. 1, yes, he was there and, No. 2, he should not have been 
there. And then we could take the appropriate action.
    The other thing that this allows us to do is when we 
present this to a releasing authority, whether it is the 
Superior Court or the U.S. Parole Commission, it makes it very 
difficult for people to explain away. There is no longer an 
issue as to whether or not you were there. This technology 
proves it. There is not much that you can say. It is 
irrefutable, essentially, and allows us to keep control over a 
population that we are most concerned about. Okay.
    Senator DeWine. Good. No, that was great. Thank you, very 
much.
    Mr. Quander. Okay. Thank you. Okay. Go ahead.
    Mr. Brennan. The hardware is up here if you wanted to 
examine it. Also, in the green packets, there is a description 
of how it works and that is from the company. Feel free to 
review that.
    Senator DeWine. Sure. Go ahead.
    Senator Landrieu. How expensive was this system to put in 
place and what is the annual cost of maintaining it? And I am 
not talking about the people that have to analyze it. I am just 
talking about the software and the general maintenance.
    Mr. Quander. We are--we have a vendor, a contract with a 
vendor. Our costs are $6 a day per unit that we have available 
to us. The committee appropriated $100,000 for us to get the 
program up and operational. We would like to expand the use to 
get as many as 200 individuals on to the GPS system.
    Senator Landrieu. Let us talk about the cost if we could, 
Mr. Chairman, for just a minute. This is the device that costs 
$6 a day?
    Mr. Quander. It is the whole system.
    Senator Landrieu. It is the whole system?
    Mr. Quander. Yes.
    Senator Landrieu. And for $6 a day you can monitor a 
felon----
    Mr. Quander. Yes.
    Senator Landrieu [continuing]. A person? And we have money 
to monitor how many?
    Mr. Quander. Right now, we can monitor 100 individuals.
    Senator Landrieu. And how many do we have?
    Mr. Quander. Right now, there are nine that are actually on 
the program.
    Senator Landrieu. No. How many offenders are we trying--
what is our goal of trying to monitor, how many?
    Mr. Quander. I am--I have funding to monitor 100. I would 
like to monitor 200.
    Senator Landrieu. All right. How many----
    Senator DeWine. But how many----
    Senator Landrieu [continuing]. Then would----
    Senator DeWine. Excuse me. How many are we actually 
monitoring right now?
    Mr. Quander. Today, we have nine offenders on GPS.
    Senator DeWine. Why are we only at nine?
    Mr. Quander. Because we are still in the pilot phase of the 
program----
    Senator DeWine. Okay.
    Mr. Quander [continuing]. And we are evaluating. The other 
issues are: We have to train staff. Right now, most of the 
offenders are in the sex offense unit, and so Mr. Brennan, who 
supervises that unit, has received the training and the know 
how. The other thing, it is intensive as far as analyzing the 
material.
    Senator DeWine. Okay.
    Mr. Quander. Once this information is provided, then the 
CSO has to sit down, has to analyze it, know the patterns, and 
then confront the individual and do the follow up. So, it is 
labor intensive. So, we have to be in a caseload ratio.
    So, right now, although the sex offense caseload is about 
29 to 1 as of January, this past January, the closer we get it 
down to those lower numbers, the more effective we can use 
this, make this tool.
    Senator Landrieu. Let me try to re-ask my question, and I 
am very impressed with the technology and, believe me, I want 
to help you, and I can see the benefits of it. I can also see 
the--and understand the issue you just raised because we have 
talked about it before. But as good as the technology is, it is 
only as good as you can analyze it and have the people there to 
sit at the screen and to do the appropriate calculations and 
then take the time to follow up.
    So I am clear, I am just trying to understand that this 
pilot, although it is good, it seems to me to be very, very 
small in the sense that we have, according to this, 500 sex 
offenders that are released on the streets and we are 
monitoring nine, nine people right now?
    Mr. Brennan. We have actually hooked up over 50 in the 
course of the pilot.
    Senator Landrieu. So 50 out of 500 of the sex offenders. 
And how many of the mental health--we have 666 mental health 
individuals that are described as mental health. Are we 
monitoring any of those?
    Mr. Quander. None of the mental health population are on 
the GPS.
    Senator Landrieu. How about domestic violence?
    Mr. Quander. Well----
    Senator Landrieu. We have 1,122?
    Mr. Quander. During the course of the pilot phase, there 
have only been two, I believe, domestic violence individuals.
    Senator Landrieu. This is a very small pilot, but it is 
very promising.
    Mr. Quander. Yes.
    Senator Landrieu. But the problem is: The resources are 
short and the staffing issues are substantial. But it seems 
like, is it the, I guess--I am going to finish up here in a 
minute.
    But is it the code of consensus of the professionals that 
do this that this is a pretty extraordinary system if it can be 
funded and staffed appropriately? Because, as you said, I mean, 
I am sure everything is--nothing is foolproof, but this seems 
pretty convincing to me; that is, trying to monitor activities 
of people and trying to catch them before another terrible 
incident occurs. Is that your general sense?
    Mr. Quander. It is, and----
    Senator Landrieu. I am not trying to lead you to an answer. 
I just want to know what your feeling is, yes or no.
    Mr. Quander. It is, and let me try to respond this way. 
Possibly 3 weeks ago we provided training to the Judges, the 
Criminal Division Judges in Superior Court, for what is 
involved in dealing with the sex offender, and a portion of 
that training dealt with the Global Positioning System, and we 
walked through it because we wanted to educate them so that 
they knew it was available so that they could use it.
    Once we did that demonstration, the phone calls have been 
coming in. So there is a need. There is agreement in the 
community, the criminal justice community, that this works, 
that it is a tool that can better protect the public.
    It is also a tool that helps us assist the offenders to be 
successful in their period of supervision. The more individuals 
that I can keep on the streets of the District of Columbia 
successfully complying with the rules, the better we are as a 
city, and the better their chances are for completing 
supervision successfully in taking advantage of all the other 
tools that we have available. This helps us to keep offenders 
accountable, and if we have them accountable, then we can do 
all the other things that we need to do to make that 
transition.
    Senator DeWine. The pilot program will run its course when?
    Mr. Quander. Well, we have funding for this fiscal year, 
and we have funding for 100 for next fiscal year, but as I 
indicated, we are very interested in trying to expand, because 
I want to make it available to the CSO's who have individuals 
who are just on their regular caseload.
    Senator DeWine. When do you think you will move from the 
nine up to the next stage? I mean----
    Mr. Quander. Actually, we are looking to do that by the end 
of May. There is some training that has to take place with the 
staff. There are some union issues that have to be overcome, 
but I am not anticipating any problems, because we are talking 
about a change in the way that we do business. So by the end of 
May we should be close to having 50 and by the end of the 
fiscal year, we will have a minimum of 100 people, I believe, 
on the Global Positioning System.
    Senator DeWine. What kind of union issues do you have?
    Mr. Quander. Union issues are just that there is a change 
in the way that we are going to do business. This is going to 
require our staff to analyze material, to be familiar with 
patterns, to do things just a little differently. I am not 
anticipating any problems. In fact, I have a meeting with the 
union scheduled next week. They know where we are going. The 
staff is very receptive. They like it. It gives them an 
opportunity to do the work that they really want to do, and 
that is to make a change in individual's lives. The more tools 
that we can give the staff, the easier it is for them to do 
their job and the better the results.
    Senator DeWine. Good. Okay. Very good. What else do you 
have to show us here?
    Mr. Quander. There is one additional slide if you would 
like to, Paul.
    Senator DeWine. Yes, I think we had better--I think we had 
better move to Reverend Isaac at this point.
    Mr. Quander. Reverend Isaac?
    Senator DeWine. Reverend Isaac became the Director of the 
East of the River Clergy-Police-Community Partnership in 2001. 
This partnership was created to address issues associated with 
high-risk youth and the young adults who are at risk of being 
in the criminal justice system. Reverend Isaac also serves as 
the Chairman of CSOSA's Faith Advisory Committee, and is a 
member of the Juvenile Justice Advisory Committee, and has 
served on the Board of Directors of the Thurgood Marshall 
Charter School.
    Reverend Isaac. Yes. Good morning.
    Senator DeWine. Reverend, thank you for joining us.
    Reverend Isaac. Thank you for having me.
    Senator DeWine. We appreciate it very much.
    Reverend Isaac. Thank you.

                   STATEMENT OF REVEREND DONALD ISAAC

    Reverend Isaac. Mr. Chairman and members of the committee, 
thank you for this opportunity to appear today to represent the 
partnership between the Court Services and Offender Supervision 
Agency and the District of Columbia faith community.
    I am Reverend Donald Isaac, Executive Director of the East 
of the River Clergy-Police-Community Partnership and Associate 
Pastor of the Southeast Tabernacle Church. I am also Chairman 
of the CSOSA Faith/Community Partnership Advisory Council, and 
it is in that context that I come before you today.
    Over the past few years, government has begun to understand 
and notice the extent to which the faith institutions 
contribute to community stability, family strength, and public 
safety. The executive order establishing the White House Office 
of Faith-Based and Community Programs states that, ``Faith-
based and other community organizations are indispensable in 
meeting the needs of poor Americans and distressed 
neighborhoods.'' As a minister in the District of Columbia, I 
see the truth of that statement every day.
    I have dedicated my ministry to reversing the trend of 
escalating crime and violence amount our City's young people. 
Therefore, I am very interested--I was very interested when 
CSOSA issued the call in 2001 asking the City's clergy to 
establish a faith/community partnership that uses the power and 
resources of faith institutions to help offenders under 
community supervision.
    From the very beginning, several aspects of CSOSA's 
approach to the faith/community partnership were encouraging. 
First, CSOSA represents--respects the autonomy and authority of 
faith institutions. Second, they acknowledge that our resources 
are limited, and that a partnership is a two-way street. They 
are willing to give something to get something. CSOSA put in 
place and funded a structure to support offenders' access to 
faith/community programs and services. And third, they value 
and respect all creeds and denominations.
    CSOSA supports the efforts of our Advisory Committee--or 
Council to remain truly representative of the City's 
congregations. Our Advisory Council currently has 19 members 
drawn from the City's diverse Christian and Muslim 
congregations.
    The Faith/Community Partnership chose mentoring as its 
first initiative because it allows individual volunteers and 
returning offenders to connect in an immediate and personal 
way. Relationships are the core of mentoring, but successful 
mentoring involves much more than conversation. It involves 
empathy and support. Mentors must be able to understand the 
obstacles and temptations their mentees face, the obligations 
of community supervision, and the opportunities they need to 
find.
    CSOSA has developed and delivered mentor training that 
touches on most of these issues, but no classroom experience 
can prepare an individual for how hard the work is.
    The initial 100 matches between mentors and mentees have 
yielded wonderful examples of that support. Shirley Hall was 
released from prison in October 2002 at the age of 39. When she 
joined us, she had a long history of drug use and 
incarceration. In fact, she was referred to us after having her 
parole revoked for drug use. She told us that she needed the 
support of other women to stay out. We placed her with Upper 
Room Baptist Church.
    Reverend Catherine Bago, the associate pastor, has worked 
for many years with substance abuse and runs a well-regarded 
aftercare program. Shirley received a lot of support from the 
women's group at Upper Room, as well as from Reverend Bago 
personally. She has been drug-free since her release and is 
pursuing a long-term career as a commercial driver. She has 
managed to stay clean even though she has faced a lot of 
stress. Both her parents have been ill, and she started a job 
that did not work out. She may have relapsed, but she did not. 
She stayed strong and credits that success in part to the 
support she received from Upper Room.
    Ms. Hall's case provides a good example, not just of the 
personal support mentoring provides, but of faith-based support 
services, as well. Ms. Hall's parole has had a special 
condition requiring substance abuse aftercare. Attendance at 
Reverend Bago's program has enabled her to satisfy that 
condition in a way that reinforced her connection to the faith 
community. Upper Room's program lasts as long as Ms. Hall wants 
to attend it. Ms. Hall has had access to a supportive women's 
group long after her parole has ended.
    The District of Columbia faith institutions provide a wide 
range of support services, including job training and 
placement, family counseling, food and clothing banks, and 
transitional housing. We at the East of the River Clergy-
Police-Community Partnership are proud of our recently 
developed housing facility, which was dedicated as part of this 
year's reentry activities.
    ERCPCP is also pleased to have been selected as a pilot 
program for the Ready4Work Program administered through the 
Department of Labor. This program will enable us to greatly 
expand our job readiness and placement activities over the next 
3 years.
    Another lead institution in the CSOSA Faith/Community 
Partnership, New Commandment Baptist Church, has received funds 
from the Department of Justice to expand its program, as well. 
Our involvement with CSOSA has prepared us for the challenge of 
administering broader initiatives and, in turn, the offenders 
under CSOSA supervision will benefit from an increased range of 
support programs.
    The CSOSA Faith/Community Partnership has grown from a 
dozen ministers at a conference table to a City-wide initiative 
involving hundreds of individuals. We are beginning to attract 
the additional resources needed to expand the services that are 
essential to success. We have expanded mentoring to reach out 
to prisoners, to prison inmates before they return home. 
Because those early weeks are so critical, we want to make sure 
the inmate knows where to find us as soon as he gets off the 
bus.
    All this adds up to a promising start. CSOSA is committed 
to working with us, and we are committed to providing permanent 
fellowship and support to any offender who wants it. We are in 
this for the long haul, and we hope that the resources will be 
available for us to make even more of our inspirations into 
realities.
    CSOAS--excuse me. CSOSA reached out to us because they 
recognized the limitations of law enforcement. Community 
supervision lasts only a short time, while the faith community 
can be a source of permanent inspiration. Community supervision 
is a consequence of past behavior, but faith institutions can 
influence the course of future behavior. Community supervision 
is about external accountability, but faith is about internal 
change. As in any good marriage, the two partners in this 
enterprise complement each other.

                           PREPARED STATEMENT

    I look forward to continuing our work with CSOSA, and I 
thank you again for this opportunity to tell you about it. I 
will be happy to answer any questions that you may have at this 
time.
    [The statement follows:]

              Prepared Statement of Reverend Donald Isaac

    Mr. Chairman and Members of the subcommittee, thank you for this 
opportunity to appear today to represent the partnership between the 
Court Services and Offender Supervision Agency and the District of 
Columbia faith community. I am Rev. Donald Isaac, Executive Director of 
the East of the River Clergy-Police-Community Partnership and Associate 
Pastor of Southeast Tabernacle Church. I am also the Chairman of the 
CSOSA/Faith Community Partnership Advisory Council, and it is in that 
capacity that I come before you today.
    Over the past few years, government has begun to notice the extent 
to which faith institutions contribute to community stability, family 
strength, and public safety. The Executive Order establishing the White 
House Office of Faith-Based and Community Programs states that 
``[f]aith-based and other community organizations are indispensable in 
meeting the needs of poor Americans and distressed neighborhoods.'' \1\ 
As a minister in the District of Columbia, I see the truth of that 
statement every day. I have dedicated my ministry to reversing the 
trend of escalating crime and violence among our city's young people. 
Therefore, I was very interested when CSOSA issued their call in 2001, 
asking the city's clergy to establish a faith/community partnership 
that uses the power and resources of faith institutions to help 
offenders under community supervision.
---------------------------------------------------------------------------
    \1\ White House Office of the Press Secretary, ``Executive Order: 
Establishment of the Office of Faith-Based and Community Initiatives,'' 
January 29, 2001.
---------------------------------------------------------------------------
    From the beginning, several aspects of CSOSA's approach to faith/
community partnership were encouraging. First, CSOSA respects the 
autonomy and authority of faith institutions. Second, they acknowledge 
that our resources are limited, and that a partnership is a two-way 
street. They are willing to give something to get something--CSOSA put 
in place and funded a structure to support offenders' access to faith 
community programs and services. And third, they value and respect all 
creeds and denominations. CSOSA supports the efforts of our Advisory 
Council to remain truly representative of the city's congregations. Our 
Advisory Council currently has 19 members drawn from the city's diverse 
Christian and Muslim congregations.
    The Faith/Community Partnership chose mentoring as its first 
initiative because it allows individual volunteers and returning 
offenders to connect in an immediate, personal way. Relationships are 
the core of mentoring, but successful mentoring involves much more than 
conversation. It involves empathy and support. Mentors must be able to 
understand the obstacles and temptations their mentees face, the 
obligations of community supervision, and the opportunities they need 
to find. CSOSA has developed and delivered mentor training that touches 
on most of these issues, but no classroom experience can prepare an 
individual for how hard the work is.
    The initial 100 matches between mentors and mentees have yielded 
some wonderful examples of that support. Shirley Hall was released from 
prison in October 2002 at the age of 39. When she joined us, she had a 
long history of drug use and incarceration; in fact, she was referred 
to us after having her parole revoked for drug use. She told us that 
she needed the support of other women to stay out. We placed her with 
Upper Room Baptist Church. Rev. Catherine Bago, the associate pastor, 
has worked for many years with substance abuse and runs a well-regarded 
aftercare program. Shirley received a lot of support from the women's 
groups at Upper Room, as well as from Rev. Bago personally. She has 
been drug-free since her release and is pursuing a long-term career as 
a commercial driver. She has managed to stay clean even though she has 
faced a lot of stress--both her parents have been ill, and she started 
a job that didn't work out. She might have relapsed. But she didn't. 
She stayed strong, and she credits that success in part to the support 
she received from Upper Room.
    Ms. Hall's case provides a good example not just of the personal 
support mentoring provides but of faith-based support services as well. 
Ms. Hall's parole has a special condition requiring substance abuse 
aftercare; attendance at Rev. Bago's program enabled her to satisfy 
that condition in a way that reinforced her connection to the faith 
community. Upper Room's program lasts as long as Ms. Hall wants to 
attend it. Ms. Hall will have access to a supportive women's group long 
after her parole is ended.
    The District of Columbia's faith institutions provide a wide range 
of support services, including job training and placement, family 
counseling, food and clothing banks, and transitional housing. We at 
East of the River Clergy-Police-Community Partnership (ERCPCP) are very 
proud of our recently developed housing facility, which was dedicated 
as part of this year's Reentry Week activities. ERCPCP is also pleased 
to be selected as a pilot site for the Ready4Work program administered 
through the Department of Labor. This program will enable us to greatly 
expand our job readiness and placement activities over the next 3 
years. Another lead institution in the CSOSA/Faith Community 
Partnership, New Commandment Baptist Church, has received funds from 
the Department of Justice to expand its programs. Our involvement with 
CSOSA has prepared us for the challenge of administering broader 
initiatives, and in turn, the offenders under CSOSA supervision will 
benefit from an increased range of support programs.
    The CSOSA/Faith Community Partnership has grown from a dozen 
ministers at a conference table to a citywide initiative involving 
hundreds of individuals. We are beginning to attract the additional 
resources needed to expand the services that are essential to success. 
We have expanded mentoring to reach out to prison inmates before they 
return home. Because those early weeks are so critical, we want to make 
sure the inmate knows where to find us as soon as he gets off the bus.
    All this adds up to a promising start. CSOSA is committed to 
working with us, and we are committed to providing permanent fellowship 
and support to any offender who wants it. We are in this for the long 
haul, and we hope that the resources will be available for us to make 
even more of our inspirations into realities. CSOSA reached out to us 
because they recognized the limitations of law enforcement. Community 
supervision lasts only a short time, while the faith community can be a 
source of permanent inspiration. Community supervision is a consequence 
of past behavior, but faith institutions can influence the course of 
future behavior. Community supervision is about external 
accountability, but faith is about internal change. As in any good 
marriage, the two partners in this enterprise complement each other.
    I look forward to continuing our work with CSOSA, and I thank you 
again for this opportunity to tell you about it. I will be happy to 
answer any questions you may have at this time.

    Senator DeWine. Reverend, thank you very much.
    Am I understanding that you have a video that shows some of 
the teleconferencing that goes on with some of the inmates? Can 
you show that for us?
    Reverend Isaac. Yes.
    That is it.
    Senator DeWine. Good. That is very good. Now, who has the 
availability to access that? I saw that was a mentor there, or 
he was identified as. Family members have the ability to do 
that, as well, or----
    Mr. Quander. Actually, we do; we invite the family members 
down, during certain portions of the video conferencing, so 
that we can establish that connection. Some of the men--what we 
are trying to emphasize are those pro-social values that the 
faith institutions have, and a part of that is that 
restructuring of that family or reconnection because some of 
those family bridges have been burned and the mentors and the 
faith community help us, oftentimes, reestablish and reconnect 
with those men, and the more that we can do that the more 
support that we have, the more assistance that the CSO has in 
making sure that offenders are being held accountable, and at 
the same time that those services and support mechanisms are in 
place.
    So the family members do come down, including the children, 
so that they can reestablish those connections with their 
fathers.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. Let me pursue that line of questioning 
about trying to keep convicted felons connected to their 
families, restrengthening the families where possible.
    With the women prisoners--I understand that we have quite a 
challenge with all the prisoners, but particularly with women, 
many of whom are mothers, as many of the men would be fathers. 
But I understand that the majority of women are placed either 
in West Virginia or Connecticut?
    Mr. Quander. That is correct.
    Senator Landrieu. And how many miles away are those 
facilities, Alderson and Danbury?
    Mr. Quander. I am not sure, but I believe that Alderson is 
within 500 miles of the District, but I also believe that it is 
probably a 6- or 7-hour drive there. Danbury is going to be an 
8-hour drive, I believe.
    Senator Landrieu. Okay.
    Mr. Quander. So it is a significant distance that families 
often have to travel so that they can stay connected. One of 
the things that we are working with, just as we have 
established this video conference with Rivers in North 
Carolina, we are working with the Bureau of Prisons and with 
other organizations and the faith group to establish a similar 
link either at Alderson or at Danbury. So that we can start the 
same process and, hopefully, we can strengthen what we are 
doing and strengthen those families through this 
teleconferencing capability.
    Senator Landrieu. And I am just focused on the number here. 
I have about 12 percent of the population that we are talking 
about is female, about 8,000 in jail. So, roughly, that would 
be a little over 800, maybe 1,000 female individuals, if my 
math is correct. Eight thousand in jail, 12 percent female, 
does that match with what you all--approximately, 1,000?
    Mr. Quander. I think it is going to be a little less than 
1,000 female offenders----
    Senator Landrieu. Okay. Eight hundred?
    Mr. Quander [continuing]. Through a----
    Senator Landrieu. Eight hundred, maybe? Somewhere--am I 
right, between about 700 and 1,000? Is that safe?
    Mr. Quander. I believe that would be accurate. Yes.
    Senator Landrieu. Okay.
    Mr. Quander. But the Bureau of Prisons would have the best 
stats, the best information.
    Senator Landrieu. Okay. If there is 700, Mr. Chairman, to 
1,000, I am wondering what kind of other options there are for 
the teleconferencing opportunities, whether they are, you know, 
once a week, once a month, once a quarter, with family members, 
or trying to get some of those inmates closer to the community. 
I think there are a couple of components here.
    I mean one is trying not to just reunite them with the 
community, but reunite them with the families which is part of 
the community which is important, trying to keep those bonds 
from fraying in the first place, as well as, the professional 
supervision, so it all works together in an integrated way.
    And, Mr. Chairman, I think we have quite a challenge, A, to 
try to keep these inmates closer, physically, but also use this 
technology when the physical location is impossible to really 
make that connection. Now, what is limiting us? Is it--again, 
is it the cost of the software? Is it the--what are the 
limitations so that this is not being available to all, let us 
say, 700 or 800 women, now?
    Mr. Quander. One of the issues is that the women are not 
located in one facility. They are spread throughout the 
country. Alderson, I believe, houses the largest number of 
female offenders, D.C. co-defenders. And, I believe, that 
number is going to be--actually that is, as I understand it, 
there are 67 women in Alderson facility. There is, I believe, a 
lesser number in the facility in Massachusetts--in Connecticut.
    All total from the Bureau of Prisons, I understand, is 
approximately less than 300 females that are housed in Bureau 
of Prisons' facilities throughout the country, but they are 
spread throughout the country. And so, thus, one of the 
limitations is that we do not have them in one or two central 
locations. Those two central locations are Alderson and 
Danbury. And so that is why we are focusing on that.
    We have actually had meetings with the Bureau of Prisons, 
and the Bureau is receptive. They see the benefit. The wardens 
and the support staff in those facilities see the benefit of 
doing this. We are just in the process of trying to make it 
happen. We are the agency that actually receives the 
individuals once they have left the prison. What we want to do 
is sort of extend our reach to get them before they have come 
to us, because we think there are some services that we can 
provide that will help them with that transition, and the faith 
community has been very supportive, and we think we are there.
    Senator Landrieu. Well, the final thing I will say on that, 
I think the Chairman and I would be more than happy to help you 
with the Bureau of Prisons to try and develop a stronger 
partnership as people are getting close to their release time, 
to move them closer to the community, physically, and then 
connect them via as much, you know, using some of this new 
technology as possible, not just for the women but for the men.
    But, I think, particularly in terms of many of these women 
who are the primary caretakers of the children, we want those 
relationships to be maintained as much as possible. So that is 
all I will say, Mr. Chairman. But any ideas you have, please 
let us know and we will work with you on that.
    Mr. Quander. Thank you. One of the things that we have 
discussed with the Bureau is designating those two facilities 
and the Rivers facility, essentially, as a feeder site; as 
individuals get closer to their release date, using those 
facilities so that we can have a critical mass, and if we have 
a critical mass at these facilities, then we can continue to 
use those services.
    If the facility is Alderson or Danbury, that is fine. And 
the Bureau has indicated its willingness to work with us to, 
maybe, sort of, funnel individuals in that direction, so that 
if we can get them there, then we can start establishing some 
of the services that, I think, we can provide.

                 STATUS OF REENTRY AND SANCTIONS CENTER

    Senator DeWine. Mr. Quander, I just have one question. In 
your written statement and your oral statement, you talked 
about the Reentry and Sanctions Center.
    Mr. Quander. Yes.
    Senator DeWine. I am unclear how far along that is as far 
as capacity. You say, ``At present, the AOC treats 
approximately 250 individuals per year. The 108-bed Reentry and 
Sanctions Center will provide, approximately, 1,200 program 
slots annually.'' So are you totally up and running or--I do 
not quite understand that.
    Mr. Quander. No. Where we are----
    Senator DeWine. This and that.
    Mr. Quander. Okay. Where we are, Senator, is that we have a 
facility which is on the grounds of D.C. General Hospital, 
Karrick Hall, which is--we have to renovate, essentially gut, 
put new heating, air conditioning. I mean, we have to go in. 
This committee appropriated $13 million----
    Senator DeWine. In 2002, right? Which one----
    Mr. Quander. Yes. But we had to negotiate with the city. We 
had to bring the community in. There were a lot of issues that 
needed to be resolved before we could actually enter into the 
lease agreement, which took us a while to get.
    Senator DeWine. So where is that construction? Where is 
that?
    Mr. Quander. Actually, all the paperwork is done. We had 21 
men that were in the facility. They have been relocated to 
swing space, which is in the community. Construction is 
beginning. We are anticipating having the facility ready for 
operation, hopefully, in May of 2005. We will be able to expand 
that population in our facility so that we can house women 
there, so that we can house a mental health unit and four units 
for men, which will really increase our capacity to provide the 
type of service that we need. And with this group, this is the 
group of that core 30 percent of long-term substance abusers 
with at least six prior contacts. These are the individuals 
who, we believe, are doing most of the damage in our city. If 
we can get their substance abuse problems under control----
    Senator DeWine. So you will be rolling by May of next year, 
then?
    Mr. Quander. That is what we are anticipating, having the 
facility and going in and rolling. Yes.
    Senator DeWine. And what does that do then to your 
operating budget when you hit that level?
    Mr. Quander. Well, right now, we are funded--we have 
partial year funding for that, that will take us through fiscal 
year of 2005. And fiscal year 2006, there is going to be a 
substantial increase that we are going to need to continue the 
operation.
    Senator DeWine. Are you covered in this proposed budget 
then?
    Mr. Quander. Yes, for 2005.
    Senator DeWine. That would be a partial year, then?
    Mr. Quander. A partial year, that is correct.
    Senator DeWine. And you are covered in the President's 
budget for that?
    Mr. Quander. Yes, for the partial operations.
    Senator DeWine. Because you are going to be substantially 
up--I mean, once you move into that facility, it is like you 
are moving into any new facility, your costs just kind of go 
up, is that right?
    Mr. Quander. That is correct. So for the partial year 2005, 
I believe, we are covered. The issue will be in fiscal year 
2006, when we go to full-year funding for the program.
    Senator DeWine. Let me ask one last question and then we 
will move to our next panel: This committee has worked with you 
to take down the ratio when you are dealing with sex offenders 
and other special population offenders, but from your budget 
submission, it appears that your general population--you are at 
a ratio of 1 to 125. That sounds high. How does that compare to 
other jurisdictions?
    Mr. Quander. No, actually, our general population--our 
general supervision numbers are about 50 to 1. What you may be 
referring to----
    Senator DeWine. Maybe I misread that.

                           PRETRIAL CASELOADS

    Mr. Quander. But I would like to speak to that just for one 
moment, because that is the ratio of the general supervision in 
the pretrial services area for those individuals who have not 
been adjudicated or convicted.
    Senator DeWine. Pretrial?
    Mr. Quander. Pretrial.
    Senator DeWine. Okay.
    Mr. Quander. That ratio is extremely high, as you noted. It 
is about 127 to 1. I believe----
    Senator DeWine. How does that compare to other 
jurisdictions, pretrial service----
    Mr. Quander. In the----
    Senator DeWine [continuing]. Comparing apples to apples, 
then?
    Mr. Quander. It is difficult to compare because the 
District is unique. If you look at Federal pretrial in 
surrounding jurisdictions, Northern Virginia and in Maryland, 
those numbers are in the range of about 60 to 1. What we have 
requested is an area that will get us down to 80 to 1. It is--
--
    Senator DeWine. How about State pretrial?
    Mr. Quander. State pretrial, there are not any standard 
numbers that we have been able to really pull together, but we 
do know that 127 to 1 is--that does not allow us to do anything 
but just to process the paperwork. If we are going to do the 
type of supervision that we need, our numbers in that area have 
to come down, and they have to come down dramatically.
    Senator DeWine. So these--just so I understand, these would 
be the felons, misdemeanors, what are they? Who are they?
    Mr. Quander. On the pretrial side?
    Senator DeWine. Yes, right, that is what we are talking 
about.
    Mr. Quander. It would be felons and misdemeanors----
    Senator DeWine. Mostly a----
    Mr. Quander [continuing]. But mostly felons.
    Senator DeWine [continuing]. Mixed group.
    Mr. Quander. Yes, but mainly felons that are in there and 
then----
    Senator DeWine. Mainly felons?
    Mr. Quander. That is correct.
    Senator DeWine. Okay. Pretrial, mainly felons, 125 to 1. 
Yes, that does sound high.
    Mr. Quander. It is.
    Senator DeWine. We all agree it is high, right?
    Mr. Quander. Yes, we do.
    Senator DeWine. We agree it is a problem?
    Mr. Quander. We believe it is a potential problem. Yes.
    Senator DeWine. So, really--I mean, we are using nice words 
here, but we are not doing much.
    Mr. Quander. We are only----
    Senator DeWine. We are watching them on paper?
    Mr. Quander. We are processing----
    Senator DeWine. Processing paper, but that is about all we 
are doing, is it not?
    Mr. Quander. I like to go out, and I like to talk to the 
people that are really do the work, and I went out recently and 
spoke with a pretrial services officer and she said, ``Mr. 
Quander, all I am doing is processing paper.''
    Senator DeWine. Well, if they mess up, we know it maybe.
    Mr. Quander. Exactly. And she indicated that she----
    Senator DeWine. If the police pick them up again, we know 
it, but that is about it.
    Mr. Quander. And she said she wants to do more, but she 
cannot with the caseload with the way that it is.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator DeWine. I see it. Okay. So we have got a problem. 
Okay. All right. Thank you all very much.
    Mr. Quander. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
               Questions Submitted by Senator Mike DeWine
                     community supervision program
    Question. What are the key performance goals and measures used to 
manage CSOSA's offender supervision program?
    Answer. CSOSA's Community Supervision Program (CSP) has adopted 
improvement in public safety as its most important outcome. While many 
factors influence public safety, CSP can contribute to it by reducing 
recidivism among the population under supervision. Both new convictions 
and revocations that result in loss of liberty contribute to the 
overall recidivism rate.
    The achievement of this long-term outcome depends on CSP's success 
in changing the offender's behavior and assisting him or her in 
establishing a stable, crime-free lifestyle. It is necessary to 
confront the problems most often at the root of criminal behavior as 
well as to enforce conditions of release. CSP targets five key 
intermediate outcome areas for its offender population that must first 
be addressed to improve public safety:
  --Decrease Rearrest.--The rate of rearrest is one indicator of 
        potential criminal activity among the supervised population. 
        Effective supervision and sanctions should result in a 
        decreased rearrest rate among the offenders under supervision.
  --Decrease Technical Violations.--Offenders violate the conditions of 
        their release by using drugs, changing residence or traveling 
        without permission, failing to complete treatment, and other 
        behaviors. Such ``technical'' violations often precede more 
        serious criminal behavior. CSP has therefore targeted a 
        reduction in the percentage of offenders who accumulate 
        multiple technical violations as an important measure of 
        whether its sanctions-based supervision model is effective.
  --Decrease Drug Use.--Substance abusers must make progress toward 
        reducing their drug use. CSP tracks changes in substance abuse 
        using drug testing. The measurement of drug use (as measured by 
        positive test results) will reflect the effectiveness of the 
        Agency's testing policy and sanctions for positive tests. 
        Positive drug test results among offenders who have received 
        treatment will be the primary method for assessing the 
        effectiveness of treatment interventions.
  --Increase Job Retention.--CSP works with its partners in the 
        community to develop employment opportunities for offenders 
        under supervision. Because of data availability concerns, 
        initial targets focused on the rate of employment among its 
        offenders. However, with the deployment of a new information 
        system, CSP has modified the measure to focus on the offender's 
        ability to maintain employment. This new measure allows for job 
        change and periods of training but not for long periods of 
        unemployment.
  --Increase Education Levels.--An offender's chances of success 
        improve markedly if he or she functions at a higher educational 
        level. CSP has implemented a system of learning labs to provide 
        educational programming. The objective is to enroll offenders 
        needing assistance in a GED or adult literacy program and to 
        measure progress throughout participation.
    Progress toward the intermediate outcomes is directly related to 
achievement of the long-term outcome of increasing public safety in the 
District of Columbia. If offenders are held accountable for their 
actions and improve the factors that contribute to personal and 
economic success, they are less likely to recidivate. In that way, 
achievement of the intermediate outcomes results in the long-term 
outcome of reduced recidivism.
Critical Success Factors (CSF's)
    CSOSA established the following four Critical Success Factors 
(CSF's) as our primary operational strategies. The CSF's define the 
core day-to-day activities within community supervision. Without 
successful performance of these activities, it would be impossible to 
make progress toward the Agency's intermediate- and long-term outcomes.
  --Risk and Needs Assessment.--Establish and implement (a) an 
        effective risk and needs assessment and case management 
        process, including regular drug testing, to help officials 
        determine whom it is appropriate to release and at what level 
        of supervision, including identification of required treatment 
        and support services, and (b) an ongoing evaluation process 
        that assesses an offender's compliance with release conditions 
        and progress in reforming behavior so that further 
        interventions can be implemented if needed;
  --Close Supervision.--Provide close supervision of offenders, 
        including immediate graduated sanctions for violations of 
        release conditions and incentives for compliance;
  --Treatment and Support Services.--Provide appropriate treatment and 
        support services, as determined by the needs assessment, to 
        assist offenders in reintegrating into the community; and
  --Partnerships.--Establish partnerships with other criminal justice 
        agencies, faith institutions, and community organizations in 
        order to facilitate close supervision of the offender in the 
        community and to leverage the diverse resources of local law 
        enforcement, human service agencies, and other local community 
        groups.
    The CSF's define interdependent processes that, taken as a whole, 
determine long-term outcomes. Risk and needs assessment continually 
inform how offenders are supervised and which services they receive. 
Through partnerships with the community and other criminal justice 
agencies, CSP develops service capacity and improves its supervision 
practices.
    CSP has also put in place a system of output-oriented performance 
measures to track specific oeprational activities related to each CSF. 
Most of these activities are defined within Agency policies. Therefore, 
the specific performance measures track whether we are in fact 
implementing our program model.
    Question. How does CSP classify offenders to enable close 
supervision of those offenders who are high risk for committing serious 
or violent crimes?
    Answer. To classify offenders into an appropriate level of 
supervision, CSP uses a screening instrument that is automated and 
fully integrated within its information system, SMART (Supervision and 
Management Automated Records Tracking). The screener is administered by 
the Community Supervision Officer (CSO) and reviewed by the Supervisory 
Community Supervision Officer (SCSO). Based on answers provided in the 
screener, a score is calculated for the offender's risk. The score, in 
combination with the SCSO's and CSO's assessment, is used to recommend 
the offender's classification to an appropriate supervision level 
(Intensive, Maximum, Medium, or Minimum). Although the recommendation 
is generated automatically, it can be overridden by the CSO with 
supervisory approval. Close supervision is provided to offenders who 
are in an Intensive or Maximum level of supervision.
    The current version of the screener focuses primarily on risk level 
and does not incorporate other factors which, when addressed through 
programmatic interventions, can affect recidivism (see Andrews, Bonta, 
& Hoge, 1990; and Andrews, Zinger, Hoge, Bonta, Gendreau, & Cullen, 
1990). ``Principles of Effective Intervention,'' developed by several 
prominent Canadian researchers (also known as the Canadian Model), 
recommends the use of a comprehensive risk and needs assessment to 
determine the offender's risk of recidivism. This comprehensive 
assessment includes factors such as:
  --Criminal associates;
  --Criminal attitudes;
  --Antisocial personality patterns;
  --Family functioning;
  --School/work;
  --Substance abuse; and
  --Use of leisure time.
    CSP has redesigned and broadened its screener instrument to 
incorporate the Canadian Model. This new assessment instrument will 
also be fully automated within SMART and will not only recommend a 
level of supervision but also will generate a recommended prescriptive 
supervision plan. This plan will present realistic goals and objectives 
for the offender, define appropriate intervention strategies, and track 
the offender's progress. The new screener will enhance and standardize 
the case planning process and will ensure that all offenders are 
appropriately classified, supervised, and placed in programming. It is 
expected that the new screener will become operational by the early 
summer of 2004.

                         SUPERVISION STRATEGIES

    Question. What techniques are used to monitor the offenders, 
particularly those who are high risk?
    Answer. CSP's supervision strategy emphasizes both risk management 
(minimizing the likelihood of reoffense) and cost avoidance (minimizing 
the circumstances in which reincarceration is necessary to contain the 
offender's non-compliant behavior). Both strategies are achieved 
through appropriate classification and programmatic placements, as well 
as the use of graduated sanctions to address non-compliance.
    Several practices have been implemented to closely monitor high 
risk offenders. These practices include the use of:
  --electronic monitoring;
  --supervisory reprimands;
  --increased office reporting;
  --accountability tours;
  --halfway house placements;
  --halfway back; and
  --GPS monitoring (pilot) for high risk offenders.
    These practices are employed within the context of the offender's 
individual case plan and Agency operating policies. There is no 
effective ``one-size-fits-all'' approach to community supervision. Each 
offender is a unique individual requiring a unique set of programmatic 
interventions and behavioral controls. The Agency has developed a 
comprehensive array of tools that the Community Supervision Officer can 
deploy in the formulation and execution of the case plan.
    Although the Agency has made impressive strides in the full 
implementation of its supervision strategy, not all elements are fully 
operational. For example, the revised auto screener is being tested 
prior to full implementation, and the planned Reentry and Sanctions 
Center will increase the range of intermediate sanctions available to 
CSO's. The GPS monitoring program will also be expanded to become a 
permanent option for supervising high-risk offenders. With the full 
implementation of the remaining elements of the Agency's strategy, 
baseline data will be captured from which the Agency will be able to 
set strategic benchmarks and initiate longitudinal studies to access 
the strategy's effectiveness.
    Question. How many offenders entered CSOSA supervision in fiscal 
year 2003? How many departed after successfully completing terms of 
community supervision? How many offenders did CSOSA supervise over the 
course of a year?
    Answer. CSOSA provided supervision to 21,603 individuals in fiscal 
year 2003. The flow of intakes and case closures is summarized in the 
following table.

----------------------------------------------------------------------------------------------------------------
                                                                                     Satisfactory Closures\1\
                          Type of Case                                Intakes    -------------------------------
                                                                                    Expiration      Termination
----------------------------------------------------------------------------------------------------------------
Probation.......................................................           6,025           1,728             438
Parole..........................................................           1,943             394              14
Supervised Release..............................................              55              19  ..............
Civil Protection Order..........................................             440             174               7
Deferred Sentence Agreement.....................................             287              74               4
                                                                 -----------------------------------------------
      TOTAL.....................................................           8,750           2,389             762
----------------------------------------------------------------------------------------------------------------
\1\ A case may be closed satisfactorily either through expiration of the supervision term, or early termination
  due to the releasing authority's decision to discontinue supervision (generally as a result of the offender's
  exceptional compliance).

    Question. What is the average length of supervision for 
probationers and parolees?
    Answer. The average length of probation is 20 months, and of 
parole, 5 years (60 months).
    Question. Describe CSOSA's use of intermediate sanctions on 
offenders.
    Answer. Intermediate sanctions represent forms of punishment, less 
restrictive than incarceration, that are intended to provide a range of 
correctional options that vary in severity, according to the offenders' 
non-compliant behavior, and are related to the offender's level of risk 
and needs. Intermediate sanctions are designed to both hold offenders 
accountable for their actions and to deter them from engaging in 
criminal activity. These sanctions are best supported when integrated 
with treatment and intervention programs focused on the offender's 
needs, such as substance abuse, employment, and other issues that may 
contribute to the likelihood of reoffense. By using intermediate 
sanctions, CSOSA tries to change the offender's maladaptive, non-
compliant behavior and to increase the likelihood that the offender 
will achieve successful reintegration into the community.
    Successful use of intermediate sanctions requires close 
supervision, good documentation, well-informed collaboration, 
sufficient resources, and a clear understanding between CSOSA staff and 
the offender. The most notable tool CSOSA uses to impose intermediate 
sanctions is the offender accountability contract, which reflects 
widely accepted ``best practices'' in offender supervision.
    A critical factor in CSOSA's strategy to reduce crime and the rate 
of recidivism is its ability to introduce an accountability structure 
into the supervision process and to provide swift responses to non-
compliant behavior. According to CSOSA policy, offenders under 
community supervision must enter into an accountability contract within 
25 working days of the case assignment. By signing this document, the 
offender acknowledges his or her responsibilities under probation, 
parole or supervised releases as granted by the D.C. Superior Court or 
the United States Parole Commission. The accountability contract 
clearly informs the offender of the consequences of non-compliance with 
the rules and regulations of community supervision. The offender 
acknowledges that he/she understands which behaviors will lead to 
intermediate sanctions and which behaviors will result in the request 
of a hearing before the releasing authority and possible 
reincarceration.
    According to Agency policy, there are substance abuse violations 
and other non-criminal ``technical violations'' that warrant the 
imposition of different intermediate sanctions. If the CSO has reason 
to believe the offender is in violation of the general or special 
conditions of the offender's release, intermediate sanctions are 
imposed to address the non-compliant behavior. Sanctions available for 
the CSO to use include:
  --Daily check-in with the supervision officer for a specified period 
        of time;
  --Attendance at a group activity for a specified period of time;
  --Increased drug testing;
  --Increased face-to-face appointments with the supervision officer;
  --Electronic monitoring for a specified period of time;
  --Community service for a specified number of hours;
  --Placement in a residential sanctions facility or residential 
        treatment facility for a specified period of time; and/or
  --Travel restrictions.
    The use of these intermediate sanctions not only serves to hold 
offenders accountable and assist in changing their non-compliant 
behaviors, but also assists the Agency in achieving its mission of 
increasing public safety and reducing recidivism.
    Question. Describe CSOSA's experience in reporting offender 
violations to the releasing authorities.
    Answer. On a regular and consistent basis, CSS staff meet with 
administrative staff of the United States Parole Commission (USPC) and 
the Administrative Judges of the Superior Court for the District of 
Columbia to discuss issues of mutual concern. With regards to the USPC, 
agreements have been reached on the types of cases that will require 
the immediate issuance of a retake warrant by the USPC (i.e., 
subsequent offender felony arrest involving a victim). For all cases in 
which the Agency has deemed the offender to be an imminent danger to 
public safety, the USPC has agreed to the faxing of violation reports 
to their office. These emergency violation reports receive the highest 
priority for review and consideration by the USPC staff for 
presentation to a Commissioner. Our experience generally has been that 
the USPC is very responsive to the Agency with both the request for an 
emergency warrant and the violation reports that are processed on a 
non-emergency basis.
    With regards to the Judiciary, staff must request in the violation 
report that a show cause (violation) hearing be scheduled. Our 
experience is that the Judiciary usually does not issue bench warrants 
based solely on the request of staff. Once a violation report is 
submitted, a violation hearing is scheduled based on the Judge's 
calendar (schedule) and can take from 30 to 60 days to be held. Once a 
violation hearing is scheduled, the Court notifies the offender and 
his/her attorney by mail of the scheduled date for the violation 
hearing. If the offender fails to report to the violation hearing on 
the scheduled date, the Judge will immediately issue a bench warrant 
for the offender's arrest. In cases where CSOSA staff are concerned 
that the offender poses a significant public safety risk, staff can 
request an expedited violation hearing from the Judiciary. On rare 
occasions, the Judge may issue a bench warrant, prior to a hearing, if 
the risk is deemed imminent. In instances of an expedited violation 
hearing, the hearing is usually set within a two-week timeframe. It has 
been our experience that the Judiciary honors CSOSA staff's request for 
a show cause hearing.
    Question. What is the rearrest rate for offenders under CSOSA 
supervision? How has that rate changed in the past year?
    Answer. In fiscal year 2003, the overall rearrest rate was 15 
percent (13 percent for probationers and 17 percent for parolees). The 
fiscal year 2002 arrest rate was 18 percent (21 percent for 
probationers and 13 percent for parolees).

                            REENTRY STRATEGY

    Question. CSOSA has been working with various stakeholders to craft 
a Citywide Offender Reentry Strategy. Please describe the process and 
the status of implementation.
    Answer. Between December 2001 and April 2002, a group of community 
advocates, community-based service providers, and government agency 
representatives worked together to craft a comprehensive reentry 
strategy for adult offenders returning from incarceration to the 
District of Columbia. The primary participants in this process 
included:
  --Court Services and Offender Supervision Agency (CSOSA),
  --Office of the Deputy Mayor for Public Safety and Justice (DMPSJ),
  --Office of the Corrections Trustee,
  --D.C. Prisoners Legal Services Project,
  --D.C. Department of Corrections (DCDC),
  --D.C. Department of Mental Health (DMH), and
  --Federal Bureau of Prisons (BOP).
    The goal of the ``Comprehensive Reentry Strategy for Adults in the 
District of Columbia'', which was completed in June 2003, is to provide 
a detailed, long-range plan for an effective continuum of reentry 
services for D.C. offenders during incarceration, transition from 
incarceration to the community, and life in the community during and 
after supervision. In addition, the strategy proposes an agenda for 
reentry service provider quality assurance, community education about 
the relationship between public safety and effective reentry, and 
legislative priorities.
    The core of the strategy is the development of an assessment-driven 
reentry plan tailored to each offender's needs, strengths, and 
aspirations. The plan should remain with an offender through the three 
phases of reentry: institutionally based programs, transitional 
services, and community reintegration.
    In September 2003, five workgroups led by respected leaders from 
criminal justice system agencies and community-based organizations 
completed an Action Plan that sets an implementation timeline for the 
strategy. The strategy establishes ambitious goals for all parties 
involved, emphasizing that reentry services should be available to all 
offenders returning from some form of incarceration (jail or prison) to 
the community.
    Implementation requires coordination among Federal agencies 
involved in the local criminal justice system, local agencies, and 
community-based organizations. Improved pre-release planning provides 
represents the cornerstone process to build an effective, integrate 
reentry system. Pre-release planning begins with the functional 
assessment of the risk factors that define the intensity supervision if 
the offender leaves incarceration to parole or supervised release. The 
functional assessment also identifies needs that require intervention 
if an individual's risk factors are to be reduced in order to promote 
improved public safety.
    Implementation of the strategy involves broad participation by 
local, Federal, and non-profit agencies. The city will take a major 
step toward implementation this spring by opening the One Stop Reentry 
Service Center, which will provide subsidized job training and wrap-
around support services to an initial cohort of 165 adult offenders and 
40 juvenile offenders. Initial funding for the pilot year of the 
Service Center's operations will be provided through a Department of 
Justice grant. The Mayor plans to include in his fiscal year 2006 
budget a request for operating funds to sustain and expand the center.
    Question. What are the most critical needs of offenders under 
supervision? How are those needs being addressed, both by CSOSA and by 
the District of Columbia?
    Answer. Most offenders enter supervision with needs in the areas of 
employment/education and substance abuse. Over 50 percent of the 
offender population is unemployed, and about 60 percent tested positive 
for drug use at least once during fiscal year 2003. Approximately 4,100 
offenders tested positive two or more times for PCP, heroin, or cocaine 
in fiscal year 2003. Mental health issues may accompany and exacerbate 
these problems.
    Housing is also a critical need for many offenders. Often, the 
combination of unemployment and substance abuse leads to residential 
instability. The offender may leave prison with nowhere to go or may 
lose his or her residence due to drug use or financial issues. 
Underlying all these issues is the offender's need to develop healthy 
social relationships and to learn how to manage his or her time.
    The following table summarizes CSOSA's activities in each area of 
need and the District of Columbia agency responsible for each type of 
need. The table is adapted from the ``Citywide Reentry Strategy''.

------------------------------------------------------------------------
                                                       Responsibility of
          Area of Need              CSOSA Activity       City Agencies
------------------------------------------------------------------------
SUBSTANCE USE/HISTORY...........  Assess offender's   Addiction
                                   addiction           Prevention and
                                   severity.           Recovery
                                  Place offender in    Administration--(
                                   the appropriate     service capacity
                                   substance abuse     needs to expand
                                   treatment program   to address the
                                   (current            remaining needs
                                   appropriation       of the offender
                                   allows for CSOSA    population).
                                   to meet 16
                                   percent of the
                                   population's
                                   addition
                                   treatment need).
                                  Place offender in
                                   drug testing
                                   requirements.
                                  Enforce violations
                                   of behavioral
                                   contract.
EDUCATION/LEARNING DISABILITIES.  Conduct a Test of   State Education
                                   Adult Basic         Office in
                                   Education to        collaboration
                                   assess the          with the
                                   educational         University of
                                   functioning level   District of
                                   of individual       Columbia (service
                                   offenders.          capacity needs to
                                  Provide adult        expand to address
                                   basic education     the remaining
                                   programming at      needs of the
                                   one of four         offender
                                   learning labs       population).
                                   staffed by CSOSA
                                   learning lab
                                   specialists.
EMPLOYMENT......................  Conduct a Test of   D.C. Department of
                                   Adult Basic         Employment
                                   Education.          Services--Plans
                                  Assess offender's    are in place to
                                   vocational          utilize Serious
                                   aptitude and job    and Violent
                                   skills.             Offender Reentry
                                  Assist offender in   Initiative funds
                                   job search if he    to provide Life
                                   or she has          Skills, Job
                                   employment          Training, and
                                   history, an 8th     Placement
                                   grade reading       services to
                                   level or better,    approximately 150-
                                   and marketable      200 offenders
                                   job skills.         (additional
                                  Provide or make      employment
                                   referrals to city   training and
                                   agencies for        placement service
                                   adult basic         capacity is
                                   education           needed).
                                   services or
                                   referrals.
HOUSING.........................  Counsel offender    (Service capacity
                                   to seek a healthy   needs to expand
                                   residential         to address the
                                   environment;        remaining needs
                                   encourage           of the offender
                                   offender to move,   population).
                                   if necessary.
                                  Maintain listings
                                   of transitional
                                   housing options
                                   available through
                                   non-profit and
                                   faith community
                                   and refer as
                                   necessary.
MENTAL HEALTH...................  Refer offender to   Mental Health
                                   CSOSA contract      Psychological
                                   psychologist for    Evaluation--D.C.
                                   mental health       Department of
                                   screening to        Mental Health.
                                   determine need     Counseling,
                                   for more in-depth   community-based
                                   psychological       support services
                                   evaluation and      for offenders
                                   treatment.          with diagnosed
                                  Place offenders      mental health
                                   with diagnosed      disorders--D.C.
                                   mental health       Department of
                                   disorder or         Mental Health.
                                   Offender conforms
                                   to the norms of
                                   daily
                                   functioning,
                                   dress, appearance
                                   and behavior.
PHYSICAL HEALTH/DISABILITY......  Refer to D.C.       D.C. Department of
                                   Department of       Health--Primary
                                   Health.             Healthcare at
                                                       neighborhood
                                                       health clinics
                                                       operated by the
                                                       D.C. Health and
                                                       Hospital Public
                                                       Benefit
                                                       Corporation.
LEISURE TIME/SOCIAL               Counsel offender    (Service capacity
 RELATIONSHIPS.                    to develop pro-     needs to expand
                                   social hobbies      to address the
                                   and interests.      remaining needs
                                  If eligible, refer   of the offender
                                   for Faith           population).
                                   Community
                                   Partnership
                                   services,
                                   including
                                   mentoring.
------------------------------------------------------------------------

    Question. Supply the Committee with a description of CSOSA's faith-
based initiative, including the number of offenders who have 
participated in the initiative and any accomplishments to date. Are 
faith-based institutions also providing services to meet offenders' 
needs?
    Answer. CSOSA's faith-based initiative is a collaboration between 
the Agency and the District of Columbia's faith institutions. The 
initiative focuses on developing mechanisms through which offenders on 
supervision can establish permanent connections with the community's 
positive, pro-social institutions. Crime is inextricably linked to the 
individual's alienation from mainstream values. By overcoming that 
alienation, the faith community can help the offender replace negative 
associations and attitudes with positive contact and messages. 
Furthermore, the faith institution can address issues of personal 
accountability and change that are beyond the scope of community 
supervision. The church or temple cannot (and should not) replace law 
enforcement, but it can provide a permanent source of positive contact 
and moral guidance. The Community Supervision Officer represents 
external accountability by enforcing release conditions; the faith 
institution represents internal accountability by stressing spiritual 
growth. In addition, CSOSA recognized from the initiative's inception 
that the District's faith institutions provide many practical support 
services, such as tutoring, job training, food and clothing banks, 
personal and family counseling, and substance abuse aftercare. CSOSA 
wanted to ``tap into'' this important source of community-based 
programming in order to expand the range of support services available 
to offenders.
    The faith initiative's governing body is the CSOSA/Faith Community 
Partnership Advisory Council. Established in 2001, the Advisory Council 
membership represents a range of denominations; efforts are currently 
underway to broaden both the membership of the Council and its 
representational diversity.
    Late in 2001, CSOSA and the Advisory Council chose mentoring as the 
initial focus of the initiative to connect faith institution volunteers 
with offenders returning to the community from prison. A successful 
outreach event was held in January 2002, in which faith institutions 
across the city addressed the issue of reentry and issued a call for 
volunteers. Over 400 people attended our initial mentor information 
meeting in February 2002. Since then, the ``Reentry Worship'' event has 
become an annual citywide occurrence.
    CSOSA and the Advisory Council then established a structure through 
which the mentor program could be coordinated and faith institutions 
could provide services to offenders. The city was divided into three 
clusters, and CSOSA issued a Request for Proposals to establish a 
contractual relationship with a lead institution in each cluster. The 
lead institutions are: Cluster A (Wards 7 and 8)--East of the River 
Clergy/Police/Community Partnership; Cluster B (Wards 5 and 6)--Pilgrim 
Baptist Church; Cluster C (Wards 1, 2, 3, 4)--New Commandment Baptist 
Church.
    Each institution employs a Cluster Coordinator, who coordinates 
mentor and other service referrals and performs outreach to increase 
the involvement of faith institutions in the cluster.
    CSOSA also developed and implemented training programs for both 
mentors and the program coordinators at each faith institution. The 
training familiarizes prospective mentors with the structure and 
requirements of community supervision, the offender profile, and the 
program's administrative and reporting requirements, as well as 
providing role-playing exercise in which mentors encounter the 
challenges of mentoring. To date, approximately 200 mentors and 
coordinators from more than 40 institutions have been trained.
    The initial cohort of 24 returning offenders was ``matched'' with 
mentors in August 2002. Since then, the number of offenders in the 
program has grown to over 100. In 2003, CSOSA expanded the program to 
include inmates at the Bureau of Prisons' Rivers Correctional 
Institution in North Carolina. Rivers houses over 1,000 District of 
Columbia inmates. Thirty-three Rivers inmates were placed with mentors, 
who attended biweekly mentoring sessions conducted through video 
conference technology. All but four of the inmates have been released 
as of February 23, 2004.
    Mentoring remains just one facet of CSOSA's faith initiative. 
Through the cluster coordinators and site visits by CSOSA staff, 
outreach ministries and services have been identified. In addition, 
faith institutions have been directed to Federal, local, and 
philanthropic resources to upgrade their capacity for service. For 
example, CSOSA has verified the capacities and availability of the 
following outreach services:

------------------------------------------------------------------------
           Institution             Outreach Ministry  Available Capacity
------------------------------------------------------------------------
AP Shaw United Methodist........  Anger Management..  7 program slots.
Grace Apostolic.................  GED classes.......  Varies.
Paramount Baptist...............  Food and Clothing.  10-12 referrals
                                                       weekly.
SE Tabernacle...................  Job Services        30 referrals/
                                   Referrals.          month.
                                  Weekly support      Maximum 15 per
                                   group for Ex-       week.
                                   offenders.
Redemption Ministry.............  Job Training/       35 referrals per
                                   Placement.          class cycle.
                                  Substance Abuse     Ongoing capacity
                                   Counseling.         for 15 clients.
                                  Family Assistance   Varies according
                                   (housing,           to need.
                                   transportation).
------------------------------------------------------------------------

    Through grant funding from the U.S. Department of Justice, 
Community Oriented Policing Service (COPS), one of CSOSA lead faith 
institutions, New Commandment Baptist Church, is now able to facilitate 
and expand its ability to intercede, with CSOSA and other faith 
institutions, to improve the likelihood that participating parolees 
will have lower rates of recidivism. CSOSA's network of 
interdenominational faith-based participants will contribute to the 
success of this effort. Collaborating with the District of Columbia 
Jobs Partnership, New Commandment Baptist and other faith institutions 
are able to enroll returning offenders in job readiness training 
programs, educational and vocational training, interviewing skills and 
job placement.
    Another participating faith institution, East of the River Clergy/
Police/Community Partnership, has recently received a grant award from 
the U.S. Department of Labor to facilitate and place returning 
offenders into jobs which offer career opportunities. It is projected 
that the availability of this resource will substantially build the 
capacity of the District of Columbia to better serve the returning 
offenders and their families.
    From the enthusiasm of a core group of concerned citizens, the 
CSOSA faith initiative has grown to a citywide effort involving 
hundreds of individuals in a wide range of activities to support 
returning offenders. We look forward to the initiative's continued 
growth as a sustainable long-term resource that offenders can access 
both during and after their term of supervision.
    Question. Does CSP have specific programs to meet the needs of 
female offenders?
    Answer. Currently, CSP has several gender-specific programs to 
address the needs of female offenders. CSP contracts for residential 
placements in gender-specific residential programs, such as Demeter 
House, which treats chemically-addicted mothers, who may be accompanied 
by their children while in the program. The Substance Abuse and 
Treatment Branch also provides weekly in-house group sessions for 
women. In addition, the Transitional Intervention for Parole 
Supervision (TIPS) program has a community supervision officer on-site 
at the Fairview Community Corrections Center to assist women with 
reentry issues. The Fairview CCC also may be used for public law 
placements and as an intermediate sanction for high risk/needs women 
offenders.
    CSP is working to expand gender-specific programs. The expanded 
Reentry and Sanctions Center will contain a unit for female offenders. 
Additionally, a team of managers received training at the National 
Institute of Corrections Academy last year on implementing effective 
agency-wide programs for female offenders. The members of this team now 
are leading a work group to implement these strategies around such 
issues as victimization and trauma, mental health and medical problems, 
family and child rearing, and economic self-sufficiency. The Agency is 
working to:
  --Implement additional, in-house gender-specific group counseling 
        programs and training group facilitators;
  --Develop a comprehensive training curriculum that provides 
        information/tools for line staff and administrators to 
        effectively manage female offenders;
  --Compile a resource guide to ensure that Community Supervision 
        Officers are aware of, and have access to, available in-house, 
        community and government programs;
  --Work with our faith-based partners to female women offenders are 
        linked to mentors;
  --Strengthen partnerships with the many community organizations and 
        government agencies that provide services to this population; 
        and
  --Arrange child-care opportunities with our community partners to 
        allow female offenders to engage in programming and supervision 
        activities.
    Question. CSP last requested an increase in drug treatment funds in 
fiscal year 2002. Is this funding sufficient to meet the demand for 
treatment? What measures are in place to ensure that these resources 
are used most effectively? Is there any evidence that CSOSA drug 
treatment reduces drug use, rearrest, and recidivism in the District of 
Columbia?
    Answer. During fiscal year 2003, CSOSA's Office of Research and 
Evaluation estimated that there were over 4,100 chronic substance-
abusing offenders in need of treatment intervention. This estimate is 
based on the number of offenders who tested positive for cocaine, 
heroin or PCP two or more times. (Offenders testing positive for 
marijuana and/or alcohol are generally given intermediate sanctions and 
referred to in-house services.)
    Each offender, on average, requires three placements to satisfy 
treatment-programming requirements. For example, offenders with chronic 
substance abuse histories are most often referred to detoxification 
followed by residential and outpatient services. For the chronic drug-
using population, CSOSA would require the ability to make a minimum of 
12,300 substance abuse placements per year (4,100 offenders  3 
treatment placements).
    The fiscal year 2003 appropriation (approximately $8.6 million) 
enabled CSP to make 2,021 treatment placements. This addressed 16 
percent of the estimated requirement. To ensure that limited treatment 
funds are being used efficiently our treatment specialist staff 
performs a battery of assessments to determine the appropriate 
treatment recommendation for each offender.
    In fiscal year 2003, a data management system was introduced, which 
allowed automated tracking of the agency's treatment related data. 
Fiscal year 2003 was the pilot year for use of the automated tracking 
system and the system was modified and adjusted as required during the 
year. It is anticipated that data on the effectiveness of interventions 
will be available from the automated treatment tracking system within 
the next 6 to 9 months.
    Question. Does CSOSA contract for drug treatment services? How do 
you ensure that vendors are providing quality services?
    Answer. CSOSA currently contracts with 11 drug treatment vendors 
throughout the Washington metropolitan area. Quality Assurance 
Specialists routinely monitor each vendor to ensure that all treatment 
services are provided in accordance with national and local standards.
    Vendor monitoring occurs through compliance reviews and unannounced 
site visits. The compliance reviews are performed on an annual basis 
based on standards for treatment services. The areas subject to review 
include staffing, documentation, physical plant and administrative 
operations. Upon completion of the review, the vendors are provided 
with a time sensitive plan to correct any deficiencies. Subsequently, 
this plan is monitored through unannounced site visits to ensure 
compliance.
    In an effort to continue improving the quality of interventions 
provided by our drug treatment vendors, CSOSA also provides ongoing 
technical assistance.
    Question. What management strategies are employed for inmates on 
Special Supervision?
    Answer. Special Supervision is the rendering of comprehensive, 
treatment-oriented services, combined with intensive supervision, for 
those offenders assessed as ``special needs'' offenders. Special needs 
offenders include offenders convicted of sex crimes and crimes of 
domestic violence, those diagnosed with a mental illness, and those 
assessed with a substance abuse addiction. Programmatic improvements 
for special supervision populations continue to evolve. However, the 
increasing number of offenders presenting with co-ocurring disorders, 
combined with limited staff resources, continues to present challenges 
in providing comprehensive services for these populations.

                          SPECIAL SUPERVISION

    Question. What do you do differently for Special Supervision 
Offenders than the General Supervision population?
    Answer. Special supervision offenders are high risk offenders. 
Immediately upon release to the community, ``special needs'' offenders 
are placed on an intensive or maximum level of supervision for the 
first 90 to 180 days, with weekly community and office contact, 
including urinalysis surveillance for illegal drug use. To closely 
manage these special supervision offenders, CSO's working with these 
caseloads have much smaller caseloads ratios than CSO's managing 
general supervision offenders. The Agency's target caseload supervision 
ratio for the ``Special Supervision'' teams is 25 offenders per CSO, 
versus 50 offenders per CSO for general supervision. This smaller ratio 
allows the special supervision CSO to provide close offender 
accountability, intensive counseling, treatment referrals, and tracking 
activities. The Agency is approaching the targeted caseload ratio, 
which will improve public safety.
    To ensure that all ``special needs'' offenders receive required 
services, a comprehensive referral, placement and assessment tracking 
system has been implemented for all sex offender, mental health, and 
substance abuse cases. These offenders are carefully screened to match 
appropriate treatment services with their needs. CSO's refer offenders 
to treatment groups on-site, as well as makes referrals to vendor-
provided treatment services, such as residential substance abuse 
treatment and sex offender treatment services. Also, sex offenders, 
depending on their classification level, are required to register with 
the Sex Offender Registry, every 90 days or once a year, for life, as 
determined by their conviction and the law. In fiscal year 2003, 185 
sex offender assessments and 42 polygraph examinations were conducted.
    Offenders convicted of a domestic violence offense participate in 
CSOSA-provided Domestic Violence Intervention Program (DVIP) or Family 
Violence Intervention Program (FVIP), if the offender is unable to 
afford private domestic violence counseling services. These group 
sessions also can include family members and, if appropriate, the 
victim of the offense and/or other interested community support 
persons. In addition, CSOSA offers individual counseling as needed. 
Those offenders who can afford to pay for private domestic violence 
treatment are closely monitored to ensure attendance and progress in 
treatment.
    Question. This committee included funds in CSOSA's fiscal year 2004 
appropriation for 27 new positions to provide for increased supervision 
of high-risk sex offenders, mental health cases, and domestic violence 
cases, as well as to expand the use of global positioning system (GPS)-
based electronic monitoring. GPS electronic monitoring employs state of 
the art technology to offender supervision and hold great promise for 
solving crimes and detecting offender movements or patterns that would 
enable CSOSA to take action before he or she commits more crime. This 
technology would appear to be a valuable tool for supervising all high-
risk offenders, and in particular, sex offenders and domestic violence 
offenders in which offenders are supposed to avoid certain locations, 
such as schools or specific residences.
    What is the status of implementing the special supervision 
initiative? When will the new officers be hired? When filled, what will 
the new caseload ratios be?
    Answer. Two new Special Supervision Teams start CSP's 6-week 
training academy on March 22, 2004. After these staff complete training 
and enter supervision duties, CSP caseload ratios for sex offender, 
mental health and domestic violence supervision will be reduced to 
approximately 29:1 (based on January 2004 cases). CSP is unable to hire 
additional staff from the fiscal year 2004 supervision initiative due 
to inadequate funding for these positions in our fiscal year 2005 
budget request. Simply, CSOSA cannot support all 27 staff in fiscal 
year 2005 with the resources contained in our fiscal year 2005 budget. 
If all staff from the fiscal year 2004 special supervision initiative 
were hired, these high-risk caseload ratios would decrease to 25:1.
    Question. What is the status of implementing the GPS system? What 
criteria do CSOSA use to determine which offenders are placed under 
electronic or GPS monitoring? Using these criteria, how many offenders 
would be placed on GPS at any given time? How many offenders are 
currently under GPS monitoring?
    Answer. CSOSA currently is piloting Global Positioning System (GPS) 
electronic monitoring technology to monitor movement of the highest 
risk offenders in the community. Primarily used as a tool to monitor 
sex offenders, CSOSA also utilizes GPS to monitor high risk domestic 
violence offenders. These populations generally have stay away orders 
from people or places within the community, and GPS has shown promise 
to be a useful tool to monitor compliance with these conditions. GPS 
allows CSOSA to place strict curfews on offenders, as well as to 
establish ``exclusion zones,'' which are areas or addresses the 
offender is prohibited from entering. Offenders who are placed on this 
type of electronic monitoring generally have violated conditions of 
their supervision, and the GPS is used when other intermediate 
sanctions have been exhausted. Additionally, offenders whom CSOSA deems 
particularly high risk, due to their originating offense or suspicion 
that the offender may be re-offending, also may be placed on GPS 
monitoring. Offenders who are under parole or supervised release 
supervision may be placed on GPS electronic monitoring at CSOSA's 
discretion. In probation cases, CSOSA must obtain a court order, 
modifying the offender's supervision conditions, in order to place the 
offender on GPS monitoring.
    Since April 8, 2004, 51 offenders have been placed in the GPS pilot 
at a cost of $6.00 per day, per offender. Currently, 9 offenders are 
under GPS. Using CSOSA's criteria, above, for placing sex offenders, 
domestic violence offenders, and other high risk offenders under GPS, 
the Agency estimates that the following number of offenders could be 
placed under GPS in fiscal year 2004:

------------------------------------------------------------------------
                                                          No. Offenders
                   Fiscal Year 2004                         Under GPS
------------------------------------------------------------------------
October-December, 2003................................                 0
January-March, 2004...................................                12
April-June, 2004......................................                30
July-September, 2004..................................                60
------------------------------------------------------------------------

    The system currently piloted by CSOSA is a passive one, which means 
CSOSA is notified of violations by e-mail the next business day 
following the violation. Some violations also may be reported to our 
sex offender supervision staff by cell phone. At any time, our staff 
also may link to the GPS system and track real-time the offenders who 
are in the program. However, CSOSA is not a 24-hour law enforcement 
Agency and does not have the resources available to respond immediately 
to each violation.
    Through future collaborations with the Metropolitan Police 
Department (MPD), it is CSOSA's goal to provide MPD with the ability to 
respond immediately to GPS electronic monitoring violations of CSOSA 
offenders as the violations occur. Additionally, the GPS data can be 
linked to MPD crime data to assist law enforcement to determine if 
offenders on GPS tracking were at or near reported crime sites.
    Currently, CSOSA contracts for GPS services with Veridian, which is 
a component of General Dynamics. The hardware used for monitoring is 
provided by PRO TECH Monitoring, Inc. CSOSA uses Veridian, instead of 
direct contracting with PRO TECH Monitoring, Inc., because Veridian 
offers several advantages that PRO TECH Monitoring, Inc. does not 
currently offer, such as:
  --Web based access to the data;
  --Linkage with police crime data; and
  --The ability to change hardware if a new, more advanced, efficient, 
        or cost-effective product enters the market with another 
        company, other than Pro Tech.
    Question. Is the GPS technology being used for defendants?
    Answer. No. However, if resources become available, the Pretrial 
Services Agency would pilot this type of monitoring for high-risk 
defendants with court orders to stay away from particular persons or 
places.

                          INFORMATION SYSTEMS

    Question. What is the status of CSP's offender case management 
system, for which funding was provided in fiscal year 2002?
    Answer. Initially deployed in January 2002, the Supervision and 
Management Automated Records Tracking System (SMART) replaced an 
unreliable and outdated legacy system. SMART has provided the Agency 
with an efficient and accurate method for tracking supervision 
activities, improving supervision management and reporting, and 
enhancing management of the treatment process for offenders.
    Since the supervision module's initial release, many features and 
modules have been added to SMART. A treatment module has been 
implemented to track each offender's progress, as well as a related 
module that allows treatment vendors to verify attendance at scheduled 
outpatient sessions. This integrated treatment module not only 
encompasses the tracking of offender treatment activities, but also 
manages all treatment-related financial transactions. In addition, 
CSOSA now has the capability to electronically transmit Pre-Sentence 
Investigation (PSI) reports directly to the Superior Court and the 
Assistant United States Attorney's Office. Current modules under 
development will provide automatic notification when the Metropolitan 
Police Department arrests an offender under supervision, as well as the 
revised screener and the prescriptive supervision plan.
    In order to continue the significant improvements in offender 
supervision, CSOSA needs to continue enhancing SMART's capabilities. 
The current intake procedure involves the manual process of entering 
sentencing information from both the Courts and the Bureau of Prisons 
(BOP). The proposed Intake Module would streamline this function by 
automating the transfer of sentencing information directly from the 
Courts and the Bureau of Prisons, as well as electronic Notices of 
Actions from the U.S. Parole Commission. Automatic transmission of 
sentencing information would ensure that CSOSA receives the sentencing 
information for each offender. Additional proposed enhancements also 
include:
  --Wireless mobile computing to provide officers with access to the 
        SMART application while performing supervision in the 
        community;
  --Biometrics to provide a fail-proof method for identifying offenders 
        reporting for drug testing or drug treatment programs;
  --Archiving and expunging case records in accordance with Federal 
        regulations;
  --Additional interagency data sharing with both local and Federal law 
        enforcement agencies; and
  --Improved management and operational reporting using Business 
        Objects to ensure the effective supervision and allocation of 
        resources to attain the Agency's critical success factors.
    Without these technological enhancements, it will be very difficult 
for CSOSA to continue its forward momentum in improving public safety 
through close supervision.
    Question. Are CSOSA information systems integrated with other law 
enforcement systems? Are CSOSA systems secure from hackers?
    Answer. CSOSA has aggressively implemented internal process 
automation, remote connectivity to external criminal justice data 
repositories, and justice data exchange. The information collected and 
managed by SMART is requested by local and national law enforcement 
agencies. The Agency has established data exchange agreements with 
several local and Federal law enforcement agencies. Criminal justice 
data is currently being exchanged with the Metropolitan Police 
Department, the Pretrial Services Agency, the District of Columbia 
Department of Corrections, the United States Attorney for the District 
of Columbia, the District of Columbia Department of Corrections, the 
U.S. Parole Commission, the Federal Bureau of Prisons, and the Federal 
Bureau of Investigations. The fulfillment of the Agency's mission is 
contingent on obtaining timely and accurate information from law 
enforcement agencies. Interagency data exchange provides the necessary 
criminal data for preparation of Pre-Sentence Investigation reports 
(PSI), Alleged Violation Reports (AVR), Warrants, and Notices of Action 
(NOA's) to improve offender supervision, and ways to control crime and 
improve the safety of the public.
    While CSOSA facilitated some initial electronic data exchange 
agreements with other agencies, it is crucial to establish additional 
exchange processes with the other law enforcement entities, such as the 
Courts. SMART is capable of receiving data from other entities, yet 
other agencies systems are not always postured to participate in the 
data exchange process.
    The successful deployment of SMART, and the initial data exchange 
communication with other agencies, has moved the Agency closer to 
accomplishing our strategic goals. As we increase our data exchange 
capability with other law enforcement agencies, the need to enhance 
security measure increases. To continue this forward movement, it is 
imperative that CSOSA systems, data and infrastructure be secure. CSOSA 
continues to make strides in addressing IT security. We have developed 
an IT Security Master Plan, established an Incident Response Team, IT 
Security and Patch Management Working Groups, however more work must be 
accomplished to ensure a secure information technology environment.
    SMART is a critical Agency system that must be secure. As the 
sophistication of hackers advance, CSOSA must enhance the capability to 
protect Agency resources to ensure that measures can be taken to fend 
off attacks and exploits. The challenge of managing new exploits and 
adherence to emergent Federal regulations (FISMA, A-130 etc.) requires 
a vigilant IT Security Program. CSOSA must implement an IT Security 
tool set to include enhanced WEB scanners, network intrusion software, 
and e-authentication devices. Also, the implementation of the IT 
Security Master Plan is necessary to comply with FISMA and/or 
regulatory requirements. The successful implementation of an Agency IT 
Security Program is dependent on identifying adequate resources to 
secure the Agency's information technology resources and comply with 
regulatory requirements.
    Question. CSOSA's fiscal year 2002 appropriation included 
$13,015,000 in no-year funds to renovate Karrick Hall or some other 
facility for use as CSOSA's Reentry and Sanctions Center. What is the 
status of the renovations?
    Answer. In September 2002, CSOSA signed a long-term lease with the 
District of Columbia for the use of Karrick Hall as CSOSA's Re-entry 
and Sanctions Center. Also, in September 2002, the city government was 
developing a Master Plan for the D.C. General Hospital Campus, 
including negotiating a transfer of control of the land from the 
Federal Government to the D.C. Government. CSOSA worked closely with 
the D.C. Government and the community throughout these planning 
processes. In July 2003, we reached agreement with the city to proceed 
with the renovation of Karrick Hall. A contract for Architectural and 
Engineering Design and Construction Management was signed in September 
2003.
    Karrick Hall is an eight-story, 60,000 square foot building and 
since 1996, has been the home of the Assessment and Orientation Center. 
The AOC program is a model program CSOSA now operates in partnership 
with the Washington Baltimore High Intensity Drug Task Force program, 
also known as HIDTA. When Karrick Hall is complete, the AOC will become 
CSOSA's Reentry and Sanctions program.
    On February 27, 2004, the AOC vacated Karrick Hall and moved into a 
temporary location at 1301 Clifton Street, NW. The AOC will be at 1301 
Clifton until the renovation is complete, in the spring of 2005. While 
at 1301 Clifton, the AOC will expand its program from 18 beds to 27.
    Karrick Hall is a 60,000 square foot eight-story building 
constructed on the grounds of the D.C. General campus circa 1961. The 
renovations include:
  --Replacing the building's infrastructure (installing all new 
        plumbing, electrical, windows and exterior architectural 
        features as well as new heating and air condition systems and 
        fire systems);
  --Installing two new elevators in place of the existing units; and
  --Installing new restrooms and ensuring all new systems meet the 
        requirements of the Americans with Disabilities Act and other 
        handicap accessibility requirements.
    When complete, the Reentry and Sanctions Center will expand to 108 
beds, which will service 1,200 offenders and defendants annually. The 
program will include 4 male units, one unit dedicated to females and 
one unit for the dually diagnosed.
    We are very excited about this initiative because the AOC program 
has a proven track record of success. A study conducted by the 
University of Maryland in May 2002 found there was a 74 percent 
reduction in re-arrests 1 year following completion of the AOC program. 
Expanding the capacity of this program has obvious positive impacts on 
public safety and quality of life.

                      REENTRY AND SANCTIONS CENTER

    Question. Does CSOSA's fiscal year 2005 budget include funding for 
the expanded operation of Reentry and Sanctions Center?
    Answer. CSOSA's budget request includes only partial-year funding 
for fiscal year 2005 because the building renovation will not be 
complete until spring 2005. Fiscal year 2006 will be the first full 
fiscal year that all six units at Karrick Hall will be fully 
operational. The full-year operating cost in fiscal year 2006 will be 
approximately $18 million. To fund complete, annual operations would 
require an increase in fiscal year 2006 of approximately $5.5 million.
    Question. Does CSOSA perform independent audits of its budget and 
finances? What are the results of such audit, including audit findings 
and status of corrective actions?
    Answer. Although not required by the Chief Financial Officers Act 
or other Federal law or regulation, since inception CSOSA's Funds 
Control policy required an annual audit of our budgetary financial 
statement (Statement of Budgetary Resources). The auditing firm of 
PriceWaterhouseCoopers (PWC) LLP has conducted four independent audits 
of CSOSA's Statement of Budgetary Resources since Agency inception. In 
each audit, no material weaknesses were identified and CSOSA received 
unqualified opinions. The audit of CSOSA's fiscal year 2002 Statement 
of Budgetary Resources successfully concluded in September 2003. Thus 
far, the only finding raised has been concerns about our ability to 
fulfill new and much more stringent standards resulting from 
legislation enacted in 2002.

                          FINANCIAL MANAGEMENT

    Question. Please elaborate on the new legislation and standards 
affecting CSOSA's financial management.
    Answer. The Accountability of Tax Dollars Act of 2002 (Public Law 
107-289) establishes new requirements in the area of financial 
management for all small agencies. These are the same financial and 
audit requirements which the larger cabinet level agency have been 
subject to for the past several years. The Act requires all executive 
agencies, regardless of size, to prepare and audit six financial 
statements versus the one Statement of Budgetary Resources currently 
prepared and audited by CSOSA. This will increase the scope of audit 
coverage and will require CSOSA to implement additional policies, 
systems and procedures in many areas. The changes are all positive 
steps in improving stewardship of taxpayer dollars, but CSOSA is 
struggling to put the proper infrastructure in place. It will take time 
and additional resources.
    Question. Does the fiscal year 2005 budget include the request for 
financial resources to comply with the new laws affecting financial 
management, and if not, what is the cost and how will you deal with the 
problem?
    Answer. We estimate the Agency-wide cost (including the Pretrial 
Services Agency) to be $980,000 and we will no choice but to divert 
funding from programs such as supervision, treatment or employee 
training.
    Question. Within the past 2 weeks, the Washington Post reported on 
the arrest of a repeat sex offender who is suspected of several rapes, 
as well as molesting a 12-year-old girl. The Post also reported that 
Superior Court had sentenced the man to probation several months prior 
to the recent assaults but procedural errors resulted in this sex 
offender being unsupervised by CSOSA. Do you understand the full extent 
of the problems that caused this to happen? Please describe how such 
errors could have been avoided, or could be prevented in the future, 
including any resources that may be necessary.
    Answer. CSOSA has closely examined this case. The exchange of data 
between Superior Court and CSOSA needs to be improved by increasing 
automation. These automated changes may require the Clerk's office to 
modify its existing business processes. CSOSA also needs to institute 
some operational changes within our Offender Intake program. We have 
short-term fixes in place in our attempt to ensure that we receive 
probation grants from the Court and input all intake data into SMART. 
However, we recognize the need for permanent solutions in terms of both 
automation and the enhancement of our Offender Intake operation. We 
recently completed a comprehensive review of the Offender Intake 
operation. The review defined organizational and procedural changes 
that would enhance the operation's efficiency. The review very clearly 
stated the need for additional resources, but more analysis is needed 
to accurately quantify the impact. Funding for these improvements has 
not been requested in the fiscal year 2005 budget.
    Question. Provide the number of D.C. inmates in each Federal Bureau 
of Prisons facility by gender.
    Answer.

  DISTRICT OF COLUMBIA INMATES IN THE FEDERAL BUREAU OF PRISONS (AS OF
                           FEBRUARY 25, 2004)
------------------------------------------------------------------------
                                                       Facility   State
State            Facility             Males   Females    Total    Total
------------------------------------------------------------------------
   ALTalladega FCI                      19  .......        19       19
   ARForrest City FCI                    1  .......         1        1
   AZPhoenix FCI                         2  .......         2        2
   CAAtwater USP                        19  .......        19  .......
   CADublin FCI                          0        6         6  .......
   CATerminal Island FCI                 1  .......         1  .......
   CAVictorville Med FCI                 2  .......         2       28
   COFlorence ADMAX USP                 28  .......        28  .......
   COFlorence FCI                        4  .......         4  .......
   COFlorence High USP                  29  .......        29  .......
   CODenver CCM                          1  .......         1       62
   CTDanbury FCI                         0       84        84       84
   DCD.C. Community Corrections        199       20       219      219
   FLColeman Med                        24        1        25  .......
   FLColeman USP                       182  .......       182  .......
   FLMarianna FCI                        9  .......         9  .......
   FLMiami FCI                           1  .......         1  .......
   FLPetersburg FCI                     48  .......        48  .......
   FLTallahassee FCI                     1       16        17      282
   GAAtlanta USP                       354  .......       354  .......
   GAJesup FCI                          19  .......        19      373
   ILGreenville FCI                     13  .......        13  .......
   ILMarion USP                         28  .......        28  .......
   ILPekin FCI                           4  .......         4       45
   INTerre Haute USP                   193  .......       193      193
   KSLeavenworth USP                   218  .......       218      218
   KYAshland FCI                         6  .......         6  .......
   KYLexington FMC                      20       10        30  .......
   KYManchester FCI                     32  .......        32       68
   LAOakdale FCI                         1  .......         1  .......
   LAOakdale FDC                         3  .......         3  .......
   LANew Orleans CCM                     1  .......         1        5
   MADevens FMC                         38  .......        38  .......
   MABoston CCM                          1  .......         1       39
   MDCumberland FCI                    214  .......       214  .......
   MDBaltimore Community                26        2        28      242
      Corrections
   MIMilan FCI                           3  .......         3  .......
   MIDetroit CCM                         1  .......         1        4
   MNRochester FMC                      18  .......        18  .......
   MNSandstone FCI                       1  .......         1  .......
   MNMinneapolis CCM                     3  .......         3       22
   MOSpringfield USMCFP                 61  .......        61       61
   MSYazoo City FCI                      2  .......         2        2
   NCButner FMC                         65  .......        65  .......
   NCButner Low                         17  .......        17  .......
   NCButner Med                         48  .......        48  .......
   NCSeymour Johnson FPC                11  .......        11  .......
   NCMcRae CI                           18  .......        18  .......
   NCRivers CI                       1,119  .......     1,119  .......
   NCRaleigh CCM                         2  .......         2    1,280
   NJFairton FCI                       109  .......       109  .......
   NJFort Dix FCI                       44  .......        44      153
   NYBrooklyn MDC                        5  .......         5  .......
   NYOtisville FCI                      63  .......        63  .......
   NYRay Brook FCI                      39  .......        39      107
   OHElkton FCI                          9  .......         9        9
   OKEl Reno FCI                         3  .......         3  .......
   OKOklahoma City FTC                  30  .......        30       33
   ORSheridan FCI                        2  .......         2        2
   PAAllenwood Low                      10  .......        10  .......
   PAAllenwood Medium                   95  .......        95  .......
   PAAllenwood USP                     259  .......       259  .......
   PALewisburg USP                     258  .......       258  .......
   PALoretto FCI                         3  .......         3  .......
   PAMcKean FCI                         85  .......        85  .......
   PAPhiladelphia FDC                   21        9        30  .......
   PASchuylkill FCI                    145  .......       145  .......
   PAPhiladelphia CCM                    2        1         3      888
   SCEdgefield FCI                     125  .......       125  .......
   SCEstill FCI                         49  .......        49      174
   TNMemphis FCI                        31  .......        31  .......
   TNNashville CCM                       1  .......         1       32
   TXBeaumont Low                        3  .......         3  .......
   TXBeaumont USP                       46  .......        46  .......
   TXCarswell FMC                        0       16        16  .......
   TXFort Worth FMC                      7  .......         7  .......
   TXTexarkana FCI                       1  .......         1  .......
   TXThree Rivers FCI                    1  .......         1       74
   VALee USP                           409  .......       409  .......
   VAPetersburg Med FCI                281  .......       281      690
   WIOxford FCI                          4  .......         4        4
   WVAlderson                            0       67        67  .......
   WVBeckley FI                        161  .......       161  .......
   WVBig Sandy USP                     147  .......       147  .......
   WVGilmer FCI                        235  .......       235  .......
   WVMorgantown FCI                     87  .......        87      697
                                  --------------------------------------
           TOTAL                     5,880      232     6,112    6,112
------------------------------------------------------------------------

 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                               

                        PRETRIAL SERVICES AGENCY

    Question. According to the fiscal year 2005 Pretrial Services 
Agency budget submission, the current caseload for defendants who are 
``extensively supervised'' is 127:1. What types of charges are included 
in ``extensively supervised'' cases, what type of supervision is 
provided, and what, if any, implications does this have for public 
safety? If this is not the appropriate caseload ratio, what is? What, 
if any, resources are needed to achieve public safety goals? What 
changes to supervision practices would be expected if caseloads were 
reduced?
    Answer. Within the General Supervision program, defendants who pose 
a higher level of risk to community safety or of not returning to Court 
are classified as in need of ``extensive supervision.'' Defendants who 
fall into this category have been charged with a wide range of 
offenses--from misdemeanors to dangerous and violent felonies. Many of 
the felony defendants are eligible for pretrial detention based on 
their charge (i.e., robbery, burglary, possession with intent to 
distribute), but the Court has determined that placement in the 
community under extensively supervised release conditions should 
initially be ordered. The Court's expectation is that, in order to 
ameliorate the risk to public safety while on pretrial release, 
conditions such as drug testing and regular reporting will be closely 
supervised by PSA.
    With the current high caseload ratios, PSA is not able to provide 
the supervision expected by the Court or required by PSA's internal 
policies and procedures. In fiscal year 2002, General Supervision 
Pretrial Service Officers (PSO's) were unable to respond to over half 
of defendants' condition violations, such as noncompliance with drug 
testing and contact requirements. Currently, PSO's often cannot respond 
quickly to violations of release conditions and, in many instances, 
defendants are testing positive for illegal drugs for many months until 
they have a court date where the PSO is finally able to respond. This 
is particularly troubling with high risk felonies pending indictment, 
where the first court date after the preliminary hearing is often many 
months after the defendant has been released to PSA. During that time, 
because the PSO's are ``managing'' their caseloads on the basis of 
court dates rather than providing extensive supervision, warrant checks 
and criminal records checks are not regularly done to see if defendants 
have been arrested again in a neighboring jurisdiction while on 
release. Curfew conditions are not monitored by visits to defendants' 
homes. Treatment or employment opportunities are not pursued. In short, 
these higher risk defendants are not being appropriately supervised, at 
considerable risk to public safety.
    Information provided by two neighboring Federal pretrial districts 
under the Administrative Office of the U.S. Courts indicates that their 
caseloads average between 42:1 and 64:1 (Eastern District of Virginia 
42:1, District of Maryland 64:1). If PSA were to reduce extensive 
supervision caseloads to 60:1, it would require the following 
resources:

                         PSO'S REQUIRED FOR CASELOADS AT 60:1 (AVERAGE MARCH-JUNE 2003)
----------------------------------------------------------------------------------------------------------------
                                                                             Current     Additional
                    Extensive Supervision                        Cases        PSO's       Required    PSO Total
                                                                           (121:1) \1\    for 60:1       60:1
----------------------------------------------------------------------------------------------------------------
Felony......................................................        1,346           11           11           22
Violent Misdemeanor.........................................          412            3            4            7
Domestic Violence...........................................          547            5            4            9
Nonviolent Misdemeanor......................................        1,338           11           11           22
                                                             ---------------------------------------------------
      Total.................................................        3,643           30           30           60
----------------------------------------------------------------------------------------------------------------
\1\ Caseloads fluctuate over the year depending on whether the Court orders ``extensively supervised'' or
  monitored conditions. This depends on the risk level of the particular defendant. The Extensive Supervision
  breakdown reflects an average from March through June, 2003 when the ratio was 121:1. The 127:1 ratio
  addressed in the question represents the period from March through September, 2003.

    With additional resources, pretrial services officers would be able 
to initiate case management of defendants with extensive supervision 
conditions. Supervision plans would be established that would include 
the following:
  --provide orientation with defendants so that they are advised about 
        supervision/program requirements;
  --assess defendant's needs and risks by reviewing the bail report/
        risk assessment and by completing a social services needs 
        screener;
  --conduct regular warrants and criminal history checks to ensure 
        there has not been a rearrest in a neighboring jurisdiction 
        while on release;
  --assess and refer defendants for substance abuse, mental health 
        needs, or social services where appropriate and resources 
        permit;
  --execute contracts for sanctions-based substance abuse treatment 
        where appropriate and resources permit;
  --monitor conditions of release throughout the case so that non-
        compliance can be reported expeditiously to the court instead 
        of only on court dates;
  --respond expeditiously to non-compliance with release conditions 
        through sanctions or referral to appropriate resources such as 
        treatment or a request for judicial action;
  --respond to non-compliance with drug testing after three drug 
        testing infractions within 30 days rather than only on court 
        dates;
  --report to the court and investigate loss of contact with the 
        defendant; and
  --administer and recommend incentives where appropriate.
    Question. Many Federal agencies have not received full funding for 
pay raises in the last several years. What impact does this have on the 
Pretrial Services Agency's ability to meet program goals?
    Answer. Pretrial Services Agency's ability to accomplish our 
program goals relating to Risk and Needs Assessment, Close Supervision, 
Treatment and Services, and Partnerships is directly tied to our 
ability to hire our authorized 325 FTE. Since our certification as an 
independent entity within CSOSA in August of 2000, PSA has experienced 
significant but mission-essential program growth in the areas of staff 
and contract treatment. During this short period of time, PSA has been 
very successful in incrementally establishing the necessary 
infrastructure to support our growing FTE level; and now we need to 
maintain this FTE level to successfully provide front-line services to 
defendants and accomplish our mission.
    By fiscal year 2005, the cumulative impact of the unfunded pay 
raise increment, the difference between the President's Budget and 
Congress's enacted authorization, could well be over 5 percent of 
payroll, or over $1 million. As a small agency where approximately 72 
percent of our fiscal year 2005 funding goes into salaries and 
benefits, there are few options to address this increment beyond 
reducing staffing or reducing treatment dollars, which directly impacts 
the achievement of program goals. For example, with the option utilized 
this fiscal year, fiscal year 2004, approximately 16 positions were not 
filled until February to help address the fiscal year 2004 pay raise 
increment of 2.1 percent, or $565,000 (difference between 2.0 percent 
in the budget and the 4.10 percent actual).
    Conversely, reducing available FTE will incrementally increase 
supervision caseload ratios. Higher caseload ratios, particularly in an 
area such as General Supervision, where the ratios are already too 
high, can only cause increased concern for public safety. For fiscal 
year 2005, to address the potential unfunded pay raise increment of 
approximately 1.8 percent, or $486,000.00 (difference between the 1.5 
percent in the budget and the possible parity pay with DOD at 3.5 
percent), PSA will be confronted with not being able to fill vacancies 
and/or a reduction in contract treatment funding.

                            COMMUNITY COURT

    Question. What is the role of PSA with the D.C. Superior Court's 
Community Court? Does PSA have resources that are adequate to support 
this initiative?
    Answer. The District of Columbia Superior Court launched the East 
of the River Community Court (ERCC) in September 2002, and it was 
expanded in the fall of 2003. The ERCC shifted case management from a 
traditional case processing orientation to a problem-solving system of 
supervision. The general philosophy of the Court is grounded in a 
therapeutic and restorative justice model, incorporating an active 
connection with the community. Problem-solving is achieved by assessing 
individual needs and tailoring meaningful solutions through drug 
testing, substance abuse treatment, job training, other social services 
and community service. PSA assessment and supervision practices have 
been modified to respond swiftly and frequently to assist the Court in 
making informed decisions about release conditions intended to problem-
solve individual need and to assure appearance in court and public 
safety. Accountability is enforced by PSA to improve the defendant's 
sense of value to the community, as well as to prevent the defendant 
from becoming involved in further criminal behavior. Today, a few PSO's 
within the General Supervision program are supervising 482 defendants 
released through the ERCC, and 433 of those defendants have a drug 
testing condition.
    Managing individual needs of defendants processed through the ERCC 
involves a labor-intensive effort by PSO's. Defendants who opt for 
trial or agree to diversion are released with a variety of release 
conditions intended to support problem-solving. PSO's spend added time 
with defendants attempting to instill a desire for self-improvement and 
community awareness while maintaining the system's requirements of 
assuring defendants' return for court dates and safety of the 
community. In some instances, PSA supervises dual sets of release 
requirements for an individual defendant. Diversion agreements with the 
prosecutor and court-ordered release conditions are simultaneously 
imposed and fashioned to promote personal change. The PSOs' 
productivity levels are increased by the two sets of release 
requirements and the types of conditions imposed. Defendants need time 
to modify negative behaviors or to make retribution to the community 
through community service. As a result, the supervision period is 
lengthened. Non-compliance with problem-solving strategies prolongs the 
length of a case as PSO's attempt to work with defendants for 
successful outcomes. When defendants succeed at diversion, prosecutors 
prefer to keep their cases open for an extended period to ensure 
continuing compliance. Defendants who fail diversion opportunities and 
request a trial automatically extend the pretrial supervision period.
    PSA resources are not adequate to effectively continue under the 
community court model. Although the Court would like to expand the 
reach of the community court to other districts beyond 6D and 7D, PSA 
does not have sufficient staff or treatment dollars to support such an 
expansion. Misdemeanor cases that usually average 170 days can end up 
on the court docket for longer periods, sustaining the need for PSA 
oversight and treatment funds. Resources are stretched thin to cover 
the variety of release requirements, to manage the high-maintenance 
nature of problem-solving, and to prolong supervision to promote 
successful outcomes or to support a second period of supervision.

                             DRUG TREATMENT

    Question. PSA last received an increase in contract drug treatment 
funding in fiscal year 2002 to address the defendant population. How 
many defendants have drug use problems? To what extent is this funding 
sufficient to meet the demand for treatment? What controls are in place 
to ensure that these resources are used most efficiently and 
effectively?
    Answer. PSA cannot currently meet the entire substance abuse 
treatment need in its supervision population. Although defendants 
frequently are not under pretrial supervision for the period of time 
necessary to complete an entire treatment regime (placement in 
detoxification, residential and outpatient treatment sometimes followed 
by transitional housing), it can reasonably be expected that the 
typical defendant in need of treatment would receive up to two 
placements while under PSA supervision.
    During fiscal year 2003, there were approximately 3,700 defendants 
who had at least three drug testing violations while under pretrial 
supervision. Defendants are referred for comprehensive substance abuse 
assessments after three positive drug tests, and approximately 96 
percent of those assessments reflect a need for treatment. PSA drug-
using defendants in fiscal year 2003 needed approximately 7,104 
substance abuse treatment placements (3,700 defendants  2 treatment 
placements each @ 96 percent). In-house and contract treatment 
placements totaled 1,958 in fiscal year 2003, and 215 additional 
substance abuse placements were made with externally funded community-
based providers, a total of approximately 31 percent of the potential 
need. These placements served approximately 1,200 defendants.
    PSA has established and implemented significant best practice 
controls consisting of both manual and automated processes to ensure 
that the application of contract drug treatment funding is efficiently 
and effectively optimized.
    PSA has an active contract treatment services quality control 
program in place, and quality assurance of the services is written into 
the contracts by the incorporation of the D.C. Department of Health 
standards for drug treatment facilities. Quality is a major evaluation 
factor in awarding the treatment services contracts. Each offeror is 
required to submit a quality assurance plan for providing services to 
PSA. The treatment facilities must be certified under the D.C. 
standards for a treatment facility, and evidence of that certification 
is required for award of the contracts. The treatment services 
contracts are closely monitored by the Treatment Branch, Contract 
Treatment Services Unit, Contracting Officer Technical Representatives 
(COTR's). The COTR's make scheduled and unscheduled site visits to the 
treatment facilities, inspecting the services provided and utilizing a 
quality assurance plan and checklist to ensure compliance with the 
contract terms and conditions. Issues, or potential issues, resulting 
from site visits are immediately coordinated with a PSA Contract 
Officer and addressed with the respective vendors.
    Initial treatment placements are made by the COTR's utilizing an 
automated Task Order writing subsystem, which is an on-line, real-time 
application integrated with PSA's case management system for defendants 
and the internal funds control system, producing timely, reliable, and 
accurate information. Treatment vendor invoices are received by PSA's 
Accounting Section and reconciled with the automated Task Order writing 
subsystem. This process allows for continuous maximum use of available 
funds. For defendants who are placed on probation, the COTR's 
coordinate with CSOSA to transfer the defendants into the CSP offender 
supervision program without interruption of treatment services or 
creating duplicate obligations.
    Question. How many defendants did the Pretrial Services Agency 
supervise over the course of fiscal year 2003? What was the rate of 
rearrest for pretrial defendants while under the supervision of the 
agency? What is the rearrest rate for drug users in contrast to non-
drug users?
    Answer. In fiscal year 2003, the Pretrial Services Agency 
supervised a total of 20,948 defendants. These defendants represent 
26,589 cases, meaning that some defendants have multiple cases and have 
been placed on pretrial release and supervised more than once. This may 
occur when a defendant is on release in one case and is rearrested on a 
different case, either during the period of pretrial supervision, or 
after the defendant's period of supervision is over.
    Twelve percent of PSA's defendant population was rearrested at 
least once during the period of pretrial supervision. As would be 
expected from the research documenting the links between drug use and 
crime, drug-using defendants (defined as those with at least one 
positive drug test) have higher rearrest rates than non-drug using 
defendants. In fiscal year 2003, 17 percent of drug-using defendants 
were rearrested as compared to only 2 percent of non-drug using 
defendants.
    The fiscal year 2003 rearrest rate is marginally lower than the 
rates from the previous 2 years. In fiscal year 2001, the rearrest rate 
for all defendants was over 13 percent, with 19 percent of drug-using 
defendants rearrested, and a little over 6 percent of non-drug using 
defendants rearrested. In fiscal year 2002, the overall rearrest rate 
was over 14 percent, with over 20 percent of drug-using defendants 
rearrested, and 7 percent of non-drug using defendants rearrested.
    Question. What is the status of PSA's defendant case management 
system?
    Answer. Version 1.0 of PRISM, Pretrial's case management system, 
was deployed in March, 2002. This release supported all aspects of 
defendant supervision, case management, drug test results, and 
substance abuse treatment. Version 1.5 was deployed in January, 2003, 
and added automated case assignment and task management functions. 
Version 2.0 development effort will be completed during the 4th quarter 
of fiscal year 2004. Staff training will begin in fiscal year 2004 with 
deployment slated for 1st quarter, fiscal year 2005. Version 2.0 will 
incorporate criminal history, arrest processing, and bail reports to 
court, and will replace the Agency's legacy ABA DABA (Automated Bail 
Agency Database) and DTMS (Drug Test Management System) information 
systems.
    In future versions, we hope to automate the release order process 
and create an electronic release order. The release order is the 
initial document that places a defendant under Pretrial Services 
supervision. Currently, the release order is a multi-part paper form, 
which is prepared manually by PSA and court staff in the courtroom and 
signed by the judge. PSA staff manually enters information on the 
release order into PSA's case management system.
    Over 30 courtrooms in D.C. Superior Court prepare and forward 
release orders to PSA throughout the week. Incomplete or illegible 
release orders or orders not received by PSA are common problems. 
Breakdowns in the manual process of transmitting release orders 
ultimately result in defendants not being supervised. Timeliness in 
posting new release conditions or any bond changes is paramount to 
effective supervision. Accuracy of on-the-record release conditions is 
also essential to ensuring the appropriate release conditions are 
imposed and supervised.
    Automation of this process would create an electronic release 
order, which could be generated in the courtroom, with printed copies 
available immediately for all relevant parties. Information could be 
posted real-time to both Pretrial Services' and D.C. Superior Court's 
information systems, assuring that both systems had reliable, timely, 
and accurate information.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                      RE-ENTRY AND SANCTION CENTER

    Question. Please provide the schedule for renovation of Karrick 
Hall and how long the agency intends to remain in this facility, as 
part of the Reservation 13 master plan.
    Answer. In September 2002, CSOSA signed a 10-year lease with the 
District of Columbia for the use of Karrick Hall as CSOSA's Re-entry 
and Sanctions Center. From September 2002 to June 2003, CSOSA, the D.C. 
government, and several stakeholders worked to resolve planning issues, 
including the transfer of control of the land from the Federal 
Government to the DC government and the siting of the CSOSA facility 
within the framework of the Reservation 13 Master Plan. In June 2003, 
CSOSA reached agreement with the City to proceed with the renovation of 
Karrick Hall. A contract for Architectural and Engineering Design and 
Construction Management was signed in September 2003 and complete 
renovations are scheduled to be complete in Spring 2005. CSOSA plans to 
continue full operations at Karrick Hall at least throughout the term 
of the existing lease.
    Karrick Hall is a 60,000 square foot 8-story building constructed 
on the grounds of the D.C. General campus circa 1961. Since 1996, 
Karrick Hall has been the home of the Assessment and Orientation 
Center. The AOC program is a model program CSOSA now operates in 
partnership with the Washington Baltimore High Intensity Drug Task 
Force program, also known as HIDTA. When Karrick Hall is complete, the 
AOC will become CSOSA's Reentry and Sanctions program.
    On February 27, 2004, the AOC vacated Karrick Hall and moved into a 
temporary location at 1301 Clifton Street, NW. The AOC will be at 1301 
Clifton until the renovation is complete, in the spring of 2005.
    The renovations include:
  --Replacing the building's infrastructure (installing all new 
        plumbing, electrical, windows and exterior architectural 
        features as well as a new heating and air condition systems and 
        fire systems);
  --Installing two new elevators in place of the existing units;
  --Installing new restrooms and ensuring all new systems meet the 
        requirements of the Americans with Disabilities Act and other 
        handicap accessibility requirements.
    When renovations are completed in Spring 2005, the Reentry and 
Sanctions Center will expand to 108 beds, which will service 1,200 
offenders and defendants annually. The program will include four male 
units, one unit dedicated to females and one unit for the dually 
diagnosed. CSOSA's Fiscal Year 2005 Budget request contains funding for 
partial-year operations of all six units in fiscal year 2005.
    We are very excited about this initiative because the AOC program 
has a proven track record of success. A study conducted by the 
University of Maryland in May 2002 found there was a 74 percent 
reduction in re-arrests 1 year following completion of the AOC program. 
Expanding the capacity of this program has obvious positive impacts on 
public safety and quality of life.

                       SUPERVISION AND TREATMENT

    Question. What role does drug treatment play in reducing 
recidivism?
    Answer. Research supports the conclusion that effective drug 
treatment plays a significant role in reducing recidivism. Nationally, 
it is estimated that drug treatment results in a 45 percent reduction 
in criminal behavior in the 2 years following successful completion of 
treatment. A similar trend is seen in research conducted on 
participants of the Baltimore/Washington High Intensity Drug 
Trafficking Area (HIDTA) treatment continuum, the system on which 
CSOSA's substance abuse treatment continuum is based. The HIDTA 
program, which is grant-funded through the Office of National Drug 
Control Policy, targets geographic areas identified as having high 
concentrations of drug-related criminal activity, such as the 
Baltimore/Washington area. The evaluation of the Baltimore/Washington 
HIDTA treatment program was conducted by the University of Maryland and 
showed that the overall arrest rate for HIDTA treatment participants 
dropped 51 percent, and the arrest rate for participants of the HIDTA 
Assessment and Orientation Center, which is operated by CSOSA, dropped 
74 percent in the 12 months following successful completion of the 
program.
    Within CSOSA, we are currently developing a system to evaluate the 
impact of treatment on recidivism. The integration of an automated 
treatment tracking module with our SMART case management system during 
fiscal year 2003 allows us for the first time to analyze the impact of 
treatment on criminal behavior. During fiscal year 2003, drug related 
violations accounted for 58 percent of all technical violations 
reported for the year. We anticipate that our outcome analysis will 
mirror the findings of both the national and HIDTA outcome studies and 
will show a reduction in recidivism and technical violations amongst 
offenders who were referred to and successfully completed a continuum 
of treatment services during fiscal year 2003.
    Question. How many offenders and defendants are served by drug 
treatment, compared with the population identified as in need of 
treatment?
    Answer. CSOSA estimates that approximately 4,100 chronic substance-
abusing offenders required treatment interventions in fiscal year 2003, 
based on the number of offenders who tested positive for cocaine, 
heroin or PCP two or more times. It is important to note that CSOSA 
also supervises offenders who test positive fewer than two times that 
are also in need of treatment services. For purposes of this analysis 
4,100 offenders will be used as a low-end estimate.
    Each offender, on average, requires 3 placements to satisfy 
treatment-programming requirements. For example, offenders with chronic 
substance abuse histories are most often referred to detoxification 
followed by residential and outpatient services.
    Using the estimates described above, CSOSA requires the ability to 
make a minimum of 12,300 substance abuse placements per year (4,100 
offenders  3 treatment placements) to meet the population's need. The 
fiscal year 2003 appropriation enabled CSOSA to make 2,021 treatment 
placements, or just 16 percent of the total estimated need.
    Approximately 40 percent of offenders needing treatment are 
supervised at the Intensive or Maximum level, indicating a relatively 
high level of risk to public safety. CSOSA has focused treatment 
resources on this population to meet a higher percentage of need among 
the highest-risk offenders.
    Question. What kinds of programs are people placed in? Residential 
or out-patient? How do you determine which service providers offenders 
are referred to?
    Answer. CSOSA currently provides the following substance abuse 
services:
  --7-Day Medically Monitored Detoxification,
  --28-Day Intensive Residential Treatment,
  --120-Day Residential Treatment,
  --120-Day Residential Treatment and Transitional Housing for Women 
        with Children,
  --180-Day Residential Treatment for Dually-Diagnosed Substance 
        Abusers,
  --90-Day Supervised Transitional Housing,
  --Intensive Outpatient and Outpatient Treatment,
  --Traffic Alcohol Education Services.
    In addition to the services above, CSOSA also provides the 
following in-house interventions:
  --Substance Abuse Education Groups,
  --Assessment/Orientation Groups (Pre-treatment services),
  --Anger Management Groups,
  --Sanction Groups.
    The level of treatment recommended for each offender is determined 
by an evaluation conducted by CSOSA staff. The evaluation considers a 
variety of factors including pattern of drug use; amenability to 
treatment; prior treatment history; risk to public safety; and 
employment/living status.
    Question. How does CSOSA coordinate supervised release with drug 
treatment and counseling if those services are not provided at the 
halfway house?
    Answer. CSOSA does not provide treatment services to offenders 
residing in the halfway house on ``inmate'' status. For those 
individuals, the Bureau of Prisons provides contract treatment 
services. When the individual is released, the individual continues 
treatment under CSOSA's contract with the same vendor.
    CSOSA staff assess offenders who reside in the halfway house on 
``released'' status (parolee, supervised releasee or probationer under 
a Public Law placement) to identify their specific treatment needs. The 
offenders are permitted to leave the halfway house to attend substance 
abuse treatment sessions at the identified treatment program. Upon 
leaving the halfway house, the offender's treatment continues and, if 
needed, the offender is referred to the next level of care.
    Offenders who enter supervision with no prior halfway house stay 
are assessed for treatment needs as part of CSOSA's intake and case 
planning process. If the offender has a release condition requiring 
treatment, placement is initiated at that time.
    Once the individual is under CSOSA supervision, the Community 
Supervision Officer (CSO) is responsible for ensuring that the offender 
is in full compliance with the treatment plan, sanctioning the offender 
for any behavioral non-compliant acts, meeting with the treatment 
professional to facilitate offender compliance, monitoring the offender 
until successful completion of treatment, or referring the offender 
back to the releasing authority if continued non-compliance with 
treatment results in removal from treatment or unsatisfactory 
compliance.

       SUCCESS RATE OF WOMEN OFFENDERS RE-ENTERING THE COMMUNITY

    Question. What specific steps or initiatives are underway to enable 
successful re-entry of women?
    Answer. Currently, CSOSA's Community Supervision Program (CSP) has 
several gender-specific programs to address the needs of female 
offenders. CSP contracts for residential placements in gender-specific 
residential programs, such as Demeter House, which treats chemically-
addicted mothers, who may be accompanied by their children while in the 
program. The Substance Abuse and Treatment Branch also provides weekly 
in-house group sessions for women. In addition, the Transitional 
Intervention for Parole Supervision (TIPS) program has a community 
supervision officer on-site at the Fairview Community Corrections 
Center to assist women with reentry issues. The Fairview CCC also may 
be used for public law placements and as an intermediate sanction for 
high risk/needs women offenders.
    CSP is working to expand gender-specific programs. The expanded 
Reentry and Sanctions Center will contain a unit for female offenders. 
Additionally, a team of managers received training at the National 
Institute of Corrections Academy last year on implementing effective 
agency-wide programs for female offenders. The members of this team now 
are leading a work group to implement these strategies around such 
issues as victimization and trauma, mental health and medical problems, 
family and child rearing, and economic self-sufficiency. The Agency is 
working to:
  --Implement additional, in-house gender-specific group counseling 
        programs and training group facilitators;
  --Develop a comprehensive training curriculum that provides 
        information/tools for line staff and administrators to 
        effectively manage female offenders;
  --Compile a resource guide to ensure that Community Supervision 
        Officers are aware of, and have access to, available in-house, 
        community and government programs;
  --Work with our faith-based partners to female women offenders are 
        linked to mentors;
  --Strengthen partnerships with the many community organizations and 
        government agencies that provide services to this population; 
        and
  --Arrange child-care opportunities with our community partners to 
        allow female offenders to engage in programming and supervision 
        activities.
    Question. Does CSOSA coordinate with the Child and Family Services 
Agency (CFSA) or D.C. Public Schools to follow-up on women re-entering 
family life?
    Answer. CSOSA makes every effort to connect returning offenders 
with programs and services that can help them achieve successful 
reintegration in the community. While there is no agency policy 
requiring coordination, Community Supervision Officers (CSO's) 
informally confer and collaborate with the city's social services 
agencies on cases in which there is a common interest. The CSO may need 
to be aware of services the offender or her children receive from CFSA, 
or the CSO may initiate referral for such services. Typically, if the 
offender needs educational programming, s/he will be referred to a 
Learning Lab for assessment. The Learning Lab may refer the offender to 
D.C. Public Schools evening programs if appropriate.

                 CRIMINAL JUSTICE COORDINATING COUNCIL

    Question. Is the CJCC well-equipped in its current status to 
continue to aide in the creation of seamless criminal justice services 
that enhance public safety and maximize resources?
    Answer. Over the course of 2003-2004, the CJCC has been able to 
strengthen its position within the criminal justice community as a 
resource tool and a catalyst for system reform, institutional 
modification and program analysis. In January of 2003, the member 
agencies of the CJCC made a commitment to address a variety of issues 
by completing a multi-year strategic plan. These issues are being 
addressed through committees and workgroups using a process of careful 
investigation and recommendations. CJCC provides support to these 
workgroups through research, data collection and tracking. The CJCC is 
now in the process of completing its second, annual report for fiscal 
year 2003.
    There is a general improvement in the trust and solicitation of 
multiagency approaches to problem solving which can only make the city 
services stronger and more efficient. Through the CJCC there has been 
the successful establishment of an infrastructure to support these 
multiagency efforts, report on progress and measure success. The 
support of the Mayor, D.C. Council, OMB and Congress has provided a 
strong foundation for the development of the CJCC.

                  RE-ARREST RATE AND PAROLE REVOCATION

    Question. Would you please submit to the committee a comparison of 
the re-arrest rates and parole revocation hearings in the District to 
other jurisdictions of similar size? (Please coordinate response with 
PDS).
    Answer. The percentage of offenders arrested while under CSOSA 
supervision was 18 percent in fiscal year 2002 and 15 percent in fiscal 
year 2003. Although comparable neighboring jurisdictions (i.e., 
Baltimore and Richmond) do not report their rearrest data in a similar 
fashion, we will soon move to a more comparable reporting format--
recidivism rates measured over a 24- to 36-month period for entry and 
exit cohort offender populations.\1\
---------------------------------------------------------------------------
    \1\ In January 2003, the Virginia Department of Corrections 
released a 3-year recidivism study indicating that nearly 30 percent of 
roughly 9,000 offenders returned to incarceration. Of those who 
returned, the greatest share returned within the first year.
---------------------------------------------------------------------------
    To accomplish the above reporting objective, CSOSA is exploring a 
data sharing agreement with the Federal Bureau of Investigations. This 
particular agreement will enable the agency to implement its recidivism 
studies by verifying and tracking all known and reported rearrests 
contained in the FBI's National Crime Information Center (NCIC). Once 
in place, ORE will collect and verify all known arrests for stratified 
random samples of entry and exit cohorts. We hope to begin reporting 
our 24- and 36-month rearrest rates beginning in the summer of 2005 and 
on a regular basis thereafter.
    Between fiscal year 2001 and fiscal year 2003, the United States 
Parole Commission reported 768, 1,072, and 1,240 revocation hearings 
for D.C. offenders respectively. These hearings fall into three 
categories--institutional, expedited, and local. Only local revocation 
hearings require the presence of CSOSA's CSO's for introduction of 
facts.\2\ A large share of these revocations resulted from hearings 
that were requested following an offender's persistent drug use and/or 
technical violations regardless of rearrest or prosecutorial decision 
to present charges to the judiciary.\3\
---------------------------------------------------------------------------
    \2\ USPC [actual] local revocation hearings were 481 in fiscal year 
2001, 660 in fiscal year 2002, and 562 in fiscal year 2003.
    \3\ The Virginia study also indicated that nearly of third of 
recidivists were revoked to incarceration following technical violation 
and the remaining following arrests for a new charge.

                        Public Defender Service

STATEMENT OF RONALD S. SULLIVAN, JR., DIRECTOR
    Senator DeWine. Let me invite our second panel up, which is 
one witness. Mr. Ronald Sullivan, Jr. is Director of the Public 
Defender Service in the District of Columbia. He was appointed 
Director in June 2002. Mr. Sullivan was in private practice 
here in the District and was a visiting attorney for the Law 
Society of Kenya. He sat on the committee charged with drafting 
a new constitution of that country.
    Mr. Sullivan is leaving the Public Defender Service this 
summer to take a professorship at Yale. We welcome him.
    Mr. Sullivan, thank you for being here today.
    Mr. Sullivan. Thank you very much.
    Senator DeWine. Would you like to make a statement? And 
then we will have some questions.
    Mr. Sullivan. Indeed, I would.
    Good morning, Mr. Chairman, Senator Landrieu.

                              INTRODUCTION

    I come before you today in support of the fiscal year 2005 
budget request on behalf of the Public Defender Service for the 
District of Columbia, or PDS as we are commonly known as in the 
criminal justice system.
    Throughout its history, PDS has maintained its reputation 
as the best public defender service in the country, local or 
Federal. PDS is a legal services provider that this Congress, 
this subcommittee, and this City can be proud of.
    Our track record, both historically and recently, speaks 
for itself. Indeed, just this past summer the United States 
Supreme Court appointed one of our attorneys to a case of 
national importance. The case regarded the construction and 
application of 42 U.S.C. Section 1983, which forbids State 
officials from depriving individuals of their Constitutional 
rights under color of State law.
    The exquisitely graceful brief produced by our attorney on 
behalf of a prison inmate proved convincing. Last Thursday, the 
Supreme Court ruled in a 9-0 opinion, adopting PDS's position. 
I ask you, when was the last time you recall this Supreme Court 
agreeing 9-0 on anything?

                 PDS'S FISCAL YEAR 2005 BUDGET REQUEST

    With this backdrop, I move to PDS's fiscal year 2005 
request. PDS requests $29.8 million and 227.5 FTE in direct 
budget authority. This request includes $2.3 million as our 
first ever capital investment in information technology.
    The investment will provide for development of our case 
data management systems. It will enhance our security over 
privileged attorney/client information, and it will reduce our 
risk of losing client information in the event of a local 
disaster.
    Indeed, recently, the Cook County defender office in 
Chicago was virtually destroyed by fire. This sort of disaster 
can occur, and if the institutional defender service is not 
prepared, we risk grinding the criminal justice system to a 
halt.
    Coupled with this technology investment, we are targeting 
to improve PDS's operational efficiencies in the areas of 
program planning and development, administration, human 
resources, and financial management. There is far more detail 
in my written submission, but suffice it to say PDS's skeletal 
professional support staff is woefully inadequate to support an 
agency of this size and scope.

                 PDS'S FISCAL YEAR 2004 ACCOMPLISHMENTS

    Now, briefly to fiscal year 2004 accomplishments: As this 
subcommittee knows from recent press accounts, PDS, in its 
class action litigation against the District, recently filed a 
motion to place the D.C. Youth Services Administration in 
receivership as a consequence of its nearly two-decade long 
neglect of the District's most needy children. The District's 
lack of compliance with dozens of court orders to date is not 
acceptable.
    In addition to its class action litigation, PDS represents 
individual citizens one at a time when they are faced with 
criminal charges.
    One example illustrates how PDS affects the lives of D.C. 
citizens. Recently we represented a 70-year-old man. Let me 
call him John, so as not to further the injustice brought upon 
him. John was charged with felony gun possession. He had never 
been in trouble before. He worked part-time as a special police 
officer and was licensed to carry a handgun while on duty and 
to and from his home to work.
    One day after work, he stopped at the headquarters--the 
headquarters of the special police officer's department--to 
pick up some work related paperwork. He forgot to remove his 
handgun before walking into the building, since, technically 
speaking, he did not work at the headquarters.
    As a result of this mistake, John was arrested and faced 
the possibility of a felony conviction with a 5-year prison 
sentence. The conviction would have cost him his job, his means 
to supplement his retirement, and his spotless reputation, 
which he had built over 70 years.
    Fortunately, John was represented by a well-trained public 
defender. The result--it took John's jury 10 minutes to elect a 
foreperson and render a verdict of not guilty.
    PDS seeks fairness in every case it handles, and this is 
but one example of how PDS affects the lives of concrete people 
and the administration of justice in our Nation's capital. 
PDS's mission to represent indigent citizens in the District 
with diligence and zeal is clear and well defined. We do it 
responsibly. We do it efficiently. We do it cost effectively, 
but most importantly we do it well.
    The Public Defender Service for the District of Columbia 
has been and continues to be this country's model defender 
agency. With your support, we will continue in this proud 
tradition.

                           PREPARED STATEMENT

    I see the yellow light is on, which indicates that my time 
is nearly expired. I thank you for your time and attention. I 
would be happy to answer any questions that this subcommittee 
may have.
    Senator DeWine. Thank you very much.
    [The statement follows:]

             Prepared Statement of Ronald S. Sullivan, Jr.

    Good afternoon, Mister Chairman and members of the subcommittee. My 
name is Ronald S. Sullivan, Jr., and I am the Director of the Public 
Defender Service for the District of Columbia (PDS). I come before you 
today to provide testimony in support of PDS's fiscal year 2005 budget 
request. We thank you for your support of our programs in previous 
years.
    The Public Defender Service, unique among local public defender 
offices in that it is federally funded,\1\ has continued to maintain 
its strong reputation in the area of providing quality criminal defense 
representation in the District of Columbia. Just last week, the United 
States Supreme Court, in a 9-0 opinion, ruled for a PDS client in a 
case briefed and argued by a PDS attorney at the request of the Court.
---------------------------------------------------------------------------
    \1\ As a result of the National Capital Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally funded, independent District of Columbia 
organization. In accordance with the Revitalization Act, PDS transmits 
its budget and receives its appropriation as a transfer through the 
Court Services and Offender Supervision Agency (CSOSA) appropriation.
---------------------------------------------------------------------------
    This case is just the latest successful example of PDS's long 
history of providing quality defense representation. PDS has always 
been committed to its mission of providing and promoting 
constitutionally mandated legal representation to adults and children 
facing a loss of liberty in the District of Columbia who cannot afford 
a lawyer, and we have had numerous significant accomplishments in 
pursuit of that mission. However, before PDS became a federally funded 
entity, we did not always have sufficient funding to allow us to 
achieve as high a level of proficiency in our administrative 
functioning as we are known for in our legal representation. PDS's 
relatively new status as a federally funded entity \2\ has created the 
opportunity for us to focus more on enhancing our administrative 
functions: in the past 7 years, PDS has established a human resources 
office, an information technology office, and a budget and finance 
office where none previously existed. To continue this ``administrative 
maturation,'' PDS has a need for a more sophisticated structure that 
will permit not only the integration of these functions with each other 
and with PDS's program functions, but will permit the organization to 
better monitor performance and to achieve even greater results. In 
furtherance of these goals, PDS has already adopted Federal best 
practices in a number of support areas, and we are preparing to adopt 
additional Federal best practices in even more areas.
---------------------------------------------------------------------------
    \2\ See n. 1.
---------------------------------------------------------------------------
    It is for these reasons that PDS seeks funding for our sole fiscal 
year 2005 requested initiative, the Program Management and Performance 
Integration Initiative. For fiscal year 2005, PDS requests $29,833,000 
and 227.5 FTE in direct budget authority, which includes a request for 
8.5 new FTE and $3,714,000 to support this new initiative. This 
proposed increase in personnel resources and funding--PDS's first ever 
Federal capital funding request--is consistent with the President's 
emphasis on achieving measurable results and improving operational 
efficiency.

                               BACKGROUND

    Since undertaking in 1970 its intended role as a model public 
defender, PDS has developed and maintained a reputation as the best 
public defender office in the country--local or Federal. It has become 
the national standard bearer and the benchmark by which other public 
defense organizations often measure themselves. In a first ever 
employee survey conducted just 6 weeks ago, 99 percent of responding 
staff reported being proud of working at PDS. The independent firm that 
conducted the survey informed us that PDS received one of the highest 
overall scores the firm had ever observed in assessing staff commitment 
to an organization's mission. Congress and the District of Columbia can 
also be proud of this local defender office for our Nation's capital.
    In the District of Columbia, PDS and the District of Columbia 
Courts share the responsibility for providing constitutionally mandated 
legal representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA), the 
District of Columbia Courts appoint PDS generally to the more serious, 
more complex, resource-intensive, and time-consuming criminal cases. 
The Courts assign the remaining, less serious cases and the majority of 
the misdemeanor and traffic cases to a panel of approximately 350 pre-
selected private attorneys (``CJA attorneys''). Approximately 100 
lawyers on staff at PDS are appointed to represent:
  --a significant percentage of people facing the most serious felony 
        charges;
  --a substantial percentage of individuals litigating criminal 
        appeals;
  --the majority of the juveniles facing serious delinquency charges;
  --nearly 100 percent of all people facing parole revocation; and
  --the majority of people in the mental health system who are facing 
        involuntary civil commitment.
    While much of our work is devoted to ensuring that no innocent 
person is ever wrongfully convicted of a crime, we also provide legal 
representation to children in the delinquency system who have learning 
disabilities and require special educational accommodations under the 
Individuals with Disabilities in Education Act,\3\ people with mental 
illness who are facing involuntary civil commitment, and recovering 
substance abusers participating in the highly successful Drug Court 
treatment program.
---------------------------------------------------------------------------
    \3\ 20 U.S.C.  1400, et seq.
---------------------------------------------------------------------------
    PDS has also provided training for other District of Columbia 
defense attorneys and investigators who represent those who cannot 
afford an attorney, and provided support to the District of Columbia 
Courts. In addition, PDS has developed innovative approaches to 
representation, from instituting measures to address the problems of 
clients returning to the community who have been incarcerated to 
creating a one-of-a-kind electronic case tracking system. Other public 
defender offices across the country have sought counsel from PDS as 
they have used our work as a pattern for theirs. As Federal best 
practices continue to spread to the State and local level, PDS is 
ideally situated to become a model for how a public defender office can 
be operated most effectively in the 21st century.

                        FISCAL YEAR 2005 REQUEST

Program Management and Performance Integration Initiative
    For fiscal year 2005, PDS requests $29.8 million and 227.5 FTE in 
total direct budget authority. This request includes $2.3 million as 
our first capital investment in information technology. The investment 
will allow us to expand our case and data management systems to provide 
more efficient attorney services. Software development and deployment, 
and associated hardware and licensing will enhance security of 
privileged attorney-client information and reduce our risk of loss of 
client information in the event of a local disaster.
    Recent experience in Chicago drives home the importance to the 
smooth operation of the criminal justice system of ensuring that the 
defender organization can continue to operate even if its offices are 
damaged or its computer systems are destroyed. Last fall, the building 
housing the Cook County defender's main offices was virtually destroyed 
in a fire. Had the Cook County defender lacked the capacity to retrieve 
data from backup sources and create sufficient off site work terminals, 
the criminal justice system would have stalled, and representation 
would have been rendered ineffective.
    PDS is also working to improve its operational efficiencies. PDS 
seeks $1.4 million as the resources needed to reach a level of 
sophistication in program planning and evaluation, administration, 
human resources, and financial management that corresponds to PDS's 
reputation for quality defense representation. As explained in detail 
in our fiscal year 2005 Congressional Budget Justification, the $1.4 
million in requested support would be used for:
  --program data collection and analysis;
  --data system integration;
  --performance planning;
  --performance measurement;
  --compliance with Federal standards for systems, accounting, and 
        reporting; and
  --coordination of electronic financial, personnel, and performance 
        records.
    Historically, PDS has maintained skeletal support in these critical 
administrative areas; however, increased performance assessment and 
accountability demands require that we improve our capacity in those 
areas. This need was also reflected in the results of the PDS employee 
survey; our scores were slightly lower on questions related to the 
quality of our administrative operations. Additional support for PDS 
programs and PDS attorneys will increase the potential for greater 
efficiency and effectiveness in carrying out PDS's mission. One of 
PDS's goals is to maximize the time that attorneys, investigators, and 
social workers spend doing that for which they are best suited--
developing creative and effective ways to pursue justice in the 
District of Columbia.

                    FISCAL YEAR 2004 ACCOMPLISHMENTS

    During fiscal year 2004, in addition to handling a variety of 
criminal, juvenile, parole, mental health, and other legal matters, PDS 
has been very successful in instituting changes to improve the overall 
quality of the District of Columbia justice system.
Fiscal Year 2004 Initiative: Appellate Response Initiative
    In fiscal year 2004, Congress and the President provided a program 
increase for PDS totaling .5 FTE, and $100,000 in support of one new 
initiative--PDS's Appellate Response Initiative. PDS used the funding 
to hire a new attorney in the Appellate Division, where the workload 
has increased by approximately 50 percent since the passage of the 1997 
Revitalization Act without any corresponding increase in staff levels. 
The newest Appellate Division attorney began working just over 2 weeks 
ago; her work will contribute toward reducing the backlog of unfiled 
appellate briefs. This backlog is due to the staffing shortage and to 
the substantially shorter briefing schedules now being imposed 
generally in appellate cases by the District of Columbia Court of 
Appeals.
    This additional resource will enhance the ability of attorneys in 
the Appellate Division to meet their obligations, which include 
providing constitutionally mandated appellate legal representation to 
individuals who cannot afford an attorney, responding to requests from 
the District of Columbia Court of Appeals and the Superior Court for 
amicus curiae (``friend of the court'') briefs on complex or unusual 
issues in criminal cases, and devoting a significant amount of time to 
training both PDS and non-PDS lawyers.

                    GENERAL PROGRAM ACCOMPLISHMENTS

Criminal Justice System Reforms
    PDS has remained vigilant in protecting the rights of the indigent 
in the District of Columbia criminal justice system in old cases and in 
new ones.
            Well-being of Children
    Throughout fiscal year 2003 and continuing in fiscal year 2004, PDS 
has drawn renewed attention to the conditions under which children live 
who have been committed to the care of the District of Columbia through 
the juvenile justice system. All experts agree that proper intervention 
in the lives of these children at this juncture is key to breaking the 
cycle of involvement in the system. Current conditions for committed 
children not only fail to advance the cause of reducing recidivism; 
current conditions actually promote recidivism among these children.
    As a result of PDS's tireless 18-year effort in a case known as 
Jerry M., the plight of committed children has been the object of 
intense examination in the media, in the political arena, and just last 
week in hearings before Superior Court Judge Dixon. In these hearings, 
PDS and co-counsel are seeking to have the District's Youth Services 
Administration put into receivership to finally produce the concrete 
changes necessary to save these children and protect the community. 
Whatever the outcome of this litigation, the plight of these most 
vulnerable children will improve because this case has put YSA on 
notice that the city and the public are watching. Through this lawsuit, 
juvenile justice experts have had an opportunity to examine the 
children's living conditions and recommend concrete actions that YSA or 
a receiver will be able to take to immediately improve the well being 
of committed children.
    PDS has carried out this litigation while simultaneously providing 
services that address every aspect of a child's involvement with the 
court system in innumerable individual cases and in innumerable ways. 
Among the most important have been: (1) developing qualified attorneys 
to represent children by generating hours of training for court-
appointed counsel who practice in the new Family Court; (2) increasing 
the services to children with educational disabilities through 
litigation handled by PDS lawyers with expertise in special education 
advocacy; and (3) working collaboratively with a wide variety of 
organizations to help children transition back to the community. This 
last effort is a direct result of a fiscal year 2002 initiative 
establishing our Community Re-entry Project, which carries on to this 
day.
    In fiscal years 2003 and 2004, PDS approached Catholic University 
about providing services to girls committed to the care of the District 
of Columbia. With PDS's experience and expertise, a proposal has been 
developed for creating a group home for girls on the university's 
campus, serviced by the university's graduate programs. The proposal 
includes long-term involvement by the university in the lives of these 
girls, or what experts refer to as ``after-care.'' The proposal calls 
for providing school services, health care, mental health services, 
family services, and mentorship not only while the girls reside on 
campus but also after the girls leave the group home and transition 
back into our community. Such a wrap-around approach to caring for 
committed children could be developed at every university in this city. 
The potential of such programs for saving the lives of District of 
Columbia is enormous.
    PDS is committed to staying on the forefront of looking for ways to 
improve the treatment of children involved in our court system.
Fairness in the Criminal Justice System
    A logical outcome of PDS's vigorous pursuit of its mission is the 
attention PDS devotes to identifying and addressing questions related 
to fairness in the criminal justice system. PDS champions this cause in 
every single case it handles. Because these are too numerous to 
describe, we focus on three cases and one project that are 
illustrative.
    Special police officer.--Recently in the Superior Court for the 
District of Columbia, our client, a 70-year-old former sergeant in the 
Marine Corps, was charged with felony gun possession. Our client had 
never been in trouble before. He operated his own security business and 
worked as a part time special police officer. He was licensed to carry 
a handgun while on duty and while traveling between his home and his 
work. One day on his way to work, he stopped at a District government 
office to drop off a form to renew his business license, forgetting 
that he was wearing his gun in its holster. As a result of this 
innocent mistake, he was arrested and charged. He faced the possibility 
of a felony conviction and 5-year prison sentence. The conviction would 
have cost him his business--his means to supplement his retirement 
income. Fortunately, he was represented by a well-trained and dedicated 
public defender. The result--it only took his jury 10 minutes to elect 
a foreperson and render a verdict--not guilty.
    Detention order reversed.--Another example involved appellate and 
trial representation. Recently, PDS represented a young man charged 
with murder in an appeal from the trial court's decision to hold him in 
jail until his trial. The Court of Appeals upheld the trial judge's 
ruling that there was sufficient reliable evidence to justify holding 
our client in jail until his trial. What the trial court, the Court of 
Appeals, and PDS did not know at the time this appeal was argued was 
that the prosecutor had failed to reveal all the relevant facts during 
the hearing before the trial judge. Through tenacious litigation and a 
persistent search for the truth, PDS uncovered evidence making it clear 
that the government's eyewitness was very suspect: the government's 
eyewitness was not simply a bystander as the trial court had been led 
to believe, but, rather, the witness had participated in shooting the 
victim and had only implicated PDS's client as part of an effort to 
secure a deal with the government. Once PDS uncovered the truth, PDS 
undertook consultations at the highest levels with the United States 
Attorney's Office, resulting in a very unusual joint motion to vacate 
the Court of Appeals opinion, an opinion that was rendered on a 
compromised set of facts. The result--the opinion was vacated, the 
integrity of the court was preserved, and truth--and thus justice--
prevailed. Later, the United States Attorney's Office, after weighing 
the merits of the murder case itself, dismissed the charges against the 
PDS client altogether.
    Erroneous eyewitness identification.--Finally, PDS has been 
advancing the position for several years that eyewitness 
identifications can be inaccurate. Recent studies of cases where DNA 
has exonerated individuals have demonstrated that in the vast majority, 
eyewitnesses were mistaken in their identifications. Indeed, we know 
that defendants in the District of Columbia have been wrongfully 
convicted as the result of erroneous eyewitness identifications: more 
than a decade ago, a Superior Court jury convicted a former PDS client 
of multiple felonies in large part because of mistaken eyewitness 
testimony. After spending a year in prison, our client was exonerated 
by DNA evidence. Cases like these undermine public confidence in our 
criminal justice system. And yet, every single day, District of 
Columbia courts are allowing juries to evaluate eyewitness testimony 
without accurate information about its limitations.
    Over the past 30 years, social scientists have identified many of 
the specific reasons that eyewitnesses make mistakes. For example, 
studies have shown that a witness's subjective confidence in the 
strength of her identification has virtually no correlation with the 
accuracy of the identification. Unfortunately, the lay public, 
uninformed that social science and empirical evidence undermine 
reliance on such evidence, routinely misjudges what weight to give 
eyewitness testimony. Introduction of accurate social science evidence 
into the courtroom, and the use of jury instructions that accurately 
reflect this science, would go a long way toward preventing these kinds 
of errors.
    PDS has already begun to lay the groundwork to update this sort of 
ungrounded legal thinking so that criminal cases will be decided on the 
basis of reliable science. PDS has developed model instructions, 
identified experts, and most recently conducted a jury survey to 
demonstrate conclusively to jurists in the District of Columbia that 
the average juror is not familiar with current scientific research 
regarding eyewitness identification and that jurors can benefit from 
the testimony of experts when evaluating eyewitness evidence. Bringing 
the law in the District of Columbia in line with more than 16 States, 
including Alabama, Arizona, California, New Jersey, Oklahoma, Texas; 
multiple Federal circuits; and the United States Army Court of Criminal 
Appeals is yet another example of PDS's ongoing efforts to provide 
quality representation.
    These are but a small sample of how PDS positively affects people's 
lives and the administration of justice here in the Nation's capital.

                     OTHER PROGRAM ACCOMPLISHMENTS

    PDS engaged in a number of activities during fiscal year 2004 that 
improved the overall administration of justice or that had significant 
implications for individual clients.
Appellate Division
    The Appellate Division's appellate litigation has impact throughout 
the District's criminal justice system as decisions in their cases 
often establish or clarify the standards trial court judges and 
litigants must follow in criminal and juvenile cases. The complex and 
novel legal issues the Division is called upon to address therefore are 
best handled by experienced and talented attorneys--which the Division 
has no lack of. As previously noted, in fiscal year 2003, even the 
highest court in the land looked to the Appellate Division for 
assistance.
    Supreme Court litigation.--The Supreme Court of the United States 
appointed an attorney from the Division to represent an incarcerated 
man where the Federal courts of appeals had issued conflicting opinions 
on the applicability of a rule to lawsuits challenging the conditions 
of confinement, but not implicating the fact or duration of 
confinement, i.e., matters lying at the core of habeas corpus 
jurisprudence. The Supreme Court recently ruled unanimously in favor of 
the arguments advanced by the PDS attorney.
    Failure to disclose bias.--In a case in which for 10 years the 
Appellate Division challenged the United States Attorney's Office's 
refusal to comply with its obligation to provide exculpatory 
information, the trial court issued an order granting a new trial for a 
client whose trial on a murder charge was marred by secret payments 
from the government to the sole eyewitness and by a prosecutor who 
incorrectly argued to the jury that the government had done nothing to 
benefit the witness. The Appellate Division obtained two reversals of 
trial court post-conviction rulings before the trial court ultimately 
decided that PDS's post-conviction pleadings warranted a new trial.
    Prosecutorial misconduct.--In another lengthy case involving 
exculpatory evidence, the Appellate Division advanced First Amendment 
claims to convince the United States District Court for the District of 
Columbia to unseal the post-conviction proceedings in a Federal court 
conspiracy case. The court documents in that case included, among other 
things, a Department of Justice Office of Professional Responsibility 
report concluding that a prosecutor had committed misconduct by 
misusing government funds to pay government witnesses and their 
families and friends. The District Court ultimately ruled in PDS's 
favor in November, after Appellate Division lawyers had been litigating 
for almost 2 years to allow the light of public scrutiny to shine on 
court proceedings.
    The Appellate Division has been seeking a new trial on behalf of 
that same client as a result of gross misconduct by the same former 
Assistant United States Attorney whose malfeasance is detailed in the 
now-unsealed OPR report. Among other claims, our motion shows that the 
prosecutor misused a fund for the payment of court witnesses to provide 
secret payments to witnesses at the trial of our client. This 
misconduct parallels some of the misconduct that the Justice 
Department's own internal investigation uncovered in the Federal court 
case.
    Government admissions.--In still another case involving the 
government's duty of fairness, the District of Columbia Court of 
Appeals ruled that certain statements in a search warrant affidavit 
endorsed by an Assistant United States Attorney constituted government 
admissions and could be introduced by a PDS client at his trial. This 
ruling is important because it meant that the government would pay an 
evidentiary price for taking opposite positions on critical factual 
questions in two different proceedings. The case is also important 
because it is one of the most developed decisions on the question of 
when government submissions in court constitute admissions.
    Attorney-client privilege.--In In re PDS, the Court of Appeals 
wrote an opinion that may be one of the most extensive discussions of 
an issue of national importance--namely the scope of the crime fraud 
exception to the attorney-client privilege. In this case, a trial judge 
had held PDS in civil contempt (but stayed execution of any penalty 
upon PDS's representation that it would comply with the court ruling if 
affirmed on appeal) for refusing to disclose information it believed to 
be protected by the attorney-client privilege. The Court of Appeals 
concluded that PDS was acting within the highest standards of the bar 
in investigating the case as it had, and that the information held by 
the PDS lawyer was protected by the attorney-client privilege because 
the elements of the crime fraud exception had not been shown.
    Habeas corpus litigation.--In a series of cases involving Appellate 
and Special Litigation Division attorneys, we have been litigating the 
question of whether District of Columbia judges have habeas corpus 
jurisdiction over cases involving clients with District of Columbia law 
issues, but who are incarcerated outside the District. We have 
litigated this question in both the District of Columbia Court of 
Appeals and in the United States Court of Appeals for the District of 
Columbia Circuit. The question is now pending before the United States 
Supreme Court in a separate case. The question is immensely important 
to our clients and to District of Columbia citizens, because in the 
wake of the Revitalization Act, District of Columbia prisoners were 
moved from the now closed Lorton facility to non-District facilities. 
Because these prisoners were sentenced in the District's courts for 
violations of local District of Columbia laws, and because their parole 
is governed by laws unique to the District of Columbia and generally 
involves facts that occurred in the District of Columbia, the most 
logical forum for hearing District prisoner claims is the District of 
Columbia courts where the bench and bar have substantial expertise in 
addressing District law questions. In fact, the District of Columbia 
government has supported PDS's position--not the Federal Government's--
in this litigation.
Special Litigation Division
    The Special Litigation Division's focus on systemic issues in the 
District of Columbia justice system leads it to litigate those issues 
before every court in the District of Columbia--the Superior Court and 
Court of Appeals in the local system, and the District Court, the Court 
of Appeals, and the Supreme Court in the Federal system. These are some 
of the highlights of our litigation:
    Conviction of the innocent.--With the advent of DNA testing, we now 
have evidence that the American criminal justice system sometimes 
produces demonstrably wrong results--innocent people are convicted, and 
the real culprit goes free. DNA testing is a powerful tool for catching 
these mistakes, but its scope is limited to the few cases in which 
biological evidence is available, can be tested, and is connected to 
the crime. For every DNA exoneration, there are countless cases where 
testing cannot help because no DNA was left at the scene, the 
biological evidence was too degraded to obtain a conclusive result, or 
the evidence that was once there has been lost or destroyed.
    In order to effectively address the recurring, institutional 
problems that contribute to the conviction of the innocent, PDS's 
Special Litigation Division has focused on two major problems revealed 
by the DNA exonerations: common misperceptions about the reliability of 
eyewitness identification evidence, as described above, and juror 
misunderstanding of the demonstrated phenomenon of ``false 
confessions''--situations in which someone who did not commit the crime 
admits to it anyway. PDS's Special Litigation Division has marshaled a 
variety of resources on these subjects, including social science 
research, testifying experts, surveys of potential jurors to determine 
the reason for their failures to properly understand these subjects, 
and information about the causes of wrongful convictions around the 
country, in order to help the courts begin to address these problems 
systematically. The focus of these projects is to allow the defense to 
point out potential flaws in the reliability of seemingly solid 
evidence, so that the adversarial system will work more efficiently and 
not continue to produce wrongful convictions at such an alarming rate.
    Unfair delay in release from jail.--Another recurring problem in 
the District of Columbia's criminal justice system is its failure to 
release people who have been found not guilty after trial or whose 
charges have been dismissed. While local corrections officials have 
asserted some need to ``check''--often for several days--to ensure that 
the right person is being released and that the case really was 
dismissed, other systems around the country have managed to do this 
before the charges are dismissed so that people can be released 
directly from the courtroom. Los Angeles, for example, has developed a 
model procedure that ensures that people with no pending charges are 
not held in jail unnecessarily.
    The Special Litigation Division has contacted local corrections 
officials and attempted to educate them on the extreme unfairness and 
likely illegality of the current system, and has prepared model 
pleadings for lawyers at PDS to use to attempt to secure speedy release 
for clients who are no longer facing criminal charges. Because local 
officials have proven unreceptive, however, PDS also has been 
cooperating with the lawyers litigating a class action lawsuit against 
the District to address this issue.
    Special education services for youth at the D.C. Jail.--The Federal 
Individuals with Disabilities Education Act \4\ was enacted to ensure 
``that all children with disabilities have available a free appropriate 
public education that emphasizes special and related services designed 
to meet their unique needs.'' The youth housed at the District's jail 
are clearly entitled to these services--and need them most 
desperately--but are not receiving anything close to what the law 
requires because the District's public school system and the D.C. 
Department of Corrections do not have any comprehensive system in place 
for identifying those youth who are entitled to special education 
services at the jail, and for providing those services to them. PDS's 
Special Litigation Division is currently seeking to compel the 
District's school system and Department of Corrections to provide these 
important services.
---------------------------------------------------------------------------
    \4\ 20 U.S.C.  1400, et seq.
---------------------------------------------------------------------------
Civil Legal Services Unit
    Special education services for children in delinquency cases.--PDS 
continues to meet the need of children in the delinquency system for 
special education advocacy. The Unit's attorneys specialize in advocacy 
under the Individuals with Disabilities in Education Act, which 
mandates special accommodations in public schools for children who 
cannot be adequately educated in a traditional classroom setting due to 
a learning disability or other challenge. The Unit's attorneys ensure 
that children receive an appropriate diagnostic assessment and work 
with the school system to secure alternative educational programs. This 
past year, the Unit doubled the number of PDS juvenile clients who are 
receiving appropriate special education services and treatment in 
community schools and non-correctional facilities as an alternative to 
detention and commitment.

Offender Rehabilitation Division
    Our Offender Rehabilitation Division offers clients access to 
resources they often could not find on their own. The benefits to the 
clients come in many areas, including employment, education, and 
housing.
    Employment.--Over many years, a former star athlete on a 
professional team lost everything--his job, his family, his home, his 
friends, and his pride--to cocaine. He began selling drugs, he was 
arrested, and he wouldn't accept anyone's help before he was referred 
to ORD. At the time our staff became involved, he didn't even have 
enough money for a $10 ID card. Through ORD's intervention, he gained 
the courage to interview for a job at a local trade association where 
he began an intensive job training and parenthood program. The result--
he graduated from the program and has gone on to be a successful 
fundraiser for the association. He has not only gone from being 
involved in the criminal justice system to being a productive member of 
our community--he has gone even further and is giving back.
    Education.--A young woman who had been in the neglect system 
virtually all of her life later was charged with a juvenile offense and 
sent to the District's juvenile detention facility in Laurel. The 
Division assisted her in moving into a therapeutic group home, and now 
she is enrolled as a freshman at a local university where scholarship 
programs are paying for her education.
    Public benefits.--Some of our most challenging clients are severely 
mentally ill persons who are arrested on less serious charges, but 
incarcerated pending trial, and who are without support systems. Their 
incarceration results in the cancellation of all their benefits (SSI, 
SSDI, Medicaid). Without their benefits, our clients lose access to 
affordable housing and some essential services. Because of the 
collaborations that the Offender Rehabilitation Division staff is 
developing with a number of agencies and with individual contract 
providers of mental health services, this situation is improving. More 
and more of our severely mentally ill clients are now able to obtain 
financial benefits, housing, intensive outpatient mental health 
services, and in the last year, we have had tremendous success helping 
these clients re-enter the community without re-offending.

Training
    Forensic science conference.--In addition to PDS's usual training 
efforts (e.g., annual Criminal Practice Institute and CPI Practice 
Manual, courses for court-appointed CJA attorneys and investigators), 
PDS coordinated and presented its first forensic science conference 
last summer using funds from a Department of Justice grant program. 
This free training program for defense attorneys included as presenters 
a number of nationally known forensic science experts. The success of 
this conference led the grantor to award funding to PDS for a similar 
conference to be held in May of this year.
    Investigator certification.--After adopting an investigator 
training proposal from PDS, the Superior Court implemented a 
requirement that all CJA criminal investigators be certified, receive 
initial training, pass a background check, and maintain their 
certification by attending PDS training. Senior PDS investigators and 
PDS staff attorneys prepare the training materials and coordinate 
training sessions on all aspects of criminal investigation to allow CJA 
investigators to maintain their certification. Over the past 2 years, 
PDS has held nine 20-hour training sessions and has certified 188 CJA 
investigators. PDS has scheduled two additional sessions in July and 
November 2004. This program is designed to ensure that now, and in the 
future, there are sufficient qualified investigators to assist CJA 
attorneys.
    Special education.--PDS's special education attorneys provided 
training in the fall to new Superior Court judges on special education 
issues relevant to children involved in the delinquency and neglect 
systems.

Administrative Accomplishments
    PDS has been able to institute additional improvements in its 
operational functions. Particularly now that PDS is a federally funded 
entity, we seek to reach a corresponding level of sophistication in the 
administration and execution of our responsibilities. Recent 
improvements made by PDS provide the necessary infrastructure to 
support our programs and our program staff and increase the potential 
for greater efficiency and effectiveness in carrying out PDS's mission.
    Case management system.--PDS has expanded internal access to its 
self-designed case tracking software. The program, ``Atticus,'' 
provides comprehensive case management functionality for PDS attorneys, 
staff, and management. Atticus now links the Trial, Investigations, and 
the Offender Rehabilitation Divisions to streamline referrals and 
processing for criminal and juvenile cases. Attorneys, investigators, 
and program developers can now report and track case events in a 
central electronic location, reducing or eliminating staff's reliance 
on less efficient means of communication, and ensuring that all staff 
who share responsibility for an individual case are kept fully informed 
on all case developments as needed.
    Strategic planning.--PDS has developed an Office of Management and 
Budget-approved 5-year strategic plan similar to the plans required of 
Federal executive agencies under the Government Performance and Results 
Act. PDS has also prepared a draft annual performance plan that has 
received preliminary approval from the Office of Management and Budget. 
PDS has begun to establish the baseline measures described in its plans 
in preparation for implementing the strategic plan in fiscal year 2005. 
PDS continues to make progress toward establishing the administrative 
infrastructure necessary to support the development of a performance-
based budget request.
    Appellate brief bank.--PDS has completed the establishment of an 
appellate brief bank that consists of briefs filed in the Appellate 
Division's cases over the past 25 years. This searchable, comprehensive 
brief bank now provides far easier, more effective access to previously 
completed research, enabling attorneys to avoid unnecessary duplication 
of effort.
    Each of the above reforms, cases, or projects has contributed to a 
better, more efficient criminal justice system, or has improved the 
quality of services provided to people who cannot afford an attorney in 
the District of Columbia justice system. These activities are all 
consistent with PDS's goal of efficiently providing representation by 
qualified attorneys to those PDS is dedicated to serve.

                               CONCLUSION

    PDS's current increased focus on enhancing its administrative 
functions represents a further step toward better serving clients and 
toward better serving as a model defender organization. The right to a 
qualified attorney for people who cannot afford one can be read to 
include an expectation that representation will be provided to clients 
not only effectively, but also efficiently. As PDS has been in the 
forefront in meeting and exceeding the standards defining what it means 
to satisfy the requirements of the right to counsel, it can also be on 
the forefront in modeling excellent financial and management practices 
in support of that right.
    I respectfully request your support of this initiative, and I would 
like to thank the members of the subcommittee for your time and 
attention to these matters and for your support of our work to date. I 
would be happy to answer any questions the subcommittee members may 
have.

    Senator DeWine. Senator Landrieu.

                   PDS DIRECTOR SULLIVAN'S DEPARTURE

    Senator Landrieu. Mr. Sullivan, I want to say that we 
greeted the news of your leaving to go to Yale with very mixed 
emotions, because you have, you know, done an outstanding job, 
and your leadership has been really extraordinary, and your 
commitment very inspiring, but we wish you the best at Yale.
    I am hoping, though, that before you leave that you will--
and I am certain you will--give some indication of some others 
that could follow in the leadership that you have outlined 
because this is truly a very important agency for the District 
and for the Nation. And while we have made great progress, 
there is still some tremendous challenges, as you are aware.
    So I, for one, would be interested in your, you know, 
private comments along those lines. And as you leave, what 
three to four focuses should we give special attention to?
    Mr. Sullivan. Well, I thank you very much for your kind 
words first of all. It is bittersweet for me, as well. I was, 
in a sense, born and raised in this agency. I started as a 
staff attorney in this agency, and I bleed the colors of PDS.
    So it is with mixed emotions that I leave. I do look 
forward to my new opportunity, and I have promised to send many 
bright young law students to Washington, DC to be public 
defenders, so in that way I will still contribute.
    As to my successor, the search started in February, early 
last month, and applications are due by the 16th of March. And 
by the end of March, beginning of April, I anticipate that our 
board of trustees will have selected a new director.
    I happen to know that our very capable deputy director, 
Avis Buchanan, who is sitting behind me, is applying for the 
directorship, and I certainly wish her well in that endeavor.

            IMPORTANT ISSUES FACING THE DISTRICT OF COLUMBIA

    As to--from our perspective, as to the three or four most 
important issues facing the District, at least with respect to 
the criminal justice system, No. 1, I would speak about 
forensic issues. I have written in detail in my written 
statement, particularly about some of the science that we are 
becoming acquainted with with respect to identifications.
    We have seen in the DNA context that for an overwhelming 
majority of persons who have been convicted and incarcerated, 
sometimes for years, but DNA evidence has exonerated them, the 
principal basis of the conviction was a false identification. 
And in almost every time, it was nothing vindictive about the 
identification. It was an honest mistake.
    Over the past several years, psychologists and professors 
in psychology departments in universities across the country 
have been looking into this issue of identification and, 
frankly, we have learned a lot about how to do identifications, 
the best way that police should present lineups, and a whole 
host of issues surrounding how we can better our identification 
processes.
    Some States, New Jersey for example, have adopted sweeping 
changes in their identification procedures. And we have 
encouraged the District of Columbia to do the same. We have 
presented the Court with some of the social science findings 
about identifications.
    And, indeed, I have been in a room with--filled with 
lawyers where most of the room picked the wrong person. There 
is a video clip, and it would sort of replicate a crime and 
then, you know, show different pictures. We have learned, for 
example, that identification is a relational concept. That is 
to say, if you show somebody six pictures, the mind tends to 
work in a way that you pick the one that looks most like who 
the perpetrator was. Whereas, if you show pictures in sequence, 
then that is a much better way to get at the actual 
perpetrator.
    So at any rate, I do not want to bore you two with a litany 
of the problems with our current identification system, but it 
has resulted in--and we know because of DNA that it has 
resulted in false convictions, and that is something that we 
are working to eradicate.
    We have begun in the last couple of years a forensic 
practice group at the agency, where we are looking into not 
only that, but DNA sciences, mitochondrial DNA is becoming a 
much more important aspect of the criminal justice system; the 
metallurgy science, with respect to bullets and that sort of 
thing, these are all very important issues. So that is one.
    Second, I would say jury pool issues. There are problems in 
the District with respect to a too narrow jury pool. We are 
working with the Court to see what we can do to expand the jury 
pool so that all citizens can, as is consistent with their due 
process rights and the Constitution, participate on the juries 
in the District of Columbia.
    So those are two sort of overarching issues to give you an 
idea of some of the things we are working on.
    Senator Landrieu. Very good. Very helpful. Thank you.

                       IN RE JERRY M. LITIGATION

    Senator DeWine. Good. Mr. Sullivan, your agency is suing 
the District on behalf of children in the juvenile justice 
system. And you cite years and years of the system failing 
these kids.
    Your lawyers told a D.C. Superior Court judge last week 
that the court-appointed receiver should take over the Youth 
Services Administration, to operate the agency and report to 
the Court every 2 months about changes and improvements. I 
wonder if you could give us some information, more information 
about this suit and what problems you see with the City's Youth 
Services Administration?
    Mr. Sullivan. The problems frankly, Mr. Chairman, are 
legion. It has been nearly two decades of not complying with 
even the most basic requirements for the health and safety of 
the most needy children in the District.
    One example, I think, will illustrate just the mind-set of 
this particular agency with respect to the children. Recently, 
we were in the hearings, my agency was in the hearings in front 
of Judge Dixon, and one of the complaints that we made in our 
receivership application was that children had to stuff 
towels--and this is at Oak Hill, the juvenile detention 
center--towels in holes in their rooms to keep rats from coming 
in at night.
    The question the District posed to the expert who produced 
this finding was that, ``Well, sir, could it be that these are 
not rats, but they are very large mice,'' as if that in some 
way justifies the presence of rodents in the children's rooms.
    I mean, and that is just one example that is just 
indicative of some of the problems, but the report from the 
inspector general, I think, in many ways lays out some of the 
most critical shortcomings of the Youth Services 
Administration. For example, numerous residents who tested 
negative for drugs when they went into this locked, secure 
facility tested positive for marijuana and PCP once they were 
in there.
    Senator DeWine. That is unbelievable, is it not?
    Mr. Sullivan. And unacceptable.
    Senator DeWine. And it is shocking.
    Mr. Sullivan. And unacceptable. And the inspector general 
postulated that the guards were the source of the illegal 
contraband.
    In violation of every fire prevention and safety 
requirement imaginable, locks on the housing unit doors are 
manual and cannot provide safety in the event of fire. Oak Hill 
did not have a trained health and safety officer there.
    Nearly 100 percent of the youth at Oak Hill are--test 
positive for drugs. It is--I mean, the list goes on and on and 
on. And it has been like this for nearly two decades.
    Senator DeWine. Well, that is what is shocking, is that it 
has been that way for two decades. And so Senator Landrieu and 
I are, you know, are going to hold a hearing. And it may take 
more than one hearing, frankly, to review the District's 
juvenile justice system.
    We want to hear specifically, you know, how the system is 
broken, why the City has been unable to fix this problem in 
almost two decades. You know, when you hear these--what the 
facts are, it just, you know, has to trouble anybody. You know, 
I am troubled to note that children in the city as young as 10 
who are merely truants or victims of a failed foster system are 
being incarcerated with serious teenage offenders. I mean, that 
just has to trouble anyone, you know. You know, that is not 
supposed to take place anyplace in this country today. We 
passed that a long, long time ago, I thought, in this country.
    You know, we hear that system allowed a 12-year-old boy to 
be sexually assaulted by nine other boys while incarcerated at 
the City's detention facility. We have learned that drugs are 
readily available as you point out in the facility. Where are 
they coming from? You know, we can only surmise or guess.
    So we are going to hold a hearing. Senator Landrieu and I 
are going to do that. And if it takes more than one hearing, we 
are going to bring in the people who know about this, and we 
are going to talk to them, and we are going to try to get to 
the bottom of this. So we appreciate your diligence on this, 
and what the lawyers who work with you have done in this area. 
We congratulate you for your diligence in this area.
    Senator Landrieu, anything else?
    Senator Landrieu. No.
    Senator DeWine. Should --

                        WASHINGTON POST ARTICLE

    Senator Landrieu. Well, I do, actually, want to submit for 
the record, and maybe you can respond to this briefly and in 
writing. There was a case--and I know we are short on time, Mr. 
Chairman, but there is a case pending--if the staff will help 
me find the news article in The Post a couple of days ago. Here 
it is. The case of lengthy delays, Ida and Charles Chase were 
arrested in the slaying of Julius Alderman during an apparent 
robbery. This was 6 years ago.
    I understand that subsequently Mr. Chase has died of a 
heart attack, but Ida is still in jail, 6 years waiting for the 
trial. And every time we try to go to trial, something happens. 
Can you just comment about this, so that I can----
    Mr. Sullivan. Yes, absolutely.
    Senator Landrieu. Briefly, and then perhaps at--more at 
length in writing?
    Mr. Sullivan. Yes, absolutely. I will comment very briefly 
to the degree I can. I, obviously, cannot divulge any 
confidential information.
    However, I can say that Ms. Chase maintains her innocence 
and is anxiously anticipating her trial date. It has been too 
long. There have been delays in this trial. She wants to go to 
trial, and she wants to prove her innocence, and the attorneys 
on the case are committed to doing that.
    I will say just parenthetically, and I do not--unless 
obviously you are inclined, I do not want to get into a back 
and forth. If the predicate of the question has to do with the 
article, that is, in my view, one of the most irresponsible 
pieces of journalism that I have ever experienced and certainly 
beneath the standards of a major newspaper. It is replete with 
omissions and misstatements and allows for inferences that are 
factually false.
    For example, I will just take the very last continuance. 
They make a lot about that in the paper. They say the defense 
asked for more time to review evidence. Well, what happened was 
that a month before trial, the FBI indicated to us that they 
found two additional hair samples that had not been disclosed 
before and had not been tested.
    We said, ``Well, we need to test those.'' One of them was 
on a piece of duct tape, which is very important to the facts 
of the case, which I will not go into.
    We said, ``We need to test it. We need a brief time to get 
it tested. It will take a few weeks from the lab, and we are 
ready to go.''
    The Court granted it. The prosecutor did not oppose it. The 
prosecutor said, ``I am tied up from January to July. So it is 
in July.''
    So the article says, ``Oh, defense asked for a pass. There 
is a seven-month delay.'' But it does not mention that, ``Well, 
the reason for this delay, for example, is that there is a--the 
prosecutor was not available for seven months.''
    There was one other huge omission. The article indicated 
that Judge Bowers said that there will be no further 
continuances and granted two more, but simply did not mention 
that what happened was that the D.C. Council passed the 
Innocence Protection Act, and our client, with advice of 
counsel, asserted her rights under the Innocence Protection Act 
to pre-trial testing of biological material, recognizing that 
that would delay the start date. But there was material that 
was back in, oh, boy, April--somewhere around April of 2002, 
the IPA was passed.
    All of the biological material was supposed to be disclosed 
and, you know, we still did not get those two hairs until a 
couple of months ago. So there is a lot that happened in that 
case. I do agree that it was--it is too long. We are anxious to 
get to trial. But for the article to lay the blame simply in 
the defense attorney's lap is wrong. But we are ready to go, 
and we think that it is going to be a good result.
    Senator Landrieu. And I appreciate it. And you have made--
you know, you have made very direct and excellent and 
clarifying comments.

                     ADDITIONAL COMMITTEE QUESTIONS

    But I would just say to the Chairman that we do have a 
challenge on our hand to create a system where neither those 
that are accused of a crime have to wait 6 years in jail for 
their day in court, nor those victims that have suffered 
terribly have to wait that long. So let us get about the work, 
Mr. Chairman, and thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Service for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu

                  RE-ARREST RATE AND PAROLE REVOCATION

    Question. Would you please submit to the Committee a comparison of 
the re-arrest rates and parole revocation hearings in the District to 
other jurisdictions of similar size?
    Answer. Statistics comparing the District's parole revocation rates 
to those of cities of a similar size are difficult to obtain, in part 
because there is no longer a local paroling authority that maintains 
such statistics for D.C. parolees. As of August 5, 1998, through the 
implementation of the Revitalization Act,\1\ the U.S. Parole Commission 
assumed responsibility for making parole decisions for D.C. Code 
offenders. The Commission estimates that slightly fewer than 50 percent 
of D.C. parolees return as parole violators. However, most of these 
``violators'' are charged not with new crimes, but with minor 
administrative violations such as failing to meet with their parole 
officer, failing to obtain steady employment, or failing to overcome 
their drug addiction.
---------------------------------------------------------------------------
    \1\ National Capital Revitalization and Self-Government Improvement 
Act of 1997, Public Law 105-33.
---------------------------------------------------------------------------
    Last year, parole boards nationwide conducted 143,154 violation 
hearings with California, New York, and Texas conducting 50 percent of 
them.\2\ In the District of Columbia, the Public Defender Service 
represented 1,349 persons who were facing revocation of their parole 
before the U.S. Parole Commission. Most of these individuals had not 
committed new crimes but had failed to follow a condition of parole 
release.
---------------------------------------------------------------------------
    \2\ Association of Paroling Authorities International, Parole Board 
Survey 2002.
---------------------------------------------------------------------------
    There has been a 652 percent increase in the number of parole 
violators, according to an analysis of the U.S. Bureau of Justice 
Statistics (BJS) data by the nonpartisan Urban Institute.\3\ In fiscal 
year 2002, 19 State paroling authorities reported an increase in 
resources in order to keep up with the demands created by the volume of 
revocation hearings.\4\ Twelve States had double digit increases in 
their parole population in 2002. Four States had a parole population 
increase of 20 percent or more: North Dakota (27 percent), New Mexico 
(26 percent), Kentucky (23 percent), and Oklahoma (21 percent).\5\ 
Nationally, this was the largest increase in the parole population 
since 1995.
---------------------------------------------------------------------------
    \3\ See, ``7-Fold Jump in Parolees Sent Back to Prison Since 1980, 
1 in 3 State Prison Admissions is Result of Parole Violation,'' Urban 
Institute, November 2, 2002.
    \4\ Association of Paroling Authorities International, Parole 
Board, Survey 2002.
    \5\ Bureau of Justice Statistics Bulletin, ``Probation and Parole 
in the United States, 2002,'' August 2003, NCJ 201135.
---------------------------------------------------------------------------
    The lack of community resources is an overwhelming stumbling block 
to successful re-entry. Many parolees lack the educational or 
vocational skills necessary to become productive members of society. A 
parolee who has lost everything that he has accomplished due to 
technical parole violations must start anew upon his return to the 
community. According to a report from the Association of Paroling 
Authorities International, housing is the number one issue facing 
parolees upon their return to the community.\6\ Other issues they face 
include a lack of available, licensed, substance abuse treatment and 
vocational/employment resources and services. The chronically ill, the 
elderly, and women particularly face insurmountable obstacles.
---------------------------------------------------------------------------
    \6\ Association of Paroling Authorities International, Parole Board 
Survey, 2002.
---------------------------------------------------------------------------
    We echo the sentiments of Oakland Mayor Jerry Brown: ``The 
revolving door is failing. They aren't getting the marketable skills 
and literacy they need in prison. It's a big huge problem.'' \7\ Parole 
violators leave the prison walls but they cannot leave the stigma 
associated with incarceration. A study on public attitudes toward 
prisoner reentry revealed that most respondents were aware that 
prisoners face daunting obstacles in returning to the community and 
establishing a noncriminal lifestyle. Most admitted, however, that they 
had not given much thought to prisoner reentry.\8\ Many persons leave 
prison with no particular place to go and very little support or 
monitoring.
---------------------------------------------------------------------------
    \7\ See, ``Parole Violators Crowd California Prisons,'' Associated 
Press, Newsday.com, March 8, 2004.
    \8\ See, ``The Revolving Door: Exploring Public Attitudes Toward 
Prisoner Reentry,'' March 2002, Urban Institute.
---------------------------------------------------------------------------
    One of the goals of PDS's Community Defender Program is to educate 
ex-offenders, including those on parole, about their legal rights and 
responsibilities following their release on parole. To that end, the 
bilingual Community Re-entry Program Coordinator regularly makes 
presentations at offender orientations hosted by the Court Services and 
Offender Supervision Agency, particularly those targeted at Spanish-
speaking clients. The CRP has also presented educational sessions to 
other groups, including women at the Washington Transitional Center who 
are parolees. Topics covered in the educational presentations include 
housing, employment, family law, public benefits, sex offender 
registration, DNA testing, immigration, and community resources that 
are available to ex-offenders and parolees. The CRP, along with the 
Parole Division, has also developed an outline covering the same 
topics, which will be presented at the D.C. Jail to prisoners pending 
release.

               DNA SAMPLE COLLECTION RESPONSE INITIATIVE

    Question. With the increase in cases involving DNA, have you found, 
informally, that fewer convictions are overturned on appeal?
    Answer. There are two reasons why the advent of DNA technology is 
not likely to result in fewer cases being overturned on appeal. First, 
very few cases involve biological evidence and, second, quality control 
issues affecting the reliability of DNA evidence are likely to generate 
more rather than less appellate litigation for the foreseeable future.
    To date, there have been relatively few DNA cases in the District 
of Columbia, and potential DNA cases represent a very small sample of 
the cases in the criminal justice system. That is, only a small 
fraction of criminal cases present situations where DNA can be used to 
exonerate someone (because biological evidence is often not present or 
not preserved), and in even fewer cases can DNA inculpate someone 
(because it is more difficult to show a ``match'' than an exoneration 
when, for example, the sample is degraded--allowing for minimal 
analysis, or the sample is a mixed sample--a sample in which more than 
one person's DNA is present).
    In the District of Columbia, there has been and will continue to be 
considerable litigation concerning the reliability of DNA results as 
the technology changes and as forensic labs are subject to lower 
standards than, for example, medical labs. Recent examples of problems 
in quality assurance at DNA labs include the scandal involving a DNA 
lab in Houston where results were falsified and contamination was 
rampant, and the termination of an FBI analyst after it was revealed 
that for 2 years, she had failed to run negative controls while 
analyzing samples.
    Thus, while cases involving DNA evidence where there has not been a 
challenge to the reliability of the results may make appellate courts 
more confident in the results at trial, examples of numerous DNA 
exonerations actually inform us that mistakes are likely being made in 
cases where no biological evidence was left at the scene. This should, 
if anything, make appellate courts more rigorous in their review, 
although as a practical matter we have not noticed much of a change. 
The D.C. Council did, however, pass the non-DNA portion of the 
Innocence Protection Act, D.C. Code  22-4135, in 2002. The express 
purpose of that provision was to provide closer review of innocence in 
non-DNA cases, on the theory that at least as many mistakes were being 
made in those cases as were made in the cases where DNA exonerations 
had demonstrated trial mistakes were made. It is too early to tell 
whether this provision will result in closer judicial scrutiny of 
innocence.
    Question. Or, is there anecdotal evidence that the court and public 
are more willing to convict a defendant if scientific evidence is 
present?
    Answer. PDS does have polling results of potential jurors in a 
specific case that show that jurors place extraordinarily high credence 
in scientific evidence and in DNA evidence in particular. In the view 
of most potential jurors, DNA evidence is by far the most reliable form 
of evidence, and approximately one out of three jurors believes that it 
``can never be wrong.''
    Our polling results also show that jurors begin trials with very 
little understanding of DNA evidence, and particularly its variety and 
limitations. For example, a little under half of the jurors begin the 
trial not understanding that different types of DNA evidence exist 
(nuclear and mitochondrial). Even when jurors are told that different 
types exist, around half do not understand that nuclear DNA evidence is 
more discriminating than mitochondrial DNA evidence.
    Our polling data also showed that jurors place considerable weight 
on eyewitness identification evidence and are not familiar with the 
growing body of science delineating the weaknesses associated with 
eyewitness identification. Currently, however, efforts to present 
eyewitness expert testimony are usually denied by trial judges.
    PDS is actively engaged in training to improve defense attorneys' 
ability to explain DNA evidence to jurors, litigation to improve the 
quality of DNA evidence that is admitted in criminal trials in the 
District of Columbia, and litigation to provide jurors with expert 
information concerning eyewitness identifications.

        REPRESENTATION OF JUVENILES WITH SPECIAL EDUCATION NEEDS

    Question. Does PDS handle special education administrative cases or 
those that go to court?
    Answer. Generally, PDS handles special education cases at the D.C. 
public schools administrative proceedings level, while concurrently 
serving as the clients' education advocates in delinquency cases in the 
Superior Court of the District of Columbia.
    Special education administrative hearing decisions, of course, are 
appealed to the United States District Court. Because PDS has an 
excellent record in obtaining favorable outcomes for its clients in 
special education administrative proceedings, PDS attorneys have not 
had to pursue client claims in the U.S. District Court thus far, except 
on one occasion; J.C., et al. v. Vance, et al., Civil Action No. 03-CV-
971) (D.D.C.) filed on May 2, 2003. The major issue in the J.C. case is 
the District of Columbia's failure to provide federally mandated 
special education services to eligible youth incarcerated at the D.C. 
Jail.
    Question. Is PDS part of the court ordered attorneys' fees in 
special education cases? If so, how much has PDS collected?
    Answer. PDS does not apply for or otherwise receive attorneys' fees 
in special education cases.
    Question. What role does PDS play in determining what assessment 
program a child receives or which business or other group performs that 
assessment?
    Answer. The D.C. Public Schools system assumes responsibility for 
determining what evaluations and assessments should be performed for 
children and for having them conducted by either D.C. Public School 
evaluators or independent specialists.
    In those instances in which the D.C. Public Schools either fails to 
perform evaluations and make educational assessments--or fails to 
perform appropriate, complete, or necessary evaluations and 
assessments--PDS will identify and seek independent assessments and 
evaluations from highly qualified specialists and experts in the fields 
and in disciplines associated with the disabilities of the child who is 
to be evaluated.
    Question. Does PDS play a part in determining what special 
education program or school a child is sent to?
    Answer. As the parent's attorney in special education 
administrative proceedings and as the child's education attorney in the 
related Superior Court delinquency proceedings, PDS may make 
recommendations and advocate for or against particular special 
education program placements, depending on the needs of the child. PDS 
does not itself decide the child's placement.

             CREATION OF A MENTAL HEALTH TREATMENT PROGRAM

    Question. I understand the OPTIONS program was created to reduce 
the number of mentally ill offenders who are incarcerated or 
institutionalized because no treatment is available.
    Would you highlight the effectiveness of the program and the 
services it provides to the District of Columbia that were non-existent 
before now?
    Answer. OPTIONS was created as a diversion program to divert 
mentally ill offenders charged with misdemeanors away from the jail or 
another onerous condition of release to a more therapeutic environment. 
This assures the court that the risk of flight is minimal and the 
mental health issues are being adequately addressed. The program has 
been very effective in that many people have been connected or 
reconnected to the mental health system and are getting the appropriate 
treatment. The OPTIONS program is linked with Community Connections, a 
private core service agency that affords a myriad of services and 
contracts with the Department of Mental Health. An OPTIONS client is 
given a case manager who not only services the client's mental health 
needs, but also serves as a court liaison--ensuring that clients are 
present at their court hearings and providing information to the court 
about the client's progress. The case management provided is aggressive 
and comprehensive. OPTIONS clients have access to psychiatrists to 
prescribe medication and, with the help of a treatment team, clients 
have individually tailored treatment regimens designed to address their 
individual needs. Therapeutic programs include, but are not limited to, 
day programs that provide substance abuse counseling, group therapy 
regarding mental health issues, forensic groups designed to address the 
unique needs of forensic clients, work training programs, and 
assistance with benefits and housing. Although acceptance into a core 
service agency is available to any D.C. resident with a mental illness, 
the OPTIONS program was the first program to target recent offenders to 
connect them with services and housing and to help them successfully 
navigate through the criminal justice system. Approximately 200 people 
a year have been serviced through the OPTIONS program since its 
inception in 2001. Examples of great success stories include an 
individual who successfully completed the program, received a 
probationary sentence, and got her own house through the Home First 
program; she is still stable and doing well.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Well, Mr. Sullivan, we wish you well, and 
we thank you for your good service very much.
    Mr. Sullivan. Thank you very much.
    Senator DeWine. Thank you.
    [Whereupon, at 11:52 a.m., Wednesday, March 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        WEDNESDAY, MAY 19, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:06 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine, Hutchison, and Landrieu.

                          DISTRICT OF COLUMBIA

STATEMENT OF HON. ANTHONY A. WILLIAMS, MAYOR
ACCOMPANIED BY:
        LINDA W. CROPP, CHAIRMAN, COUNCIL OF THE DISTRICT OF COLUMBIA
        NATWAR M. GANDHI, CHIEF FINANCIAL OFFICER

               OPENING STATEMENT OF SENATOR MIKE DE WINE

    Senator DeWine. Good morning. This hearing will come to 
order.
    Today, we will hear testimony regarding the District of 
Columbia's fiscal year 2005 local budget request. D.C. Mayor 
Anthony Williams, D.C. Council Chairman Linda Cropp, and the 
District's Chief Financial Officer, Dr. Natwar Gandhi, will 
present the city's budget and will discuss the District's 
requests for Federal resources.
    I would like to note that last year the Senate passed a 
bill by unanimous consent which would give the District 
autonomy over its local budget, eliminating the need for the 
D.C. local budget to be passed on the annual appropriations 
bill. By decoupling the local budget from the Federal 
appropriations process, we will avoid delaying the city's local 
funds from being available whenever the D.C. appropriations 
bill is not passed before the end of the fiscal year, which 
occasionally does happen.
    Senator Stevens, the chairman of the full Appropriations 
Committee; Senator Byrd, the ranking member of the full 
committee; Senator Landrieu, ranking member of this 
subcommittee; and I all cosponsored this bill. Unfortunately, 
the House has not considered a companion measure. So today we 
will not only hear city leaders present the priorities for the 
Federal payment, but we will also receive the city's local 
budget for our consideration and inclusion in the D.C. 
appropriations bill.
    As we consider the local budget, I would like to 
congratulate the city leaders on the vote of confidence that 
they have recently received from Wall Street. At a time when 
many local jurisdictions' bonds are being downgraded, the 
city's bonds were upgraded two steps, from BBB+ to A. So we 
congratulate the city and the city's leaders.
    Despite this good news about the city's short-term 
financial performance, I think we are all well aware that the 
city faces a long-term economic structural imbalance, and that 
has been well documented. This imbalance represents a gap 
between the District's ability to raise revenue at reasonable 
tax rates and its ability to provide services of reasonable 
quality to its residents.
    I recognize that the structural imbalance is driven by 
expenditure requirements and revenue restrictions, which 
frankly are mostly beyond the control of the District's 
leadership. Clearly, the city's revenue capacity would be 
larger without constraints on its taxing authority, such as its 
inability to tax Federal property or the income of non-
residents.
    I agree that the city faces a troubling problem in the long 
term, and I plan to hold a separate hearing on June 22 to begin 
to discuss ways that the city can address this problem. At that 
hearing, we will hear from business leaders, local officials 
and economists about ways to close this gap and ensure the 
long-term economic health of our Nation's Capital and the seat 
of our Federal Government. So we look forward to that hearing 
on June 22. I think it will be a very informative hearing and I 
think a very important hearing.
    I note that some of our colleagues in the House, 
particularly some of our colleagues from Virginia, have taken 
the lead in this area and we congratulate them for that. Some 
of them will be testifying, as well, on that date and we look 
forward to their testimony. This will be, I think, a very 
important hearing and I think we will draw some attention to 
this very important issue.
    I believe that the Federal Government must recognize the 
costs it places on the city and the burden it places on the 
city's infrastructure, all the while limiting the ability of 
the city to raise revenue. Indeed, many of the problems facing 
the city result from it being the seat of the Federal 
Government. As chairman of the subcommittee, I intend to work 
to explore and develop ways to avoid a financial catastrophe 
for the District of Columbia.
    Now, we look forward today to hearing what the District's 
priorities are for Federal funding and how the city has used 
the funds we recently provided in the fiscal year 2004 
appropriations bill. Clearly, there are many worthy activities 
which will place demands on the always limited resources in the 
D.C. appropriations bill, but we look forward to working with 
city leaders to fund a number of the city's initiatives and to 
continue to make life better for all who live, work and visit 
this Capital City.
    As usual, witnesses will be limited to 5 minutes for their 
oral remarks. Copies of all written statements will be placed 
in the record in their entirety.
    Let me now turn to the ranking member of the subcommittee 
and my good friend and colleague, Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and I welcome 
all the leaders of the city, Mr. Mayor and members of the 
Council, and thank you all for being here this morning and for 
your hard work to help make the District the wonderful place it 
is to live and a wonderful place as an example for the Nation.
    We thank you for your leadership and for acknowledging the 
very special and unique partnership that the District has with 
Federal officials. So we look forward to continuing to work 
with you across a broad array of issues, particularly on the 
transformation of the education system and reform here in the 
District; the renaissance of the Anacostia River waterfront; 
the rebuilding of the child welfare system; some additional 
general management principles that we have worked on; the 
financial discipline that this committee and others have 
helped, with your leadership, to bring to the city.

                           PREPARED STATEMENT

    I am going to submit a more formal statement, Mr. Chairman, 
for the record to get us to our panel more quickly. I will wait 
for further comments until the question period.
    Thank you.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    I would like to welcome our witness and thank Chairman DeWine for 
calling the annual hearing on the District's local funds budget. I look 
forward to hearing from the city on the status of the District's 
economy, current Federal funding priorities and a summary of the fiscal 
year 2005 local funds budget.
    The District has been careful to develop a consensus budget, and 
rather than adding funds to please every constituent group, has looked 
ahead to address looming budget pressures while maintaining priority 
services. At this time, almost every city in the country is struggling 
to maintain a balanced budget, much less deliver adequate or even good 
services to their citizens. The city is in good fiscal standing and I 
trust that this environment will continue. However, long-term economic 
pressures on the city and continued service challenges in such areas as 
public education and child welfare will require a different management 
approach. I am committed to developing a new partnership with the 
District to support building the Mayor's goal of building the 
population by 100,000 residents.
    In addition, substantial Federal funding was provided to the 
District over the last 3 years, fiscal year 2002, fiscal year 2003, 
fiscal year 2004 ($136.3 million in direct response to requests made by 
the Mayor, out of a total $545 million in the D.C. appropriations bill 
for Federal responsibilities). The last 2 years have been unprecedented 
in the amount of discretionary Federal dollars that have gone to the 
city, as well as an increase in Congressional confidence in local 
leadership, resulting in increased autonomy for the District of 
Columbia.
    In keeping with our mandate, the Committee must balance the State-
level agencies we are legally responsible to fund and funding the 
priority needs of the city leadership. The Mayor has requested an 
additional $253.5 million, above the $71.3 million requested in the 
President's budget. Chairman DeWine and I share a commitment to the 
restoration of the Anacostia Waterfront, improving child and family 
services, assistance for charter schools, and enhanced security this 
year. In this hearing I hope we can identify the city's main priorities 
and how best to address them with very limited funding.
    The fiscal year 2005 President's budget supports a wider array of 
local initiatives. Funding is recommended $7 million for the Unified 
Communications Center, $10 million for the combined sewer overflow 
initiative, $3 million for the Anacostia Riverwalk and $40 million for 
the three-sector School Improvement Initiative. I am interested to hear 
the city's view of two areas which the President requested that the 
Committee is seeking more information. The first, a request of $10 
million to construct a new firehouse in downtown District of Columbia 
was not initially requested by the Mayor. The second piece we need 
additional information to is the $15 million annual request for 
emergency planning and security; however, the President did not request 
any additional funds to address the inauguration. In 2001, the city was 
reimbursed for $6 million in inauguration costs. I appreciate the views 
of the witnesses on these two areas. The Chairman and I have a 
challenge ahead to balance additional requests during a seriously 
constrained Federal budget outlook.
    Last year, the General Accounting Office (GAO) confirmed a more 
broad challenge in a landmark report finding the city faces an annual 
deficit of $400 million to $1 billion between their revenue capacity 
and cost of providing average services. The report, requested by 
Congresswoman Norton and myself, found the underlying reason for the 
structural imbalance in the city's budget is the high cost of providing 
services in the District of Columbia. The Committee will review 
carefully the District of Columbia Fair Federal Compensation Act bill, 
introduced this month by Congresswoman Eleanor Holmes Norton, to 
reinstate an annual Federal payment of $800 million to the District 
targeted for infrastructure needs. The GAO identified capital 
infrastructure suffers the most because a budget balanced on a thin 
line has no room to invest in long-term capital projects or the ability 
to borrow great sums.
    The District is uniquely situated and requires a unique 
relationship with the Federal Government; the Committee should explore 
other options for funding: changing the tax collection ability of the 
District; funding directed to specific infrastructure; reevaluating 
State functions and taking over those agencies (like State education). 
We must examine the underlying issues that create an imbalance and take 
a multi-faceted approach to addressing it, before the District goes 
back to years of deficit. I understand Chairman DeWine will call a 
hearing later this year on the structural imbalance and I look forward 
to working collaboratively with him on this complex issue.
    One major benefit for the District, with no budgetary impact, 
endorsed by President Bush, is to release the local budget from annual 
Congressional approval--local budget autonomy. The concept of budget 
autonomy for the District's local budget is building momentum on the 
Hill and I hope it will be approved this year. These are funds derived 
from locally-generated tax dollars. The last word on how the city's 
budget is expended should be made by locally-elected leaders, just like 
any other city. I am pleased to say, with the hard work of the 
Governmental Affairs Committee, the endorsement of President Bush, the 
Senate passed the budget autonomy bill this Congress. I hope the 
leaders here and Chairman DeWine will join me to gain approval in the 
House.
    I would like for the Mayor and Council Chairman Cropp to comment on 
how current and future general provisions--limitations on spending 
local and Federal funds--will be addressed under budget autonomy. I 
respect city leaders' diligence in implementing and upholding these 
``social riders'' through the years, against local pressure. I expect 
that this same degree of respect for the law will be maintained in the 
future. There are legitimate means for Congress to provide guidance to 
the city; however it is my hope that at some point in the future 
Congressional interest in imposing riders will wane.
    In addition, this year Chairman DeWine and I have investigated the 
Youth Services Administration and Child Services Agency. I understand 
the Mayor is developing a plan to transition the Oak Hill youth 
detention facility to another model which is better focused on 
rehabilitation, not just housing, of youth involved in the criminal 
justice system. I know the Chairman has a keen interest in this project 
and I am committed to bringing national programs and resources to bear.
    The Committee also held a hearing last week on the charter school 
movement in the District. I was very encouraged to see proof that the 
District is far ahead of other cities or States in developing a strong 
charter school base. Now at nearly 20 percent of the public school 
population, charter schools are showing great innovation and have the 
ability to cultivate this innovation in traditional public schools. The 
Congress passed the first charter school law, the School Reform Act of 
1995, overseeing the creation and oversight of schools. The Committee 
will be re-examining this law to see if there are additional support 
mechanisms needed to scale up the most successful charter schools. And 
by successful, I mean looking at the chartering principles, not just 
the test scores, to make graduates more employable or college-ready or 
self-sufficient. Congress will maintain the $13 million investment in 
charter schools, as well as overseeing the $1 in $7 spent in public 
charter schools from Federal funds. I look forward to the input of 
local leaders as Congress evaluates the Federal charter law.
    Finally, I am pleased to share with the Committee that the City 
Build Charter School Initiative, started in the fiscal year 2004 D.C. 
Appropriations Act, is about to take off. The City Build Initiative was 
created to support Mayor Williams' vision of increasing the population 
by 100,000 residents. This can be done by retaining current residents 
who move to the suburbs or attracting new residents. Educational 
options are the primary factor that has been pointed to in why families 
relocate. If waiting lists or tuition are insurmountable, families will 
move to find better educational options for their children. City Build 
was created as a way to connect the economic and community development 
already underway in emerging neighborhoods with schools. The promise of 
quality schools is a tool to increase residential and commercial tax 
base of the city.
    I am excited to see a plan developing in the city to identify 
neighborhoods that are ready for school investment and a process for 
creating schools. I am pleased to have benefited from the resources of 
the Brookings Institution's Greater Washington Research Program, led by 
Dr. Alice Rivlin and David Garrison. Their research has identified 12 
neighborhoods in the midst of or which are ready for revitalization 
that would benefit from more schools. I look forward to continuing this 
partnership this year in standing up the new City Build Initiative.
    In addition to the $13 million provided for charter schools and $14 
million provided for scholarships to private schools in the fiscal year 
2004 D.C. Appropriations Act, the Congress supported an unprecedented 
investment of $13 million in public education. The conferees agreed 
that these funds would be used to raise academic achievement of 
students and strengthen leadership and instructional excellence. The 
plan transmitted by the D.C. Public Schools lacked the detail necessary 
to justify these funds and, for the most part, did not meet the mandate 
set by Congress. The Committee is currently reviewing this plan and 
will provide guidance as soon as possible. However, I think it is worth 
noting to this panel, the elected leadership of the District and the 
independent Chief Financial Officer, that our ability to continue 
supplemental funding for public schools is severely impacted by this 
lackluster plan. I think the Committee should recognize that no one on 
this panel has control over the schools' choices on how they spend 
their budget. This disconnect has become very clear to Congress.
    I look forward to the testimony of our witnesses and hope that we 
may continue the strong partnership developed over the last 3 years.

    Senator DeWine. Senator Hutchison, any opening statement?

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman.
    I am so, so happy about the bond rating upgrade. For the 
first time in the recent history--I can't say all the way back, 
but for the first time in recent history you have an A rating 
across the board from every rating agency. I commend the Mayor, 
Chairman Cropp and Dr. Gandhi for really making some tough 
calls to assure that your financial stability is in place. You 
had hard choices and I so appreciate that you have worked with 
our committee every time you have had a hard choice to make 
sure that we knew everything that was happening.
    I think the building up of the reserves which was mentioned 
by all of the rating agencies as something that I and this 
committee had really asked you to do--and you have done it 
really even before the timetable that we set, and I think that 
played an important role in those upgrades.
    I just want to say that this is going to help the city 
lower its cost of borrowing, which means more money will be 
available for the programs and the needs of the city. I think 
it is going to show a stability that will attract more business 
to the city and more taxpayers to the city. So I think it is a 
win for everyone.
    I want to say that I have been working with Dr. Gandhi over 
the last few weeks. He has asked for some adjustments in the 
reserves and I have worked with him and the rating agencies to 
assure that there could be some small changes that would give 
you more flexibility in the city, but yet keep the conservative 
approach.
    I am going to recommend that there be some changes. 
Basically, those changes would be to adjust the definition of 
expenditures so that the calculation of reserves excludes debt 
service, allows the calculation of the reserve amount to be 
based on the prior year actual ending expenditures rather than 
projected expenditures, reduces the total reserve requirement 
from 7 percent to 6 percent.
    Seven percent was more than most cities in our country 
have, but when we were working with B and very low ratings, 
that was very important to show that we were serious to the 
rating agencies. But now that we are A across the board, I 
think 6 percent is quite reasonable, and the rating agencies 
agree with that. So that will give you, I think, more leeway. 
And then we would extend the repayment period from 1 year to 2 
years, no less than 50 percent in the first year if you have to 
repay the reserves. So that also gives you, I think, more 
flexibility.
    I want to say that Dr. Gandhi has really been a leader in 
this. He asked for some changes, knowing that the Mayor and the 
chairman had wanted more flexibility, and I think we have come 
to terms that will be very favorable, but also still quite 
conservative and in line with the A ratings that you have.
    So I could not be more proud of this city from the 
financial standpoint than I am because you just worked so 
closely with us. You took leadership positions and I commend 
you, and I think it is going to be a great benefit in the long 
term for the city.
    Thank you, Mr. Chairman.

                   STATEMENT OF SENATOR PAUL STRAUSS

    Senator DeWine. Senator, thank you very much.
    Senator Strauss has included a statement to be inserted in 
the record as well.
    [The statement follows:]

               Prepared Statement of Senator Paul Strauss

    Chairman DeWine, ranking member Landrieu, and others on the 
subcommittee, as the elected United States Senator for the District of 
Columbia, I would like to take this opportunity to provide this 
statement on behalf of my constituents.
    Due to our lack of self-determination, we are unable to provide or 
fund certain government services on a local level. As long as Congress 
continues to utilize city services, it has an obligation to fully fund 
our city budget. I would like to address the District's fiscal year 
2005 local budget request to Congress. The hearings for this budget 
have been held in the D.C. Council, and are subsequently fundamental to 
the operation of the city. It is essential to the District that 
Congress pass this budget in time for the new fiscal year 2005, and 
avoid being caught up in Continuing Resolutions. When the District of 
Columbia's budget is held up, needed spending adjustments are not 
allowed to be implemented and the cost of debt services increases. Each 
day, our local government services suffer greatly when the budget is 
held up.
    The dilemma of our budget being held up every year can be resolved 
through budget autonomy. I appreciate the Senate passing this bill. I 
wish the House of Representatives would also vote to allow the District 
Budget to be separated from the Federal Appropriations Process. This 
step should be furthered, as our local budget has nothing to do with 
Congress. Since fiscal year 1996, the District of Columbia has 
continuously provided Congress with a balanced budget. The District has 
demonstrated itself as a competent, governing body, which should allow 
itself the right to reject all policy interference and social riders 
attempting to regulate the government within the District. It should be 
the privilege and priority of the government of the District of 
Columbia, not Congress, to make the District's economic decisions. 
Although it is presently a constitutional prerogative of Congress to 
exercise oversight of the District and its budgetary needs, it is not 
always appropriate.
    The District of Columbia has submitted a budget that calls for 
serious investments in public services and education. Mayor Williams, 
Chair Cropp, and Chief Financial Officer Gandhi have explained the 
specifics in great detail and I support their efforts in the budgetary 
requests of the District of Columbia.
    Congress should have a focus on the District of Columbia's budget, 
in respect to resolving the structural imbalance of the budget. This 
major problem concerning the budget is the gap between the District's 
ability to raise revenue at reasonable tax rates and the ability to 
provide services of reasonable quality to its residents jeopardizes the 
District's ability to retain residents. Instead of being penalized for 
residing in the District, citizens should receive the same 
constitutional rights as all American citizens.
    The government of the District of Columbia needs to be fairly 
compensated by Congress for the services it provides to Federal 
agencies. This would serve as a solution to the structural imbalance 
within the District's budget. The District's budget represents the 
citizens of the most unique city in the Nation. The District has 
repeatedly provided Congress with a budget that has proven both 
sensible and attainable. The outlook for the current fiscal year 2005 
is projected as balanced with a surplus. The District government is by 
itself the best evaluator of local expenditures. The reoccurring record 
of balanced and responsible budget management during times of economic 
hardships and declining revenues is yet another fact that proves the 
District's elected officials can govern the District. Not allowing the 
District to have complete control over its spending only increases the 
structural imbalance, therefore discouraging citizens.
    The elected officials are persistent in attaining locally raised 
revenue needed to fund various local interests such as public service 
and education. The city should be allowed to utilize tax dollars in a 
more flexible manner. This in turn would give the District government 
the opportunity to provide the community greater benefit from the 
revenue. Flexible use of revenue specifically secures and stabilizes 
public service departments within the city. My constituents have the 
right to receive the needed revenue to meet their children's 
educational needs. I urge you to approve the proposed budget, as it is 
deemed necessary to aide the District's schools. The District of 
Columbia has submitted a timely budget so Congress has appropriate time 
to approve it. I ask again that Congress pass this budget before the 
beginning of the fiscal year. It is unfair to the District and its 
constituents when Congressional delays disrupt critical improvements 
within the local area.
    Thank you again for the opportunity to present this statement. This 
local budget was optimally drafted in order to benefit the citizens of 
the District of Columbia. I support its prompt passage without riders 
or amendments. In closing, let me thank a member of my legislative 
staff, Merin Rajadurai, for his assistance in preparing my testimony 
this morning.

    Senator DeWine. Mayor, would you like to come up, and 
Chairman, Doctor? We appreciate you all joining us very much. 
It sounds like we do have some good news.
    Mayor, why don't you start off? We have your written 
statement and we appreciate it very much, and if you could just 
summarize for us and give us the highlights.

                 STATEMENT OF HON. ANTHONY A. WILLIAMS

    Mayor Williams. Yes, Mr. Chairman, I notice that you have 
said about three times that you would just like the highlights. 
So I will take that instruction and I will submit my written 
testimony for the record and will share with you and with 
Ranking Member Landrieu and certainly Senator Hutchison some of 
the highlights.
    But I want to take this opportunity as Mayor of the city to 
thank the committee, No. 1, for its support for budget autonomy 
for our city, and you, Mr. Chairman, for your leadership in 
calling for a hearing on the long-term structural imbalance 
issue.
    Senator Landrieu, thank you for your leadership in many, 
many different areas, particularly with the Anacostia River and 
with education.
    Senator Hutchison, I have worked with you since the time I 
was CFO and I remember talking with you one night asking for 
mercy from the reserve requirement. You did not grant that 
mercy and, in retrospect, you were right and I was wrong. So we 
are in much better shape because of it. I thank you, though, 
for your willingness to work with Dr. Gandhi and provide those 
adjustments. I think they are welcome. Certainly, as former 
State treasurers, both you and Senator Landrieu, your comments 
on our fiscal status are taken to heart by this Mayor.
    In fact, though, Mr. Chairman and members of the committee, 
we are doing better, but there is still more to do. Because of 
the structural imbalance, the mismatch between long-term 
revenues and expenditures in the District, three things are 
happening in our city.
    First, because of the artificial restrictions on our 
revenue base against State expenditures and requirements as a 
Federal city, we end up over-taxing about half of our tax base, 
and that is not healthy for the long-term future of the city. 
We would like to have lower tax rates, and Council Chair Cropp 
has been a leader in that effort along with the Council.
    Secondly, because of this situation, we have the second 
highest per-capita debt of any city in the country, second only 
to New York City. This again reflects a mismatch between long-
term revenues and expenditures. Because of this mismatch, 
because we are at the limit of what we can borrow, we have 
under-invested and we are deferring massive investments in 
critical services and infrastructure. Approximately $2.5 
billion of infrastructure has been deferred, including 
renovating crumbling schools, repairing the sewer overflow in 
the Anacostia River, fixing roads, and putting in place needed 
security systems to keep residents and visitors alike to our 
city safe.
    The major initiatives in our local budget include 
education. We remain proud of our robust charter school 
movement which educates approximately 20 percent of the school-
age children in the city. Under our leadership, the local 
facilities allowance for public charter schools has increased 
by almost 400 percent, from $617 per student in 2000 to about 
$2,400 per student in the proposed budget before you.
    There is still more work to do, but we have been working 
with the subcommittee and the charter school community to 
launch the exciting City Build initiative which was funded by 
this subcommittee, and Senator Landrieu deserves enormous 
credit for that. But in education, we are working to expand 
early childhood education, to expand after-school and out-of-
school activities; working to create five new transformation 
schools, where we have shown improvement in test scores; 
creating eight new charter schools; and upgrading school 
security.
    In the public safety area, we make room in our local budget 
to continue to fund our full complement of 3,800 officers, to 
reconfigure our patrol service areas, to build our Office of 
Unified Communications, and to work toward civilianization of 
our force. A remaining challenge before us is working with the 
Council to reform our disability procedures and processes in 
the department. We think with an additional investment there, 
we can put an additional roughly 200 officers on the street.
    Opportunity for all is a major commitment of mine as Mayor 
of the city, and we have put in place additional funds for the 
Youth Services Administration, particularly for reform laying 
the groundwork for replacing the current Oak Hill facility with 
a smaller, state-of-the-art facility. And I applaud you, Mr. 
Chairman, for your leadership on that effort, and for your 
steadfast oversight.
    There are a number of requests we have made to the Federal 
Government in the Federal appropriations area; one is the 
Tuition Assistance Grant program. We are asking for a request 
to fully fund this program at a level of $25.6 million above 
the President's mark of $17 million. This has been a very 
successful program and honoring this request will avoid having 
to either limit the program on an income basis or to limit the 
program on a pro-rata basis. This has been a very successful 
program and we would like to continue its upward path.
    Bioterrorism and forensics laboratory. Every city in the 
Nation has access to such a facility, as provided by their 
State. Many major facilities have their own. This is a critical 
public safety investment and we are requesting $9 million to 
move down the road for the planning and design phase of this 
lab. After the 4-year period of capital investment, we are 
prepared to commit the $40 million, roughly, a year to operate 
this.
    We ask for dollars for the WMATA subsidy. What we have 
found, members of the committee, is that over the years the 
Federal Government has reduced its support for transportation 
in urban areas. States have increased their support. The 
District, because of its peculiar situation, is at a loss here. 
Maryland and Virginia are increasing their support. The Federal 
Government is diminishing its support.
    So we are at the core of the Washington area and the center 
of Federal operations and have an enormous hit on our budget 
because of the amount of the subsidy. This is again a State 
function. It is something that benefits the Federal Government 
and its workers and makes us a healthy and livable region.
    Next to last, Mr. Chairman, we ask for an increase in the 
Public Safety Event Fund. We have received from the President 
$15 million. We are asking for an allocation of $25 million, 
primarily and essentially because of the inauguration. With the 
expenses for the inauguration, post-September 11, we expect to 
easily absorb this additional amount. This is a one-time 
request for this addition and we would ask for the committee's 
support.
    Last but not least, in the area of public school security 
we have seen what has happened in our public schools, 
particularly at Ballou High School. We have developed with our 
chief and in consultation with school officials a detailed 
public safety plan and are requesting from the Federal 
Government $15 million to assist us in this effort.

                           PREPARED STATEMENT

    Again, I want to thank the committee for its support for 
budget autonomy as we move toward the road for full democracy 
in the District. With that, I would be happy, after the other 
testimony, to answer each and all of your questions.
    [The statement follows:]
             Prepared Statement of Hon. Anthony A. Williams
    Chairman DeWine, Ranking Minority Member Landrieu, and other 
distinguished members of this subcommittee, I would like to thank you 
for the opportunity to testify before you today in support of the 
District of Columbia's fiscal year 2005 budget and financial plan. It 
has been particularly rewarding to work with you, Chairman, and this 
committee over the past year. The strength of State and local 
government experience you bring to your oversight responsibilities, 
along with your dedication to the District of Columbia, provide this 
panel with an opportunity to make a difference in the lives of citizens 
of the District of Columbia and make our Nation's capital an even more 
rewarding place to reside, work, and visit. My remarks this morning 
will focus on three main goals we have for working with this 
subcommittee:
  --promoting the fiscal strength of the District despite a difficult 
        national economy and a long-term structural imbalance caused by 
        Federal restrictions;
  --passing a local funds budget that provides for citizen priorities; 
        and
  --seeking critical Federal investments relating to services for our 
        residents and our special status as the Nation's capital.
I will begin by discussing our efforts to overcome fiscal challenges.

                      OVERCOMING FISCAL CHALLENGES

    The District has worked hard to overcome many fiscal challenges 
over the past decade. Some have been of our own making, others have 
been a matter of circumstance, affecting States and localities across 
the country, and others have been imposed by the Federal Government. 
Under my leadership, along with the legislative stewardship of our 
Council, led by Chairman Linda Cropp, and the fiscal guidance of Natwar 
Gandhi, Chief Financial Officer, there are few States or localities 
that have accomplished more in such a short period of time.
    Fiscal year 2003 marked the District's seventh consecutive balanced 
budget. In April, the District received a two-notch upgrade in our bond 
rating from Moody's Investor Service and now all three rating agencies 
rate the District as grade A investment material. Over the last 4 
years, as States and cities have weathered the deepest financial crisis 
in 60 years, the District has continued produce balanced budgets and 
has managed to increase our cash reserves, which totaled over $250 
million at the beginning of this fiscal year. Our steady accumulation 
of reserves despite difficult times is due in no small part to the 
diligence of Senator Hutchison, who has advocated for robust and secure 
reserve funds. These reserves have the served the District well and 
have contributed to our string of ratings upgrades. I would also like 
to thank the senator for considering our proposal to restructure our 
cash reserves this year and hope that she and this subcommittee will 
support our proposal. This proposal, which is part of our budget 
request, would reduce our overall reserve requirement from 7 percent of 
total expenditures to 6 percent and extend the period over which the 
District can replenish the reserve from 1 year to 2 years. Even with 
these modifications, the District will have sound and stable cash 
reserves when compared to States across the country.
    We have also achieved these accomplishments despite a long-term 
structural imbalance estimated by the General Accounting Office to be 
between $470 million and $1.1 billion per year. The GAO cites multiple 
factors causing this imbalance: the high cost of providing services in 
the D.C. metropolitan area, the relative poverty of our population, and 
Federal restrictions on our revenue collection authority.
    So what explains this apparent paradox? How can the District 
achieve remarkable financial performance, yet still face this 
structural imbalance? The answer is twofold. One, our residents are 
among the most heavily taxed in the Nation, and two, the District is 
deferring massive investments in critical services and infrastructure. 
This is perhaps the most important point in my testimony today, Mr. 
Chairman and members of the committee, so I believe it bears repeating. 
In order to balance our budgets and fund our reserves, the District is 
deferring massive investments in critical services and infrastructure.
    What is the magnitude of this deferral? Approximately $2.5 billion 
of infrastructure has been deferred, including renovating crumbling 
schools, repairing the sewer overflow, fixing roads, and putting into 
place the needed security systems to keep District residents and 
visitors safe.
    As we seek solutions to address the structural imbalance and 
address our long-standing problems, it is clear that taxing our 
residents more or providing fewer services are not viable alternatives. 
Though the GAO report noted areas where the District needs to improve 
management efficiencies, the report is quite clear that this deficit 
would exist under any management structure and even if operational 
efficiencies were improved even more. One option proposed by the GAO is 
a change in Federal policy to expand the District's tax base or to 
provide additional financial support.
    Earlier this month, at the request of this committee I submitted a 
report to you that laid out a comprehensive plan for addressing 
structural imbalance in the District of Columbia. This report presented 
several alternatives for addressing the imbalance and highlighted one 
very promising vehicle, a bill recently introduced by Representative 
Eleanor Holmes Norton, the ``District of Columbia Fair Federal 
Compensation Act of 2004''. This bill would provide the District with 
an annual dedicated Federal payment of $800 million a year dedicated to 
transportation projects, debt service payments, public school 
facilities, or information technology investments. This approach to 
redressing the District's structural imbalance would allow the Federal 
Government to invest in infrastructure that benefits the Federal 
Government itself, the Washington metropolitan area, as well as the 
District of Columbia. Mr. Chairman, I very much appreciate your 
commitment to find a workable solution to this problem that threatens 
our long-term fiscal viability. In addition to addressing the Federal 
contribution to our budget, we also need to repair the Federal process 
for reviewing our budget. As you know, last year the Senate unanimously 
passed a budget autonomy act for the District. This legislation, 
besides being a well-deserved boost for us Home Rule advocates, would 
significantly streamline and rationalize our budget process by allowing 
the city to better align local funds with oftentimes unpredictable and 
shifting needs. This legislation would put a permanent end to long 
delays where the District budgets resources to respond to new service 
needs, but those dollars are tied up in seemingly endless continuing 
resolutions. This bill would also allow the District to better align 
our fiscal year with the Federal grant cycle and school year, as are 
most local jurisdictions. This would eliminate a massive number of 
administrative burdens. Therefore, we are hopeful that the House of 
Representatives will follow the Senate and pass the same bill. Without 
the support of Chairman DeWine and Senator Landrieu, as well as 
Senators Ted Stevens and Robert Byrd, this historic legislation would 
not have been possible, so I offer special thanks to you all. Having 
set the context, I will now discuss the fiscal year 2005 budget for the 
District.

                       FUNDING CITIZEN PRIORITIES

    Over the past year our citizens have articulated their priorities 
in citizen summits and town hall meetings across the city, and this 
budget is the manifestation of those discussions. Our residents are 
calling for better education, public safety, health care and housing, 
and this budget makes critical investments to improve services in these 
areas. As a result, the growth of funding in this budget is focused on 
improving critical services, perhaps the most important of which is 
public education.
    As I'm sure you noted, local leadership had a very robust debate in 
formulating this budget, and one of the topics discussed was the 
appropriate level of expenditure growth. After a healthy debate the 
Council approved a budget that funds the operations of government.
    While growth in the budget appears dramatic at first glance, the 
true story is much less severe. Almost half of the growth in the budget 
funds one-time investments such as fulfilling court orders, paying for 
debt service from prior-year investments, and funding Medicaid cost 
increases. To manage the growth of Medicaid expenses we have new 
leadership in place, which includes a new Medicaid director and a 
director of our new Office of Medicaid Operations Reform. Our new 
leadership has led an effort to bring expertise and accountability to 
the District's Medicaid office and public provider agencies. We are 
implementing the recommendations from our prior-year Medicaid audits, 
we have made significant improvements to our Medicaid budget 
development process, and we have improved our approach for billing for 
Medicaid services. In the following discussion I will discuss key 
initiatives included in this budget.

                               EDUCATION

    Since my first budget as Mayor, I have increased the funding for 
public education by almost 60 percent. In addition to stabilizing 
funding for District of Columbia Public Schools despite continuing 
decline in enrollments, our fiscal year 2005 budget provides record 
funding for charter schools. Despite these investments, I continue to 
be concerned with the quality of education we are providing to our 
children, and I am particularly concerned with how DCPS has managed its 
budget. To address these concerns, I have introduced legislation that 
would streamline the accountability and governance of our public 
schools by creating a chancellor position that reports directly to the 
Mayor with oversight from our City Council. Based on feedback from 
Council members and the general public, I am refining that proposal to 
also create an elected State board of education that would have 
considerable State-level powers. I am encouraged by the increasing 
number of Council members who voted against the status quo at 
yesterday's legislative session. This indicates momentum in the 
direction of meaningful change. I look forward to continuing to work 
with the Council to reach agreement on a new governance structure soon. 
I hope we can rely on expedited consideration by the Congress of any 
legislation passed by the Council that would require a change in our 
Home Rule Charter. My efforts to recruit the best chancellor possible 
and strengthen the accountability structures around that new position 
are just part of my effort to improve the educational opportunities 
available to our children.
    In addition, the city remains extremely proud of its robust charter 
school movement, which educates approximately 20 percent of the school-
age children in the city. Under my leadership, the local facilities 
allowance for public charter schools has increased by almost 400 
percent, from $617 per student in 2000 to over $2,400 per student in 
the proposed budget before you. We have also been working closely with 
this subcommittee and the charter school community to launch the 
exciting City Build initiative, which was funded by this subcommittee 
and will provide five charter schools with $1 million for their 
facilities in the coming months. Senator Landrieu deserves tremendous 
credit for her work on this program, and on charter schools in general.
    In summary, the fiscal year 2005 budget includes several new 
education initiatives, including:
  --expansion of early childhood education,
  --expansion of after-school and out-of-school activities for children 
        and youth,
  --creation of 5 new transformation schools in the D.C. Public School 
        system,
  --creation of 8 new public charter schools, and
  --an upgrade of school security.
In addition, the District's new federally-funded scholarship program is 
unfolding quite well and has received approximately 1,500 applications 
from eligible families. Over 40 schools have submitted school 
commitment forms to participate in this program and more are expected 
to join. Based on these rough numbers we anticipate that will be able 
to meet our goal of serving approximately 1,700 students. The 
Washington Scholarship Fund, which is administering the program, is 
currently working with the program evaluation team, and the Department 
of Education to assess the number of slots and eligible participants to 
determine whether a lottery will be necessary for specific grade 
levels. I am confident that if such a lottery process is employed it 
will be consistent with the intent and priorities identified in the 
legislation.

                             PUBLIC SAFETY

    On May 3, our city suffered the tragic death of 8-year-old Chelsea 
Cromartie. Chelsea's murder was a senseless cowardly act of violence 
and unfortunately, it was not an isolated event. This year, 13 more of 
our children have been victims to senseless murders. The District's 
response has been aggressive: we continue to fund 3,800 officers, we 
have conducted a new Patrol Service Area plan to enhance police 
deployment in our neighborhoods, and we have established the Office of 
Unified Communications to coordinate our emergency responses, and we 
have just launched a major new effort to concentrate resources from 
across the government on crime ``hot spots'' in order to make 
fundamental change. Recently I also introduced legislation at the end 
of last year to reform the District's juvenile justice system. This 
legislation includes key legislative changes that would make the 
District safer for residents and victims of crime while providing 
improved rehabilitation services for our youth. Through these 
initiatives the District will make great strides to provide a safe and 
secure city for those who live, visit, and work here.

                          OPPORTUNITY FOR ALL

    The city is also devoting its efforts to improving services for the 
District's most vulnerable. At the Youth Services Administration, I 
have put in place transitional leadership that has already delivered 
improvements in the areas of security, treatment, staffing, 
administration, and licensing. We have also developed a comprehensive 
plan to best serve our youth and comply with and ultimately exit the 
current outstanding class action litigation. The plan also lays the 
groundwork for replacing the current Oak Hill facility with a smaller, 
state-of-the-art youth facility. In addition, this budget includes the 
following enhancements:
  --expanded coverage for traditional Medicaid clients,
  --full funding for the Health Care Alliance,
  --expanded treatment for the elderly, mentally challenged, and HIV/
        AIDS patients, and
  --facility upgrades at community clinics and ``Medical Homes''.

             PRIORITY FEDERAL FUNDING FOR CRITICAL PROJECTS

    Our budget includes several requests for funding projects in 
partnership with the Federal Government and I welcome this Committee's 
partnership with the District to invest available Federal resources in 
the city's top priorities.
    The President's budget includes funding for several of my top 
priorities, including education funding for public schools, charter 
schools and private school scholarships; funding for the Combined Sewer 
Overflow project, which is part of a long-term effort to clean up and 
revitalize the Anacostia River; and funding for important public safety 
investments such as the Unified Communications Center and the Fire 
Department's command center. Our budget also includes funding requests 
for several projects at a higher level than the President's mark and 
for other projects that are not included in the President's budget but 
are worthy of congressional attention. I would like to emphasize 
several of them here today:
  --Tuition Assistance Grant Program.--This program will allow 4,000 
        students to pursue higher education this year--either at public 
        institutions and private historically black colleges around the 
        country as well as local private colleges and universities. 
        This high participation rate, along with rising tuition costs, 
        means that the District will need to restrict payments to 
        students or make the program needs based for students applying 
        to the program for the 2004/2005 school year unless Congress 
        takes action to fund the program at a higher level. This would 
        have a devastating impact on the program which has had such a 
        profound impact on opening up college opportunities to many 
        families for the first time, as well as providing an incentive 
        for middle class families to remain in or relocate to the city. 
        Our budget contains a request to fully fund this program at a 
        level of $25.6 million above the President's mark of $17 
        million. Otherwise we will have to curtail this very successful 
        program.
  --Bioterrorism and Forensics Laboratory.--Every city in the Nation 
        has access to such a facility as provided by the State, and 
        major cities have their own. These laboratories are critical to 
        tracing evidence that leads to convicting and incarcerating 
        offenders in cases involving homicide, rape, and other serious 
        offenses. Although the District is given some access to the 
        laboratory managed by the FBI, the available capacity is 
        woefully inadequate, and therefore the District faces a large 
        crime rate without the tools needed to address it.
      This laboratory is also essential for assessing, detecting, and 
        addressing bioterrorism attacks. As we have seen with the 
        events of September 11, the anthrax attack, and the ricin 
        scare, the Federal Government is a natural target for 
        terrorists and the public safety infrastructure of the District 
        of Columbia is the first line of defense. This laboratory would 
        significantly enhance our ability to detect and respond 
        effectively to such threats. Toward this end, we are requesting 
        the $9 million for the planning and design phase of a 
        bioterrorism and forensics lab.
  --WMATA Operating Payments.--The District's contribution to WMATA 
        operations will consume $208.5 of the city's local budget in 
        fiscal year 2005. Because the District is the core of the 
        Washington metropolitan area and the center of Federal 
        operations, this investment not only benefits District 
        residents, but it benefits the entire region. Last year, for 
        the first time, Congress contributed $3 million towards this 
        subsidy. This year, we are asking for full funding for our 
        WMATA subsidy. This support is justified because Federal 
        stations, Federal workers, and visitors to the Federal 
        Government constitution a significant amount of the WMATA 
        activity subsidized by the District. Federal support is also 
        justified because mass transit costs are typically funded at 
        the State level; Maryland funds 100 percent of its localities' 
        operating subsidy and Virginia funds half for its 
        jurisdictions. I would argue that inherently unfair allocation 
        of operating expenses allocated among Maryland, Virginia, and 
        the District is a striking example of the structural imbalance 
        and a logical opportunity for the Federal Government to craft 
        an immediate, partial solution.
  --Downtown Circulator.--The Downtown Circulator project will provide 
        the 22 million visitors to Washington, DC with an inexpensive 
        and easy way to move around the Monumental Core. The service 
        will connect several of the District's most popular 
        destinations for residents, tourists and even Federal 
        employees. In the future, the system could also be adopted by 
        Federal agencies as cost-saving replacement for private vehicle 
        fleets and shuttle services. The Federal Government provided 
        half a million dollars for this project in fiscal year 2004 and 
        the District is requesting an additional $1 million in fiscal 
        year 2005, which the District will match with local funds on a 
        one-to-one basis on top of considerable support from the city's 
        tourism and business sectors.
  --Public Safety Event Fund.--This fund was established to fund local 
        costs incurred in response to major Federal events, but this 
        year it was seriously under-funded by the President and should 
        be raised to $25 million in fiscal year 2005. The proposed 
        level of $15 million would barely cover reimbursement for the 
        District's costs associated with relatively predictable events 
        such as anti-war protests, IMF and World Bank events, and high 
        alert details. It does not account for any cost associated with 
        the Presidential inauguration, including payment for officers 
        from outside jurisdictions, the overtime costs of our own 
        police officers, and the additional services from other 
        agencies such as the Fire Department, WMATA, and WASA. In the 
        post-9/11 security environments, total costs will cost well 
        over the extra $10 million that we are requesting.
  --Public School Security.--In the wake of the tragic shooting at 
        Ballou Senior High School on February 2, 2004, we need to 
        redouble our efforts in this area. The approach of city 
        leadership recognizes the critical importance of school 
        principals and school staff in creating a climate of safety and 
        the importance of providing our staff the necessary tools and 
        training. There is currently legislation before Council to 
        transfer the responsibility for school security to the 
        Metropolitan Police Department. While the District is planning 
        on funding the significant operating costs of this initiative, 
        I am requesting Federal funding of $15 million to assist with 
        the one-time start up costs.
  --Adult/Family Literacy Initiative.--This initiative, which was 
        launched by this subcommittee, continues to address a gaping 
        hole in the city's educational infrastructure. The District has 
        leveraged over $1 million in private assistance with Federal 
        appropriations to date and we have used this funding to fund 
        literacy services to 872 adults who otherwise would not have 
        received assistance. We have also recruited, hired, placed and 
        provided professional development for 20 Lifelong Learning 
        Coaches. I am requesting an additional $2 million to continue 
        our efforts and focus additional efforts on the areas where we 
        have identified significant disparities between the need for 
        literacy services and the availability of those services.

                   DEMOCRACY FOR THE NATION'S CAPITAL

    Having presented the District's fiscal year 2005 budget and Federal 
request, I would like to close with a discussion of something that is 
beyond price, and that is the democratic rights of our citizens. The 
Senate has already signaled its interest in expanding Home Rule and 
democracy in the District by passing budget autonomy. I would like to 
ask for your individual support to take the next crucial steps. The 
District is the capital of the world's greatest democracy, and it is 
the ultimate hypocrisy that its citizens suffer from the exact 
disenfranchisement this Nation was founded to end. The United States is 
continuing to sacrifice hundreds of lives and billions of dollars to 
provide Iraqis with freedom and democracy, yet denies full democracy to 
more than a half a million people at its very heart. I urge you to end 
this injustice and provide the city with full voting representation in 
the Congress. Anything short of full democracy for our residents should 
be at the level of personal outrage for all Americans. This concludes 
my remarks today. Thank you for the opportunity to testify before you 
today and I look forward to answering any questions you may have.

    Senator DeWine. Thank you, Mayor.
    Chairman Cropp, thank you very much for joining us.

                      STATEMENT OF LINDA W. CROPP

    Ms. Cropp. Thank you very much, Mr. Chairman, Senator 
Landrieu, Senator Hutchison. It is indeed a pleasure to be here 
with the Mayor and Dr. Gandhi to testify before you with regard 
to the District of Columbia's budget. I join with the Mayor in 
thanking you so very much for the support that you have given 
to the District in the past, in particular your passage of the 
budget autonomy for the District of Columbia.
    The fiscal year 2005 budget, as many of you recognize, 
represents the eighth year in a row consecutively that a 
fiscally-sound and balanced budget is presented to you. This 
budget is also a reflection of our resolve to stand as one 
government that will remain fiscally prudent and responsible.
    The efforts of the Council and the Mayor working together 
have created a spending plan that continues to provide the 
services needed to make the District of Columbia a much better 
place to live, to work, to raise a family and to visit. The 
Council and the Mayor will continue to work in a collaborative 
effort throughout the year in order to manage government 
spending.
    Fiscal discipline has always been and will continue to be a 
top priority of the last few Councils for our legislative 
agenda. We have not only demanded it of the executive branch, 
but we also practice it. The various forms of fiscal 
discipline, from rainy-day funds, financial safeguards, 
insurance and investment policies, economic triggers, to pay-
as-you-go funds, that we have demanded and imposed on ourselves 
in the past several years have yielded significant returns for 
the District.
    During the Council's 50-day review period of the budget, we 
held 54 hearings, totaling 296 hours of public hearings. These 
public hearings are a very important part of our budget 
process. The public hearings provide our citizens an 
opportunity, with our workforce, to comment and to critique the 
programmatic funding needs and agency performance that impacts 
them. This feedback is essential.
    The Council worked diligently with the Mayor in aligning 
both sets of priorities and put together a fiscally-sound and 
responsible spending plan. The operating budget funds basic 
city services and programs. The capital budget, as a result of 
stringent oversight, has been aligned. For example, funds were 
redirected and targeted for those projects with higher priority 
and critical need.
    On May 14, the Council approved a $4.16 billion spending 
plan that provides adequate funding for basic city services and 
programs. The funding level for fiscal year 2005 represents a 
7.1 percent growth over the revised 2004 local budget and sets 
growth for next year's budget at 4.6. The Council is determined 
to keep our budget growth within realistic figures.
    The budget provides $40 million for the production of low- 
and moderate-income housing, and increases the funding for 
child care, substance and drug abuse treatment, and health care 
for uninsured residents. In keeping with the seven goals of the 
Council's legislative agenda, schools continue to receive full 
funding. The budget earmarks approximately $1 billion for 
public and charter schools.
    In order to address concerns about the growth of spending 
in certain agencies, while still wanting to finance programs 
important to the District's most vulnerable residents, a 
contingency fund was established. This fund would provide 
financial support for the District's budget if other sources 
were not available for the Department of Human Services' Child 
and Family Services, Mental Health, Inspector General, 
Employment Services, Youth Services, and the Office of the 
Secretary. A request to expend money from the contingency fund 
would require proof of need and the appropriate efficiencies 
that we expect from government.
    The Council supports the congressional budget request 
items, particularly the Tuition Assistance Grant program and 
the planning and security costs associated with the Federal 
presence. A total of 4,086 students are receiving funds this 
year from the TAG program. It has had a significant impact on 
furthering the education of these students. Therefore, it is 
important that the additional $8.6 million be provided to 
continue to fund this program.
    The need for funding, planning and security costs related 
to the Federal presence continues to rise. The requirements of 
homeland security have added to this cost. In the past 2 years, 
the District has been reimbursed for the costs it has incurred 
for major events held in Washington, due to the fact that we 
are the Capital City. These cost have now been capped at $15 
million.
    In the past 2 years, which have been non-inaugural years, 
the District has received $15 million to cover the costs for 
providing safety at events. The District is now being asked to 
apply the $15 million to cover the costs for the major events 
and the Presidential inaugural. Historically, the District has 
been directly reimbursed for the costs associated with the 
Presidential inauguration.
    The costs for providing security during the 2001 
inauguration were $6 million. With the addition of homeland 
security requirements, this amount has grown to $10 million. 
The District, however, is now asking for the additional $10 
million. We just cannot possibly absorb that within all of the 
other costs.
    Another area I would like for you to consider is funding to 
assist with the cost of correcting the problem of the lead in 
the water. As you are aware, investigations to date have 
revealed that the various actions of the D.C. Water and Sewer 
Authority, the Environmental Protection Agency and the 
Washington Aqueduct may have all contributed to the problem.
    Therefore, it would appear to be appropriate for Federal 
dollars to be made available to assist in the cost for the 
testing of the water, the testing of the lead levels in 
residents, and for the replacement of the lead service line. It 
is our hope that through the joint effort of the District and 
Federal governments, we can resolve this problem and again make 
water safe in the District of Columbia.
    I would also like to ask for your help in obtaining the 
approval of the District's tax incentives that expired at the 
end of last year. The first-time homebuyer credit, the 
enterprise zone credit and the revenue bond programs are 
important to economic development in the District. The first-
time homebuyer credit attracts residents to the District and 
assists persons in purchasing homes that might not otherwise 
have the opportunity to do so. As you are probably aware, the 
Mayor has a proposal that would bring in more residents to the 
District of Columbia, and those tax credits certainly played a 
major role in helping to grow our economy.
    The District is always challenged in developing its budget 
due to ongoing structural imbalances. I want to join with the 
Mayor in thanking you so very much for supporting and passing 
budget autonomy. It is very important to the citizens of the 
District of Columbia and we thank you for your wisdom and your 
action in that.
    On the structural imbalance, we hope that we would be able 
to rely on some of the reporting from the General Accounting 
Office and the committee and that they will look at that and 
give the District some assistance in that.
    I would like to mention one other way the Congress could 
assist the District of Columbia in its managing of funds, and 
Senator Hutchison has elaborated on that in her opening 
statement with regard to our cash reserve. We thank you for the 
changes that are being made. We think that that is the right 
direction for us to go.
    We believe that we ought to have some cash in the bank. We 
join with you in that, but the changes that were there were 
possibly just a little bit too much and we are happy we are 
moving in this direction. I would ask that you consider in the 
future as we continue along the line of fiscal responsibility 
that you look at a 3-year pay for paying it back if we need the 
emergency money within 1 year.
    In most instances, a 1-year pay-back is still too soon. 
When you look at what most other jurisdictions do, they usually 
have a 3-year time period to pay it back. So as we continue 
along fiscal responsibility, we hope that you will look at 
that.

                           PREPARED STATEMENT

    In conclusion, I would like to say that we look forward to 
working with you as we make the District of Columbia the type 
of city that we all know that it can be. We are on our way, we 
are moving in that direction, but we will continue to strive to 
make it a much better place for people to work, live and visit.
    Thank you very much.
    [The statement follows:]

                  Prepared Statement of Linda W. Cropp

    Good morning, Chairman DeWine, Senator Landrieu and members of the 
Senate Appropriations Subcommittee on the District of Columbia. I am 
pleased to be here with my colleagues to testify on the District's 
budget for fiscal year 2005.

                              INTRODUCTION

    The fiscal year 2005 budget represents for the eighth year in a 
row, a fiscally sound and balanced budget. This budget is also a 
reflection of our resolve to stand as one good government that will 
remain fiscally prudent and responsible. The efforts of the Council and 
the Mayor, working together, has created a spending plan that continues 
to provide the services needed to make the District a better place in 
which to live, to work, to raise a family, and to visit. The Council 
and the Mayor will continue this collaborative effort throughout the 
year in order to manage government spending.
    Fiscal discipline has always been and will always be a top priority 
on our legislative agenda. We not only demand it of the executive 
branch, we practice it. The various forms of fiscal discipline--from 
rainy day savings, financial safeguards, insurance and investment 
policies, economic triggers to Pay-As-You-Go funds--that we have 
demanded of, and imposed on ourselves in the past several years, have 
yielded significant returns to the District of Columbia. This is 
reflected in the District Government receiving for the seventh 
consecutive year an unqualified audit opinion and a fiscal year 2003 
Comprehensive Annual Financial Report (CAFR) showing a balanced budget. 
In addition, this year for the first time, the District received an 
``A'' rating from all of the Wall Street financial rating agencies.
    In 2004 the Council passed the fiscal year 2005 Budget Submission 
Requirements Resolution of 2004. It established the date for submission 
of the Mayor's proposed budget. It required performance plans and 
reports, and certain information and documentation be submitted to the 
Council along with the proposed budget.

                           THE BUDGET PROCESS

    During the Council's 50-day review period the Council conducted 54 
hearings totaling 296 man-hours. These public hearings are an important 
part of the budget process. The public hearings provide the citizens 
and our workforce with an opportunity to comment and critique 
programmatic and funding needs, and agency performances that impact 
them. This feedback is essential in reaching the decisions and 
determining the recommendations of each committee in the mark-up of the 
budgets.
    The Council worked diligently with the Mayor in aligning both sets 
of priorities and, put together a fiscally sound and responsible 
spending plan. The operating budget funds basic city services and 
programs. The capital budget, as a result of stringent oversight by the 
Council, was realigned. For example, funds were redirected and targeted 
for projects with higher priority and critical needs, such as schools 
for the children, housing for low and moderate income residents, and 
enhancing existing facilities for better public/Council interaction.
    The Mayor submitted the budget to the Council on March 29. The 
proposed local budget was $4.17 billion, an increase of $282.8 million 
or 7.3 percent above the revised fiscal year 2004 budget. The Council 
carefully reviewed the proposed expenditures to ensure that priority 
programs were properly funded. Adjustments were made through hard 
decisions between competing program preferences and by rooting out 
unnecessary budget cushions within the request.

               HIGHLIGHTS OF THE FISCAL YEAR 2005 BUDGET

    On May 14 the Council approved the $4.16 billion spending plan that 
provides adequate funding for basic city services and programs. This 
funding level for fiscal year 2005 represents a growth of 7.1 percent 
over the revised fiscal year 2004 local budget and sets growth for next 
year's budget at 4.6 percent. The budget provides $40 million for the 
production of low and moderate income housing and increases the funding 
for childcare, substance and drug abuse treatment, and health care for 
uninsured residents. In keeping with the seven goals on the Council's 
legislative agenda, schools continue to receive full funding. The 
budget earmarks approximately a billion dollars for public schools and 
public chartered schools.
    In order to address the Council's concerns about the growth of 
spending in certain agencies while still wanting to finance programs 
important to the District's most vulnerable residents, a contingency 
fund was established. This fund would provide financial support from 
the District's budget if other sources were not available for the 
Departments of Human Services, Child & Family Services, Mental Health, 
Health, Inspector General, Employment Services, Youth Services 
Administration and the Office of the Secretary. Requests to expend 
money from the contingency fund would require proof of need and 
approval by the CFO, the Mayor and the Council.

                         FEDERAL BUDGET REQUEST

    The Council supports the Congressional budget request items 
included in the Mayor's proposal. However, I would like to highlight 
two items included in that request. The Tuition Assistance Grant 
Program (TAG) and the Planning and Security costs associated with the 
Federal presence. The TAG program has been extremely successful in the 
District. A total of 4,086 students are receiving funds this year from 
the program. TAG has had a significant impact on furthering the 
education of these students. Therefore, it is important that the 
additional $8.6 million be provided to continue to fully fund this 
program.
    The need for funding Planning and Security costs related to the 
Federal presence continues to rise. The requirements of Homeland 
Security have added to this cost. In the past 2 years the District has 
been reimbursed for the costs it has incurred for major events that are 
held in Washington. These costs have now been capped at $15 million. In 
the last 2 years, which have been non-inaugural years, the District has 
received the $15 million to cover its costs for providing safety at 
events. The District is now being asked to apply the $15 million to 
cover the costs for major events and the Presidential Inauguration. 
Historically the District has been directly reimbursed for the costs 
associated with the Presidential Inauguration. The costs for providing 
security during the 2001 inauguration were $6 million. With the 
addition of Homeland Security requirements this amount has grown to $10 
million. The District Government is asking for the additional $10 
million to cover the anticipated costs that will be incurred for the 
2005 inauguration.
    Another area I would like for you to consider is funding to assist 
with the costs of correcting the problem of lead in the water. As you 
are aware the investigations to date have revealed that the various 
actions of the DC Waster And Sewer Authority (WASA), the Environmental 
Protection Agency (EPA) and the Washington Aqueduct may have all 
contributed to the problem. Therefore, it would appear to be 
appropriate for Federal dollars to be made available to assist in the 
cost for the testing of water, the testing of lead levels in residents 
and for the replacement of lead service lines. It is our hope that 
through the joint effort of the District and Federal Governments we can 
resolve this problem and again make water safe in the District of 
Columbia.
    I would also like to ask for your help in obtaining approval of the 
District's tax incentives that expired at the end of last year. The 
First Time Homebuyer credit, the Enterprise Zone credit and the revenue 
bond program are important to economic development in the District. The 
First Time Homebuyer credit attracts residents to the District and 
assists persons in purchasing homes that might not otherwise have an 
opportunity to do so. The Enterprise Zone credit and the revenue bond 
program are real incentives for attracting businesses to operate within 
the District.
    The District has not been able to offer these very important 
benefits for the past 5 months. It is important to our economic growth 
that these tax incentives we reauthorize.

                          FEDERAL CONTRIBUTION

    Historically, the relationship between the District and the Federal 
Government has been a unique political and financial arrangement. 
Between 1879 and 1920, the Federal Government would provide assistance 
by paying half of all District expenditures. Subsequently, given the 
various Federal prohibitions on taxing nonresident incomes, Federal 
properties, Federal purchase of goods and services, the District would 
receive a direct payment. This payment was stopped in 1997 when the 
Federal Government assumed responsibility for the cost of the 
contributions to the police, firefighters, and teachers retirement 
plans, various Court services and portions of other State functions.
    It is worth recalling that when the 1997 Revitalization Act was 
passed, one recommendation was that Congress would not need to review 
or approve the District's budget because the city would no longer 
receive any Federal payments. At a minimum, Congress should no longer 
approve the local portion of the District's budget. Just like the other 
50 States, the District should be solely responsible for approving its 
own local spending. Achieving such budget autonomy will allow the 
District to implement its budget in a timely manner and will assist in 
improving the city's fiscal management. I want to thank you Mr. 
Chairman, the subcommittee and the Senate for supporting this 
initiative. It is my hope that the U.S. House of Representatives will 
soon join you in adopting this proposal.
    The District Government is always challenged in developing its 
budget due to the ongoing structural imbalance that exists between its 
spending needs and its revenue generation capacity. As noted in the 
General Accounting Office's May 2003 report the imbalance amounts to 
between $400 million to $1.143 billion per year. The report also noted 
that the cost of providing public services is much higher in the 
District than it is in the average State due to a relatively large 
poverty population, poor health indicators, high crime, and the high 
cost of living. The report stated that the District has a very high 
revenue capacity, and the city is already taxing toward the upper limit 
of our revenue capacity, thereby creating a punitive tax structure.
    Congresswoman Eleanor Holmes Norton has introduced Bill H.R. 4269, 
the District of Columbia Fair Federal Compensation Act of 2004. The 
bill outlines the unique situation of the District of Columbia as a 
Federal city. It proposes an annual Federal payment of $800 million 
with provisions to adjust the number in the future. The $800 million 
would be made available to address important structural needs of the 
city, which the District Government cannot fully fund from its current 
budget. Transportation and street maintenance, information technology 
and DCPS capital improvements are essential to the running of the city. 
I ask for this subcommittee to support this legislation and encourage 
adoption by the Senate.
    I would like to mention one other way that the Congress could 
assist the District Government in managing its funds. Dr. Gandhi has 
proposed changes to the requirements for the Emergency and Contingency 
Cash Reserve funds. The proposed changes would provide additional 
monies for local programming and the provision of services to the 
residents of the District of Columbia while still maintaining required 
reserve levels. Your support of the proposed changes would be of great 
benefit to developing and managing our budget.

                               CONCLUSION

    Finally, as you consider our appropriations request, we ask that 
you support and pass the budget in time for the start of the new fiscal 
year and before the adjournment of the 108th Congress. Furthermore, we 
urge you to pass the budget as is, without any extraneous riders. This 
much anticipated fiscal year 2005 budget is important because it shows 
how the Mayor and the Council can work together and underscores our 
commitment to make Washington, DC one of the best governed cities in 
the Nation.
    Nonetheless, the Council will continue to oversee the Executive's 
operations and expenditures. We will be responsive to our constituents 
who call the District their home. We will work with the Mayor, 
Congress, and the surrounding governments to achieve mutually shared 
goals. Together with the Mayor, we will produce good responsible 
budgets that invest dollars for the District and leave a legacy for 
future generations. Granted we do not always agree from time to time, 
but we will be at the table to assert ourselves as an institution and 
work for the betterment and future of our citizens.
    I thank you for this opportunity to present the fiscal year 2005 
budget and these issues of major importance to the District of 
Columbia.

    Senator DeWine. Thank you.
    Dr. Gandhi.

                     STATEMENT OF NATWAR M. GANDHI

    Dr. Gandhi. Thank you, Mr. Chairman, Senator Landrieu, 
Senator Hutchison. I am Natwar M. Gandhi, Chief Financial 
Officer for the District of Columbia and I am here today to 
testify on the District's fiscal year 2005 budget request to 
the Congress.
    The Congress created the District's Office of the Chief 
Financial Officer to preserve and enhance the District's 
financial viability at all times. The District has made 
substantial progress in the last 7 years, achieving a 
consistent series of balanced budgets and clean audits, and 
significantly improving its financial infrastructure.
    As part of this success, the District has had a $1.4 
billion turn-around in fund balance, from a negative of $518 
million in 1996 to a positive balance of about $897 million at 
the end of fiscal year 2003. We had almost $254 million in cash 
reserves for emergency and contingency purposes at the end of 
fiscal year 2003, probably the largest of such reserves as a 
percentage of budget in the entire Nation.
    The crowning event to date, in fiscal year 2004, is the 
recent two-notch upgrade in the rating on our general 
obligation bonds from Moody's, lifting our rating to the A 
category from all rating agencies for the first time ever. And 
I particularly want to thank this committee, and particularly 
Senator Hutchison, for taking a lead on that.
    We continue to build on this record of accomplishment. 
Standardized spending plans for all agencies are now in place, 
and we are monitoring reserves against those plans using a new 
online financial management tool for controlling agency 
spending.
    The District has enacted its own Anti-Deficiency Act to 
hold financial and program managers accountable for achieving 
program results within approved budgets. The first-ever local 
anti-deficiency report identifying agencies that have strayed 
from the approved budgets and spending plans in the first 
quarter of fiscal year 2004 is forthcoming.
    With all these accomplishments in place as evidence of 
ongoing fiscal prudence and commitment to sound fiscal 
management, it is high time to grant the District local budget 
autonomy. It will allow the District to improve budget 
preparation and management quite significantly.
    Mr. Chairman, I very much appreciate your leadership and 
support on that matter, and we hope that the U.S. House of 
Representatives will soon follow your lead in this matter.
    The fiscal year 2004 financial outlook is good, and I am 
confident that we will end the year with a balanced budget one 
more time. The fiscal year 2005 budget request has just been 
voted on by the Council on May 14. As Chairman Cropp pointed 
out, the Council and the Mayor are currently reconciling their 
respective budget amendments, and we will provide the 
subcommittee with the final numbers as soon as they are 
available. However, I would like to briefly summarize some of 
the key points in the request.
    The local funds, taxes and fees paid by D.C. residents 
comprise about two-thirds of the total budget, or about $4.16 
billion, an increase of about $332 million, or about 8.7 
percent. Please note that the expenditure growth for the local 
funds in 2005 does not set the mold for 2006 and beyond. 
Expenditures are expected to grow at 4.5, 4.3 and 4.5 percent 
for fiscal years 2006, 2007, and 2008, respectively.
    The 2005 budget includes important budget corrections or 
increases to recognize the true cost of providing the current 
level of services. The increases in this budget are driven by 
the cost of maintaining current programs at existing program 
levels, not by new program initiatives. All of the total 
increase of $332 million in local fund expenditures is related 
to maintaining current services.
    Two areas of note are Medicaid and public education. The 
rising Medicaid expenditures are in large part due to the cost 
of providing care to the District's aging and disabled 
population. In 2000, 20.3 percent of the District's population 
was disabled, and about 12 percent was over the age of 65. The 
cost of caring for these groups has increased at a rate much 
faster than inflation. The District has also experienced 
enrollment increases and has now reached 99-percent-eligible 
enrollment status.
    When we benchmark our Medicaid programs with our 
neighboring States, here is what we find. Fully 25 percent of 
the District's population is enrolled in Medicaid, compared to 
12 percent in Maryland and 9 percent in Virginia. The District 
spends on average $7,200 per enrollee, compared to about $5,500 
in Maryland and about $5,100 in Virginia. Per resident, the 
District of Columbia spends about $1,776, compared to about 
$649 in Maryland and $445 in Virginia.
    In public education, the formula increases in public 
education for both D.C. public schools and charter schools 
added about $70 million over the 2004 budget. However, these 
increases are needed to maintain schools as they operate today.
    The economic outlook for the District of Columbia for 
fiscal year 2005 is quite good. Retail sales, including 
tourism, are expected to be up by about 5 percent, reflecting 
the current trends. The real estate market continues to be very 
strong, with taxes on property sales remaining at all-time 
highs. Real property tax revenues are expected to increase by 
about 11 percent in 2005.
    Our 5-year financial plan projects positive net operating 
margins through fiscal year 2008. However, the District will 
operate on a very slim financial margin, about $2 million, in 
fiscal year 2005. As you are aware, in fiscal year 2002 the 
District fully funded its emergency and contingency cash 
reserve funds at the maximum current required level, totaling 
about $248 million, or 7 percent of the total expenditure 
budget. This was a significant accomplishment, achieved 5 years 
ahead of our deadline, and it has contributed significantly to 
the District's bond rating upgrades.
    Senator DeWine. Doctor, if you could wrap up, please.
    Dr. Gandhi. All I need to add here is basically the changes 
that we are currently working with Senator Hutchison's office 
on, once they are implemented into law, we will be able to 
provide still a substantial amount of cash in there.

                           PREPARED STATEMENT

    The last thing I would want to say is basically we 
appreciate your lead on the structural imbalance, and on that 
front the recent legislation that is sponsored by Ms. Eleanor 
Holmes Norton in the House would be the most welcome correction 
for the District's structural imbalance.
    Mr. Chairman, that concludes my oral remarks. I request 
that my written testimony be made part of the record.
    Senator DeWine. It will be made a part of the record. Thank 
you very much.
    Dr. Gandhi. Thank you, sir.
    [The statement follows:]

                 Prepared Statement of Natwar M. Gandhi

    Good morning, Mr. Chairman, Senator Landrieu, and members of the 
subcommittee. I am Natwar M. Gandhi, Chief Financial Officer for the 
District of Columbia, and I am here today to testify on the District's 
fiscal year 2005 budget request to the Congress. My remarks will 
briefly touch on the fiscal year 2004 financial outlook, the fiscal 
year 2005 request, and the overall health of the District's finances.

                       OVERARCHING FINANCIAL GOAL

    Since assuming this office, my overwhelming objective has been to 
preserve, enhance, and secure the District's financial viability for 
today and into the indefinite future. The District has made substantial 
progress in the last 7 years, achieving a consistent series of balanced 
budgets and clean audits, and significantly improving our financial 
infrastructure. As part of this success, the District has had a $1.4 
billion turned around in fund balance from a negative $518 million in 
1996 to a positive balance of $897 million at the end of fiscal year 
2003. We have over $253 million in cash reserves for emergency and 
contingency purposes, the largest such reserves as compared to budget 
that I can identify in the entire Nation. The culminating event to-date 
in fiscal year 2004 is the recent upgrade in the rating on our General 
Obligation bonds from Moody's Financial Services, lifting our rating to 
the ``A'' category from all rating agencies for the first time ever.
    We continue to build on this record of accomplishment. Standardized 
spending plans for all agencies are now in place and we are monitoring 
results against those plans using a new on-line financial management 
tool for controlling agency budgets. Across all agencies, we are 
building performance budgets that set targets for accomplishments and 
benchmark these targets against best practices in local government. The 
District has enacted its own Anti-Deficiency Act to hold financial and 
program managers accountable for achieving program results within 
approved budgets. We have recently issued the first ever local Anti-
Deficiency report identifying agencies that have strayed from their 
approved budgets and spending plans in the first quarter of fiscal year 
2004.
    The District is making steady progress on its long-term replacement 
strategy for its administrative systems--the Administrative Services 
Modernization Program (ASMP)--spearheaded by the Office of the Chief 
Technology Officer. Over the next 3 years, all of the District's 
administrative systems--personnel, payroll, procurement, property 
management, and budget--will be upgraded and integrated with the System 
of Accounting and Reporting (SOAR). For the first time, the District 
will have a top quality, integrated information system with which to 
manage District operations. Already in operation is a new procurement 
system linked to our accounting system. A new budget system is 
scheduled to become operational in August 2004, a personnel system in 
November 2004 and a payroll system in July 2005.
    With all of these accomplishments in place, as evidence of ongoing 
fiscal prudence and commitment to fiscal viability, it is time for two 
changes in the District's relationship with the Federal Government. 
Specifically, budget autonomy will allow the District to improve budget 
preparation and management quite significantly. Without autonomy we 
must prepare specific expenditure plans and revenue estimates many 
months in advance of the actual budget year, adding more-than-usual 
uncertainty about the planned budget and posing more difficulty in 
budget execution. Mr. Chairman, I very much appreciate your support and 
that of the U.S. Senate on the matter of budget autonomy and am very 
hopeful that the U.S. House of Representatives will soon follow your 
lead in this matter.
    It also is time for some additional Federal consideration of the 
District's infrastructure needs. The District faces about $3 billion in 
infrastructure needs in the next 4 years--mostly in schools, streets 
and transportation--that cannot possibly be funded locally. The 
District of Columbia already has the highest per capita general 
obligation debt in the Nation and a tax burden that is 18 to 33 percent 
higher than average for the States. Our only local options for meeting 
these infrastructure deficiencies are: (1) adding even more per capita 
debt--an action very much frowned on by the rating agencies, (2) 
increasing per capita tax burdens--an action likely to discourage 
current and potential residents and employers, or (3) lower delivery of 
other types of services--a difficult choice in a city with an unusually 
large population of people in need.
    In May 2003, the General Accounting Office (GAO) strongly 
underscored the District's unique financial challenges in generating 
the funds to finance all usual and necessary services. An annual 
structural imbalance is identified in report GAO-03-666, of $470 
million to $1.14 billion between the costs of delivering typical 
services and the revenue available from typical tax burdens, based on 
the fiscal year 2000 budget and data. Over the years, the District 
dealt with this gap by neglecting infrastructure needs and assessing 
very high taxes. Today, we continue to need assistance to address our 
many infrastructure problems.

                   FISCAL YEAR 2004 FINANCIAL OUTLOOK

    Through the leadership and cooperation of our elected officials, 
the District made the necessary tough decisions to assure a balanced 
budget for fiscal year 2004. As of this time, all identified spending 
pressures have been resolved through internal or interprogram 
reallocations. I am confident we will end the year with a balanced 
budget.

                    FISCAL YEAR 2005 BUDGET REQUEST

    The Council of the District of Columbia voted to approve the fiscal 
year 2005 budget request on May 14. I would like to briefly summarize 
some of the key points in the request.
    In total, the District's gross funds operating request for fiscal 
year 2005 is $6.25 billion, an increase of about $545 million, or 9.6 
percent, over the approved fiscal year 2004 level of $5.7 billion. The 
total number of positions in fiscal year 2005 from all funding sources 
is 33,050, an increase of 882 positions.
    Local funds, taxes and fees paid by D.C. residents comprise about 
two-thirds of the total budget, about $4.17 billion, an increase of 
about $332 million, or 8.7 percent, over fiscal year 2004 levels. The 
total number of positions funded with local funds is 26,050 in fiscal 
year 2005, a decrease of 195 positions.
    Please note that the expenditure growth for local funds in fiscal 
year 2005 does not set the mold for fiscal year 2006 and beyond. 
Expenditures are expected to grow at 4.1, 4.6 and 4.3 percent for 
fiscal years 2006, 2007, and 2008, respectively. The fiscal year 2005 
budget includes important budget corrections or increases to recognize 
the true cost of providing the current level of services, including 
entitlements experiencing both higher provider rates and utilization, 
court orders' compliance costs, attainable projections of Medicaid 
reimbursements, higher pension costs for prior years' pay raises for 
teachers, police officers and firefighters, as well as new operating 
costs from completed capital projects. Almost half of the fiscal year 
2005 local funds growth rate of 8.7 percent, or $156 million of the 
$332 million increase, is due to these one-time budget corrections for 
fiscal year 2004 service level and rate increases. The reminder of the 
growth--4.6 percent (growth rate of 8.7 percent minus 4.1 percent) or 
$176 million--is anticipated service level and cost increases for 
fiscal year 2005 alone. If we isolated service level and rate increases 
for just fiscal year 2005, it would be 4.6 percent rather than a 8.7 
percent growth, which is in-line with the previously mentioned out-
years growth rates.

                              COST DRIVERS

    The increases in this budget are driven by the cost of maintaining 
current programs at existing program levels, not by new program 
initiatives. All of the total increase of $332 million in local fund 
expenditures is related to maintaining current services. Program 
initiatives of $36.3 million are accommodated by making program 
reductions or shifting costs to other fund sources.
    Medicaid.--The fiscal year 2005 proposed budget for Medicaid is 
$1.4 billion, or 22 percent of the District's gross funds budget. Total 
program costs have risen 45.2 percent and local fund costs by 30.9 
percent between fiscal year 1999 and fiscal year 2004. In fiscal year 
2005, Medicaid costs are projected to increase by $39 million.
    There are several contributing factors to rising Medicaid 
expenditures, but they are in large part due to the cost of providing 
care to the aging and disabled populations. Care for these groups has 
increased at a rate much faster than inflation because of price 
increases in prescription medications, the rapidly rising costs for 
nursing home services, and labor costs that continue to soar, driven by 
a nationwide shortage of nurses and new staffing requirements. The 
District has also experienced enrollment increases and has now reached 
99 percent eligible enrollment status. This is attributable mainly to 
aggressive outreach campaigns and program expansions such as the 
Childless Adults Waiver that offers coverage for ages 50-64 up to 50 
percent FPL and the expansion of the HIV/AIDS Waiver.
    When we benchmarked our Medicaid program with our neighboring 
States, here is what we found:
  --25 percent of the District's population is enrolled in Medicaid--
        compared to 12 percent in Maryland and 9 percent in Virginia.
  --The District spends, on average, $7,242 per enrollee--compared to 
        $5,509 in Maryland and $5,177 in Virginia.
Per resident, D.C. spends $1,776--compared to $649 in Maryland and $445 
in Virginia.
    Costs per enrollee are higher in the District than in surrounding 
jurisdictions because the District, an entirely urban area, has higher 
costs to deliver the same services as Maryland and Virginia. These 
States spread part of their service delivery over rural areas that have 
lower costs. With higher costs per enrollee and a high proportion of 
its population in need, D.C. taxpayers carry a large burden for their 
fellow residents.
    Public Education.--Formula increases in public education for both 
D.C. Public Schools and Charter Schools add $75 million to this 
appropriation. However, these increases are needed to maintain schools 
as they operate today.
    Pay Costs.--The increased cost of maintaining the District's 
workforce, essentially unchanged in size from fiscal year 2004, is $89 
million--an increase of six percent over fiscal year 2004. These 
increased costs are driven predominantly by previously negotiated 
labor/management agreements.
    Operating Impact of Capital Projects.--As a matter of good-
budgeting, the District has decided to recognize explicitly in its 
operating budgets the on-going maintenance costs of completed capital 
projects. This approach assures that the on-going operational costs of 
such projects do not show up as subsequent spending pressures or 
inadequately maintained systems. In the past 5 years, the District has 
had an aggressive program of capital improvements in the information 
technology arena and must now budget for resultant maintenance costs. 
In fiscal year 2005, such costs add $28 million to our baseline needs.
    Debt Service and Other Fixed Costs Increases.--An increase of $68 
million is required to service the District's debt and meet fixed cost 
increases (rent, telecommunications, etc.).
    The chart at the end of my testimony breaks out these cost 
increases by type.

                          THE FISCAL FORECAST

    The economic outlook for the District in fiscal year 2005 is quite 
good, with a forecast growth in the baseline tax revenue of 5.4 
percent. Retail sales, including tourist accommodations and 
restaurants, as well as general retail, are expected to be up by 5 
percent--reflecting current trends--as will individual and corporate 
income taxes. The real estate market continues very strong, with taxes 
on property sales remaining at all time highs and real property tax 
revenue expected to increase 11 percent in fiscal year 2005. Special 
purpose revenue funds will grow by 8.7 percent.
    The fiscal year 2005-fiscal year 2008 financial plan projects 
positive net operating margins through fiscal year 2008. However, the 
District will operate on a very slim financial margin--about $1 million 
in fiscal year 2005--based on expenditure plans and forecasts of 
revenue growth. The 8.7 percent expenditure growth in the fiscal year 
2005 budget is financed through the use of growth in current year 
revenues and fund balance amounts accumulated from prior years. Once 
used, a fund balance is gone and on-going expenditure requirements must 
ultimately be met with on-going revenue streams. Our financial plan 
shows that the District of Columbia meets this requirement in the 
planning period.
    Because of these tight projected margins, any adverse disturbance 
in the District's expected financial fortune could necessitate 
immediate major cutbacks in programs and services. Our very large 
emergency and contingency reserves are of limited help, for two 
reasons. First, the conditions for use are very restrictive and, 
second, any funds used must be paid back in the next fiscal year. 
Realistically, and especially in very difficult circumstances when 
resources are desperately needed, the District cannot take advantage of 
these funds. It will be challenging for our revenue stream to sustain 
the current level of service, and there is no room for consideration of 
additional program initiatives or significant infrastructure 
investments. For these reasons, the city and its elected leadership 
will face progressively more difficult program and financial decisions 
in the years to come.

                       CAPITAL BUDGET CONSTRAINTS

    One area where the imbalance between revenues and needed 
expenditures is already apparent is in the capital budget. The Capital 
program is increasingly constrained by limited operating revenues to 
support debt service as well as by the impact of prudent debt ratios 
and debt service affordability determinations. To maintain good 
standing with Wall Street, we must cap annual capital borrowing at $400 
million in fiscal year 2005, $350 million in fiscal year 2006 and $300 
million in fiscal year 2007 and fiscal year 2008. With estimated needs 
of $775 million, the District's Capital Improvement Plan for fiscal 
year 2005 has an expenditure gap of approximately $375 million.
    Structural Imbalance in the District's Budget.--In the last 7 
years, the District has submitted balanced and responsible budgets 
during periods of increasing, as well as declining, revenues. Our 
restrained budgeting in the good years helped us work through some of 
the hard times. Despite this record of balanced budgets, the District 
has a serious long-term financial problem--a structural imbalance that 
transcends short-term challenges and cyclical revenue fluctuations. 
This structural imbalance is a long-term gap between the District's 
ability to raise revenue at reasonable tax rates and the District's 
ability to provide services of reasonable quality and quantity to its 
residents. The causes and consequences of this imbalance were well 
documented by the General Accounting Office.
    The GAO defines a financial structural imbalance as an inability to 
provide a representative array of public services by taxing at 
representative rates. Using this definition, many municipalities could 
legitimately claim to have a structural imbalance. However, the 
District is unique among all municipal governments. It is the only city 
chartered in the Constitution of the United States and under the 
legislative jurisdiction of the Congress--that is, the District is the 
only Federal City of the United States of America. It is the only city 
that has no State to share costs or underwrite expenditures in whole or 
part; instead, the District of Columbia bears about $500 million 
annually in costs of Mental Health, Human Services, Child and Family 
Services, a University, Motor Vehicles, Taxation, Insurance Regulation, 
Public Service Commission, and other State services. The District is a 
city whose primary employer is self-determined to be exempt from tax on 
its property and exempt from tax on its income. Further, by Federal 
law, the preponderance of workers in the District of Columbia are 
exempt from the District of Columbia income tax. Lastly, it is the only 
municipality in the country that must exercise the responsibilities of 
a city, county, State, and school district. Although the District has 
the taxing authority for all types of taxes typical of States and local 
governments combined, it does not have the corresponding tax base 
sufficient to pay for the services it must provide.
    As a consequence of these factors, the GAO finds the District's 
structural imbalance for fiscal year 2000 to be 14.4 percent to 40.3 
percent of local revenue, depending on how it is measured. Note that 
this is after the benefits of the 1997 Revitalization Act that relieved 
the District of some State-like services and ended the annual Federal 
payment. According to GAO, the District either is among the group of 
States with the very highest shortfalls (at the very lowest end of the 
range) or the District has more than twice the shortfall of the highest 
State (at the highest end of the range). The lower-end represents a set 
of services typical of a State and the higher-end adds emphasis for 
dense urban areas. The District obviously falls somewhere above the 
bottom and, arguably, close to the top. Because of our urban population 
and service requirements, the District of Columbia's problem clearly is 
severe and exceeds that of any State.
    The GAO report also finds that the District of Columbia continues 
to defer significant amounts of infrastructure development because of 
constraints in its operating budget. When compared to combined State 
and local debt across the 50 States, GAO found that the District's debt 
ranks as the highest in the Nation both per capita and as a percentage 
of own-source revenue.

         THE BASIS FOR FEDERAL ACTION TO ADDRESS THE IMBALANCE

    Because of the District's unique status, the Federal Government--
both the legislative and executive branches--has recognized its 
responsibility to assist the District in meeting its municipal 
financing needs. For many years, federally appointed commissioners 
administered the delivery of municipal services under the aegis of the 
Federal Government. With the establishment of limited home rule in 
1973, chartering Federal legislation provided for a Federal payment. 
The basis for such payment was laid out in Section 11601 of the Act, 
which recognized the special limitations and burdens placed on the 
District by the Federal Government. These restrictions included 
limitations on the District's taxing authority, the costs of providing 
municipal services to Federal installations in the District, and the 
special costs imposed on the District because of its status as the 
capital of the Nation.
    The District of Columbia Revitalization Act of 1997 restructured 
responsibilities in a way that resulted in the assumption by the 
Federal Government of prisons, courts and certain D.C. employee pension 
liabilities. In the absence of a parent State for the District, under 
the Revitalization Act, the Federal Government assumed certain 
responsibilities that in other localities would be undertaken by the 
State. At the same time, this Act phased out the annual Federal payment 
to the District but contained language permitting this issue to be 
revisited at an appropriate time.
    In addition to the courts and prisons, each year the Federal 
Government provides financial assistance to the District for a variety 
of targeted projects. Apart from pass-throughs to non-governmental 
entities and formula-driven Federal entitlement payments, this amount 
has ranged from a high of $167 million in fiscal year 1998 to a low of 
$24 million in fiscal year 2000 and was $127 million in fiscal year 
2003. Notwithstanding the provisions of the Revitalization Act, and the 
continued financial support from the Federal Government for earmarked 
projects, the District still faces an on-going structural imbalance.
    When it comes to addressing the structural imbalance, we see few 
additional options other than continuing to shortcut services. Already 
the District has extremely high tax burdens; recall that by GAO account 
this burden ranges from 18 percent to 33 percent above the average for 
States, depending on the measurement used. Increasing the tax burden on 
District businesses and residents even further simply influences 
potential and current residents or businesses to locate in adjacent 
lower-tax or higher-service States. Given the structural imbalance, the 
District must continue to choose between tax levels that are even 
higher than the national average, service levels that are lower than 
the national average, or combinations of both.
    It is my hope that the GAO report helps Congress and the District 
move beyond questions of whether there is a structural imbalance to 
questions of how the Federal Government and District government can 
work together to address this problem. And this problem must be 
addressed with urgency to assure the long-term financial viability of 
the Nation's capital city.
    Congresswoman Eleanor Holmes Norton authored Bill H.R. 4269, the 
District of Columbia Fair Federal Compensation Act of 2004, that 
recognizes the District's unique needs and provides unique solutions. 
That Bill establishes a Dedicated Infrastructure Account within the 
general fund of the District. The fund would receive $800 million 
annually in Federal monies, with growth adjustments over time. These 
monies could be used only for transportation including streets, 
information technology, and DCPS infrastructure developments and to 
support debt service payments on bonds, notes and other obligations of 
the District. Funds would remain available until expended.
    I urge the Senate to consider the Norton bill favorably. By 
providing for infrastructure development, it can help reverse the 
history of necessary neglect and move the District of Columbia toward 
the shining example that should be set by the capital city of the free 
world. With so many financial accomplishments now well underway in the 
District of Columbia, this is the last major piece of the financial 
puzzle and the District cannot prosper into the future without it.

                       CASH RESERVE REQUIREMENTS

    The District's flexibility in managing its finances is also 
constrained by its current reserve requirements. As you are aware, in 
fiscal year 2002, the District fully funded its Emergency and 
Contingency Cash Reserve Funds at their maximum required levels, 
totaling $248 million, or 7 percent of the local expenditure budget. 
This was a significant accomplishment, achieved 5 years ahead of the 
Congressionally mandated time frame. Maintaining the 7 percent level 
for the District's Cash Reserves required an increase to $254 million 
for fiscal year 2003 and $285 million for fiscal year 2004. In fiscal 
year 2005 the emergency and contingency cash reserves combined are 
budgeted to reach $303 million. This is in addition to the $50 million 
in operating cash reserve maintained by the District. If I may, I would 
like to briefly summarize cash reserve requirements elsewhere as a 
reminder of how noteworthy the District's performance is in this area.
    No other major city has a cash reserve requirement except Denver, 
which is required to have 3 percent of general fund expenditures in a 
reserve.
    Among States, most have some form of cash reserve or ``rainy day'' 
fund. Further,
  --the approximate average size of these funds is 5 percent of budget;
  --most States have no replenishment requirement, but 6 States require 
        the funds to be replenished over the course of 2, 3, or 5 
        years; and
  --in 21 States, the reserve funds can be used when the State faces a 
        deficit for any reason, and in most other States the funds can 
        be used in the event of a revenue shortfall.
    Working with Congress, the District has developed proposed changes 
to our emergency and contingency cash reserve requirements. These 
changes, included in the District's fiscal year 2005 Budget Request 
Act, would reduce the overall requirement from 7 percent to 6 percent 
(2 percent Emergency and 4 percent Contingency). The proposed changes 
would modify the requirement for replenishment from a 1-year 
replenishment to a 2-year requirement with no less than 50 percent 
being paid back in the first fiscal year after use. In addition, the 
proposed changes recognize that the District's Home Rule Act requires 
the District to maintain a separate cash reserve for expenditures 
associated with debt service payments. This separate cash reserve is in 
addition to the 7 percent emergency and contingency cash reserves. The 
proposed changes remove from the calculation of the 7 percent emergency 
and contingency cash reserve those expenditures associated with debt 
service for which this separate reserve is already maintained. Finally, 
the proposal would change the basis of the calculation of the 7 percent 
for the emergency and contingency cash reserves from local fund 
expenditures as proposed in the District's upcoming fiscal year budget, 
to local fund expenditures as calculated in the annual Comprehensive 
Annual Financial Report.
    Even with, what we hope will be congressional enactment of the 
proposed changes, you can see from the comparison to other States, the 
District has an exceptionally strong reserve position, but would still 
have among the most demanding of any jurisdiction in the country with 
respect to the amount required, the fact that access to these funds is 
granted only in declared major emergencies or serious revenue 
contingencies and the replenishment requirements.

                               CONCLUSION

    Mr. Chairman, this concludes my prepared remarks. I request that 
this testimony be made part of the record. I will be pleased to answer 
any questions you or the other members may have.

    Senator DeWine. Mayor, you have requested $9 million in 
Federal support for a new forensic lab. As a former county 
prosecutor, I certainly understand the need for good forensic 
work.
    What will be the local contribution for this and what is 
the total cost of the project? And something you and I 
discussed the other day--what are the operational cost 
estimates when the lab is up and running? Have you figured that 
out yet?
    Mayor Williams. Yes, we have, Mr. Chairman. We estimate 
that the overall cost will be $80 million through 2008.
    Senator DeWine. For the construction of the lab itself?
    Mayor Williams. For the planning and the construction, and 
the District's participation would be over that period. So, for 
example, in the first year we are requesting $9 million. The 
District would contribute $2.3 million for a total of $11.3. In 
2006, the combined Federal-District contribution would be $30 
million; the same for 2007 in construction. And then in fiscal 
year 2008, for construction, commissioning, and the completion, 
it would be $8.7. So it would be a partnership.
    As I said in my testimony, we are prepared to--and I can't 
speak for whoever is Mayor at that time, but we are committed 
to putting in place $40 million. That would be about $20 
million more than we are spending right now to operate this 
facility because we believe the benefits to our city, to 
Federal workers and to visitors alike are more than worth the 
investment.
    Senator DeWine. So it would be how much per year, Mayor? I 
am sorry.
    Mayor Williams. Around $42 million, my people are telling 
me. So that is about $20 million more than we are spending now.
    Senator DeWine. For the lab itself?
    Mayor Williams. Right, so we are assuming the operating 
burden for this facility.
    Senator DeWine. So the use of the lab is just going to go 
up, as we would expect, as you and I discussed the other day.
    Mayor Williams. Right, because we are going to be doing 
more than we do now.
    Senator DeWine. Sure. It is going to do a lot more than you 
are doing now, and your results, we assume, will significantly 
increase. And if you got a good lab there, what is going to 
happen is that your prosecutors and your police are going to be 
able to use it more, and as they use it more, your costs are 
going to go up.
    Mayor Williams. Right.
    Senator DeWine. Okay.
    Mayor Williams. I would say, Mr. Chairman, we have shown a 
lot of progress with Chief Ramsey, with the oversight--the 
Council has been very strong and adamant about this--in 
improving our closure rate to where it is now leading many 
other cities. But we still have a long way to go and the 
forensics lab would really enormously help that effort.
    Senator DeWine. Your current situation now is that you use 
the FBI lab. That is free to you, is that right, or do you pay 
for that or how does that work?
    Mayor Williams. I believe it is free.
    Senator DeWine. But you have got limited use of it?
    Mayor Williams. You get what you pay for, right.
    Senator DeWine. Well, I mean in all fairness, it is a 
limited use, though.
    Mayor Williams. Right, because we are not their top 
priority, by definition.
    Senator DeWine. Right, and that is just the way it is.
    Mayor Williams. We thank the FBI and we value their 
partnership. I don't mean to say anything otherwise.
    Senator DeWine. Right, but in all fairness, it is not 
yours.
    Mayor Williams. Right.
    Senator DeWine. Let me ask you about your request in regard 
to Federal support to help the District meet its commitment to 
Metro. Why is this important?
    Mayor Williams. Mr. Chairman, I think it is enormously 
important because if you look at our Metro responsibilities, as 
I said before, this is something that benefits not only the 
District, but it benefits our visitors, it benefits our Federal 
workers, it benefits the overall region.
    We are paying a disproportionate share here in the District 
for regular funding compared to Maryland and Virginia because 
the formula doesn't recognize our peculiar situation, and the 
structure of the Metro, as well, doesn't. We have a number of 
stations, for example, that are right within the District's 
boundary, and the long and short of it is we have an enormous 
amount of commuter use of our Metro and that is not reflected 
in the formula.
    Finally, as I said in my testimony earlier, the Federal 
Government has withdrawn support over the years, has reduced 
its support for Metro, while States have increased support. But 
we have no State to increase support to compensate for that 
lack of Federal support. So that is all coming out of the 
District, some $210 million.
    In terms of actual benefits, we are talking about increased 
ridership, new bus systems that particularly would allow our 
lower-income workers--I know the Senate, for example, has been 
very, very supportive of mothers moving into the world of work, 
with support for day care. This would allow those mothers the 
opportunity to have transportation to get to their jobs. So 
there are enormous benefits to this, as well. I would be happy 
to go into more detail.
    Senator DeWine. No, no, that is fine.
    Dr. Gandhi. And, Mr. Chairman, if I may just add some 
numbers to what the Mayor just said, we are talking about in 
2004 roughly $163 million of operating expenditures that we 
have to provide to Metro. That goes to 171, 179, 188, all the 
way up to 2007.
    But more important is the capital needs that we have to 
provide for, and the needs are something like $250 million in 
2004, double that much, or about $420 million in 2005, and keep 
on going to $468 million in 2007. Obviously, these are enormous 
needs and we cannot afford to provide that kind of capital 
funding because we have a limitation. As the Mayor pointed out, 
we have the highest per capita borrowing in the country, and if 
we were to go out and borrow more money, it would affect our 
bond rating. So we are in kind of a catch-22 here.
    Ms. Cropp. Mr. Chairman, if you took the capital needs for 
Metro and the capital needs for our school system alone, there 
would be no more capital dollars available for any other 
infrastructure needs in the District of Columbia.
    Senator DeWine. Well, my time is up. I am going to have 
some more questions, but let me turn to Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. I am going to 
have four questions, if I could, on, No. 1, the imbalance that 
I would like to get some information on the record on, the 
structural imbalance; one on the school governance issue; the 
progress we are making on child welfare; and also back to 
education and tuition assistance. There may be more, but I 
would like to try to work through these.
    I think, Mr. Mayor, based on my view, having worked with 
many of you on a variety of different issues, it would be fair 
to say--and I would like if you would agree or disagree with 
this--that with all the immediate challenges before the 
District, the structural imbalance issue is at the core or is 
essential to find some remedy.
    According to the GAO study that was commissioned by 
Congresswoman Norton and myself which was released last year--
the chairman is aware of this study--it is estimated that, 
first of all, the gap is real and it exists. This is an 
independent third party, so that was one of the findings. It 
could be anywhere from $470 million to $1 billion.
    The other interesting part of this finding said that the 
District of Columbia cannot raise more revenue; it already has 
one of the highest taxing structures in the Nation and the 
region. It also says in this study the District of Columbia 
cannot lower spending, spending 5 percent less already than 
other urban areas for comparable services.
    It says the imbalance is largely beyond the D.C. officials' 
direct control. It does acknowledge that some additional 
management efficiencies could be achieved, but it is quick to 
say even if you did 100 percent and were perfect in your 
management, which no city is, and obviously neither is the 
Federal Government, you couldn't close the gap with management 
efficiencies. It says the District of Columbia is not the same 
as other cities. It has special benefits and burdens of being 
the Nation's Capital.
    So given that, and given your testimony, Mr. Mayor, do you 
agree with this, and what are the one or two steps that we 
could explore that, in your mind, might be a way the Federal 
Government could help close that gap? Is it focused on maybe 
capital outlay needs of the District? Could it be focused in 
other ways? What would your suggestions be to us? And I am 
hoping that this Congress could develop a remedy.
    Mayor Williams. Thank you, Senator Landrieu. I agree 
wholeheartedly with the GAO study. I think in this case where 
the GAO study has said something without any axe to grind on an 
objective basis, I think they are right on the money. They have 
also mentioned, in addition, Senator Landrieu, the fact that we 
are a higher-cost urban area. They mention that the District 
has the highest concentration of poverty in the United States.
    We have one of the largest extremes in education in our 
city and in income in our city of any city in the country, and 
this concentration of poverty presents the District with higher 
costs, particularly State costs, without the tax base to meet 
them. So we are overly bonded and we are over-taxed.
    I happen to think, chiming in with what Chairman Cropp has 
said, if we spent all of our money on our schools and on our 
Metro, we wouldn't have any more debt capacity. I think one of 
the major ways that the Federal Government can meet this 
responsibility is to take the measure that has been supported 
by a number of regional leaders and led by Congresswoman Norton 
that calls for a regular formula investment in the District, 
and to take that formula investment and put it into our 
infrastructure needs.
    I think that, No. 1, that will relieve enormous pressure on 
our budget, and, No. 2, these infrastructure needs really are 
needs that are, No. 1, regional; No. 2, benefit the quality of 
life in the District, but also benefit the Federal Government 
because it benefits our Federal workers and it benefits our 
visitors. So there is a shared interest in success in that 
area. So I would strongly support using these funds to support 
our debt financing and our infrastructure needs.
    Senator Landrieu. Well, let me say, Mr. Mayor, we are going 
to look very closely at that proposal because obviously, based 
on this study, some remedy has to be proposed. But, again, the 
importance is to recognize the gap is real, that it is not 
within the power of city officials to close the gap. So all the 
reforms that we are putting in place, whether it is financial 
reform, school reform, environmental reforms in terms of the 
clean-up efforts underway, or the reforms on child welfare 
which this chairman has led, are all in jeopardy if this issue 
is not faced head-on.
    So, Mr. Chairman, with all the challenges, I think if our 
committee could stay focused on this solution, it would be 
helpful.
    I want to outline a particular formula. It could be 
something like this; it could be something different. But if we 
thought about taking the problem down into measurable amounts, 
50 percent of the gap could be closed by a Federal relief in 
some way, 15 percent--maybe it is not that high--10 or 15 
percent by increased management efficiencies, and 35 percent 
based on maybe new strategies within the District to increase 
residents.
    One way to close the gap is to bring new taxpayers to the 
District so that you increase the tax base. The Mayor and the 
Council, I think, have some strategies in place, and my second 
question is about one of those strategies, in particular, which 
is City Build charters.
    Mr. Mayor, I want to thank you for your support and 
efforts.
    I wanted to read for the record what the City Build charter 
initiative is and then submit a longer document. With the help 
of our committee and with you all, we created a City Build 
charter school initiative. It is designed specifically to meet 
the Mayor's goal, shared by the Council, of attracting 100,000 
new residents to the District by targeting neighborhoods that 
have the near-term potential of attracting and retaining new 
homeowners, particularly those with school-age children, by 
using the promise of quality schools as an economic development 
tool to increase the residential and commercial tax base of the 
District.
    [The information follows:]

                  City Build Charter School Initiative

    ``Improving education is one of the most crucial elements to 
improving our city. It is key to attracting 100,000 new residents, who 
want to live and raise children in the District.''----Mayor Anthony 
Williams, Feb. 14, 2003.

         WHAT IS THE ``CITY BUILD'' CHARTER SCHOOL INITIATIVE?

    The ``City Build'' Charter School initiative is designed 
specifically meet the Mayor's goal of attracting 100,000 new residents 
to the District by targeting neighborhoods that have the near term 
potential of attracting or retaining new home owners, particularly 
those with school age children, by using the promise of quality schools 
as an economic development tool to increase the residential and 
commercial tax base of the city.
    In the Senate D.C. Appropriations bill for fiscal year 2004, 
Congress included $5 million to develop a ``City Build'' Charter School 
Initiative. This initial appropriation will be used to create five new 
charter schools in the District neighborhoods that demonstrate the 
greatest potential for meeting the goals of the program.

                HOW WILL THE NEW SCHOOL SITES BE CHOSEN?

    As stated in the text of the appropriations bill, Mayor Williams 
will be responsible for selecting sites for the five new charter 
schools. The determination of the neighborhoods and school sites will 
be made in consultation with the D.C. City Council, the School Board, 
advocacy groups and community and business leaders in a public meeting. 
The selection of neighborhoods best suited to help attract or retain 
100,000 D.C. residents, will take into consideration the following:
  --The number, quality and affordability of the neighborhood schools 
        (public, charter and independent).
  --The waiting lists for admission to the areas high performing 
        public, independent and charter schools.
  --Recent trends in the neighborhood's real estate market, including 
        the sale and purchase of homes, demand for rental properties 
        and the potential for population growth and increased private 
        investment.

 ARE THE ``CITY BUILD'' CHARTERS THE ONLY NEW CHARTERS AVAILABLE THIS 
                                 YEAR?

    No. Since the passing of the District of Columbia's charter school 
law in 1996, the District of Columbia's chartering authorities have 
approved almost 40 charters, earning the District of Columbia the 
distinction of having the highest concentration of charter schools in 
the Nation. The ``City Build'' initiative is designed to further this 
laudable growth in the use of charter schools as a means of achieving 
excellence and expanded choice for children and their parents. The 
District of Columbia's charter school law allows for up to 20 new 
charters to be created each year. To support these efforts, the Fiscal 
Year 2004 Appropriation also includes $8 million for the Charter School 
Direct Loan program and other charter school support programs, bringing 
the total Federal support for D.C. charter schools over the last 3 
years to almost $40 million.

WHAT ABOUT PUBLIC SCHOOLS IN THESE AND OTHER NEIGHBORHOODS, DON'T THEY 
                               NEED HELP?

    Yes. The ``City Build'' Charter program is only a part of an 
overall plan for transforming elementary and secondary education in the 
District. With this in mind, Congress appropriated a total of $40 
million in 2003 for school improvement activities; $13 million for 
public school transformation activities; $13 million for charter school 
enhancement programs, including the $5 million for the ``City Build'' 
initiative, and $13 million to provide opportunity scholarships for low 
income students to attend private schools. The goal of all of these 
efforts is not to create competition among the various types of 
schools, but to create a strong synergy around the shared goal of 
giving parents more choice and every child a chance to succeed. 
Expanding high quality options allows parents to make the choice that 
is best for their child and their needs.

                      WHAT IS THE LONG TERM PLAN?

    The Appropriations Committee intends for this to be a 5-year, 
ongoing appropriation. If funding allows, the goal would be to fund 
three to five new ``City Build'' charter schools each year for the next 
5 years. As other public and private funds become available and as this 
pilot program proves successful, opportunities for future ``City 
Build'' charters will be explored.

                   HOW WILL THE PROGRAM BE EVALUATED?

    Each year, the Mayor will report to Congress on the effectiveness 
of the program. Such report should include:
  --The academic performance of the students and the overall 
        performance of the schools funded by this initiative.
  --The enrollment of schools funded by this initiative.
  --The waiting lists for schools funded by this initiative.
  --The impact of these schools on the sales and/or purchases of homes 
        as well as rental turnover, specifically by residents with 
        children.
  --The impact of these schools on the size of the population of the 
        neighborhood.
  --The impact of these schools on the overall vitality of the 
        neighborhood.
    At the end of the 5 years, the U.S. Department of Education will 
conduct an independent evaluation to determine if this initiative could 
be expanded to other urban areas in need of similar development.

    Senator Landrieu. So I am urging us to consider this 
strategy as one of many strategies--tax credits. There could be 
other school-related strategies, other economic development 
strategies in neighborhoods, as part of this structural 
imbalance challenge. Again, the Federal Government should step 
up and commit some resources. The city can continue to improve 
its efficiencies to close that gap, but another very important 
part of that is what can we do to attract new residents to the 
city.
    So, Mr. Mayor, my question is you have been given under our 
new law the obligation to identify the potential neighborhoods 
where these City Build charters may work to attract middle-
income families to either stop leaving or return to the 
District.
    Without going into any specific detail, just give some 
comments about your thoughts about this initiative, your hopes 
for it. Do we think we could build on it this year and expand 
it in the years to come? Do you see as an effective tool for 
trying to get new residents back to the city?
    Mayor Williams. I think City Build is an enormously 
important initiative because it really gives us more 
flexibility and focus in improving education, and education is 
critical to providing the expectations that families have when 
they move to a city.
    The three critical things are operations, public safety and 
public education. I believe the city has made enormous strides 
on the operation front in terms of predictability, regularity 
and efficiency of service. So then that gives you public 
safety. We have begun making some inroads on public safety. We 
are running substantially below last year in crime now, and I 
applaud the chief and our public safety people, and 
particularly City Administrator Robert Bobb for focusing on the 
high-crime hot spots.
    So that leaves us with public education. The Mayor and the 
Council are engaged in discussions about the governance of 
education, bringing in the very best superintendent, and we are 
moving on that front. The Mayor and the Council have worked 
together in supporting a robust charter school effort, leading 
the country per capita in the number of charter schools, and a 
key part of that is City Build.
    We are hoping that, by June, we can receive applications 
for these City Build schools in targeted neighborhoods and, 
with City Build, provide one of two important functions, I 
think, that charter schools can provide our city. The first 
function is providing parents in these targeted neighborhoods 
with an additional choice for their children so they don't move 
out once their children reach school age, and that is 
absolutely important.
    The other area where charter schools, I think, can provide 
an enormous help is in providing additional choices and 
flexibility for kids who need additional help. An example of 
that would be the SEED School, where you have every one of 
these kids at the SEED School, in this boarding school concept, 
going to be going to college. Another example is the wonderful 
Maya Angelou School, where you are targeting kids with special 
needs.
    Charter schools can do that much more quickly, and in many 
cases more effectively for a lot of different reasons than our 
regular public schools. So the City Build concept as part of 
the larger public charter school concept is critical to 
bringing in these 100,000 new residents, because you are right, 
Senator. The reason why I set the goal, in conjunction with the 
Council, at 100,000 new residents is, yes, we are trying to 
expand our tax base.
    One way you solve this problem is to recognize that the 
District used to have around 800,000 people in it. So if we 
could use a business model, we have got a store that is built 
for 800,000 customers and we have only got about 600,000 and we 
have got a lot of slack capacity. It is like driving around the 
bus half empty, so we need more passengers, and the charter 
schools allow us to do that.
    Senator Landrieu. Well, I just want to commend you for your 
effort because almost every city in America is struggling, 
particularly cities in the South that saw a lot of flight in 
the 1950's and 1960's and 1970's because of the Brown v. Board 
of Education decision, which we mark and celebrate today.
    Mr. Mayor, as you can recall, it was a very unsettling 
decision back in the 1950's and 1960's, but we have learned a 
great deal and I think we have matured as a society. New 
Orleans, for instance, my hometown, had 750,000 25 years ago. 
Today, it has 450,000 because of the white flight that left the 
city.
    Now that we are 50 years smarter since Brown and more 
mature and more sophisticated, I think that we can devise 
strategies that will work, that will meet the needs of people 
and the great aspirations and hopes that all people have, 
regardless of race or income, about having opportunities for 
their children and for themselves.
    This is part of a very exciting strategy that many cities 
are beginning to use, and I want to commend the District for 
using schools as a lure, if you will, to attract people back to 
the cities, and smart and efficient tax cuts.
    My second question--and I thank the chairman for his 
latitude here, because schools are a great passion and because, 
I guess, we are marking Brown v. Board of Education this week. 
It is much on my mind and many of the Senators that advocate 
for fairly radical change and transformation in our school 
systems.
    I read with some disappointment, I guess, the vote last 
night. Although I have not endorsed any particular plan, Mr. 
Mayor, as you know, and Council leader Cropp, I would just want 
to state for the record that I do disagree with the statement 
that was reported in the paper this morning about the solution 
being a quality superintendent.
    Districts all over this country that think that just 
getting the right superintendent is the answer to their problem 
should line up behind the thousands of districts around this 
country that have brought in top-flight, top-quality, 
enthusiastic, well-skilled superintendents, only to find them 
leave after 3 years with very little in place.
    I would say that while it is very important to have a sharp 
superintendent, and obviously tremendous leadership from your 
principals and your teachers, a system that continues to reward 
mediocrity, resist transparency, a system that resists 
accountability, a system that focuses on process and not 
results, is doomed to failure no matter how many great 
superintendents or great principals or great teachers.
    So without endorsing or supporting any particular plan, I 
would like, Chairman Cropp, if you would just give a couple of 
thoughts, and the Mayor, about your continued efforts to try to 
find a way to create a new system--I don't know who is going to 
run it, but a new system that is accountable, that is 
transparent, that focuses on excellence, that is child- and 
family-centered and brings hope to the residents of the 
District and the region, and serves as a model for the Nation.
    This will be my last question until the second round, but 
maybe, Chairman Cropp, you could give a couple of thoughts that 
you might have.
    Ms. Cropp. I don't think, Senator Landrieu, that anyone 
would disagree with your statement as to what we need for a 
system and that everyone wants to have a better system, 
obviously, including the District of Columbia.
    The District of Columbia in recent years has gone through 
so much change. From the time that the Financial Authority came 
to the District, we have changed superintendents from the 
original superintendent, to General Beckton, to Arlene 
Ackerman, who did not really want to be superintendent, then 
another superintendent. All of this was under strict governance 
of the Financial Authority--total instability, total change for 
our school system. How could we expect anything but failure, 
when we have constant change and instability? We are now moving 
in a direction where the Board of Education recently has 
adopted certain standards that would bring about those very 
things that you just articulated.
    It seems to me that one of the things that we need to 
continue to try to do is bring about stability. Over the past 
couple of weeks, we have had an opportunity to interview 
candidates to become Superintendent of Schools, and many of us 
believe that the superintendent is an important role, along 
with the classroom teacher who has that direct nexus with the 
students.
    The one thing that we found from every study across the 
country, even all of the leading superintendents, is that 
governance is not what dictates what will bring about a good 
school system. There is an awful lot that is involved in it, 
and I think we are committed, as we struggle in the District of 
Columbia to find out what that answer is, to work together.
    As we have talked to the superintendents who have come in, 
they have seen many different governance structures work. But 
what they need is they need to have people who are committed to 
educate the young people. They need to have the ability to run 
the school system and put in the types of programs that are 
needed, and they need to have the commitment of all of the 
principals who are involved in this city to say that they are 
indeed supportive of education.
    I have to say that I am pleasantly surprised with the types 
of candidates that we got to be Superintendent of Schools. We 
have some of the top, most respected educators in the country 
who have applied. I think we still have an opportunity, in 
talking with some of the others, to bring in those individuals. 
And if we have the commitment of all of the elected leadership 
and if we have the commitment of that superintendent and if we 
get down into the bowels of the school system with the teachers 
who are really interacting and bring about some standards and 
criteria that we need to educate the type of child that we want 
to send out into society, then I think we all will be winners.
    It is a struggle. If we had the answer, everybody in the 
country would do it, but I think we are moving along the right 
way. What I would like to do is to have the school system 
submit to you some of the new changes that they have instituted 
within the past probably 3 or 4 months that I think would 
increase your level of comfort with regard to the direction 
that the school system is going--very thoughtful and 
considerate, and I think directly related to the education of 
our young people.
    Senator Landrieu. Thank you. I am familiar with some of 
them, but I appreciate you sending me that additional 
information. I think the urgency of trying to scale up some of 
the things that are working in the District is what is on 
people's minds, not to wait 10 or 15 or 20 years, which is the 
entire life of a student, but to try to identify quickly the 
things that are working and scale them up with some urgency, 
considering the dismal performance of some of the schools not 
just in this city but across the Nation. To have only 20 
percent of children reading at certain levels just robs them of 
any good future that they might have.
    Ms. Cropp. Might I just add that with our budget, the Mayor 
submitted to Council and the Council approved a recommendation 
that would improve our early childhood education level. That is 
one of the main things, I think, that will make a difference 
because indicators have shown that if a child enters the first 
grade and they don't know certain basic skills such as their 
name, their address, their parents' names, or can't count to 
10, colors, they are already 3 years behind. And unless they 
really have an infusion of support, they probably will not 
catch up. So we are doing some other things budget-wise that 
will help move our system, too.
    Senator Landrieu. Mr. Mayor, very quickly, because the 
chairman has been gracious.
    Mayor Williams. I am a big fan of Chairman Cropp and I 
think she has done a fantastic job with our Council and our 
city wouldn't be where it is but for her leadership. I don't 
know how she manages to keep the Council going, but she does, 
and she has a unique skill and ability to do it. We just 
disagree on this issue, and I am confident that as we get 
through the final stages of the legislative process, her unique 
skills and abilities and my initiative will allow us to reach a 
conclusion that will honor the strong voice in our city for 
democracy.
    I respect that the School Board was the first elected board 
in the city--I mean, the first elected anything in the city on 
a home rule basis. It has got to have more than just simple 
significance; it has got to have some kind of influence. 
Parents have to have a way to redress their grievances, and the 
board ought to be--and the Council has spoken to this--the 
board ought to be more about policy and not about nitty-gritty, 
in-the-weeds operations.
    I think we can do this and at the same time do two 
important things, and this is why I believe strongly that some 
change is needed. One, we really need one point of contact in 
the District government to manage the systems because the 
systems in the schools are a mess. There is no other way of 
looking at it. I mean, I know what a mess is because I saw a 
mess when I was CFO and I have seen a lot of messes as Mayor.
    Second, the needs of children. We really need one point of 
contact in the government to focus on the needs of these kids. 
Many of these kids don't have any home. So the community, 
through the government in partnership with the faith community, 
in partnership with business and in partnership with non-
governmental organizations--the government, as the lead 
facilitator, is in loco parentis for these kids.
    Finally, when you say the studies don't really correlate 
any real outcome when it comes to governance, when you take all 
the schools systems as a whole that is true. But if you compare 
high-impact, screwed-up urban systems with high concentrations 
of poverty, there is no question that you will get better 
outcomes that lead to better test scores if you change the 
governance structure. I think you could bring God in here and 
if you don't have the right environment for success, it won't 
be successful. But that is just my opinion and the Council 
Chair and I respectfully disagree.
    Senator Landrieu. Thank you, Mr. Chairman.
    Senator DeWine. Dr. Gandhi, one criticism of the GAO report 
on structural imbalance is that the District has significant 
medical billing and claims management problems. How are you 
working to address this problem?
    Dr. Gandhi. I think we have faced a substantial problem 
particularly in the area of Medicaid reimbursement. In the 
past, we have not had any infrastructure to be able to identify 
document claims, everything that was coming to the city. We 
have been working at it for the last at least 3 years.
    Under the former City Administrator John Koskinen, and now 
under Robert Bobb, there is a special office that does nothing 
but make sure that Medicaid is properly accounted for, properly 
monitored, and that we do claim everything that is coming to 
the city. We hope that we have taken care of our past sins, 
when we had a major write-off last year, and we want to be very 
vigilant about that. The first thing that I told Mr. Bobb when 
we had our meeting when he came to the city is that there are 
three things that he should concentrate on--Medicaid, Medicaid 
and Medicaid, because that is a substantial part of our budget.
    Senator DeWine. Mayor, you requested $15 million for 
security costs related to special events in the city because it 
is the Nation's Capital--you requested, actually, $25 million 
and the President requested $15 million. Do you want to discuss 
that difference, that $10 million difference there?
    Mayor Williams. Right. The big difference, Mr. Chairman, is 
the inauguration. We estimate that, post-September 11, the 
inauguration is going to be significantly higher in its 
exposure to us than we have had in the past because of the 
additional security needs and in order to do it in a way that 
balances the need to have an open inauguration and a safe city 
and, needless to say, continuity of government.
    Senator DeWine. What does the inauguration normally cost?
    Ms. Cropp. Six million dollars.
    Mayor Williams. I think it was half that amount, right.
    Ms. Cropp. In past years, it was budgeted at $6 million.
    Senator DeWine. So you figure with the new environment, we 
are talking a lot more money than that?
    Mayor Williams. Right.
    Ms. Cropp. The challenge, Mr. Chairman, is in this year's 
budget we were not even given the $6 million that had been 
budgeted and funded in prior years.
    Mayor Williams. Some of the costs that we are looking at 
are overtime, for example, bringing in outside jurisdictions, 
some IT expenses related to coordinating all of this. Public 
works expenses are often overlooked, but they are around $1 
million, and fire and EMS as well. So I think it is a fairly 
conservative, objective request, given what we are looking at.
    Senator DeWine. Chairman Cropp, you highlighted the need to 
provide $8.6 million above the President's request for the 
Tuition Assistance Grant program. What would be the 
consequences if we were unable to provide these additional 
funds?
    Ms. Cropp. Many of our students have been able to benefit 
from that program. It would be the loss of getting education 
for a lot of citizens in the District of Columbia, and that is 
probably the worst cost.
    Senator DeWine. It has been a very successful program.
    Ms. Cropp. It has been extremely successful, and the return 
cost for that will be much greater than the initial lay-out.
    Senator DeWine. Well, I think we have gone on and kept you 
all quite a while. We appreciate it very much.
    Mary, a last question.
    Senator Landrieu. Thank you.
    Just one more, Mr. Mayor and Chairman Cropp, on the child 
welfare issue on which we are making progress. Again, I just 
thank you. We have got a long way to go, but with the 
establishment under the chairman's leadership of the new family 
court, the new principle of one judge, one family, the 
coordination of city services and court services to streamline 
and make sure that children are not lost in the system, that 
they are identified early, and seamless services brought to 
them with a focus on permanency, either reunification with 
their family, temporary foster care, and then long-term 
permanency through adoption or kinship adoption, that is a 
system that we are trying to put forward throughout the whole 
country, and in many ways in the world.
    But for the purposes of this hearing, I understand that the 
Council cut $23 million out of child welfare and put it in 
reserve. I wanted to ask you, Madam Chair, why, and ask the 
Mayor if you would comment on that situation and what you are 
doing or where you are in the process of, I think, a new hiring 
of the head of this important office.
    Ms. Cropp. The Council believed that there is a need for 
this program to continue and to be expanded. In fact, the money 
put in the contingency reserve is somewhat safeguarding those 
dollars.
    What the budget showed, as presented to the Council, was 
that there was extreme growth in the area of adoptions and 
foster care success, something that we all want to happen. And 
while we saw extreme growth of many millions of dollars in that 
particular, very important area, we also saw growth in the 
corresponding component of that program that says that there 
wouldn't be as many children left because you have put the 
children in an adoption-type program.
    The Council felt strongly that the program is of such 
importance that we wanted to err on the side of caution, and 
rather than not have the necessary dollars there for the side 
of the program that would deal with foster care, we would put 
the money in a contingency fund so that the city could have 
access to it if it was needed. But we didn't want the money 
just languishing there if there was no need. But if there is 
need for it, then the Mayor would have the ability to draw 
down. So it is in a reserve for that particular purpose.
    But if you look at the budget and you look at the line of 
children who are in foster care and then you look at the line 
of children for adoption, the adoption line is going up 
significantly, which means that the other side ought to go 
down. But it went up significantly, also, so there was a 
disconnect there. It was a non-sequitur. So then we said, well, 
let's put the money in contingency because we wanted to make 
sure that the dollars would be available if, in fact, there was 
a need.
    Senator Landrieu. Mr. Mayor.
    Mayor Williams. If you look at the growth in our budget, 
the major elements of growth have been really four-fold. That 
is what has pushed us up at an abnormal level. It isn't 
sustainable, and I don't think, as you have heard from Nat 
Gandhi's testimony, it is something we are planning on in the 
future.
    One is Medicaid, and the chairman asked a question about 
that. One was debt service. We have talked about the structural 
imbalance. One was operating costs for capital projects put in 
the operating budget. And one was court-ordered compliance.
    I am looking at what we need to do with this and I am going 
to certainly be working with the Chair to make this work, but I 
am very deeply concerned because our child welfare system is in 
a very fragile state. We have got a number of things, from 
caseload requirements, to the family team meetings that have 
been requested, some of the services for these kids that we 
want to make sure that we keep in place.
    We have moved from an utter disaster to a point where the 
court monitor came in at one of my press conferences about a 
month ago and said we are now about equal to other States. 
Well, that is enormous progress. We don't want to lapse back to 
where we were. We want to keep going in a positive direction. 
So I want to work with the Council to see that we are 
justifying to them that these funds are being used efficiently 
and we get them to these kids, and I pledge to do that in every 
way I know how.

                         CONCLUSION OF HEARINGS

    Senator DeWine. Well, we thank you very much, Mayor and Dr. 
Gandhi and Chairman Cropp. Thank you very much for your good 
work and we look forward to working with you. The budget is 
always tight. There is never enough money, but we look forward 
to working with you.
    Thank you.
    [Whereupon, at 11:20 a.m., Wednesday, May 19, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Atherton, Charles H., Secretary, U.S. Commission of Fine Arts, 
  Prepared Statement of..........................................26, 27

Brennan, Paul, Community Supervision Officer, Court Services and 
  Offender Supervision Agency, District of Columbia..............    39
    Statement of.................................................    47

Cropp, Linda W., Chairman, Council of the District of Columbia...   103
    Prepared Statement of........................................   119
    Statement of.................................................   116

DeWine, Senator Mike, U.S. Senator from Ohio:
    Opening Statement of.....................................1, 39, 103
    Prepared Statement of........................................     3
    Questions Submitted by.......................................    60

Floyd, Craig W., Chairman, National Law Enforcement Officers 
  Memorial Fund:
    Prepared Statement of........................................    29
    Statement of.................................................    27

Gallagher, Patricia, Executive Director, National Capital 
  Planning Commission:
    Prepared Statement of........................................    23
    Statement of.................................................    21
Gandhi, Natwar M., Chief Financial Officer, District of Columbia.   103
    Prepared Statement of........................................   124
    Statement of.................................................   122

Hutchison, Senator Kay Bailey, U.S. Senator from Texas, Statement 
  of.............................................................   107

Isaac, Reverend Donald, Executive Director, East of the River 
  Clergy-Police-Community Partnership............................    39
    Prepared Statement of........................................    54
    Statement of.................................................    52

King, Rufus G., III, Chief Judge, Superior Court of the District 
  of Columbia....................................................     1
    Statement of.................................................    19

Landrieu, Senator Mary L., U.S. Senator from Louisiana:
    Prepared Statement of........................................4, 105
    Questions Submitted by.......................................79, 99
    Statement of.............................................4, 40, 105
Lindstrom, Frederick J., Assistant Secretary, U.S. Commission of 
  Fine Arts, Statement of........................................    26

Quander, Paul A., Jr., Director, Court Services and Offender 
  Supervision Agency, District of Columbia:
    Prepared Statement of........................................    45
    Statement of.................................................39, 42

Saum, Christine, Senior Urban Designer, National Capital Planning 
  Commission.....................................................    21
Strauss, Senator Paul, U.S. Senator from the District of 
  Columbia:
    Prepared Statement of....................................5, 41, 108
    Statement of................................................41, 108
Sullivan, Ronald S., Jr., Director, Public Defender Service, 
  District of Columbia:
    Prepared Statement of........................................    87
    Statement of.................................................    85

Wagner, Annice M., Chief Judge, District of Columbia Court of 
  Appeals; Chair, Joint Committee on Judicial Administration:
    Statement of.................................................  1, 7
    Prepared Statement of........................................    10
Williams, Hon. Anthony A., Mayor, District of Columbia:
    Prepared Statement of........................................   112
    Statement of...............................................103, 109


                             SUBJECT INDEX

                              ----------                              

                          DISTRICT OF COLUMBIA

                                                                   Page
Capital Budget Constraints.......................................   127
Cash Reserve Requirements........................................   128
City Build Charter School Initiative.............................   133
Cost Drivers.....................................................   126
Democracy for the Nation's Capital...............................   116
Education........................................................   113
Federal:
    Budget Request...............................................   120
    Contribution.................................................   121
Fiscal Year:
    2004 Financial Outlook.......................................   125
    2005 Budget Request..........................................   125
Funding Citizen Priorities.......................................   113
Highlights of the Fiscal Year 2005 Budget........................   120
Opportunity for All..............................................   114
Overarching Financial Goal.......................................   124
Overcoming Fiscal Challenges.....................................   112
Priority Federal Funding for Critical Projects...................   115
Public Safety....................................................   114
The:
    Basis for Federal Action to Address the Imbalance............   128
    Budget Process...............................................   119
    Fiscal Forecast..............................................   126

             Court Services and Offender Supervision Agency

Additional Committee Questions...................................    60
Community:
    Court........................................................    77
    Supervision Program..........................................    60
Criminal Justice Coordinating Council............................    82
Demonstration of GPS Monitoring..................................    47
Drug Treatment...................................................    78
Financial Management.............................................    73
Information Systems..............................................    71
Pretrial:
    Caseloads....................................................    59
    Services Agency..............................................    76
Re-arrest Rate and Parole Revocation.............................    82
Re-entry:
    And Sanction Center..........................................73, 79
    Strategy.....................................................    64
Special Supervision..............................................    69
Status of Re-entry and Sanctions Center..........................    58
Success Rate of Women Offenders Re-entering the Community........    81
Supervision:
    And Treatment................................................    80
    Strategies...................................................    62

                                 Courts

Capital Funding in Fiscal Year 2005..............................    15
Complete Budget Request Summary..................................    17
Court Construction Schedule......................................    20
Critical Fiscal Year 2005 Priority--Infrastructure...............    11
Entrance to the Old Courthouse...................................    35
Family Court in the Master Plan..................................    14
Historic Judiciary Square........................................    12
Judiciary Square Master Plan.....................................    13
Location of the Memorial and Museum..............................    31
Master Plan for Facilities.......................................    13
Site Plans.......................................................    34
Status of Key Capital Projects...................................    16
Submission to NCPC and CFA.......................................    37
The Courts' Strategic Plan.......................................    14

                        Public Defender Service

Additional Committee Questions...................................    99
Background.......................................................    87
Creation of a Mental Health Treatment Program....................   102
DNA Sample Collection Response Initiative........................   100
Fiscal Year:
    2004 Accomplishments.........................................    89
    2005 Request.................................................    88
General Program Accomplishments..................................    89
Important Issues Facing the District of Columbia.................    95
In Re Jerry M. Litigation........................................    96
Other Program Accomplishments....................................    91
PDS Director Sullivan's Departure................................    95
PDS's Fiscal Year:
    2004 Accomplishments.........................................    86
    2005 Budget Request..........................................    85
Re-arrest Rate and Parole Revocation.............................    99
Representation of Juveniles with Special Education Needs.........   101
Washington Post Article..........................................    98


</pre></body></html>
